<html>
<title> - WORLD-WIDE THREATS: KEEPING AMERICA SECURE IN THE NEW AGE OF TERROR</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


  WORLD-WIDE THREATS: KEEPING AMERICA SECURE IN THE NEW AGE OF TERROR

=======================================================================

                                HEARING

                               BEFORE THE
                               
                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 30, 2017

                               __________

                           Serial No. 115-41

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMT] 

                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________

                  U.S. GOVERNMENT PUBLISHING OFFICE                    
29-474 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5e392e311e3d2b2d2a363b322e703d313370">[email&#160;protected]</a> 




                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
                   Brendan P. Shields, Staff Director
                   Steven S. Giaier, General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     8

                               WITNESSES
                                Panel I

Honorable Elaine C. Duke, Acting Secretary, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16
Mr. Christopher A. Wray, Director, Federal Bureau of 
  Investigation, U.S. Department of Justice:
  Oral Statement.................................................    25
  Prepared Statement.............................................    26
Mr. Nicholas J. Rasmussen, Director, The National 
  Counterterrorism Center, Office of the Director of National 
  Intelligence:
  Oral Statement.................................................    31
  Prepared Statement.............................................    33

                                Panel II

Mr. David B. Rausch, Chief of Police, City of Knoxville, 
  Tennessee:
  Oral Statement.................................................   112
  Prepared Statement.............................................   114
Rabbi Abraham Cooper, Associate Dean, Director, Global Social 
  Action Agenda, Simon Wiesenthal Center:
  Oral Statement.................................................   118
  Prepared Statement.............................................   121
Mr. J. Richard Cohen, President, Southern Poverty Law Center:
  Oral Statement.................................................   124
  Prepared Statement.............................................   125

                             FOR THE RECORD

The Honorable J. Luis Correa, a Representative in Congress From 
  the State of California:
  Statement of Dr. Erroll G. Southers, Professor of the Practice 
    of Governance, Director, Safe Communities Institute, 
    Director, Homegrown Violent Extremism Studies, Sol Price 
    School of Public Policy, University of Southern California...    52
The Honorable Clay Higgins, a Representative in Congress From the 
  State of Louisiana:
  Speech by the Ambassador of the State of Israel to the Center 
    for Security Policy's Freedom Flame Award Dinner.............    57
  Article, ``Mainstream Conservative Groups Alarmed to be Found 
    on `Hate Map' '', Washington Times...........................    61
  Article, ``Wealthy Southern Poverty Law rakes in Hollywood, 
    Silicon Valley cash after Charlottesville'', Washington Times    63
The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey:
  Statement of the Feminist Majority Foundation..................    64
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island:
  Statement of The National Consortium for the Study of Terrorism 
    and Responses to Terrorism...................................    69
The Honorable Nanette Diaz Barragan, a Representative in Congress 
  From the State of California:
  Article, ``Border Patrol Says Texas Checkpoints To Remain Open 
    During Hurricane Harvey'', Texas Tribune.....................    89
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey:
  Statement of the Anti-Defamation League........................    92
The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona:
  Letter.........................................................   108
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Statement of the Council on American-Islamic Relations (CAIR)..   152

                                APPENDIX

Questions From Chairman Michael T. McCaul for Elaine C. Duke.....   157
Questions From Honorable Scott Perry for Elaine C. Duke..........   161
Questions From Ranking Member Bennie G. Thompson for Elaine C. 
  Duke...........................................................   164
Questions From Honorable Val Demings for Elaine C. Duke..........   169
Questions From Honorable Scott Perry for Christopher A. Wray.....   169
Questions From Ranking Member Bennie G. Thompson for Christopher 
  A. Wray........................................................   173
Questions From Honorable Val Butler Demings for Christopher A. 
  Wray...........................................................   174
Questions From Honorable Scott Perry for Nicholas J. Rasmussen...   174
Questions From Ranking Member Bennie G. Thompson for Nicholas J. 
  Rasmussen......................................................   175
Questions From Honorable Val Butler Demings for Nicholas J. 
  Rasmussen......................................................   176
Questions From Honorable Scott Perry for Richard Cohen...........   177
Questions From Honorable Clay Higgins for Richard Cohen..........   182

 
  WORLD-WIDE THREATS: KEEPING AMERICA SECURE IN THE NEW AGE OF TERROR

                              ----------                              


                      Thursday, November 30, 2017

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Michael T. McCaul 
(Chairman of the committee) presiding.
    Present: Representatives McCaul, Rogers, Barletta, Perry, 
Hurd, McSally, Ratcliffe, Donovan, Higgins, Rutherford, 
Garrett, Fitzpatrick, Estes, Bacon, Thompson, Jackson Lee, 
Langevin, Richmond, Keating, Vela, Coleman, Rice, Correa, 
Demings, and Barragan.
    Chairman McCaul. The Committee on Homeland Security will 
come to order.
    The committee's meeting today to examine the most serious 
threats confronting our homeland. Before I recognize myself for 
an opening statement, I would like to take a moment to welcome 
the newest member of our committee, Don Bacon. Don has served 
nearly 30 years in the Air Force, and his experience in 
cybersecurity and airborne reconnaissance will prove greatly 
beneficial to this committee.
    Thank you, sir, for being here.
    Mr. Bacon. Thank you, Chairman.
    Chairman McCaul. I now recognize myself for an opening 
statement.
    I would like to thank each of the witnesses: Acting 
Secretary Elaine Duke, FBI Director Christopher Wray, NCTC 
Director Nick Rasmussen for joining us today. You represent 
thousands of patriotic men and women who go to work every day 
to ensure the safety of their fellow Americans. Everyone on 
this committee is extremely grateful for your service.
    Director Rasmussen, for over two decades you have helped 
navigate an unprecedented landscape in combat terrorism around 
the globe. You have been a great partner to me and to this 
committee, and I would like to call you a friend. We all wish 
you the best of luck in--I hate to say retirement because that 
is--in whatever you do after this.
    Mr. Rasmussen. OK.
    Chairman McCaul. This past year has been a particularly 
devastating one. In just the last month, we witnessed another 
terror attack in downtown New York, and over the summer, parts 
of America, including my home State of Texas, were greatly 
impacted by hurricanes and other natural disasters. We also saw 
several heinous acts of violence that included the mass 
shootings in Las Vegas, Sutherland Springs, and the hate-fueled 
homicides in Portland and Charlottesville. Tens of millions of 
Americans also felt the effects of cyber attacks from hackers 
and other cyber criminals. These are just a few of the horrors 
that hit our homeland.
    On Islamist terrorism, over the Thanksgiving break, an 
ISIS-affiliated group attacked a mosque in northern Sinai that 
left 300 people, including 27 children, dead. While this attack 
was thousands of miles away, it was a reminder of the savage 
nature of an enemy that always has our homeland in its sights. 
In the aftermath to 9/11, the Department of Homeland Security 
was created to prevent further attacks, and I believe we are 
better prepared than we were 16 years ago.
    However, in that time, al-Qaeda has expanded its global 
presence, and ISIS has conquered parts of countries, 
slaughtered innocent civilians, and inspired new followers. By 
using encrypted technology and by spreading incessant 
propaganda across the internet, jihadists are recruiting new 
members and planning new attacks. This has been obvious by a 
series of vehicle homicides across Europe. Cities known for 
their history and culture, like Paris, Berlin, London, Nice, 
Barcelona, and Brussels, are becoming more familiar as terror 
targets. The attack on Halloween in New York was proof that our 
homeland is also susceptible to this line of attack.
    Terrorists are answering Sheikh Adnani's call to kill 
Westerners using whatever means necessary wherever they are. 
While our enemies are always adjusting their tactics, we know 
that our aviation sector is still their crown jewel of targets.
    Earlier this month, our committee was briefed about aspects 
of airport security. To our dismay, it was made clear that we 
have a long ways to go. We must do more to address a threat 
also posed by foreign fighters who have fled the battlefield 
and remain one flight away. Consequently, we have identified 
key areas that need improvements, and look forward to working 
with the TSA to see them through.
    To help defeat terrorists, we must work with private tech 
companies to limit their communication capabilities and use all 
of our economic and military resources to dry up their funding 
and crush them on the battlefield.
    When it comes to border security, another on-going 
challenge is keeping our borders secure. Human traffickers, 
gangs like MS-13, drug smugglers, and potential terrorists are 
continually looking for new ways to sneak into our country. We 
must do whatever we can to stop this illegal entry, especially 
those who wish to do us harm.
    In October, this committee took a big step in the right 
direction by passing the Border Security for America Act. This 
legislation, which I introduced, calls for building additional 
physical barriers, including a wall, fencing, new technology, 
and a surge in personnel. It targets drug and human traffickers 
at our ports of entry and will help identify visa overstays 
through the full deployment of a biometric entry-exit system, 
which the 9/11 Commission recommended. Our homeland cannot be 
secure without strong borders. I look forward to getting this 
bill to the floor.
    Natural disasters. This year's hurricane season devastated 
many cities and towns in my home State of Texas, in Louisiana, 
Florida, Puerto Rico, and the U.S. Virgin Islands. After 
Hurricane Harvey, I personally toured much of the wreckage back 
home. Roads were flooded, homes destroyed, and many people lost 
their lives. However, I was amazed by the strength demonstrated 
by people who braved dangerous conditions to support one 
another. Texans helping Texans. I was also impressed by the 
quick action taken by our heroic first responders and by the 
emergency response at the Federal, State, and local levels, 
thanks to a coordinated effort led by FEMA. A broader recovery 
will take a long time. But I know that if we continue to work 
together, we will be able to successfully rebuild these 
communities that were shattered by these powerful storms.
    On the issue of cybersecurity, America's cybersecurity 
networks are under attack. In September, we learned that 
Equifax had been successfully hacked, and 145.5 million people 
may have been affected by the breach. Last week, it was also 
reported that 57 million people use Uber, that they may have 
had their personal information stolen from a cyber attack in 
2016. This cannot continue. Fortunately, our committee has made 
strengthening DHS cybersecurity a top priority.
    In 2014, bipartisan committee efforts resulted in the 
enactment of legislation that provided DHS expedited hiring 
authorities, ensure DHS is assessing its cybersecurity work 
force, and clarified the Department's role in cybersecurity of 
Federal networks. In 2015, the Cybersecurity Act provided 
liability protections for public-to-private and private-to-
private cyber threat information sharing. We have had some 
success, but we need to do better. That is why this committee 
passed a bill to elevate the operational capabilities of DHS's 
cyber office to better protect digital America.
    Finally, on the issue of domestic terror attacks. Domestic 
terror attacks and violence ignited by White supremacists, the 
KKK, or anyone else who preaches prejudice must not be 
tolerated. As I have stated before, threatening the safety of 
others and using intimidation tactics to advance political or 
religious beliefs is simply unacceptable in the United States. 
Too often we are seeing that our differences lead to violence, 
and this must be stopped.
    As a Nation, we should stand together and reject any type 
of hatred that seeks to divide our neighbors as enemies. This 
is an issue we will explore further in our second panel.
    In conclusion, Homeland Security must be bipartisan. The 
terrorists don't check our party affiliation. There are 
certainly other threats, from ballistic missiles, weapons of 
mass destruction programs in North Korea and Iran, to the 
continued undermining of American interests by nation-states, 
including Russia. As we face these threats, we must put our 
homeland security before partisanship and politics. I am proud 
to say that this committee has had a long track record of doing 
just that.
    We have improved information sharing for counterterrorism 
efforts, increased support for first responders, and in July, 
passed the first-ever comprehensive reauthorization of DHS with 
an overwhelming bipartisan support. This reauthorization will 
allow DHS to more faithfully carry out its mission of 
safeguarding our homeland, our people, and our values. I am 
hopeful that the Senate will finally take up this vital bill as 
soon as possible.
    So with that, I want to thank again these very prominent 
and important witnesses for appearing here before this 
committee.
    With that, I recognize the Ranking Member.
    [The prepared statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                           November 30, 2017
    I would like to thank each of the witnesses, Acting Secretary 
Elaine Duke, FBI Director Christopher Wray, and NCTC Director Nick 
Rasmussen for joining us today. You represent thousands of patriotic 
men and women who go to work every day to ensure the safety of their 
fellow Americans.
    Everyone on this committee is extremely grateful for your service.
    Director Rasmussen--for over 2 decades you have helped navigate an 
unprecedented threat landscape and combat terrorism around the globe. 
You have been a great partner to this committee and we all wish you the 
best of luck in retirement.
    This past year has been a particularly devastating one. In just the 
last month we witnessed another terror attack in downtown New York and 
over the summer, parts of America, including my home State of Texas, 
were greatly impacted by hurricanes and other natural disasters.
    We also saw several heinous acts of violence that included the mass 
shootings in Las Vegas and Sutherland Springs, and the hate-fueled 
homicides in Portland and Charlottesville.
    Tens of millions of Americans also felt the effects of cyber 
attacks from hackers and other cyber criminals. These are just a few of 
the horrors that hit our homeland.
                           islamist terrorism
    Over the Thanksgiving break, an ISIS-affiliated group attacked a 
mosque in the northern Sinai that left 305 people, including 27 
children, dead. While this attack was thousands of miles away, it was a 
reminder of the savage nature of an enemy that always has our homeland 
in its sights.
    In the aftermath of 9/11, the Department of Homeland Security was 
created to prevent further attacks and I believe we are better prepared 
than we were 16 years ago. However, in that time al-Qaeda has expanded 
its global presence and ISIS has conquered parts of countries, 
slaughtered innocent civilians, and inspired new followers.
    By using encrypted technology and by spreading incessant propaganda 
across the internet, jihadists are recruiting new members, and planning 
new attacks. This has been obvious by a series of vehicular homicides 
across Europe. Cities known for their history and culture: Paris, 
Berlin, London, Nice, Barcelona, and Brussels, are becoming more 
familiar as terror targets.
    The attack on Halloween in New York City was proof that our 
homeland is also susceptible to this new line of attack. Terrorists are 
answering Sheik Adnani's call to kill Westerners using whatever means 
necessary wherever they are. And while our enemies are always adjusting 
their tactics, we know that our aviation sector is still their crown 
jewel of targets.
    Earlier this month, our committee was briefed about aspects of 
airport security. To our dismay, it was made clear that we have a long 
way to go.
    We must do more to address the threat posed by foreign fighters who 
have fled the battlefield and remain one flight away.
    Consequently, we have identified key areas that need improvements 
and look forward to working with TSA to see them through.
    To help defeat terrorists, we must work with private tech companies 
to limit their communication capabilities, and use all of our economic 
and military resources to dry up their funding and crush them on the 
battlefield.
                            border security
    Another on-going challenge is keeping our borders secure. Human 
traffickers, gangs like MS-13, drug smugglers, and potential terrorists 
are continually looking for new ways to sneak into our country.
    We must do whatever we can to stop this illegal entry, especially 
of those who wish to do us harm.
    In October, this committee took a big step in the right direction 
by passing the Border Security for America Act.
    This legislation, which I introduced, calls for building additional 
physical barriers, which include a wall, fencing, new technology, and a 
surge in personnel.
    It targets drug and human traffickers at our ports of entry and 
will help identify visa overstays through the full deployment of a 
Biometric Entry-Exit System. Our homeland cannot be secure without 
strong borders and I look forward to getting this bill to the floor.
                           natural disasters
    This year's hurricane season devastated many cities and towns in 
Texas, Louisiana, Florida, Puerto Rico, and the U.S. Virgin Islands.
    After Hurricane Harvey, I personally toured much of the wreckage 
back home. Roads were flooded, homes were destroyed, and many people 
lost their lives.
    However, I was amazed by the strength demonstrated by people who 
braved dangerous conditions to support one another; Texans helping 
Texans.
    I was also impressed by the quick action taken by our heroic first 
responders and by the emergency response at the Federal, State, and 
local levels, thanks to a coordinated effort led by FEMA.
    A broader recovery will take a long time. But I know that if we 
continue to work together, we'll be able to successfully rebuild the 
communities that were shattered by these powerful storms.
                             cybersecurity
    America's cybersecurity networks are also under constant attack.
    In September, we learned that Equifax had been successfully hacked 
and 145.5 million people may have been affected by the breach. Last 
week it was reported that 57 million people who use Uber, might have 
had their personal information stolen from a cyber attack in 2016. This 
cannot continue.
    Fortunately, our committee has made strengthening DHS's 
cybersecurity mission a top priority. In 2014, bipartisan committee 
efforts resulted in enactment of legislation that provided DHS 
expedited hiring authority; ensured DHS is assessing its cybersecurity 
workforce; and clarified the Department's role in the cybersecurity of 
Federal networks.
    In 2015, the Cybersecurity Act provided liability protections for 
public-to-private and private-to-private cyber threat information 
sharing. We have had some success, but we need to do more. And that is 
why this committee passed a bill to elevate and operationalize DHS's 
cyber office to better protect digital America.
                        domestic terror attacks
    Finally, domestic terror attacks and violence ignited by white 
supremacists, the KKK, or anyone else who preaches prejudice, must not 
be tolerated. As I have stated before, threatening the safety of others 
and using intimidation tactics to advance political or religious 
beliefs is simply unacceptable.
    Too often, we are seeing that our differences lead to violence and 
this must be stopped.
    As a Nation, we should stand together and reject any type of hatred 
that seeks to divide our neighbors as enemies. This is an issue we will 
explore further in our second panel.
            conclusion/homeland security must be bipartisan
    There are certainly other threats--from ballistic missiles and WMD 
programs in North Korea and Iran, to the continued undermining of 
American interests by nation-states including Russia. As we face these 
threats we must put our homeland security before partisanship and 
politics.
    I am proud to say that this committee has a long track record of 
doing just that.
    We have improved information sharing for counterterrorism efforts 
and increased support for first responders. In July, the House passed 
the first-ever, comprehensive reauthorization of DHS with an 
overwhelming bipartisan vote.
    This reauthorization will allow DHS to more faithfully carry out 
its mission of safeguarding our homeland, our people, and our values, 
and I am hopeful the Senate will take up this vital bill as soon as 
possible.
    Once again, I'd like to thank today's witnesses for joining us and 
for their continued cooperation with our committee.
    I look forward to discussing how we can best tackle these world-
wide threats so we can best secure our Nation.

    Mr. Thompson. Thank you, Mr. Chairman. Thank you for 
holding this hearing on keeping America secure from terrorism. 
Hang on just a minute.
    I would also like to thank both panels of witnesses for 
today.
    In the wake of the disturbing rise of domestic terrorism in 
recent years, Democratic Members of this committee have 
repeatedly asked for a hearing on this important topic. While 
this hearing is our annual one examining world-wide threats, a 
great deal of our conversation will likely be focused on a 
terror threat from right here at home. Incidents like the 2015 
killing of 9 churchgoers by a white supremacist at Mother 
Emanuel Church in Charleston and the hate-fueled violence that 
left a young woman dead and 19 others injured during a white 
supremacist rally in Charlottesville earlier this year, 
highlight the threat posed by domestic extremists.
    Domestic terrorist organizations have even adopted some of 
the same techniques for recruitment and radicalization as 
foreign terrorist organizations, using the internet to reach 
followers and coordinate their actions.
    [Video shown.]
    Mr. Thompson. Unfortunately, President Trump insists on 
fueling the fire of hatred and extremism in America calling 
marchers in Charlottesville very fine people. Just yesterday, 
retweeting inflammatory anti-Muslim videos posted by a far-
right British organization. James Clapper, the former director 
of national intelligence, called Trump's retweeting of the 
videos bizarre and disturbing, and said his action undermines 
our relationship with our friends and allies.
    Americans should be able to look to our President for a 
steady hand and responsible leadership in uncertain times. But 
unfortunately, President Trump consistently conducts himself in 
a way that jeopardizes our security and is not befitting the 
office he holds.
    Also, though they cannot say so themselves, the President's 
actions make the already difficult jobs of the witnesses 
joining us on the first panel today even harder. The Department 
of Homeland Security, Federal Bureau of Investigation, and 
National Counterterrorism Center play key roles in securing the 
homeland from terrorists, both foreign and domestic. I hope to 
hear from these witnesses today about the challenges they face, 
what emerging threats we should be aware of, and how Congress 
can support them in their mission, consistent with our American 
laws and values.
    Since much of our focus is typically on foreign terrorists, 
today, I am especially interested in hearing how the witnesses 
assess the threat from domestic extremists and terrorist 
groups, and learning what can be done to protect us from this 
rising concern.
    I also look forward to hearing from our second panel of 
witnesses on this topic later this morning. They bring special 
expertise on domestic extremism and terrorism issues, and I 
hope Members will hear what they have to say and engage in a 
thoughtful dialog.
    The Southern Poverty Law Center, in particular, is 
dedicated to fighting hate and seeking justice and equality for 
all Americans. I look forward to their recommendations for 
countering the ideologies that are inspiring violence in 
America.
    I had hoped to have the NAACP testify as well, but the 
invitation was issued less than 24 hours prior to the hearing, 
and the late notice prevents their participation today. I look 
forward to inviting them to testify at a future hearing.
    In closing, I want to say that we know there are those 
around the world who seek to come here and do Americans harm. 
Those charged with preventing such attacks have the unwavering 
support of all the Members of this committee, consistent with 
the laws and values of our Nation. I hope that some attention 
and resources will be dedicated to fighting domestic extremism 
and terrorism here at home to ensure the security of all 
Americans.
    Again, I thank the Chairman for holding today's hearing, 
and look forward to a productive discussion. I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           November 30, 2017
    In the wake of the disturbing rise in domestic terrorism in recent 
years, Democratic Members of this committee have repeatedly asked for a 
hearing on this important topic. While this hearing is our annual one 
examining world-wide threats, a great deal of our conversation will 
likely be focused on the terror threat from right here at home.
    Incidents like the 2015 killing of 9 churchgoers by a white 
supremacist at Mother Emmanuel Church in Charleston and the hate-fueled 
violence that left a young woman dead and 19 others injured during a 
white supremacist rally in Charlottesville earlier this year highlight 
the threat posed by domestic extremists.
    Domestic terrorist organizations have even adopted some of the same 
techniques for recruitment and radicalization as foreign terrorist 
organizations, using the internet to reach followers and coordinate 
their actions.
    Unfortunately, President Trump insists on fueling the fire of 
hatred and extremism in America, calling the marchers in 
Charlottesville ``very fine people'' and just yesterday retweeting 
inflammatory anti-Muslim videos posted by a far-right British 
organization. James Clapper, the former director of national 
intelligence, called Trump's re-tweeting of the videos ``bizarre and 
disturbing'' and said his action undermines our relationship with our 
``friends and allies.''
    Americans should be able to look to our President for a steady hand 
and responsible leadership in uncertain times, but unfortunately 
President Trump consistently conducts himself in a way that jeopardizes 
our security and is not befitting of the office he holds.
    Also, though they cannot say so themselves, the President's actions 
make the already difficult jobs of the witnesses joining us on the 
first panel today even harder. The Department of Homeland Security, 
Federal Bureau of Investigation, and National Counterterrorism Center 
play key roles in securing the homeland from terrorists both foreign 
and domestic.
    I hope to hear from these witnesses today about the challenges they 
face, what emerging threats we should be aware of, and how Congress can 
support them in their mission, consistent with our American laws and 
values.
    Since much of our focus is typically on foreign terrorists, today I 
am especially interested in hearing how the witnesses assess the threat 
from domestic extremist and terrorist groups and learning what can be 
done to protect us from this rising concern.
    I also look forward to hearing from our second panel of witnesses 
on this topic later this morning. They bring special expertise on 
domestic extremism and terrorism issues and I hope Members will hear 
what they have to say and engage in a thoughtful dialog.
    The Southern Poverty Law Center in particular is dedicated to 
fighting hate and seeking justice and equality for all Americans, and I 
look forward to their recommendations for countering the ideologies 
that are inspiring violence in America. I had hoped to have NAACP 
testify as well, but their invitation was issued less than 24 hours 
prior to the hearing and the late notice prevents their participation 
today. I look forward to inviting them to testify at a future hearing.
    In closing, I want to say that we know there are those around the 
world who seek to come here and do Americans harm. Those charged with 
preventing such attacks have the unwavering support of all the Members 
of this committee, consistent with the laws and values of our Nation.
    I hope that the same attention and resources will be dedicated to 
fighting domestic extremism and terrorism here at home to ensure the 
security of all Americans.

    Chairman McCaul. The Ranking Member yields back.
    Other Members are reminded opening statements may be 
submitted for the record.
    [The statement of Honorable Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
    Thank you Chairman McCaul and Ranking Member Thompson for convening 
this hearing and affording us, the Homeland Security Committee, the 
opportunity to hear testimony on ``World-wide Threats: Keeping America 
Secure in the New Age of Terror.''
    Terrorism threats that local, State, and Federal law enforcement 
must be prepared to meet is significantly different than what was seen 
on September 11, 2001.
    I was here on the day of the attacks and I will never forget the 
Members who were there with me as we sang God Bless America on the 
steps of the Capitol.
    The days and weeks following the attacks we were uncertain what 
threat might come and how many lives might be lost as we worked to put 
resources in place to deal with an enemy that might be among us.
    Over the past 16 years we have learned a great deal.
    Those who wish to do us harm can come from any race, religion, 
ethnicity, or political persuasion.
    We are better prepared to face these challenges as one Nation 
united against a common foe.
    My primary domestic security concerns are how to maintain a united-
United States by:
  <bullet> preventing foreign fighters and foreign-trained fighters 
        from entering the United States undetected;
  <bullet> countering international and home-grown violent extremism;
  <bullet> preserving Constitutional rights and due process for all 
        persons;
  <bullet> addressing the uncontrolled proliferation of long-guns that 
        are designed for battlefields and not hunting ranges;
  <bullet> controlling access to firearms for those who are deemed to 
        be too dangerous to fly;
  <bullet> protecting critical infrastructure from physical and cyber 
        attack;
  <bullet> creating equity and fairness in our Nation's immigration 
        policies; and
  <bullet> strengthening the capacity of the Department of Homeland 
        Security and the Department of Justice to meet the challenges 
        posed by weapons of mass destruction.
    I join my colleagues in welcoming the witnesses for both panels:
    The first panel witnesses are:
  <bullet> The Honorable Elaine C. Duke, acting secretary, DHS;
  <bullet> Christopher Wray, director of the FBI; and
  <bullet> Nicholas J. Rasmussen, director of the National 
        Counterterrorism Center will be testifying at the hearing.
    The second panel witnesses are:
  <bullet> Mr. J. Richard Cohen, president, Southern Poverty Law 
        Center;
  <bullet> Mr. David B. Rausch, chief of police, city of Knoxville, 
        Tennessee testifying on behalf of the International Association 
        of Chiefs of Police; and
  <bullet> Rabbi Abraham Cooper, associate dean, director, Global 
        Social Action Agenda, Simon Wiesenthal Center.
    I regret that Mr. Derrick Johnson, president and chief executive 
officer, NAACP, was issued an invitation with less than 24 hours before 
today's hearing.
    Mr. Chairman and Ranking Member I ask that another timely 
invitation to testify be issued to Mr. Derrick Johnson for an 
opportunity to give testimony to the full committee.
    I have served on the Committee on Homeland Security from its 
inception.
    The threats poised to our country by terrorists who seek to do us 
harm is real and needs adequate funding, the support of Congress and 
the professionals that comprise the ranks of the Department of Homeland 
Security, the Department of Justice, the State Department, and the 
Department of Defense to keep our Nation safe.
    I am humbled and inspired by what the men and women of these 
agencies do each day to keep our Nation secure.
    Their efforts have not gone unnoticed and their success is evident 
in that this Nation has not experienced an attack on the scale that was 
carried out on September 11, 2001.
       hurricane harvey recovery needs aggressive action by fema
    Acting Secretary Duke, I thank you and the men and women of the 
Department of Homeland Security for your work to aid areas impacted by 
this year's devastating Hurricane Season to recover.
    The President promised the people of Texas that he would provide 
what was needed to recover; now we need him to keep that promise.
    Residents of the State of Texas who are facing the long road to 
recovery need $55 billion for home flood mitigation, repair, 
replacement, and home buyouts.
    There are other States with pressing needs related to disaster 
recovery.
    The funding being considered is inadequate and unrealistic for the 
scope of the damage caused by the multiple disasters that befell the 
United States earlier this year.
    The President needs to understand that the Texas and Florida 
Delegations are in full agreement regarding the need to meet the 
disaster recovery needs of the States and territories.
    There are particular concerns for our seniors who survived the 
terrible storms that ravaged the Texas Coast, Florida, U.S. Virgin 
Islands, and Puerto Rico because so many of them are alone, while 
trying to the do difficult and hard job of cleaning out their homes, or 
removing debris from their yards.
    The work is not done in my State of Texas.
    Thousands of families have no home because of the storm, and many 
more thousands are living in gutted out shells of structures they once 
called home and too many others are sleeping in cars.
    Houston's response to the immediate disaster was impressive and 
all-encompassing for the size and complexity of the disaster caused by 
unprecedented flooding due to Hurricane Harvey.
    The efforts of Mayor Turner and the work of the public works 
department, police, and first responders, as well as Federal and State 
agencies that were joined by citizen volunteers to help save thousands 
of lives.
    This success gave the impression that everything is working in 
Houston following Hurricane Harvey when the reality could not be 
farther from the truth.
    Over a thousand square miles of Texas Coast was impacted by the 
greatest flood to impact the mainland of the United States in the 
history of the Nation.
    We have communities that are struggling to find the new normal that 
FEMA officials warned Texans would need to accept following the 
historic flood.
    There are particular concerns for our seniors who survived the 
terrible storms that ravaged the Texas Coast, Florida, U.S. Virgin 
Islands, and Puerto Rico because so many of them are alone, while 
trying to the do difficult and hard job of cleaning out their homes, or 
removing debris from their yards.
    The work is not done in my State of Texas there are thousands of 
families who have no home to return to following the historic flood.
    We have communities that are struggling to find the new normal that 
FEMA officials warned Texans would need to accept following the 
historic flood.
    The effort is being made difficult by a lack of appreciation by the 
administration of the true cost of recovery for Texas, Florida, the 
U.S. Virgin Islands and Puerto Rico.
    We must have full funding for the hard-hit areas of the United 
States so that recovery is not piece-meal.
    The people in my State also need a fair, compassionate, and 
equitable process for requesting and receiving aid.
    FEMA has proven that it is excellent at disaster response, but is 
showing that they are not very good at recovery management for 
individuals and families.
    Fundamentally, recovery for people and families in an impact area 
that is as large are the Hurricane Harvey disaster requires an approach 
that partners with non-profit and civic organizations.
    Houston has a well-established community of aid agencies who could 
aid residence with Harvey damage in successfully navigating the FEMA 
registration.
    Today, thousands of Houstonians and residents throughout the Harvey 
impact zone are being denied assistance because the FEMA process is not 
working.
    Each family in the impact zone should have a non-profit agency 
caseworker who provides support, assesses the health, security, and 
safety of living arrangements as it relates to storm damage then makes 
sure they register for the types of assistance that is appropriate for 
their needs.
    FEMA application process did not account for multiple heads of 
household who lived at one address; nor do the literacy and access to 
transportation that would be needed to reach Recovery Assistance 
Centers.
    A denial from most of my constituents means they give up, when what 
may be needed is a proof of residence or a document about losses 
incurred.
    This is why Community Block Grant dollars are needed to address the 
loss of housing that FEMA is missing due to the flaws in the 
application and approval of assistance process.
    The administration risks a shut-down over not adequately meeting 
the needs of hurricane-impacted areas.
              future strategies in combating isis/al-qaeda
    The noticeable decline in messages attributed to ISIS and al-Qaeda 
is evidence that they are diminishing in strength on the battle's front 
lines.
    We must be prepared to greet these groups or their re-incarnations 
aggressively as they seek refuge in remote areas around the globe and 
disrupt their attempts to plot violent attacks against our Nation.
    As we see a reduction in large-scale terrorist activity and the 
emergency of lone wolves the mission and the work to successfully fight 
terrorism is going to change.
    Over the last year we have become aware of Russia interference in 
our National elections and witnessed an increasing threat of a nuclear 
ICBM-capable North Korea.
    We must resist the temptation to look for threats where none 
exists; there will be ample work to be done as real security threats 
emerge.
    My concern in this regard are how the tools provided to identify 
and combat terrorism threats might be used to unjustly target.
    It has been brought to my attention that there are cases of airport 
workers who as a condition of employment must have access to the 
sterile areas of airports.
    In one case, brought to my attention by a constituent of the 18th 
Congressional District, who had her security clearances from 2008 
through 2010 and again in 2013 until this year when it came up for 
renewal.
    The renewal was denied by Custom and Border Protection (CPB) 
without an explanation or due process consideration that would allow 
her an opportunity to reply to a specific issue or accusation that may 
have been the reason for the denial.
    My office was informed that the denial is based upon information 
provided by a third-party agency report to CPB regarding my 
constituent.
    It is my concern that we get security protocols right especially in 
cases where the target of an accusation who has a benefit or right that 
is controlled by a Federal agency that is prohibited from providing any 
details regarding the charge or claim made.
    She has gone to the extraordinary effort of getting an FBI 
background check done to see if there was anything that would cause her 
clearance to be denied and it came back without anything to report.
    She stated in her letter seeking my assistance that her attempts to 
get information from CPB resulted, in her words of ``feelings of being 
discriminated against because she was African American and Muslim 
although she is a citizen of the United States.''
    Her overriding concern is the damage being done to her reputation 
for something she is not able to get any information about which 
prevents her from responding.
    The initial days following September 11, 2001 we may have 
considered that to allow agencies in the intelligence and law 
enforcement to share data there needed to be a shield regarding the 
source of information.
    The need for a shield between intelligence and law enforcement 
agencies may still be necessary, but if that is the case an impartial 
third party should review these cases.
    It is important to note that in the case of my constituent she 
continues to go to the airport to work.
    Today, if a person is accused of something that cost a security 
clearance, but never charged with a crime, can be denied employment 
based upon an accusation, which is why there is a need to have greater 
scrutiny to ensure that what is reported has occurred.
    African Americans, Hispanics, Native Americans, Muslims, Asians, 
Jews, and immigrants are living in an America where intolerance and 
bias are not only becoming more blatant, but in some cases echoed by 
the President of the United States.
    I ask that the leadership of each component and office for the 
Department of Homeland Security and Department of Justice be reminded 
that our enemies are not of a particular race, religion, ethnicity, or 
political persuasion.
    We must each be more willing to question, doubt, and challenge 
actions and accusations that puts those who are targets of white 
supremacists at risk.
    Not having to worry about anyone ever challenging the story told or 
revealing the identity of the teller may be shielding a sexual predator 
who was rejected or a bigot who wants to inflict harm on a person 
because of their differences.
    I want to give you a letter and the casework file including a 
privacy act release to you Acting Secretary Elaine Duke and request 
your personal attention to resolving this matter in an equitable 
manner.
                        black identity extremism
    The notion of creating a new phrase without consideration for the 
history of the struggles of people in this Nation who only ask to be 
treated as human beings is incredible.
    The lack of appreciate for what the issues are from the perspective 
of sociologists and criminologists is hard to reconcile.
    The FBI has a diversity problem that it has done all of the right 
things to address--recruiting at Historical Black Colleges and 
Universities.
    There is diversity in the recruitment work done to collect 
applications, but the hiring for the FBI continues a balance of about 
88% white males, 7% Hispanic and 5% African America and 3% other.
    This is why the BIE report was possible, when it should have been a 
non-starter.
    I can tell you that the temperature for racial tolerance in the 
environment is very inhospitable.
    It is easy for a document that has the emblem of the FBI affixed to 
it to have serious and dire consequences for the safety of African 
Americans.
             history of surveillance & the black community
    This administration continues the same vile tactics used in well-
documented stories of civil rights leaders who were profiled, targeted, 
and killed for insisting that black people receive equitable treatment 
under the law in a country whose Constitution guarantees it.
    Under FBI Director Edgar Hoover's leadership, the Counter 
Intelligence Program (COINTELPRO), a covert, often illegal, campaign 
was mounted to break up the civil rights movement and ``neutralize'' 
activists they perceived as threatening.
    COINTELPRO was used to surveil and discredit civil rights 
activists, members of the Black Panther Party and any major advocates 
for the rights of black people in our Nation's history.
    COINTELPRO allowed the FBI to falsify letters in an effort to 
blackmail Martin Luther King Jr. into silence.
    This was such a disgraceful period in our Nation's history that our 
recent FBI Director, James Comey, kept a copy of a 1963 order 
authorizing Hoover to conduct round-the-clock surveillance of Martin 
Luther King Jr. on his desk as a reminder of Hoover's abuses.
    The FBI's dedicated surveillance of black activists follows a long 
history of the U.S. Government aggressively monitoring protest 
movements and working to disrupt civil rights groups, but the scrutiny 
of African Americans by a domestic terrorism unit was particularly 
alarming to some free-speech campaigners.
FBI: Black Lives Matter and the Black Identity Extremists Report
    Today the FBI continues its once intrusive, abhorrent, and illegal 
targeting of black activists by labeling the Black Lives Matter 
movement as Black Identity Extremism.
    We know that the Department of Homeland Security has been 
surveilling Black Lives Matter activists since 2014, but there's no way 
to know what's next.
    With this recent report, the FBI has legitimized the idea that 
black activism is a threat and should be treated accordingly--with 
violent force.
    Despite Charlottesville and all the other harms inflicted by 
emboldened white nationalists, the FBI has instead, chosen to target a 
group of American citizens whom merely decry the injustice seen and 
felt throughout their communities.
    Despite numerous unarmed black individuals, particularly, young 
black men that are disproportionately the victims of police shootings, 
the FBI would like us to believe this is not a reality.
    Instead, the FBI's report claims there is a danger in black 
activism by asserting that violence inflicted on black people at the 
hands of police is ``perceived'' or ``alleged,'' not real.
    This month the Congressional Black Caucus has written to the FBI 
director, Christopher Wray, to express our concern over the recent 
``Intelligence Assessment'' report.
    We have requested a briefing on both the origins of its research 
and the FBI's next intended step based on its findings. No response as 
of date.
    We should be allowed to exercise our Constitutional and fundamental 
rights of free speech.
    We should not be restricted and criminalized when we demand that 
those we elect to office exercise justice and fairness.
    This FBI report will further inflame an already damaged police/
community relation under the leadership of Attorney General Jeff 
Sessions.
    Sessions has dismantled all the safeguards installed under Attorney 
General Holder's leadership, thus, returning our justice system to the 
broken system under Ashcroft.
    Sessions has unleashed a merciless approach to ``all'' crimes 
including low-level drug-related cases, and demands that his attorneys 
prosecute every case to the fullest extent of the law.
    In doing so, Sessions has taken away any prosecutorial discretion 
once available to prosecutors throughout our justice system under U.S. 
law.
    The FBI in this Trump administration has returned to the era of 
Director Edgar Hoover, in their unleashing of this damaging, 
discriminative, and unconstitutional COINTELPRO 2.0.
    With these lethal forms of attacks on the African American 
community from both the DOJ and the FBI, where is justice?
White Supremacy and Hate Groups
    The work of civil rights and equal rights is not easy--pursing non-
violence when violence is the goal of the groups most opposed to the 
existence of African Americans, Hispanics, Native Americans, Jews, and 
others.
    The Simon Wiesenthal Center is renowned for its commitment to 
harmony and peace through understanding.
    The Simon Wiesenthal Center is a global human rights organization 
researching the Holocaust and hate in a historic and contemporary 
context.
    The Center confronts anti-Semitism, hate, and terrorism, promotes 
human rights and dignity, stands with Israel, defends the safety of 
Jews world-wide, and teaches the lessons of the Holocaust for future 
generations.
    They have a constituency of over 400,000 households in the United 
States, it is accredited as an NGO at international organizations 
including the United Nations, UNESCO, OSCE, Organization of American 
States (OAS), the Latin American Parliament (PARLATINO) and the Council 
of Europe.
    The Center's educational arm, founded in 1993, challenges visitors 
to confront bigotry and racism, and to understand the Holocaust in both 
historic and contemporary contexts.
    The Museum has served over 5 million visitors with 350,000 visiting 
annually including 150,000 students.
    Over 1.5 million children and youth have participated in the Museum 
experience and its programs.
    Over 200,000 adults have been trained in the Museum's customized, 
professional development programs which include Tools for Tolerance, 
Teaching Steps to Tolerance, Task Force Against Hate, National 
Institute Against Hate Crimes, Tools for Tolerance for Teens, and 
Bridging the Gap.
                  mass shootings in the united states
    In 2015, there were 372 mass shootings and 33,636 deaths due to 
firearms in the United States while guns were used to kill about 50 
people in the United Kingdom. More people are typically killed with 
guns in the United States in a day (about 85) than in the United 
Kingdom in a year.
    We must have an accountable and responsive Government to address 
the number of and level of violence caused by mass shooters who attack 
groups or individuals with weapons of war.
    No one or any place is safe from the mass shooter, including 
Members of the United States Congress who were participating in a 
baseball practice game when a mass shooter attacked.
    Since that shooting targeting Members of Congress occurred we have 
seen hundreds of people either killed or injured by mass shooters 
incidents in Las Vegas, Nevada, and Southerland Springs, Texas.
    We must have a comprehensive approach to addressing access to 
firearms by persons who should not have them and the need for mental 
health services to address underlying causes of suicides and violent 
crime.
 russian interference/the muslim ban/daca/temporary protective status 
                               revocation
Russia
    President Trump from his first week in office communicated his 
views regarding immigration, immigrants, and Russia interference in our 
Nation's elections.
    Prior to taking the Presidential oath of office, he indicated that 
he had doubts about intelligence community reports that Russia had 
orchestrated a well-coordinated attack of our election.
    His doubts of our own intelligence on Russia's hostile actions 
embolden Russian President Putin to deny the charge, which he continued 
to do so until later Putin acknowledged that some ``patriotic'' element 
inside of Russia may have interfered with the U.S. election.
    We know that no truly patriotic Russian would dare to interfere in 
an American election without the full knowledge of Russia's ever-
present surveillance agencies.
    As a former KGB chief and spymaster, Vladimir Putin would not allow 
anything to take place of this nature without his knowledge or 
approval.
DACA and Temporary Protected Status
    Many Members of this committee have questions for the panels 
regarding other important homeland security issues, such as the rise of 
violence from white supremacist groups; mass shootings committed 
against groups and individuals, the temporary protection status of 
Haitians, Hondurans, Salvadorians, and as well as the status of 
Deferred Action for Childhood Arrivals (DACA) other immigrant 
communities who are living in fear of the next Executive Order from 
this administration.
Immigration
    On Friday, January 27, 2017, the President signed an Executive 
Order suspending all resettlement of Syrian refugees indefinitely, and 
resettlement of all other refugees for 120 days.
    The order also imposed a 90-day ban on entry of nationals from 7 
predominately Muslim countries: Iraq, Syria, Iran, Sudan, Libya, 
Somalia, and Yemen.
    This action triggered public condemnation and resistance that has 
landed the Executive Order in the Federal courts where it has 
repeatedly been ruled to be unconstitutional in both of its iterations 
(e.g., Trump Muslim Ban No. 1, Trump Travel Ban No. 2).
    This was just the beginning of the Trump's administration pattern 
of targeting and profiling people deemed to be unworthy of 
Constitutional protection or consideration of due process.
    In February, reports of heightened Immigration and Customs 
Enforcement actions came to the attention of Members of Congress.
    Immigration and Customs Enforcement made 35 percent more arrests 
Nation-wide in roughly the first 3 months of the Trump administration 
compared to the same period last year.
    Nation-wide, ICE made 41,898 arrests from January 20 through April 
29.
    During this same period in 2016 there were only 31,128 arrests 
according to ICE data.
    Twenty-six percent (26%) of this year's arrests were of people who 
had not been convicted of a crime, which is up from 14 percent last 
year.
    There is little reason to doubt that the motivation behind the 
Trump Executive Orders and immigration policies is to target and remove 
Hispanics and Muslims.
    What is worse is the treatment of pregnant women and girls who are 
placed in detention centers.
    These centers do not have medical facilities or full-time medical 
staff because they are not prisons.
    It is not a crime to be in the United States without documents; it 
is a civil matter.
    We have seen the process turned into a form of punishment when this 
should never have been allowed to happen.
    Women and girls who are pregnant are not getting adequate medical 
care and what is worse of the charges of intention abuse of women with 
difficult pregnancies who are held without access to health care.
    Simply put, the actions taken by this administration are 
jeopardizing long-held tenants of our Nation; that all are created 
equal and endowed by their Creator with certain inalienable rights.
    Trump's actions are not making Americans safer; they are in fact 
making them less safe and more fearful.
    The reports by local law enforcement of a steep decline in the 
number of sexual assault cases from the Hispanic community and in some 
cases an increase in sexual assault cases by non-Hispanics is alarming.
    The corrosive nature of unchecked criminal activity will be felt 
far beyond the communities where violence and crime are allowed to 
fester.
    The impact on our Nation's fiscal health, National security, and 
economic stability as a direct result of these anti-immigrant actions 
are yet to be fully calculated.
    In my efforts to effectively work on the behalf of constituents of 
the 18th Congressional District, I can attest to the human toll.
    Some of the direct impacts are felt most acutely by the most 
vulnerable: Children of parents who left home one morning never to 
return; international medical students planning to come to study 
medicine in the United States; and the security of our Nation's most 
fundamental institution--free and fair public elections.
Temporary Protected Status
    On November 20, 2017, you announced the administration was ending a 
humanitarian program that has allowed some 59,000 Haitians to live and 
work in the United States since an earthquake ravaged their country in 
2010.
    Haitians with what is known as Temporary Protected Status will be 
expected to leave the United States by July 2019 or face deportation.
    This decision regarding Haitians followed another revocation of 
Temporary Protected Status of for 2,500 Nicaraguans in October.
    These announcements have also caused concern among other groups who 
are in the United States under a Temporary Protected Status.
    The temporary status covers some 435,000 people from 9 countries, 
who came to the United States legally after a natural disaster or war.
    Temporary Protected Status designations were created by a law 
signed by President George Bush in 1990.
    Haiti, the poorest country in the Western Hemisphere, is still 
struggling to recover from the earthquake and relies heavily on money 
its expatriates send to relatives back home.
    The Haitian government had asked the Trump administration to extend 
the protected status.
             the human toll of trump administration polices
    International medical graduates (IMGs) fill a vital role in the 
U.S. health care system by serving as a source of primary care 
physicians in rural communities throughout the United States.
    They comprise 26% of physicians in practice and 24% of residents in 
specialty programs in the United States.
    All IMGs go through U.S. medical licensing examination and 
credentialing verification to receive certification from the 
Educational Commission for Foreign Medical Graduates to become eligible 
to enter the U.S. graduate medical education process.
    Compared with U.S. graduates, IMGs tend to practice in primary care 
specialties and in underserved and rural areas.
    Severe shortages of primary care physicians in underserved areas of 
the United States were a persistent problem that seemed intractable 
until international medical students began to fill the void.
    There are other impacts that adversely affect small business 
owners, veterans, families in every State where ICE deportations have 
risen.
    There is an important issue regarding ICE enforcement actions 
related to the display of the word ``POLICE'' by ICE agents.
    As a Member of the Committee on Judiciary and Ranking Member for 
the Subcommittee on Crime, Terrorism, Homeland Security, and 
Investigation, I am acutely aware of the important role law enforcement 
fills.
    I was concerned that ICE's use of ``POLICE'' would link their 
immigration enforcement activity with routine police and crime 
prevention, which would chill the willingness of immigrant communities 
to help police and report crime.
    I am sad to say that my worst fears have been borne out by reports 
by the chiefs of police for Houston and Los Angeles that in fact 
reports of sexual assault have sharply declined.
    My final observation of the first few months of this administration 
is the willingness to cause injury where none needs to be inflicted.
    I appreciate your assistance, Mr. Secretary, in reuniting a child 
from Jordan with his family after he was caught up in the Muslim ban.
    Another constituent, Mr. Jose Ernesto Escobar, who owns a small 
business, has not committed a crime, has complied with requirements 
that he routinely report to DHS, has yet to be reunited with his family 
after having filled an administrative appeal regarding a surprise 
attempt to deport him.
    The administrative appeal is essential to balance immigration 
policies with due process rights, which extend protections to non-
citizens in our Nation's constitutional democracy.
    Unfortunately, ICE ignored the due process requirements of Mr. 
Escobar's administrative appeal after assurances that the agency would 
comply with the appeals processes and instead deported Mr. Escobar back 
to El Salvador--a country he had not lived in since he was a child 
following devastating earthquakes.
    I look forward to the testimony of today's witnesses and the 
question-and-answer opportunity that will follow.
    Thank you. I yield back the balance of my time.

    Chairman McCaul. We are pleased to have two distinguished 
panels of witnesses before us. Today, our first panel includes 
the Honorable Elaine Duke, acting secretary of the United 
States Department of Homeland Security; the Honorable 
Christopher Wray, director of the FBI; and the Honorable 
Nicholas Rasmussen, director of the National Counterterrorism 
Center. The witnesses' full written statements will appear in 
the record.
    The Chair now recognizes Secretary Duke for an opening 
statement.

 STATEMENT OF HONORABLE ELAINE C. DUKE, ACTING SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Duke. Good morning, Chairman McCaul, Ranking Member 
Thompson, and distinguished Members of this committee. It is my 
honor to testify here before you this morning on behalf of the 
men and women of Department of Homeland Security, who shield 
our Nation from threats every single day, often in extremely 
dangerous environments.
    We are reminded of that this past week when we lost Border 
Patrol agent Rogelio Martinez in the line of duty. I truly 
appreciate and know our country appreciates his service and 
sacrifice.
    While we do not know for certain the circumstances of his 
death, we do know that he courageously chose a dangerous job 
with DHS because it was so important to our Nation's security. 
When his father was asked why his son chose the Border Patrol, 
his son said: I want to defend my country from terrorists. I 
want to prevent terrorists and drugs from coming into our 
country, and he loved this job.
    I want to begin by noting right now that the terror threat 
in our country equals and in many ways exceeds the period 
around 9/11. We are seeing a surge in terrorist activity 
because the fundamentals of terrorism have changed. Our enemies 
are crowdsourcing their violence on-line and promoting a do-it-
yourself approach that involves using any weapons their 
followers can get their hands on. We saw this just last month 
here on our own soil when a terrorist killed and wounded 
pedestrians in New York City using a rented vehicle. But New 
Yorkers rallied and they refused to be intimidated by this 
heinous attack.
    I also want to make it clear that DHS is not standing on 
the side lines as these threats proliferate, and we will not 
allow frequent terrorism to become the new normal. The primary 
international terror threat facing our country is from global 
jihadist groups. However, the Department is also focused on the 
threat of domestic terrorism. Ideologically motivated violence 
here in the United States is a danger to our Nation, our 
people, and our values.
    We are tackling the overall terror threat in the United 
States head-on in two ways. First, we are rethinking homeland 
security for this new age. There is no longer a home game and 
away game. The line is blurred and the threats are connected 
and across borders. That is why DHS is moving toward a more 
integrated approach, bringing together intelligence, 
operations, interagency engagement, and international action 
like never before.
    Second, we are raising the bar in our security posture 
across the board to keep dangerous individuals and goods from 
entering the United States. That includes building a wall in 
the Southwest Border and cracking down on transnational 
criminal organizations that bring drugs, violence, and other 
threats to our communities.
    Illegal immigration puts our communities and country at 
risk, which is why our border security strategy is multi-
layered and includes robust interior enforcement operations to 
deter and prevent illegal entry.
    We are also strengthening everything from traveler 
screening to information sharing. We now require all foreign 
governments to share critical data with us on terrorists and 
criminals and to help us confidently identify their nationals. 
We must know who is coming into our country and make sure they 
do not pose a threat. That is why I recommended, and the 
President approved, tough but tailored restrictions against 
countries that pose a risk and which are not complying with our 
security requirements.
    We are trying to stay a step ahead of emerging threats. We 
are planning next to launch a new Office of Countering Weapons 
of Mass Destruction next week to consolidate and elevate DHS's 
efforts to guard against chemical, biological, radiological, 
and nuclear threats.
    Separately and additionally, our global aviation security 
plan is making it harder for terrorists to target U.S.-bound 
aircraft with concealed explosive or by using corrupted 
insiders. At the same time, we are rededicating ourselves to 
terrorism prevention to keep terrorists from radicalizing our 
people, and our newly reorganized Office of Terrorism 
Prevention Partnerships will lead this charge.
    Finally, we have stepped up DHS's efforts to protect soft 
targets, which will not only help better defend our country 
against terrorists, but against tragedies we have witnessed 
like that in Las Vegas and Texas.
    Americans are also alarmed by the spike in terrorist 
attacks. DHS is engaging with Congress on legislation that 
would establish a new operating component dedicated to 
cybersecurity.
    On behalf of the entire Department, I appreciate the 
critical role this committee plays. Thank you for holding this 
hearing. I look forward to answering your questions.
    [The prepared statement of Ms. Duke follows:]
                  Prepared Statement of Elaine C. Duke
                           November 30, 2017
    Chairman McCaul, Ranking Member Thompson, and distinguished Members 
of the committee, I would like to thank you for inviting me to testify 
on the threats facing our great Nation and what we are doing to 
confront them. First though, I would like to recognize the service of 
former Secretary John Kelly. While his tenure at the Department of 
Homeland Security (DHS) ended early, his impact was substantial. 
General Kelly visibly lifted the morale of the Department, set a new 
standard for leadership, and--most importantly--established the 
foundation for historic improvements in our Nation's security. The 
Department has not missed a beat since his departure, and it is my 
honor to continue to advance the work he set in motion until such time 
as the Senate votes to confirm the President's nominee, Kirstjen 
Nielsen.
    Make no mistake, the threats our country faces are serious. Our 
enemies and adversaries are persistent. They are working to undermine 
our people, our interests, and our way of life every day. Whether it is 
the violent menace posed by international and domestic terrorists or 
the silent intrusions of cyber adversaries, the American people will 
not be intimidated or coerced. I am proud that the men and women of DHS 
are driven to address these challenges, and they are more than equal to 
the task.
    I would like to stress three themes today.
    First, we are rethinking homeland security for a new age. We 
sometimes speak of the ``home game'' and ``away game'' in protecting 
our country, with DHS especially focused on the former. But the line is 
now blurred. The dangers we face are becoming more dispersed, and 
threat networks are proliferating across borders. The shifting 
landscape is challenging our security, so we need to move past 
traditional defense and non-defense thinking. This is why DHS is 
overhauling its approach to homeland security. We are bringing together 
intelligence, operations, interagency engagement, and international 
action in new ways and changing how we respond to threats to our 
country.
    Second, we are ``raising the baseline'' of our security posture--
across the board. DHS is looking at everything from traveler screening 
to information sharing, and we are setting new standards to close 
security vulnerabilities. Since 9/11, we have spoken too often of the 
weaknesses in our systems without taking enough decisive action to fix 
them for the long haul. This administration aims to change that. At the 
Department, we are building an action-oriented, results-centric 
culture. We are pushing our border security strategies and pressing 
foreign partners to enhance their security so that terrorists, 
criminals, and other threat actors are stopped well before they reach 
our shores.
    Third, this unprecedented hurricane season has truly tested us as a 
Nation and tested many of our assumptions about what works in disaster 
response and recovery. While each year the hurricane season officially 
comes to an end on November 30, the lessons that we are learning from 
the response and recovery operations that we are performing this year, 
under the most difficult circumstances possible, will transform the 
field of emergency management forever.
              homeland security in a new age of terrorism
    Today, the magnitude of the threat we face from terrorism is equal 
to, and in many ways exceeds, the 9/11 period. While we have made it 
harder for terrorists to execute large-scale attacks, changes in 
technology have made it easier for adversaries to plot attacks in 
general, to radicalize new followers, and to recruit beyond borders. 
The problem is compounded by the use of simple, ``do-it-yourself'' 
terrorist tactics.
    The rising tide of violence we have seen in the West is clear 
evidence of the serious threat. Acts of terrorism and mass violence 
against soft targets have become so frequent that we associate them 
with the names of cities that have been victimized: Paris, San 
Bernardino, Brussels, Orlando, Istanbul, Nice, Berlin, London, 
Barcelona, and most recently in New York City on Halloween. As our 
Government takes the fight to groups such as ISIS and al-Qaeda, we 
expect operatives to disperse and focus more heavily on external 
operations against the United States, our interests, and our allies.
    We are seeing an uptick in terrorist activity because the 
fundamentals of terrorism have evolved. This includes changes in 
terrorist operations, the profile of individual operatives, and the 
tactics they use. With regard to operations, terrorist groups 
historically sought time and space to plot attacks. But now they have 
become highly networked on-line, allowing them to spread propaganda 
world-wide, recruit on-line, evade detection by plotting in virtual 
safe havens, and crowd-source attacks. The result is that our 
interagency partners and allies have tracked a record number of 
terrorism cases.
    Terrorist demographics have also created challenges for our front-
line defenders and intelligence professionals. ISIS, al-Qaeda, and 
other groups have managed to inspire a wide array of sympathizers 
across the spectrum. While a preponderance are young men, they can be 
young or old, male or female, wealthy or indigent, immigrant or U.S.-
born, and living almost anywhere.
    The change in terrorist tactics has likewise put strain on our 
defenses. Global jihadist groups are promoting simple methods, 
convincing supporters to use guns, knives, vehicles, and other common 
items to engage in acts of terrorism. At the same time, they are 
experimenting with other tools--including drones, chemical weapons, and 
artfully concealed improvised explosive devices--to further spread 
violence and fear. We have also seen a spider web of threats against 
the aviation sector, which remains a top target for global jihadist 
groups. In short, what was once a preference for large-scale attacks is 
now an ``all-of-the-above'' approach to terrorism. This is particularly 
exacerbated by the increased emphasis on so-called soft targets. 
Locations, venues, or events associated with public gatherings are 
increasingly appealing targets for terrorists and other violent 
criminals because of their accessibility and the potential to inflict 
significant physical, psychological, and economic damage.
    The Department is also concerned about violent extremists using the 
battlefield as a testbed from which they can export terror. We continue 
to see terrorist groups working to perfect new attack methods in 
conflict zones that can then be used in external operations. Operatives 
are packaging this expertise into blueprints that can be shared with 
followers on-line. In some cases, terrorists are even providing the 
material resources needed to conduct attacks. We recently saw this in 
Australia, when police foiled a major plot to bring down an airliner 
using a sophisticated explosive device reportedly shipped by an ISIS 
operative overseas.
    The primary international terror threat facing the United States is 
from violent global jihadist groups, who try to radicalize potential 
followers within our homeland and who seek to send operatives to our 
country. However, the Department is also focused on the threat of 
domestic terrorism and the danger posed by ideologically-motivated 
violent extremists here in the United States. Ideologies like violent 
racial supremacy and violent anarchist extremism are a danger to our 
communities, and they must be condemned and countered.
    The Department is not standing on the sidelines as these threats 
spread. And we will not allow pervasive terrorism to become the new 
normal. We are closely monitoring changes to our enemies' tactics, and 
we are working to stay a step ahead of them. This means ensuring that 
our security posture is dynamic, multi-layered, and difficult to 
predict. We are doing more to identify terrorists in the first place, 
changing our programs and practices to adjust to their tactics, and 
working with our interagency and international partners to find 
innovative ways to detect and disrupt their plots.
    DHS is also working to help our State, local, Tribal, territorial, 
and private-sector partners--and the public--to be better prepared. We 
actively share intelligence bulletins and analysis with homeland 
security stakeholders Nation-wide to make sure they understand trends 
related to terrorism and violent extremist activity, know how to guard 
against nascent attack methods, and are alerted to the potential for 
violent incidents. For example, in the days prior to the tragic events 
in Charlottesville, the DHS Office of Intelligence and Analysis 
partnered with the Virginia Fusion Center to produce and distribute an 
assessment alerting State and local law enforcement to an increased 
chance for violence at the upcoming demonstration.
    DHS is working closely with private industry and municipalities to 
help secure public venues and mass gatherings that might be targeted by 
terrorism and violent extremist activity. We have also continued to 
refine our outreach to make sure members of the public report 
suspicious activity and don't hesitate to do so. Sadly, we have seen 
many attacks at home and around the world that could have been stopped 
if someone had spoken up. We want to break that pattern of reluctance.
    In many of these areas, we will continue to need Congressional 
assistance. The President's fiscal year 2018 budget calls for a number 
of counterterrorism improvements that need robust funding. But more 
must be done to keep up with our enemies. In some cases, DHS and other 
departments and agencies lack certain legal authorities to engage and 
mitigate the emerging dangers we are seeing. For example, we lack the 
authorities needed to counter threats from unmanned aircraft systems 
(UAS). We know that terrorists are using drones to conduct aerial 
attacks in conflict zones, and already we have seen aspiring terrorists 
attempt to use them in attacks outside the conflict zone.
    Earlier this year, the administration delivered a Government-wide 
legislative proposal to Congress that would provide additional counter-
UAS authorities to DHS and other Federal departments and agencies to 
legally engage and mitigate UAS threats in the National Airspace 
System. I am eager to share our concerns in a Classified setting, and I 
urge the committee to help champion efforts to resolve this and other 
challenges.
            blocking threats from reaching the united states
    The Department is undertaking historic efforts to secure our 
territory. The goal is to prevent National security threat actors, 
especially terrorists and criminals, from traveling to the United 
States, while better facilitating lawful trade and travel. The 
administration has made it a priority to secure our borders and to 
provide the American people the security they deserve. We are making it 
harder for dangerous goods to enter our country. And as part of our 
across-the-board approach to rethinking homeland security, DHS is 
improving to the screening of all categories of U.S.-bound travelers, 
including visitors, immigrants, and refugees.
    Our forward-leaning counterterrorism approach is exemplified by the 
Department's recent aviation security enhancements. As noted earlier, 
terrorists continue to plot against multiple aspects of the aviation 
sector, in some cases using advanced attack methods. Based on 
carefully-evaluated threat intelligence, DHS took action this year to 
protect passenger aircraft against serious terror threats. This summer, 
we announced new ``seen'' and ``unseen'' security measures, 
representing the most significant aviation security enhancements in 
many years. Indeed, our on-going Global Aviation Security Plan is 
making U.S.-bound flights more secure and will raise the baseline of 
aviation security world-wide--including additional protections to 
prevent our enemies from placing dangerous items in mail or cargo.
    Today, terrorists and criminals are exploiting what they see as a 
borderless world, which is why stepping up our border security must be 
among the highest National priorities. DHS is actively focused on 
building out the wall on the Southwest Border and a multi-layered 
security architecture to keep threats from entering America undetected. 
We are making measureable progress, and we are cracking down hard on 
transnational criminal organizations (TCOs), which are bringing drugs, 
violence, and dangerous goods and individuals across our borders. These 
organizations have one goal--illicit profit, and they couldn't care 
less about the enormous human suffering they cause.
    TCOs pose a persistent National security threat to the United 
States. They provide a potential means for transferring weapons of mass 
destruction (WMD) to terrorists or for facilitating terrorists' entry 
into the United States. We have already seen aliens with terror 
connections travel from conflict zones into our hemisphere, and we are 
concerned that TCOs might assist them in crossing our borders. TCOs 
also undermine the stability of countries near our borders, subvert 
their Government institutions, undermine competition in world strategic 
markets, and threaten interconnected trading, transportation, and 
transactional systems essential to free markets.
    The Department is fighting back against this threat by using its 
full authorities and working in concert with other Federal partners. 
DHS is leading the development of a stronger, fused, whole-of-
Government approach to border security. Stove-piped agencies cannot 
prevail against highly networked adversaries, which is why we are 
bolstering Joint Task Forces to protect our territory and embedding 
border security professionals in other relevant departments and 
agencies. Our components are working together on initiatives such as 
the DHS MS-13 Working Group and the DHS Human Smuggling Cell. The 
former, run by U.S. Customs and Border Protection (CBP) and U.S. 
Immigration and Customs Enforcement (ICE), is identifying gang members 
previously unknown to law enforcement. The latter is a multi-agency 
unit staffed by personnel from across the Department that is allowing 
us to bring together intelligence and operations to go after human 
smuggling organizations more effectively.
    We are also developing comprehensive plans to step up security in 
the Western Hemisphere and to push the U.S. border outward by shutting 
down TCOs and smuggling networks. For example, ICE's Biometric 
Identification Transnational Migration Alert Program (BITMAP) is 
helping train and equip foreign counterparts to collect biometric and 
biographic data on persons of interest and potential threats. The data 
allow us to map illicit pathways, discover emerging TCO trends, and 
catch known or suspected terrorists and criminals while they are still 
far from our border.
    Beyond border security, DHS is improving almost every stage of the 
vetting process for U.S.-bound travelers. Front-end investigations of 
applicants are being modified to more quickly detect individuals with 
terror ties, including through ICE's Visa Security Program. Security 
checks are being brought into the digital age with measures like 
continuous immigration vetting, a real-time, systematic process that 
constantly analyzes visa files against law enforcement and intelligence 
holdings to identify possible matches to derogatory information. At the 
same time, we are gathering additional data from prospective travelers 
to more effectively validate their identities and determine whether 
they pose a risk to our country.
    DHS is better leveraging Unclassified and Classified datasets to 
find previously undetected threats. We have already seen real 
successes. I cannot get into the details in this setting; suffice to 
say that these enhancements have allowed us to detect and disrupt 
terror suspects we likely would not have identified otherwise. And at 
our ports of entry, CBP's Tactical Terrorism Response Teams are 
connecting dots and finding suspicious individuals we might also have 
otherwise slipped through the cracks.
    In the medium term, DHS is aiming to streamline how we organize our 
screening activities. We are examining specific ways to consolidate 
screening functions, better integrate intelligence data, leverage law 
enforcement information, and fuse our efforts to protect our country. 
Both of the witnesses here with me today have been critical partners as 
we do this and make sure our National vetting efforts are a top 
priority.
    The administration is also pursuing major initiatives to improve 
international information sharing. Working with the State Department 
and interagency, we are pressing foreign countries to provide us more 
information on terrorists and criminals, and we are urging them to use 
the information our Government already provides to catch global 
jihadists and other threat actors residing in or transiting their 
territory. DHS is exploring additional measures that could be taken to 
require foreign governments to take swifter action and how we can 
better assist them in doing so.
    For the first time ever, DHS established a clear baseline for what 
countries must do to help the United States confidently screen 
travelers and immigrants from their territory. As required under 
President Trump's Executive Order Protecting the Nation from Foreign 
Terrorist Entry into the United States (EO 13780), all foreign 
governments have been notified of the new standards, which include the 
sharing of terrorist identities, criminal history information, and 
other data needed to ensure public safety and National security, as 
well as the condition that countries issue secure biometric passports, 
report lost and stolen travel documents to INTERPOL, and take other 
essential actions to prevent identity fraud.
    DHS assessed whether countries met the new standards, in 
consultation with the Department of State and the Department of 
Justice. Countries that failed to do so were recommended to the 
President for travel restrictions or other lawful limitations, which he 
imposed through a Presidential proclamation in October. Most foreign 
governments have met these minimum standards or are on the path to 
doing so. For those that the President has designated for restrictions, 
we have indicated that we will consider relief, but first they must 
comply with these reasonable, baseline requirements.
    This has nothing to do with race or religion, and our goal is not 
to block people from visiting the United States. America has a proud 
history as a beacon of hope to freedom-loving people from around the 
world who want to visit our country or become a part of our enduring 
democratic republic. Rather, the goal is to protect Americans and 
ensure foreign governments are working with us--and not inhibiting us--
from stopping terrorists, criminals, and other National security threat 
actors from traveling into our communities undetected.
    We are also focused on working with our foreign partners to close 
overseas security gaps that allow dangerous individuals to travel 
uninhibited. Many countries, for instance, lack the border security 
policies, traveler screening capabilities, intelligence information-
sharing practices, and legal tools to effectively stop terrorist 
travel. DHS is examining the full array of tools at our disposal to 
incentivize and assist foreign governments in making these improvements 
so these individuals are caught before they reach our borders.
    I commend the House Homeland Security Committee for examining these 
matters as part of its Task Force on Denying Terrorists Entry into the 
United States. As you prepare your final recommendations, the 
Department stands ready to work with you to implement them.
    DHS is not just concerned with threat actors but also threat 
agents, such as weapons of mass destruction (WMD). Our intelligence 
professionals have seen renewed terrorist interest in WMD and are aware 
of concerning developments on these issues, which can be discussed 
further in an appropriate setting. That is one reason why the 
Department is setting up a focal point within DHS for our work to 
protect Americans against chemical, biological, radiological, and 
nuclear (CBRN) threats.
    The Department's previous approach to addressing CBRN threats was 
inadequate and our organization for this mission has been fragmented. 
For nearly a decade, DHS considered internally reorganizing to ensure 
our Department's counter-WMD efforts were unified. Given the growing 
threats and the need to enhance DHS's ability to help respond, I 
notified Congress of our intent to create a Countering Weapons of Mass 
Destruction (CWMD) Office using the Secretary's re-organization 
authority under Section 872 of the Homeland Security Act. We are 
exercising this authority for a limited, internal re-organization to 
achieve unity of command, and we intend to work collaboratively with 
Congress formalize this office and ensure it is postured appropriately 
to confront the threat. We look forward to continuing to engage with 
this committee as we examine how to consolidate our counter-WMD 
efforts, with the goal of ensuring our Nation is safer than ever 
before.
 preventing terrorist radicalization and recruitment in our communities
    In addition to counterterrorism, the Department is rededicating 
itself to terrorism prevention. Americans do not want us to simply stop 
violent plots, they want us to keep them from materializing in the 
first place. As part of this effort, we have launched an end-to-end 
review of all DHS ``countering violent extremism,'' or CVE, programs, 
projects, and activities. In the coming months we will work to ensure 
our approach to terrorism prevention is risk-based and intelligence-
driven, focused on effectiveness, and provides appropriate support to 
those on the front lines who we rely on to spot signs of terrorist 
activity.
    DHS efforts to combat terrorist recruitment and radicalization fall 
into four primary lanes.
    First, we are prioritizing education and community awareness. 
Before terrorists have a chance to reach into communities and inspire 
potential recruits, we are making sure those communities are aware of 
the threat. This includes extensive outreach to States and localities, 
awareness briefings, intelligence products regarding threats and 
trends, training for front-line defenders and civic leaders, and more.
    Second, we are focused on counter-recruitment. We know that 
terrorists will continue to seek new followers through persuasion and 
propaganda, which is why we must support efforts to actively push back 
against such solicitations. This includes continuing to encourage non-
Governmental organizations to counter-message terrorist propaganda, 
leveraging credible voices to dissuade potential recruits, working with 
social media companies and supporting their efforts to make on-line 
platforms more hostile to terrorists, and more.
    Last month, I met with the Interior Ministries of the G7 countries 
in Italy and some of the largest technology companies and discussed the 
next steps the companies plan to take in the effort to prevent their 
platforms from being misused by terrorists, including better 
identifying on-line terrorist propaganda and shutting down terrorist 
accounts. The meeting emphasized the importance of working together 
with our foreign partners while we continue to engage industry on this 
important issue. The U.S. Government has already made progress by 
supporting the companies' efforts--including the establishment of the 
Global Internet Forum to Counter Terrorism--to identify terrorist 
content so they can voluntarily remove content that violates their 
terms of service as soon as it is discovered.
    Many companies, however, still have substantial challenges in 
quickly identifying and addressing the volume of terrorist accounts and 
propaganda on-line. DHS, along with interagency partners, will continue 
sharing information and educating private-sector partners on how to 
more quickly identify and address terrorist content. We will also 
strongly emphasize the importance of counter-messaging and using 
credible voices to fight back against the false narrative of terrorist 
groups. Ultimately, as terrorists crowd-source their violence, the best 
way to fight back is to turn the crowd against them.
    Third, we are emphasizing the importance of early warning. Even 
with strong community awareness and counter-recruitment, terrorist 
groups will succeed in reaching at least some susceptible minds. That 
is why we are working to detect potentially radicalized individuals and 
terrorist activity earlier. This includes building trust between 
communities and law enforcement, expanding ``If You See Something, Say 
Something<SUP>TM</SUP>''-style campaigns, ensuring there are 
appropriate and confidential means for the public to provide tips 
regarding suspicious activity, and more.
    Finally, DHS is looking at what more can be done to counter-
terrorist recidivism. It is inevitable that some individuals will be 
recruited, radicalized, and attempt to engage in terrorist activity. So 
we want to make sure that once they are caught they do not return to 
violence. A number of inmates with terrorism affiliations are scheduled 
for release from U.S. prisons in the next few years. We need to work 
with the Department of Justice and its Bureau of Prisons, and other 
interagency partners, to make sure they do not return to violence once 
released. I look forward to engaging with the committee further on this 
subject as we identify effective ways to prevent terrorist recidivism.
    This summer the Department announced the award of $10 million in 
grants to 26 organizations to advance terrorism prevention efforts. 
These grants will help inform our efforts and illuminate what works--
and what doesn't work--in combating terrorist recruitment and 
radicalization in our homeland. We look forward to sharing the results 
with Congress.
    I also want to note that although our terrorism prevention 
activities will be risk-based, they will also be flexible enough to 
address all forms of terrorism. Any ideologically-motivated violence 
which is designed to coerce people or their governments should be 
condemned, prevented, and countered. That is why our approach must be 
agile so it can help mitigate everything from the global jihadist 
threat to the scourge of violent racial supremacy. It must also engage 
and not alienate communities targeted by these fanatics. This means 
working with people of all races, religions, and creeds as partners in 
the fight against terrorism.
                         securing soft targets
    As I mentioned earlier, terrorists and other violent criminals are 
placing significant emphasis on attacking soft targets. We have seen 
this with recent tragedies in Nevada, New York, and Texas. Although the 
Department has previously focused on enhancing the security of such 
facilities, it has recently placed further emphasis on assisting the 
critical infrastructure community to secure these vulnerable 
facilities. For example, the National Protection and Programs 
Directorate (NPPD) will make the Department the National leader on 
technology, standards, and best practices relating to soft target 
security. The intent of the effort is to:
  <bullet> Demonstrably reduce the risk of a successful attack on soft 
        targets;
  <bullet> Ensure the Department has the capability to support visible 
        efforts to enhance soft target security in order to safeguard 
        the American people;
  <bullet> Develop a center of gravity for Department-wide resources 
        available to support the critical infrastructure community in 
        securing soft targets;
  <bullet> Promote a dynamic process to identify and address soft 
        target security gaps based on threats and incidents.
    Efforts such as the Hometown Security Initiative, in conjunction 
with our programs that provide training and informational resources 
focused on active-shooter preparedness, play a key role in preparing 
facilities and their employees to proactively think about the role they 
play in the safety and security of their businesses and communities.
    In addition, the S&T SAFETY Act Program provides important legal 
liability protections of qualified anti-terrorism technologies in order 
to encourage the development and deployment of effective products and 
services that enhance security. The Program is intended to provide 
critical incentives for the development and deployment of anti-
terrorism technologies by providing liability protections for 
``qualified anti-terrorism technologies.''
                  defending america's digital frontier
    The past year marked a turning point in the cyber domain, putting 
it in the forefront of public consciousness. We have long faced a 
relentless assault against our digital networks from a variety of 
threat actors. But this year, Americans saw hackers, cyber criminals, 
and nation-states take their attacks to another level. Our adversaries 
have and continue to develop advanced cyber capabilities. They have 
deployed them to undermine critical infrastructure, target our 
livelihoods and innovation, steal our secrets, and threaten our 
democracy.
    Cybersecurity has become a matter of National security, and one of 
the Department's core missions. With access to tools that were 
previously beyond their reach, non-state actors now have the ability to 
cause wide-spread disruptions and possibly, destructive attacks. This 
is redefining homeland security as we know it. And it is affecting 
everyone, from businesses and governments to individuals who get swept 
up in data breaches affecting millions of Americans.
    Many of these threats are novel, as illustrated by the attacks on 
the Ukrainian power grid in 2015 and 2016, and the use of internet-
connected consumer devices to conduct distributed denial-of-service 
attacks. Other recent global cyber incidents, such as the WannaCry 
ransomware incident in May and the NotPetya malware incident in June 
2017, exploited known vulnerabilities in software commonly used across 
the globe to create wide-spread disruptive effects and cause economic 
loss.
    DHS defends from these attacks and provides tools to mitigate on-
going incidents through the National Protection and Programs 
Directorate (NPPD), which is in addition to protecting civilian Federal 
networks collaborates with State, local, Tribal, and territorial 
governments, and the private sector to defend against cyber threats. 
Through vulnerability scanning, NPPD limited the scope of potential 
incidents by helping stakeholders identify the vulnerability on their 
networks so it could be patched before the incident impacted their 
systems. Recognizing that not all users were able to install patches, 
DHS shared additional mitigation guidance to assist network defenders. 
As the incidents unfolded, DHS and our interagency partners led the 
Federal Government's incident response efforts in accordance with 
agencies' responsibilities set forth in Presidential Policy Directive 
41, including providing situational awareness, information sharing, 
malware analysis, and technical assistance to affected entities.
    Cyber actors continue to target the energy sector with various 
goals ranging from cyber espionage to developing the ability to disrupt 
energy systems in the event of a hostile conflict. In one recent 
campaign, advanced persistent threat actors targeted the cyber 
infrastructure of entities within the energy, nuclear, critical 
manufacturing, and other critical infrastructure sectors. In response, 
DHS, the Federal Bureau of Investigation, and the U.S. Department of 
Energy shared information to assist network defenders to identify and 
reduce exposure to malicious activity.
    In the face of these digital threats, it is a DHS priority to work 
with Congress on legislation that would focus our cybersecurity and 
critical infrastructure mission at NPPD. We are pursuing changes that 
would streamline and elevate NPPD's mission. Through transition from a 
headquarters component to a DHS operating component, with better 
structure, the DHS Cyber and Infrastructure Security Agency would be 
better-positioned to drive our cybersecurity mission.
    We are also endeavoring to enhance cyber-threat information sharing 
across the globe to stop attacks before they start--and to help 
Americans quickly recover. We work closely with technology providers, 
information-sharing and analysis centers, sector coordinating councils, 
and critical infrastructure owners and operators to brief them on cyber 
threats and provide mitigation recommendations, and our hunt and 
incident response teams provide expert intrusions analysis and 
mitigation guidance to stakeholders who request assistance in advance 
of and in response to a cyber incident.
    In all its cybersecurity efforts, DHS draws upon its experience in 
emergency management and counterterrorism by taking a broad risk 
management approach. DHS considers cybersecurity risk within the 
landscape of overall threats to the Nation and an assessment of the 
likely consequences of cyber incidents which may or may not result in 
physical impacts.
    To increase the security and resilience of non-Federal critical 
infrastructure, DHS leverages information and expertise gained from the 
Federal protective mission. DHS makes technical capabilities and 
programs available to non-Federal entities and provides cybersecurity 
information and recommendations to, and partners closely with, a 
variety of private-sector, State, local, Tribal, and territorial, and 
international stakeholders. This information and technical assistance 
allows our stakeholders to make informed risk management decisions and 
to improve their cybersecurity.
    At the same time, the U.S. Secret Service and ICE Homeland Security 
Investigations work closely with FBI, as well as other law enforcement 
partners, to aggressively investigate, disrupt, and dismantle criminal 
actors and organizations using cyber space to carry out their illicit 
activities. The efforts of the network protection and law enforcement 
experts must be increasingly coordinated within the Department and with 
other agencies and non-Federal entities. Information about tactics and 
trends obtained through law enforcement investigations inform other 
network protection efforts, including those through NPPD, to raise the 
defensive capabilities of the Nation. And the efforts of network 
protectors can identify trends, practices, and potentially new victims 
to shape law enforcement investigations. Together these efforts are an 
important part of an overall National approach to deterrence by denying 
malicious actors access to critical U.S. targets, increasing resilience 
of networks, and by identifying and punishing those who try to use 
cyber space for illicit purposes.
    Bringing together its network protection, law enforcement, risk 
mitigation, and emergency management expertise, DHS plays a lead role 
in the Federal Government's response to cyber incidents. Such incidents 
can result from malicious activity as well as natural or accidental 
causes. NPPD and DHS law enforcement components provide assistance to 
impacted entities. I&A and component intelligence offices play a 
supporting role by providing relevant intelligence support to DHS 
components from across the intelligence community. Sector-specific 
agencies provide unique expertise and insights to response activities 
and help DHS ensure that lessons learned from incidents are 
incorporated into efforts to protect critical information systems. DHS 
works closely with sector-specific agencies, the Department of Defense, 
the Department of Justice, and the FBI before, during, and after 
incidents.
    In support of these operational efforts, DHS also works to 
strengthen the overall security and reliability of the cyber ecosystem. 
As cyber space is inherently global, DHS collaborates with the 
international community to exchange and advocate for best practices and 
promote the development and adoption of normative behavior to increase 
security and reliability. Additionally, in order to build up capacity 
for tackling emerging challenges and supporting the overall 
cybersecurity mission, DHS drives research, development, and technology 
transfer efforts and works with industry stakeholders to make the 
internet and new technologies, like the internet of things, more 
secure. Finally, DHS prioritizes the expansion of its human resource 
programs to recruit, hire, develop, and retain personnel with strong 
cybersecurity skillsets.
                         2017 hurricane season
    To say the 2017 hurricane season has been historic is an 
understatement. To date, we've had four hurricanes make landfall this 
season, three of which have been major hurricanes (Harvey, Irma, and 
Maria). Prior to Harvey making landfall on August 25, 2017, FEMA was 
supporting 28 Presidentially-declared disasters. Since Hurricane Harvey 
made landfall in Texas, the President has granted 14 Major Disaster 
declarations and 14 Emergency Declarations, while FEMA has authorized 
25 Fire Management Assistance Grant declarations. Hurricane Irma was 
unique not only because it struck both the U.S. Virgin Islands and 
Puerto Rico, but also because it struck the entire State of Florida. 
Hurricane Maria, following in quick succession, then struck the U.S. 
Virgin Islands and Puerto Rico, more than 1,000 nautical miles from the 
mainland United States, devastating an area with already fragile 
infrastructure and facing challenging economic circumstances. In a span 
of 25 days, DHS, FEMA, and our partners deployed tens of thousands of 
personnel across 270,000 square miles in three different regions.
    The impacts of these events are substantial. Roughly 25.8 million 
people were affected by these three storms--8 percent of the entire 
U.S. population. As of November 13, 2017, more than 4.5 million 
survivors registered for FEMA assistance, which is a greater number 
than Hurricanes Katrina, Rita, Wilma, and Sandy combined. FEMA's 
Individual and Households Program (IHP) has thus far approved almost 
$2.5 billion in disaster assistance to respond to the three hurricanes, 
a number we expect to continue to grow. As of mid-November, National 
Flood Insurance Program (NFIP) policy holders filed approximately 
121,000 claims, and the NFIP has paid over $5 billion to them.
    DHS and FEMA alone cannot deliver assistance to this vast number of 
survivors. Unity of effort is required for disaster response and 
recovery on any scale, but especially during this historic season. When 
emergency managers call for unity of effort, we mean that all levels of 
government, non-profit organizations, private-sector businesses, and 
survivors must work together--each drawing upon their unique skills and 
capabilities--to meet the needs of disaster survivors.
    For our part on the Federal level, FEMA called upon the vast 
majority of their workforce, while I engaged over 3,800 other Federal 
employees through the DHS ``Surge Capacity Force.'' This is 
significant. FEMA employees come to FEMA knowing they will be deployed 
into disaster areas, work in austere conditions, and assist survivors. 
However, when personnel from other Federal agencies volunteer for the 
Surge Capacity Force, they volunteer to leave their jobs and families, 
receive just-in-time training, and work in an environment that is 
completely unfamiliar and outside of their normal job responsibilities. 
I am incredibly grateful to my colleagues from across the Federal 
Government for supporting this important initiative, and for allowing 
their hard-working and dedicated personnel to support disaster 
survivors who have been impacted by these historic events. Over 22,300 
members of the Federal workforce were deployed to Texas, Florida, the 
U.S. Virgin Islands, and Puerto Rico. This includes 13,892 staff from 
various offices of the Department of Defense, including the military 
services. We could not do this without them.
                               conclusion
    I want to emphasize that we are overhauling homeland security to 
cope with changes in the threat landscape. Our leadership team is 
breaking down legacy bureaucratic barriers to make DHS operate more 
efficiently and effectively to counter threats to our Nation. We are 
ramping up unity of effort within the Department and tight 
collaboration with law enforcement, the intelligence community, and our 
allies. And we are looking at ways to further integrate intelligence 
and operations, so that our actions are driven by timely information 
and that we respond quickly to new dangers.
    Thank you for the opportunity to appear before you today and for 
your continued support of DHS. I am committed to working with this 
committee to forge a strong and productive relationship as we work to 
achieve the shared objective of securing our homeland.

    Chairman McCaul. Thank you, Madam Secretary.
    The Chair recognizes the FBI director, Christopher Wray.

 STATEMENT OF CHRISTOPHER A. WRAY, DIRECTOR, FEDERAL BUREAU OF 
           INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Wray. Thank you, Chairman McCaul, Ranking Member 
Thompson, and Members of the committee, for the opportunity to 
talk to you today about the threats that we face and the 
tremendous work that is being done by the people of the FBI.
    I will say that from my prior law enforcement and National 
security experience, I already knew how outstanding and 
dedicated the men and women of the FBI were, but I have to say 
that from the past 3 months here in this job, seeing it from 
this perch, has made me feel even more humbled and inspired to 
work with them. The people that I get to work with every day 
around the country and around the world are mission-focused. 
They are passionate and they are utterly determined to be the 
very best that they can be to protect the American people and 
uphold the rule of law.
    In coming back to Government after being gone for about 12 
years, what struck me the most is some of the changes that I 
have seen: The evolution of the threat, the changes in 
technology, the capabilities that have been built. As I have 
been getting briefed up on the work we are doing and 
encountering first-hand how we do our work in today's 
environment, like we just had in New York, what has really 
struck me is the magnitude of the threats we face and the 
diversity of the threats we face.
    On the terrorism front, in addition to international 
terrorist groups and home-grown violent extremists, we also 
have domestic terrorists intending to influence or coerce our 
Government through violent criminal activity. In the cyber 
arena, we have not only nation-states, but also sophisticated 
criminal actors. In our counterintelligence work, we face 
threats from nation-states targeting not just our National 
security secrets, but also our ideas and our innovation. They 
are doing so not just through traditional intelligence 
operatives, but through nontraditional collectors, like 
scientists and students and businessmen.
    On the terrorism issue in particular, my prior experience 
had been very focused on large, structured organizations like 
al-Qaeda. To be clear, we still confront threats from 
organizations like al-Qaeda, planning large-scale attacks over 
long periods of time. But we also face groups like ISIS, who 
use social media to recruit followers remotely and to inspire 
people to take to the streets with crude but effective weapons, 
like hatchets and vehicles.
    Smaller in scale but greater in volume, these 
organizations, if you can call them organizations, move from 
plotting to action in a very short period of time, with very 
little planning, using low-tech and widely-available attack 
methods. On top of that, these terrorists' use of social media 
and encryption technology has made it harder to find their 
messages of hate and destruction, leaving even fewer footprints 
or dots for us to connect.
    The good news is that I have also been very impressed and 
pleased at the progress that the FBI has made, since I was last 
working with them, particularly in the areas of intelligence 
integration and partnerships. Intelligence is now heavily 
integrated into every program the FBI has, into our overall 
mission, our training, and it drives really everything we do. 
In addition to that, the scope and strength of the partnerships 
that the Bureau now has with our Federal partners, our State 
and local counterparts, members of the intelligence community, 
and our international partners are at a whole new level 
compared to what I saw when I was in Government before.
    So while remarkable progress has been made, we cannot 
become complacent, and we need to keep improving to ensure that 
we are up to the task in getting ahead of the threat.
    As one example, we are now at risk of losing one of the key 
tools in our toolkit that is invaluable to all of our National 
security programs that I just mentioned. As I mentioned at the 
beginning, the speed and agility of our terrorist and 
intelligence adversaries has increased at a tremendous pace, 
putting a huge premium on matching that speed and agility with 
our ability to connect the dots. That is why reauthorization of 
FISA section 702, which expires in just a few weeks, is so 
incredibly important to our work. It is one of the most 
powerful tools that we have to help us evaluate leads and 
prioritize threat information. It can tell us quickly whether a 
person here in the United States has ties to a terrorist 
overseas or if there is someone overseas who is planning an 
attack.
    Mr. Chairman, Ranking Member, Members of this committee, I 
look forward to working with you on these and other significant 
challenges. I appreciate the opportunity to be with you today 
and I look forward to answering your questions.
    [The prepared statement of Mr. Wray follows:]
               Prepared Statement of Christopher A. Wray
                           November 30, 2017
    Good morning Chairman McCaul, Ranking Member Thompson, and Members 
of the committee. Thank you for the opportunity to appear before you 
today to discuss the current threats to the homeland. Our Nation 
continues to face a multitude of serious and evolving threats ranging 
from home-grown violent extremists to cyber criminals to hostile 
foreign intelligence services and operatives. Keeping pace with these 
threats is a significant challenge for the FBI. As an organization, we 
must also be able to stay current with constantly changing and new 
technologies that make our jobs both easier and harder. Our 
adversaries--terrorists, foreign intelligence services, and criminals--
take advantage of such modern technology to hide their communications, 
recruit followers, plan and encourage espionage, cyber attacks, or 
terrorism, to disperse information on different methods to attack the 
U.S. homeland, and to facilitate other illegal activities. As these 
threats evolve, we must adapt and confront these challenges, relying 
heavily on the strength of our Federal, State, local, and international 
partnerships.
                            counterterrorism
    Preventing terrorist attacks remains the FBI's top priority. The 
terrorist threat against the United States remains persistent and 
acute. From a threat perspective, we are concerned with three areas in 
particular: (1) Those who are inspired by terrorist propaganda and act 
out in support; (2) those who are enabled to act after gaining 
inspiration from extremist propaganda and communicating with members of 
foreign terrorist organizations who provide guidance on operational 
planning or targets; and (3) those who are directed by members of 
foreign terrorist organizations to commit specific, directed acts in 
support of the group's ideology or cause. Prospective terrorists can 
fall into any one of these three categories or span across them, but in 
the end the result is the same--innocent men, women, and children 
killed and families, friends, and whole communities left to struggle in 
the aftermath.
    Currently, the FBI has designated the Islamic State of Iraq and al-
Sham (``ISIS'') and home-grown violent extremists as the main terrorism 
threats to the homeland. ISIS is relentless and ruthless in its 
campaign of violence and has aggressively promoted its hateful message, 
attracting like-minded extremists. The threats posed by foreign 
fighters, including those recruited from the United States, are 
extremely dynamic. These threats remain the highest priority and create 
the most serious challenges for the FBI, the U.S. intelligence 
community, and our foreign, State, and local partners. We continue to 
identify individuals who seek to join the ranks of foreign fighters 
traveling in support of ISIS, as well as home-grown violent extremists 
who may aspire to attack the United States from within. In addition, we 
are confronting a surge in terrorist propaganda and training available 
via the internet and social networking media. Due to on-line 
recruitment and indoctrination, foreign terrorist organizations are no 
longer dependent on finding ways to get terrorist operatives into the 
United States to recruit and carry out acts. Terrorists in ungoverned 
spaces--both physical and cyber--readily disseminate propaganda and 
training materials to attract easily influenced individuals around the 
world to their cause. They encourage these individuals to travel, or 
they motivate them to act at home. This is a significant transformation 
from the terrorist threat our Nation faced a decade ago.
    Unlike other groups, ISIS has constructed a narrative that touches 
on all facets of life, from career opportunities to family life to a 
sense of community. The message isn't tailored solely to those who are 
overtly expressing signs of radicalization. It is seen by many who 
click through the internet every day, receive social media push 
notifications, and participate in social networks. Ultimately, many of 
the individuals drawn to ISIS seek a sense of belonging. Echoing other 
terrorist groups, ISIS has advocated for lone-offender attacks in 
Western countries. Recent ISIS videos and propaganda specifically 
advocate for attacks against soldiers, law enforcement, and 
intelligence community personnel.
    Many foreign terrorist organizations use various digital 
communication platforms to reach individuals they believe may be 
susceptible and sympathetic to extremist messages, however, no group 
has been as successful at drawing people into its perverse ideology as 
ISIS. ISIS has proven dangerously competent at employing such tools for 
its nefarious strategy. ISIS uses high-quality, traditional media 
platforms, as well as wide-spread social media campaigns to propagate 
its extremist ideology. Social media also helps groups such as ISIS to 
spot and assess potential recruits. With the wide-spread distribution 
of social media, terrorists can spot, assess, recruit, and radicalize 
vulnerable persons of all ages in the United States either to travel or 
to conduct a homeland attack. Through the internet, terrorists overseas 
now have direct access into our local communities to target and recruit 
our citizens and spread the message of radicalization faster than we 
imagined just a few years ago.
    ISIS is not the only terrorist group of concern. Al-Qaeda maintains 
its desire for large-scale spectacular attacks, however continued CT 
pressure has degraded the group, and in the near term al-Qaeda is more 
likely to focus on supporting small-scale, readily achievable attacks 
against U.S. and allied interests in the Afghanistan/Pakistan region. 
Simultaneously, over the last year, propaganda from al-Qaeda leaders 
seeks to inspire individuals to conduct their own attacks in the United 
States and the West.
    In addition to foreign terrorist organizations, domestic extremist 
movements collectively pose a steady threat of violence and economic 
harm to the United States. Some trends within individual movements will 
shift as most drivers for domestic extremism, such as perceptions of 
Government or law enforcement overreach, socio-political conditions, 
and reactions to legislative actions, remain constant. We are most 
concerned about the lone offender attacks, primarily shootings, as they 
have served as the dominant mode for lethal domestic extremist 
violence. We anticipate law enforcement, racial minorities, and the 
U.S. Government will continue to be significant targets for many 
domestic extremist movements.
    As the threat to harm the United States and U.S. interests evolves, 
we must adapt and confront these challenges, relying heavily on the 
strength of our Federal, State, local, and international partnerships. 
The FBI is using all lawful investigative techniques and methods to 
combat these terrorist threats to the United States. Along with our 
domestic and foreign partners, we are collecting and analyzing 
intelligence concerning the on-going threat posed by foreign terrorist 
organizations and home-grown violent extremists. We continue to 
encourage information sharing, which is evidenced through our 
partnerships with many Federal, State, local, and Tribal agencies 
assigned to Joint Terrorism Task Forces around the country. Be assured, 
the FBI continues to strive to work and share information more 
efficiently, and to pursue a variety of lawful methods to help stay 
ahead of threats to the homeland.
                              intelligence
    Integrating intelligence in all we do remains a critical strategic 
pillar of the FBI strategy. The constant evolution of the FBI's 
intelligence program will help us address the ever-changing threat 
environment. We must constantly update our intelligence apparatus to 
improve the way we use, collect, and share intelligence to better 
understand and defeat our adversaries. We cannot be content to only 
work the matters directly in front of us. We must also look beyond the 
horizon to understand the threats we face at home and abroad and how 
those threats may be connected.
    To that end, we gather intelligence, consistent with our 
authorities, to help us understand and prioritize identified threats, 
to reveal the gaps in what we know about these threats, and to fill 
those gaps. We do this for National security and criminal threats, on 
both a National and local field office level. We then compare the 
National and local perspectives to organize threats into priorities for 
each of the FBI's 56 field offices. By categorizing threats in this 
way, we place the greatest focus on the gravest threats we face. This 
gives us a better assessment of what the dangers are, what's being done 
about them, and where we should prioritize our resources.
    Integrating intelligence and operations is part of the broader 
intelligence transformation the FBI has undertaken in the last decade 
to improve our understanding and mitigation of threats. Over the past 
few years, we have taken several steps to improve this integration. 
First, we established an Intelligence Branch within the FBI, headed by 
an executive assistant director who drives integration across the 
enterprise. We also developed and implemented a series of integration-
focused forums that ensure all members of our workforce understand and 
internalize the importance of intelligence integration. We now train 
our special agents and intelligence analysts together at the FBI 
Academy where they engage in joint training exercises and take core 
courses together prior to their field deployments. As a result, they 
are better prepared to integrate their skill sets in the field. 
Additionally, our training forums for executives and front-line 
supervisors continue to ensure our leaders are informed about our 
latest intelligence capabilities and allow them to share best practices 
for achieving intelligence integration.
    I also urge the Congress to renew section 702 of the Foreign 
Intelligence Surveillance Act (``FISA''), which is due to sunset at the 
end of this year. Section 702 is a critical tool that the intelligence 
community uses properly to target non-U.S. persons located outside the 
United States to acquire information vital to our National security. To 
protect privacy and civil liberties, this program has operated under 
strict rules and been carefully overseen by all three branches of the 
Government. Given the importance of section 702 to the safety and 
security of the American people, the administration urges Congress to 
reauthorize title VII of FISA without a sunset provision.
                          counterintelligence
    The Nation faces a rising threat, both traditional and asymmetric, 
from hostile foreign intelligence services and their proxies. 
Traditional espionage, often characterized by career foreign 
intelligence officers acting as diplomats or ordinary citizens, and 
asymmetric espionage, often carried out by students, researchers, or 
business people operating front companies, is prevalent. Foreign 
intelligence services not only seek our Nation's State and military 
secrets, but they also target commercial trade secrets, research and 
development, and intellectual property, as well as insider information 
from the Federal Government, U.S. corporations, and American 
universities. Foreign intelligence services and other State-directed 
actors continue to employ more creative and more sophisticated methods 
to steal innovative technology, critical research and development data, 
and intellectual property, in an effort to erode America's economic 
leading edge. These illicit activities pose a significant threat to 
National security and continue to be a priority and focus of the FBI.
    Our counterintelligence efforts are also aimed at the growing scope 
of the insider threat--that is, when trusted employees and contractors 
use their legitimate access to steal secrets for personal benefit or to 
benefit a company or another country. This threat has been exacerbated 
in recent years as businesses have become more global and increasingly 
exposed to foreign intelligence organizations. We are also 
investigating media leaks, when insiders violate the law and betray the 
Nation's trust by selectively leaking Classified information, sometimes 
mixed with disinformation, to manipulate the public and advance their 
personal agendas.
    In addition to the insider threat, the FBI has focused on a 
coordinated approach across divisions that leverages both our classic 
counter-espionage tradecraft and our technical expertise to more 
effectively identify, pursue, and defeat hostile State actors using 
cyber means to penetrate or disrupt U.S. Government entities or 
economic interests.
    Finally, we have initiated a media campaign to increase awareness 
of the threat of economic espionage. As part of this initiative, we 
have made a threat awareness video, titled ``The Company Man'', 
available on our public website, which has been shown thousands of 
times to raise awareness and generate referrals from the private 
sector.
                                 cyber
    Virtually every National security and criminal threat the FBI faces 
is cyber-based or technologically-facilitated. We face sophisticated 
cyber threats from foreign intelligence agencies, hackers for hire, 
organized crime syndicates, and terrorists. These threat actors 
constantly seek to access and steal our Nation's Classified 
information, trade secrets, technology, and ideas--all of which are of 
great importance to our National and economic security. They seek to 
strike our critical infrastructure and to harm our economy.
    As the committee is well aware, the frequency and impact of cyber 
attacks on our Nation's private-sector and Government networks have 
increased dramatically in the past decade and are expected to continue 
to grow. We continue to see an increase in the scale and scope of 
reporting on malicious cyber activity that can be measured by the 
amount of corporate data stolen or deleted, personally identifiable 
information compromised, or remediation costs incurred by U.S. victims. 
Within the FBI, we are focused on the most dangerous malicious cyber 
activity: High-level intrusions by State-sponsored hackers and global 
organized crime syndicates, as well as other technically sophisticated 
attacks.
    Botnets used by cyber criminals are one example of this trend and 
have been responsible for billions of dollars in damages over the past 
several years. The wide-spread availability of malicious software 
(malware) that can create botnets allows individuals to leverage the 
combined bandwidth of thousands, if not millions, of compromised 
computers, servers, or network-ready devices to conduct attacks. Cyber 
threat actors have also increasingly conducted ransomware attacks 
against U.S. systems, encrypting data and rendering systems unusable--
victimizing individuals, businesses, and even public health providers.
    Cyber threats are not only increasing in scope and scale, they are 
also becoming increasingly difficult to investigate. Cyber criminals 
often operate through on-line forums, selling illicit goods and 
services, including tools that can be used to facilitate cyber attacks. 
These criminals have also increased the sophistication of their 
schemes, which are more difficult to detect and more resilient. 
Additionally, many cyber actors are based abroad or obfuscate their 
identities by using foreign infrastructure, making coordination with 
international law enforcement partners essential.
    The FBI is engaged in a myriad of efforts to combat cyber threats, 
from improving threat identification and information sharing inside and 
outside of Government, to developing and retaining new talent, to 
examining the way we operate to disrupt and defeat these threats. We 
take all potential threats to public and private-sector systems 
seriously and will continue to investigate and hold accountable those 
who pose a threat in cyber space.
                               going dark
    The rapid pace of advances in mobile and other communication 
technologies continues to present a significant challenge to conducting 
court-ordered electronic surveillance of criminals and terrorists. 
Unfortunately, there is a real and growing gap between law 
enforcement's legal authority to access digital information and its 
technical ability to do so. The FBI refers to this growing challenge as 
``Going Dark,'' and it affects the spectrum of our work. In the 
counterterrorism context, for instance, our agents and analysts are 
increasingly finding that communications and contacts between groups 
like ISIS and potential recruits occur in encrypted private messaging 
platforms.
    The exploitation of encrypted platforms presents serious challenges 
to law enforcement's ability to identify, investigate, and disrupt 
threats that range from counterterrorism to child exploitation, gangs, 
drug traffickers and white-collar crimes. We respect the right of 
people to engage in private communications, regardless of the medium or 
technology. Whether it is instant messages, texts, or old-fashioned 
letters, citizens have the right to communicate with one another in 
private without unauthorized Government surveillance, because the free 
flow of information is vital to a thriving democracy. Our aim is not to 
expand the Government's surveillance authority, but rather to ensure 
that we can obtain electronic information and evidence pursuant to the 
legal authority that Congress has provided to us to keep America safe. 
The benefits of our increasingly digital lives, however, have been 
accompanied by new dangers, and we have seen how criminals and 
terrorists use advances in technology to their advantage.
    The more we as a society rely on electronic devices to communicate 
and store information, the more likely it is that information that was 
once found in filing cabinets, letters, and photo albums will now be 
stored only in electronic form. When changes in technology hinder law 
enforcement`s ability to exercise investigative tools and follow 
critical leads, those changes also hinder efforts to identify and stop 
terrorists who are using social media to recruit, plan, and execute an 
attack in our country.
    In the criminal context, we are seeing more and more cases where we 
believe significant evidence resides on a phone, a tablet, or a 
laptop--evidence that may be the difference between an offender being 
convicted, or acquitted. If we cannot access this evidence, it will 
have on-going, significant impacts on our ability to identify, stop, 
and prosecute these offenders. In the first 10 months of this fiscal 
year, the FBI was unable to access the content of more than 6,000 
mobile devices using appropriate and available technical tools, even 
though there was legal authority to do so. This figure represents 
slightly over half of all the mobile devices the FBI attempted to 
access in that time frame.
    Where at all possible, our agents develop investigative workarounds 
on a case-by-case basis, including by using physical world techniques 
and examining non-content sources of digital information (such as 
metadata). As an organization, the FBI also invests in alternative 
methods of lawful engineered access. Ultimately, these efforts, while 
significant, have severe constraints. Non-content information, such as 
metadata, is often simply not sufficient to meet the rigorous 
Constitutional burden to prove crimes beyond a reasonable doubt. 
Developing alternative technical methods is typically a time-consuming, 
expensive, and uncertain process. Even when possible, such methods are 
difficult to scale across investigations, and may be perishable due to 
a short technical life cycle or as a consequence of disclosure through 
legal proceedings.
    Some observers conceive of this challenge as a tradeoff between 
privacy and security. In our view, the demanding requirements to obtain 
legal authority to access data--such as by applying to a court for a 
warrant or a wiretap--necessarily already account for both privacy and 
security. The FBI is actively engaged with relevant stakeholders, 
including companies providing technological services, to educate them 
on the corrosive effects of the Going Dark challenge on both public 
safety and the rule of law.
                      weapons of mass destruction
    The FBI, along with its U.S. Government partners, is committed to 
countering the Weapons of Mass Destruction (``WMD'') threat (e.g., 
chemical, biological, radiological, nuclear) and preventing terrorist 
groups and lone offenders from acquiring these materials either 
domestically or internationally.
    Domestically, the FBI's counter-WMD threat program, in 
collaboration with our U.S. Government partners, prepares for and 
responds to WMD threats (e.g., investigate, detect, search, locate, 
diagnostics, stabilization, and render safe WMD threats). 
Internationally, the FBI, in cooperation with our U.S. partners, 
provides investigative and technical assistance as well as capacity-
building programs to enhance our foreign partners' ability to detect, 
investigate, and prosecute WMD threats.
                               conclusion
    Finally, the strength of any organization is its people. The 
threats we face as a Nation have never been greater or more diverse and 
the expectations placed on the Bureau have never been higher. Our 
fellow citizens look to us to protect the United States from all of 
those threats, and the men and women of the Bureau continue to meet and 
exceed those expectations, every day. I want to thank them for their 
dedication and their service.
    Chairman McCaul, Ranking Member Thompson, and committee Members, I 
thank you for the opportunity to testify concerning the threats to the 
homeland. I am happy to answer any questions you might have.

    Chairman McCaul. Thank you, Director.
    The Chair recognizes the NCTC director, Rasmussen.

  STATEMENT OF NICHOLAS J. RASMUSSEN, DIRECTOR, THE NATIONAL 
  COUNTERTERRORISM CENTER, OFFICE OF THE DIRECTOR OF NATIONAL 
                          INTELLIGENCE

    Mr. Rasmussen. Thank you, Mr. Chairman and Ranking Member 
Thompson and Members of the committee. As I mentioned during my 
testimony before the committee last year, the array of 
terrorist actors around the globe is broader, wider, and deeper 
than it has been at any point since September 11, 2001. As we 
meet here today, the discipline of terrorism prevention is 
literally changing beneath our feet every day, and it requires 
that we respond with extraordinary agility and flexibility.
    I would like to take the opportunity today to share what I 
have seen in the way of changes in the terrorism landscape 
since I last testified before the committee. I will also say a 
few words about areas where we can do a better job of tackling 
the threat of those in the homeland who are mobilized to 
extremist violence and to strengthen our CT capabilities.
    So let me begin with what has changed or what is new with 
the overall threat. Those developments fall into three primary 
areas. The first of these is the coalition's success in 
shrinking the territory that ISIS controls in Iraq and Syria as 
compared to a year ago.
    The second major trend is an uptick in attacks inspired by 
ISIS that we have seen against Western interests around the 
globe in the last year as compared to attacks that are directed 
by the group from their headquarters in Iraq and Syria.
    The third trend I would point to is the resurgence of 
aviation threats reaching a level of concern that we in the 
intelligence community have not faced since AQAP's printer 
package plot back in 2010.
    So to start first with ISIS's losses on the battlefield. 
ISIS is clearly facing significant battlefield pressure from 
U.S. forces and the coalition, and the size of the territory 
the group controls is shrinking day by bay. As ISIS copes with 
that territorial loss, though, the group will look to preserve 
its capabilities by operating more as a covert terrorist 
organization and as an insurgency from its few remaining 
strongholds in Iraq and Syria. Now, this is undoubtedly good 
news. We are winning on the battlefield, but unfortunately, 
territorial losses have not translated into a corresponding 
reduction in the group's ability to inspire attacks, even 
including here at home.
    In over the last year, ISIS has inspired numerous attacks, 
particularly in the United Kingdom and Europe, and most 
recently right at home, as has been discussed earlier, in New 
York City on Halloween. The number of arrests and disruptions 
we have seen around the globe, while that is a testament to 
effective law enforcement and intelligent work, it also tells 
us that the global reach of ISIS remains largely intact, even 
as the group is being decisively defeated on the battlefield.
    Now that uptick in inspired attacks stands in contrast to 
the pattern of attacks we saw that were directed and enabled by 
the group from Syria in 2015 and 2016. So far this year, 
though, we have not seen the group successfully direct a large-
scale sophisticated attack like the Paris and Brussels attacks 
in previous years. But the number of inspired attacks, as 
Director Wray mentioned, is clearly on the rise. All of this 
underscores our belief that there is not a direct link between 
the battlefield position of ISIS in Iraq and their capacity to 
continue inspiring external attacks. So battlefield losses are 
not enough, not sufficient to mitigate alone the threat from 
ISIS.
    It is also worth me saying, even as we are focused on ISIS 
as a primary terrorism challenge, that al-Qaeda has never 
stopped being a primary counterterrorism challenge for the 
United States and a top tier priority. So even as we point to 
ISIS, we continue to see the continued evolution of al-Qaeda as 
a resilient organization. We know that al-Qaeda retains the 
capability intent to carry out attacks against our allies 
around the world.
    I will touch quickly now on the third development that has 
stood out in the threat environment: The threat to civil 
aviation. There is a long history to terrorists seeking 
innovative means to carry out aviation attacks. Aviation has 
taken center stage again this year, as evidenced by Australian 
authorities disrupting a plot back in July by terrorists to 
bring explosives aboard an aircraft.
    Terrorists have shown themselves to be persistent, out-of-
the-box thinkers with respect to aviation. Aviation-related 
threats have long been and will remain near or at the top of 
the things that demand our focused attention.
    This brings me to my final point: We need to do a better 
job of tackling the threat of those mobilized to extremist 
violence, particularly here in the homeland. One of things we 
do in the intelligence world quite well--that we do quite well, 
but we are always looking to improve on--is collecting 
intelligence and sharing it with those who need it. We share it 
across our various Federal agencies and increased partners 
around the country. We also do a great job of pushing 
Unclassified information to partners around the country.
    But beyond just sharing intelligence, there is certainly 
more we can do to prevent home-grown violent extremists from 
becoming radicalized, and we need to improve the toolkit that 
we use to deal with this problem. In short, we must expand our 
investment in terrorist prevention, specifically here in the 
homeland, doing what we can to prevent the recruitment of 
American youth and ensure that communities are equipped to 
respond and prevent all forms of violence.
    Now I am proud of the good work that I do, that my folks at 
NCTC do in this area, along with Director Wray and Secretary 
Duke's teams on this matter, but it is something that I am sure 
we could do better at, and I'm sure we should do on a greater 
scale. By leveraging all aspects of the elements of the Federal 
Government, working with State and local partners, I am certain 
that we can create a better and more significant culture of 
prevention and resilience across the United States.
    I will end there, Mr. Chairman, and once again thank you 
and the committee for your continued support of the work we are 
doing at NCTC. Speaking personally, thank you for your 
friendship, the committee's friendship, and the kind words that 
you used earlier today as I move on from Federal Government 
service and step down from NCTC at the end of December. But 
even though I am grateful for your kind words, I am also 
mindful that, whenever I appear before you, I am standing on 
the shoulders of many hundreds of talented women and men at 
NCTC. Serving alongside those professionals has been the honor 
of my life. It is their amazing work that I bring before you as 
their representative, and I look forward to answering your 
questions. Thank you.
    [The prepared statement of Mr. Rasmussen follows:]
              Prepared Statement of Nicholas J. Rasmussen
                           November 30, 2017
    Thank you, Chairman McCaul, Ranking Member Thompson, and Members of 
the committee, for the opportunity to be with you today. I am pleased 
to be joined by my colleagues and close partners, Acting Secretary 
Elaine Duke from the Department of Homeland Security (DHS), and 
Director Christopher Wray of the Federal Bureau of Investigation (FBI).
                            threat overview
    Over the past 16 years, we have made tremendous progress in our 
ability to detect and prevent catastrophic attacks like September 11, 
2001. We, along with many of our partners, have built a National 
security apparatus that has substantially expanded our ability to 
protect the safety and security of our communities. We share more 
information--with more frequency and with more partners--than we ever 
would have imagined possible a decade ago. And, we have reduced 
external threats emanating from core al-Qaeda and the self-proclaimed 
Islamic State of Iraq al-Sham, or ISIS, due to aggressive 
counterterrorism (CT) actions against these groups.
    However, both ISIS and al-Qaeda have proven to be extremely 
resilient organizations. ISIS's strategy to project its influence 
world-wide, despite geographic losses in Iraq and Syria, by using 
attacks and propaganda perpetuates fear and continues to attract 
violent extremists who wish to do us harm. Other terrorist groups 
around the world also continue to exploit safe havens created by 
ungoverned spaces and threaten the United States and our allies. 
Therefore, despite the progress we have made, it is our assessment that 
the current terrorism threat environment is complex, challenging, and 
geographically expansive, as we saw with recent attacks throughout 
Europe, in Egypt, and of course in New York City on Halloween. It is 
also our assessment that NCTC, along with our Federal partners, must 
expand our investment in terrorism prevention, specifically in the 
homeland to prevent the recruitment of American youth and ensure we are 
equipped to respond to and prevent all forms of violence.
                                  hves
    First, allow me to provide an overview of the most immediate threat 
to the Homeland which is the threat of violence carried out by 
Homegrown Violent Extremists (HVEs), which unfortunately, the recent 
vehicle attack in New York City made painfully clear. While there are 
multiple factors that mobilize HVEs to violence, ISIS's large-scale 
media and propaganda efforts will likely continue to reach and 
influence HVEs in the United States. Despite the recent tragic events 
in New York, there have been fewer attacks in the United States this 
year than the past 2 years, and we are working to determine the 
potential factors that may be responsible for this decrease in 
successful attacks. Arrests of HVEs remain at similar levels.
    What we have seen over time is that HVEs--either lone actors or 
small insular groups--tend to gravitate toward soft targets and simple 
tactics of opportunity that do not require advanced skills or outside 
training. We expect that most HVEs will continue to focus on soft 
targets, while still considering traditional targets, such as military 
personnel, law enforcement, and other symbols of the U.S. Government. 
Some HVEs--such as the Orlando shooter in June 2016 and the San 
Bernardino shooters in December 2015--may have conducted attacks 
against personally significant targets. The convergence of violent 
extremist ideology and personal grievances or perceived affronts likely 
played a role in motivating these HVEs to attack. We are still working 
to learn more about what may have motivated suspects in other recent 
attacks.
                                  isis
    ISIS continues to pursue multiple avenues of attack with varying 
levels of support provided by the group. Over the course of the year we 
have seen a spectrum of attack plots. This spectrum ranges from those 
``inspired'' by the group--in which ISIS claims responsibility for 
attacks where the attackers had no direct ties to the group--to attacks 
``enabled'' by the group--when ISIS reaches out to individuals through 
secure communications to prompt an attack--to ``directed'' ones, in 
which the group provides direct support from Iraq and Syria to attempt 
attacks.
    ISIS's reach and narrative, rooted in unceasing warfare against all 
enemies, extends beyond the Syria-Iraq battlefield. Since 2014, ISIS 
has conducted or inspired attacks ranging in tactics and targets--the 
bombing of a Russian airliner in Egypt; the attacks in Paris at 
restaurants, a sports stadium, and a concert venue; the killing of 
hostages and law enforcement officials at a cafe in Bangladesh; and the 
growing number of vehicle attacks such as those carried out in Europe 
over the past year--all of which demonstrate how ISIS can capitalize on 
local networks on the ground for attacks. The threat landscape is less 
predictable and, while the scale of the capabilities currently 
demonstrated by most of these violent extremist actors does not rise to 
the level that core al-Qaeda had on 9/11, it is fair to say that we 
face more threats originating in more places and involving more 
individuals than we have at any time in the past 16 years.
    As we saw with the July arrests in Australia, and with the attacks 
in Belgium and Istanbul last year, terrorists remain focused on 
aviation targets because they recognize the economic damage that may 
result from even unsuccessful attempts to either down aircraft or 
attack airports, as well as the potential high loss of life, and the 
attention the media devotes to these attacks. ISIS continues to 
innovate and test for security vulnerabilities in order to further its 
external operations and challenge our security apparatus. Since the 9/
11 attacks, world-wide security improvements have hardened the aviation 
sector but have not entirely removed the threat. Violent extremist 
publications continue to promote the desirability of aviation attacks 
and have provided information on how to target the air domain.
    For these reasons, shrinking the size of territory controlled by 
ISIS, and denying the group access to additional manpower and funds in 
the form of foreign terrorist fighters and operatives, as well as oil 
revenue and other financial resources, remains a top priority. Success 
in these areas will ultimately be an essential part of our efforts to 
continue reducing the group's ability to pursue external attacks and 
diminish its global reach and impact. We have made clear progress in 
these areas: ISIS has lost over 90 percent of the territory it once 
controlled in both Iraq and Syria; the number of fighters it has in 
those countries is significantly down, and its illicit income streams 
are down. But despite this progress, ISIS's ability to carry out 
terrorist attacks in Syria, Iraq, and abroad has not yet been 
sufficiently diminished, and the consistent tempo of ISIS-linked 
terrorist activity is a reminder of the group's continued global reach.
    The group's external operations capability has been building and 
entrenching during the past 2 years, and we do not think battlefield 
losses alone will be sufficient to degrade its terrorism capabilities. 
As we have seen, the group has launched attacks in periods when it held 
large swaths of territory as well as when under significant pressure 
from the defeat-ISIS campaign. In addition to its efforts to conduct 
external attacks from its safe havens in Iraq and Syria, ISIS's 
capacity to reach sympathizers around the world through its robust 
social media capability is unprecedented and gives the group access to 
large numbers of HVEs.
    Over the last 2 years, ISIS has lost several key leaders whose 
deaths deprive the group of senior members with unique skillsets. 
However, the group's effective propaganda continues to inspire violence 
even after the removal of key spokesmen, as we have seen by the range 
of radicalized individuals who continue to look to statements by 
deceased terrorist figures for guidance and justifications to conduct 
attacks. ISIS's media enterprise will probably continue to redirect its 
narrative away from losses to emphasize new opportunities, as seen with 
ISIS's recent media attention to territories outside the areas it 
formerly held in Syria and Iraq. It may also try to paint losses as a 
rallying cry for revenge against local security forces and 
international CT-actors, including the United States. Despite 
international efforts to prevent terrorism on-line, the volume of media 
availability and its spread across a multitude of platforms and 
websites will continue to be a challenge but we are steadfast in our 
containment measures.
    Deceased ISIS spokesman and external operations leader Abu Muhammad 
al-Adnani's final public statement encouraged ISIS supporters in the 
United States to conduct attacks at home instead of traveling to Iraq 
and Syria, suggesting that ISIS recognizes the difficulty in sending 
operatives to the homeland for an attack. ISIS likely views the United 
States as a harder target than Europe because it is further away, U.S. 
ports of entry are under far less stress from mass migration, and U.S. 
law enforcement agencies are not overtaxed by persistent unrest, as are 
some of our counterparts overseas.
    The threat environment in Europe is increasingly being driven by 
Europe-based individuals and small cells who are inspired by ISIS's 
call to act or receive general guidance from ISIS members elsewhere in 
the world. The combination of Europe-based operatives and simpler 
tactics makes identifying, prioritizing, and disrupting these 
individuals' plots more difficult for our European partners to detect 
and, is a dynamic that the U.S. Government must consider in order to 
effectively aid our European counterparts in identifying and disrupting 
future attacks.
    ISIS's leveraging of criminal, familial, and communal ties 
contributes to its ability to advance plotting in Europe. Many 
operatives involved in attacks since 2015 have had similar histories of 
criminal involvement, often petty crime, before becoming radicalized.
    ISIS's cadre of foreign terrorist fighters remains key in planning 
and executing external attacks. While only three of the nearly 50 
attacks in Europe since 2015 involved foreign terrorist fighter 
returnees, those attacks caused over half of the fatalities, suggesting 
that combat experience plays a role in the success of a sophisticated 
attack. Two years ago, we confirmed that ISIS successfully sent several 
operatives--including at least two of the Paris attackers--from Syria 
to Western Europe by having them blend in with the flow of some 1 
million migrants, asylum seekers, and refugees who traveled from Turkey 
to Greece in 2015. We have not seen ISIS successfully replicate this 
attack method in more than a year, probably because of increased border 
security and information sharing among our European partners.
                                al-qaeda
    We remain concerned about al-Qaeda's safe haven in Syria because of 
the presence of veteran al-Qaeda operatives there, some who have been 
part of the group since before the September 11 attacks, and who are 
exploiting the conflict there to threaten the United States and our 
allies.
    The Nusrah Front, also known as Hayat Tahrir al-Sham, is al-Qaeda's 
largest affiliate and one of the most capable armed groups operating in 
Syria. Its integration of al-Qaeda veterans provides the group with 
strategic guidance and enhances its standing within the al-Qaeda global 
movement. We believe the Nusrah Front's statement in July 2016 
announcing the separation of the group from the broader al-Qaeda 
movement was in name only and that Nusrah Front remains part of al-
Qaeda, supporting its ideology and intent to target the West. We will 
continue our efforts to counter this group and the threats it poses to 
the West.
    Al-Qaeda in the Arabian Peninsula, the only known al-Qaeda 
affiliate to have attempted a directed attack against the United 
States, continues to exploit the conflict in Yemen to gain new recruits 
and secure areas of safe-haven, contributing to its enduring threat. 
The group continues to threaten and call for attacks against the United 
States in its prolific media production, which includes its English-
language Inspire magazine providing instruction and ideological 
encouragement for individual actors.
    We have constrained al-Qaeda's effectiveness and its ability to 
recruit, train, and deploy operatives from its safe haven in South 
Asia; however, this does not mean that the threat from core al-Qaeda in 
the tribal areas of Pakistan or in eastern Afghanistan has been 
eliminated. We believe that al-Qaeda and its adherents in the region 
still aspire to conduct attacks and will remain a threat as long as the 
group can potentially regenerate capability to threaten the homeland 
with large-scale attacks. Al-Qaeda's allies in South Asia--particularly 
the Taliban and the Haqqani Network--also continue to present a high 
threat to our regional interests.
    We are also cognizant of the level of risk the United States may 
face over time if al-Qaeda regenerates, finds renewed safe haven, or 
restores lost capability. We are on alert for signs that al-Qaeda's 
capability to attack the West from South Asia is being restored and 
would warn immediately if we find trends in that direction.
    We also see increasing competition between violent extremist actors 
within South Asia itself, between and among the Taliban, ISIS's branch 
in South Asia, and al-Qaeda. This is an additional dynamic that we are 
working to understand. While conflict among terrorist groups may well 
distract them from their core mission of plotting attacks against 
Western targets, conflict also serves to introduce a degree of 
uncertainty into the terrorism landscape that raises questions that I 
don't think we have answers to yet. This is something we are watching 
very closely.
                             hizballah/iran
    In keeping with the diverse set of threats we face, I would be 
remiss not to briefly call out the malign activities of Iran and its 
partner, Lebanese Hizballah. Iran remains the foremost state sponsor of 
terrorism, providing financial aid, advanced weapons and tactics, and 
direction to militant and terrorist groups across the Middle East, all 
while it cultivates its own network of operatives across the globe as 
part of its international attack infrastructure.
    Lebanese Hizballah during recent years has demonstrated its intent 
to foment regional instability, by deploying thousands of fighters to 
Syria to fight for the Syrian regime; providing weapons, tactics, and 
direction to militant and terrorist groups in Iraq and Yemen; and 
deploying operatives to Azerbaijan, Egypt, Thailand, Cyprus, and Peru 
to lay the groundwork for attacks. The group also has devoted 
significant resources to expanding its arsenal, including advanced 
rocket and missile capabilities that threaten interests along the 
eastern Mediterranean and across the Arabian Peninsula.
    In the homeland, FBI's arrest in June of two operatives charged 
with working on behalf of Hizballah was a stark reminder of Hizballah's 
continued desire to maintain a global attack infrastructure that poses 
an enduring threat to our interests.
                                 trends
    Stepping back, the two trends in the contemporary threat 
environment that I highlighted before the committee last year continue 
to concern us. The first is the ability of terrorist actors to 
communicate with each other outside our reach with the use of encrypted 
communications. Most recently, terrorists have begun wide-spread use of 
private groups in encrypted applications to supplement traditional 
social media for sharing propaganda in an effort to circumvent the 
intelligence collection and private-sector disruption of their public 
accounts. As a result, collecting information on particular terrorist 
activities is increasingly difficult.
    The second is that we're seeing a proliferation of a rapidly-
evolving threat or plot vectors that emerge simply by an individual 
encouraged or inspired to take action who then quickly gathers the few 
resources needed and moves into an operational phase. ISIS is aware of 
this, and those connected to the group have understood that by 
motivating actors in their own locations to take action against Western 
countries and targets, these actors can be effective, especially if 
they cannot travel abroad to ISIS-controlled areas. In terms of 
propaganda and recruitment, ISIS supporters can generate further 
support for their movement, even without carrying out catastrophic, 
mass-casualty attacks. This is an innovation in the terrorist playbook 
that poses a great challenge. Further, martyrdom videos and official 
ISIS claims of responsibility for inspired individuals' attacks 
probably allow the group to convey a greater impression of control over 
attacks in the West and maximize international media exposure.
                          terrorism prevention
    Given these groups' ability to be innovative, the whole-of-
Government must respond with innovative approaches to prevent the 
radicalization to violence and recruitment to terrorism of individuals, 
specifically here in the homeland. I would like to talk a bit more 
about what NCTC is doing to prevent terrorism and the work that we 
assess still needs to be done.
    As a Federal Government, we have taken steps to organize and 
resource our efforts to prevent terrorism more effectively, under the 
leadership of DHS and the Department of Justice. We have been 
successful at helping provide communities with the information and 
tools they need to identify potential extremists and to engage with 
them before they reach the point of becoming an actual terrorist.
    NCTC accomplishes this mainly through a series of Community 
Awareness Briefings (CAB) and exercises that are produced and presented 
in cooperation with our interagency partners. As an example, the CAB, 
is an Unclassified presentation on radicalization to violence and 
violent extremist recruitment designed to build awareness and catalyze 
community efforts to prevent individuals from mobilizing to criminal 
activity or violence. We also developed the CAB ``Train-the-Presenter'' 
Program, which is designed to train local officials to present the CAB 
themselves to local audiences. Recently, these were expanded to include 
all forms of violent extremism in the United States to respond to a 
growing demand from Federal, State, local, and community partners for 
tools that reflect the full domestic threat picture.
    I am proud of all of the good work our Government--to include my 
colleagues at NCTC--is doing to prevent terrorism here in the homeland, 
but the reality, as was so tragically demonstrated in New York, is that 
we have to do more. The scale at which we undertake these efforts is 
too limited, and it is certainly not sized to tackle the kind of 
problem we are experiencing here in the homeland today. But we do know 
this: Prevention work has a positive impact in the places where we have 
tried it, we are poised to receive significant metrics through the good 
work of DHS that will help us better evaluate these efforts, and 
violent extremism is not a monolith.
    The bottom line is that our Government's work to prevent all forms 
of violent extremism expands the counterterrorism toolkit beyond the 
hard power tools of disruption, it is resource-efficient, and enables 
local partners--including law enforcement, social services providers, 
schools, and communities--to create alternative pathways that can 
protect our youth from a variety of violent foreign and domestic 
ideologies. But, we need to reaffirm and expand our commitment to 
prevention, both resourcing it at the Federal, State, and local level, 
and maintaining a whole-of-Government effort to continue to keep 
Americans safe.
                               conclusion
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, thank you for the opportunity to testify before you one this 
morning. As you know, I have announced my retirement from Government 
service effective by the end of this year. It has been a pleasure to 
work with this committee and I appreciate your continued support for 
the counterterrorism mission.
    I am certain my successor, along with our FBI and DHS partners, 
will carry on the tireless work to defeat the efforts of terrorist 
groups around the globe and here at home. There is no doubt that the 
world today is more challenging and more dangerous. But I would also 
argue that we have more capacity to defend ourselves--more capacity to 
keep ourselves safe--than we have ever had before.
    It has been my privilege to work with the dedicated men and women 
of the National Counterterrorism Center and serving as the director of 
this extraordinary organization has been the greatest honor of my 
professional life.
    Thank you all very much, and I look forward to answering your 
questions.

    Chairman McCaul. Thank you, Director. Thank you for your 
service to our country over the years.
    I now recognize myself for questions.
    Secretary Duke, we recently held a hearing with a TSA 
administrator. Nine-eleven was an aviation attack using 
airplanes as guided missiles into the World Trade Center and 
the Pentagon. This is still the crown jewel of ISIS and al-
Qaeda. The inspector general produced a report on the findings 
in terms of screening at airports, and quite frankly, it was, 
in my words, at the last hearing, disturbing to find that the 
TSA still has received a failing grade, a failed report card, 
when it comes to screening. Now, we heard this in 2015, and now 
we are in 2017.
    As you know, with the laptop threat, the ability to convert 
laptops into bombs and explosive devices to blow up airplanes, 
possibly in-bound flights into the United States, I think I 
speak for almost every Member of this committee that we need to 
take quicker action. There is technology available today. There 
are pilot programs today using computer tomography. It is like 
going from an X-ray to an MRI.
    Now, a lot of us in the committee have seen this, and so I 
sent to you a letter requesting that this technology be 
deployed, not in 2018 or 2019, but as soon as possible, given 
the nature of the threat that exists. Now, can you respond to 
that letter?
    Ms. Duke. Yes, Mr. Chairman. We agree with you that 
computer topography, or CT, is essential as part of our plan to 
raise the baseline of aviation security. We are currently 
developing the algorithms necessary to fully deploy that, and 
agree with you, it is essential for our TSA future.
    Chairman McCaul. What the administrator said was, well, we 
can't deploy the technology today because we would have to 
upgrade the software later. I think we should look at it from 
the other way around. We should deploy the technology today and 
stop procuring these X-ray machines. Deploy that technology 
today and then upgrade the software when it comes available at 
a later date.
    Do you have any thoughts on that?
    Ms. Duke. Yes, I agree. We are moving--we are already 
procuring some. Like I said, the algorithms are running 
different materials through to make sure that the machines can 
detect what we need them to detect. That is in process now, and 
we are, along with our foreign partners, working on making that 
the new standard for passenger baggage.
    Chairman McCaul. I believe that is one of the greatest 
threats to the homeland today. So we will be providing follow-
up.
    To Director Wray and Rasmussen, you know, the 5 years in my 
Chairmanship on this committee I saw the rise of ISIS and the 
rise of the caliphate and the rise of external operations and 
the threats coming out of that region. I think, fortunately, we 
are now seeing the fall of the caliphate, the defeat of ISIS in 
Iraq and Syria. But how do you see this threat evolving as we 
move on post-caliphate?
    Director Wray.
    Mr. Wray. Mr. Chairman, I think as Director Rasmussen said 
at the beginning, on the one hand, the collapse or the building 
collapse of the caliphate is good news. But I think the way we 
are concerned about a number of different things that could 
come out of that. One is, of course, what everybody in the 
world is concerned about is foreign fighters returning. I think 
in our instance, what we are primarily seeing there as a risk 
is that some of them would return, not directly to the United 
States, but perhaps to countries, say in Europe, and then from 
there, come into the United States.
    Second, we are concerned about home-grown violent 
extremists who continue to be inspired by ISIS, even if not 
directed in the sort-of classic sense. We know that ISIS is 
encouraging fighters who aspired to travel to stay where they 
are and commit attacks at home. So those are some of the issues 
that I think continue to exist, even with the caliphate 
collapsing.
    Chairman McCaul. Well, and I think the power of ISIS as 
opposed to al-Qaeda is the internet. I know you have worked 
with Google, Facebook, Twitter; I have as well. I look forward 
to working with you and the Secretary to try to get this stuff, 
and NCTC, off of the internet.
    Director Rasmussen.
    Mr. Rasmussen. I would echo everything Director Wray said, 
and just make one simple analytic point about a distinction 
that we have observed between al-Qaeda and ISIS over the years. 
Al-Qaeda operated, in most ways, as a clandestine covert 
organization with barriers to entry that made it difficult for 
individuals in many cases to become members. ISIS sought to 
become a mass movement. It sought to reach people, regardless 
of their prior affiliation with extremism, and to literally 
recruit anyone who would come in the door and agree to align 
with the ISIS world view. That means that the ISIS variant of 
this problem has brought us many more individuals who are 
radicalized around the world. So it is a problem that extends 
further and wider than the al-Qaeda problem that we face. That 
is not to stay it is all bad news. There is plenty we have done 
to mitigate the possibility of a large-scale catastrophic 
attack, the kind of directed attacks that Director Wray spoke 
about earlier, so I am not here to solely point to a bad news 
story. I am just pointing out that it is a different kind of 
problem today than what we faced a few years ago.
    Chairman McCaul. Thank you.
    Final question. Secretary Duke, my home State was hit--was 
devastated by Hurricane Harvey, parts of my district. Some 
Members on this committee have been there many times to see the 
devastation. I understand the decision perhaps was not yours 
but made of OMB, the office of OMB, but I have to just express 
my disappointment on the record at the recent $44 billion, I 
think, disaster recovery supplemental request. It was just a 
fraction of what my Governor, Governor Abbott, determined that 
Texas alone needed to recover. Does not adequately take into 
account the devastation in the other areas as well. Of course, 
places in my district have flooded three times over the last 2 
years. We need flood mitigation efforts. This is something that 
Congress will be making decisions on, but we have to entertain, 
not only the response recovery, but the flood mitigation.
    I would like you to respond to that, recognizing that this 
was not probably your decision to make, but I do want to 
register my disappointment with the administration on this 
issue.
    Ms. Duke. Yes, Mr. Chairman. I recognize that the amount in 
the supplemental did not totally address all the future needs 
of the disasters we experienced this summer. What that was 
intended to do is fund the Stafford Act work that needs to be 
done. Currently, I have looked at it, and I think it is 
appropriate and it is enough for the near term. We do have more 
work to do, along with the housing and urban development, and 
will be with Texas and the other areas until that work is done. 
I think that the innovative housing program we are doing that, 
what is known as the section 428 housing program, is going to 
be really helpful in restoring Texas.
    Chairman McCaul. Well, thank you. I look forward to working 
with you on that. Thank you.
    With that, the Chair recognizes the Ranking Member.
    Mr. Thompson. Thank you very much, Mr. Chairman. In light 
of your question, one of the on-going challenges we have is 
that Stafford Act jurisdiction is in the Transportation and 
Infrastructure Committee, and FEMA is over here with us. Every 
time a problem comes up, people look to us and it is where T&I 
comes. So that is an on-going battle that we have dealt with 
from our inception as a committee, and I hope some of this gets 
resolved fairly soon.
    Ms. Duke, the inspector general recently notified Congress 
that a report on the travel ban was being held up in your 
office. Can you provide us details on why it is being held up?
    Ms. Duke. There was a disagreement between the Office of 
the Inspector General and DHS on privileges, that included 
attorney-client privileges and executive privileges. Because 
the Attorney General does not agree with those privileges, had 
not issued the report. We feel it is important to maintain some 
of those privileges, especially since the matter addressed by 
the report is under litigation.
    I feel comfortable that the privileges we had to assert to 
the report were accurate. However, to be absolutely sure and 
make sure the public is confident too, we have ordered a third-
party review, independent review, to make sure that the 
privileges that we need to redact that report are sound.
    Mr. Thompson. But you are aware that the inspector general 
concluded that the Department violated certain aspects of the 
law relative to the implementation of it?
    Ms. Duke. The report itself was based on decision making 
that, you know, by practices is executive privilege. So it was 
problematic from the start, but we still are committed to 
working with the Attorney General and making sure that----
    Mr. Thompson. I understand. But you are aware of their 
conclusion?
    Ms. Duke. Yes, I am. Yes.
    Mr. Thompson. All right. Thank you.
    Mr. Wray, good to see you again, since we met in another 
forum yesterday. Can you share with us your analysis of the 
domestic terrorism threat here in America, and what does it 
include?
    Mr. Wray. Yes, Ranking Member Thompson. As we have 
discussed a few times I think, the FBI assesses the domestic 
terrorist threat to be a significant one, a major one. It 
presents some of the same kind of challenges that we see with 
home-grown violent extremists in that you are talking about 
loosely confederated people with less communication, less 
sophistication in the plotting of the attacks. Sometimes you 
have lone offenders, so-called lone wolves, some people like to 
use that expression, which makes it more challenging from a 
detection and prevention perspective.
    At any given time, including right as we sit here today, 
the FBI recently has had in the neighborhood of about 1,000 
pending domestic terrorism investigations. Those cover the 
waterfront, from everything from white supremacists and 
sovereign citizens, militias, all the way to anarchists, 
environmental extremists, et cetera. But the key point with all 
of them is that we are only focused on people who are engaged 
in violent criminal activity. That is what we are 
investigating, that is what we are focused on. We are not 
focused on ideology or opinion or rhetoric.
    Mr. Thompson. Thank you. Can you provide the committee with 
the most recent reporting on the categorization of those 
different terrorists?
    Mr. Wray. I would be happy to have my staff get together 
with yours and see if we can get you some more helpful and 
detailed information on that.
    Mr. Thompson. Thank you. One of the things for our 
departing NCTC director that the FBI director talked about was 
home-grown violent extremism. You referenced that in your 
testimony as part of that three-legged stool that you have been 
concerned about. Can you share with us why that is a concern of 
yours?
    Mr. Rasmussen. Absolutely, Mr. Ranking Member. As Director 
Wray noted, many of the individuals who we categorize as home-
grown violent extremists don't typically engage in the kind of 
behavior that makes detection and disruption easy for the law 
enforcement and intelligence community. They aren't necessarily 
communicating, they aren't necessarily gathering in large 
groups, they aren't necessarily traveling to conflict zones or 
engaging in the kind of behavior that would be good predictors 
that someone might be interested in carrying out a terrorist 
attack. So that puts a tremendous amount of pressure on law 
enforcement at the local level and certainly my FBI colleagues 
to try to figure out who is the person who is just there 
dabbling and sampling and looking at material, and who it the 
person that is actually looking to maybe mobilize and actually 
act on their beliefs and carry out a terrorist attack. So that 
becomes a much different challenge, a much more difficult 
challenge than what we face typically in trying to disrupt 
sleeper--so-called sleeper cells or other terrorist cells that 
might have infiltrated the country from abroad. It is just a 
harder problem.
    Mr. Thompson. So is your testimony that we need more 
funding to address that increasing home-grown terror threat in 
this country since you have identified it as a growing 
vulnerability for us as a country?
    Mr. Rasmussen. I wouldn't necessarily pose it as being only 
measured in funding. I think about the communities around the 
country where I have had conversations with local law 
enforcement, and they clearly desire greater Federal help, I 
believe, in understanding the threat landscape and 
understanding how it is that these home-grown violent 
extremists appear in their midst. So if we can do that through 
information sharing, if we can do that through sharing of 
personnel and best practices, then that to me would be a 
contribution.
    I just don't think--I think the scale of the problem is 
such that we have to put more effort behind it. I wouldn't 
isolate funding alone as the issue.
    Thank you. I yield back.
    Chairman McCaul. The Chair recognizes the gentleman from 
Alabama, Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Wray, in October 2015, Director Comey was testifying 
before this committee, and I asked him if he had the resources 
he needed to handle the terrorism investigations that were 
pending before them, and also to investigate the surge of 
attacks on soft targets that were occurring at the time. His 
response was, ``To be honest, I don't know.''
    So I know the FBI has been stretched thin over the last few 
years and had to pull agents off criminal investigations to 
look into these terrorist attacks. But I would pose that 
question to you. I know you have only been there 3 months, but 
have you been able to determine whether or not you have the 
resources you need to meet the challenges that you face?
    Mr. Wray. Well, at the risk of sounding like my 
predecessor, but combined with the fact that I have only been 
there for 3 months, I am still taking stock of that. I will 
tell you that everywhere I turn, I find people who want the FBI 
to do more of something, and some day I would like to find 
somebody who would identify something they would like the FBI 
to do less of. I haven't met that person yet. So we have a lot 
of challenges, as you say.
    I think we have matured to the point where we are not 
having to pull people off of programs quite the same way that 
used to happen. I think as Director Rasmussen said, it is not 
just a question of funding; I am not convinced we can spend our 
way out of the threat. Some of it is getting smarter, some of 
it is working better collaboratively. I am very pleased with 
how much better the FBI, which wasn't always that way in long 
times past, working with its partners in the Federal law 
enforcement, intelligence community, foreign partners, State 
and local law enforcement, in particular. So we had to be 
smarter, we had to get better technology, and we had to make 
sure we have the right resources. Could we do more if we had 
more? Absolutely.
    Mr. Rogers. Well, we need you to let us know. If you get to 
the point that you determine that you need additional resources 
to be able to meet your needs, we can't fix it if we don't know 
about it, and try to get you what you need. So I would ask you 
to not be shy.
    Mr. Wray. Thank you for your support.
    Mr. Rogers. Thank you.
    Secretary Duke, welcome back. A lot of work has gone into 
improving our visa security process, but it is clear that 
vulnerabilities remain, especially identifying those who are 
radicalized over the internet. So can you tell us what, if 
anything, is being done to connect the USCIS and the visa 
process to the latest intelligence to help vet applicants from 
high-risk areas?
    Ms. Duke. Sure. We have instituted many new visa review 
steps that are going to help with making sure that we have the 
true identity of the persons that are applying for visas, and 
also that they don't have a criminal purpose in coming here.
    One of the biggest things we are doing is the 100 percent 
interviews, and also looking at advanced information sharing. 
As we talk about some of the other topics, the speed we are 
moving at, having that information sharing with the other 
countries is absolutely critical, and doing the vetting against 
the databases. Also, social media checks, where applicable, 
have played a huge role in better vetting of visa applicants. 
Those are a few of the areas.
    Mr. Rogers. OK. This may not be dramatically different from 
that answer, but what steps is DHS taking under the Trump 
administration to develop and implement what he has referred to 
as extreme vetting?
    Ms. Duke. Well, it has been a multi-level step. First, we 
decided what vetting should be, what additional steps should we 
take in vetting people. Then we compared the country's 
performance.
    Mr. Rogers. What were those additional steps?
    Ms. Duke. Those additional steps were making sure that 
passports had biometrics, that we had copies of those 
passports, that countries provided us advance information, 
those similar types of steps. We have a full report on that 
that we can provide. Then we compared the--and the country's 
actually using our databases and us using theirs. Then we 
compared the country's performance against that, and we have 
instituted get-well plans, if you will, for the countries that 
don't fully conform to the new vetting standards.
    Mr. Rogers. So would you assert then that this new status 
of extreme vetting is fully implemented now?
    Ms. Duke. It is fully implemented. We always have to get 
better. I think that every time we put a fix in place, the 
enemy gets--adapts to it, but it is in place.
    Mr. Rogers. Great. Thank you very much.
    Mr. Chairman, I yield back.
    Chairman McCaul. The Chair recognizes the gentleman from 
Massachusetts, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. Thank you for being 
here, and thank you for your service. It is much appreciated.
    Secretary Duke, you mentioned that terrorists will use any 
weapon at their disposal, you know, on different terrorist 
threats, so I have a question for Director Wray in that regard. 
There is tens of thousands of individuals, and many of the 
attacks we are talking about, guns were clearly a part of this, 
and firearms and weapons. Tens of thousands of individuals 
removed from the NICS background check, the National Instant 
Criminal Background Check, for guns after the FBI changed its 
interpretation of and limited who is considered a fugitive from 
justice. That decision was made in February. It is now 
December. We have no idea how many people bought firearms this 
year, even though there are outstanding warrants for their 
arrest, just because there is no evidence they crossed State 
lines.
    Now, how did this decision come to be? Isn't this a gap in 
trying to secure our safety and trying to keep these kind of 
weapons away from terrorists and their--you know, we have 
websites that are telling people and directing people how to 
get these kind of weapons, but we have fugitives from justice 
now in our own country that aren't being picked up by the NICS 
system now. Could you just tell us why that was done, and if 
there is something to fix this gap, which I think is a very 
serious one?
    Mr. Wray. Thank you, Congressman. The change that you are 
referring to was the product of several years' long debate, as 
I understand it, between the FBI and the ATF about the 
interpretation of that prohibiter, the fugitive prohibiter 
under the Brady Act. The FBI interpreted it as not requiring 
crossing of State lines, and the ATF had interpreted it 
differently. Under the prior administration, the Justice 
Department came down with a legal determination, prompted in 
part by the inspector general, and resolved that legal 
disagreement about what the statute meant in favor of the 
narrower interpretation that is different from the FBI's 
interpretation at the time.
    So I think it was in January that that change was--legal 
change was declared. The Department, again, under the prior 
administration, as I understand it, sent a notification to both 
the House and Senate Judiciary Committees notifying them of the 
change and the impact of the change and, essentially, inviting 
legislative fix. So it may be the kind of thing that can be 
addressed through legislation. But once that change went in 
place, the FBI promptly complied.
    Mr. Keating. Well, thank you for clarifying that. So that 
is on our watch now as Members of Congress to change this, and 
I hope we do.
    Secretary Duke, thank you too for clarifying and agreeing 
to move forward on the CT technology and getting that in the 
field. That is something our last hearing really had a great 
concern about. Thank you for doing that. But Administrator 
Pekoske too said that the other issue is a budgetary issue in 
moving these things forward. I realized through, you know, the 
monies that people pay for a fee outside of things on their own 
as they board airplanes, that that money was moved, again by 
Congress, away from that.
    But can you tell us right now, if we provided that 
budgetary assistance, you would be able to move quicker for 
that new technology in the field. Do you agree with the 
administrator on that?
    Ms. Duke. Yes. We have the money to deploy, to build out 
complete research and development and deploy some machines. You 
know, as the FBI director said, there is always more to do, but 
right now, I feel comfortable that we are deploying that 
technology. We also have the commitment of some of our foreign 
partners.
    Mr. Keating. If I could, my time is running out. If indeed 
there were more money--he indicated it is a budgetary issue as 
well. Is that correct?
    Ms. Duke. It is a prioritization issue, yes.
    Mr. Keating. All right. I think it is a priority, if we are 
going to keep our people safe here in this country that are 
traveling in the airlines.
    Quickly, the NRC, Nuclear Regulatory Commission, in terms 
of cyber attacks, has tried to upgrade requirements for nuclear 
plants. I have one in my district facing, in a few years, 
decommission, and they have applied for a waiver away from 
these cybersecurity upgrades so that it is not there for an 
attack.
    It is my understanding that Homeland Security really 
doesn't have the role, that it is really the NRC. Don't you 
think you should have a direct role in this? I think you 
should. I don't think the Nuclear Regulatory Commission is the 
right agency by itself to be making those kind of safety 
considerations in terms of a cyber attack.
    Ms. Duke. Yes. To my knowledge, you are correct, that we 
don't have that specific role in waiving. We do assist the 
critical infrastructure sectors, but do not have that direct 
regulatory role.
    Mr. Keating. Well, thank you. I would like to engage your 
office in terms of trying to suggest ways to shore that up. It 
is another gaping hole.
    Thank you, and I yield back.
    Chairman McCaul. The gentleman yields back.
    Just a quick clarification, Madam Secretary. Are the monies 
available today to purchase the computer tomography technology?
    Ms. Duke. We have some funding for the CT technology. We do 
not have the funding to deploy it at every airport.
    Chairman McCaul. Would that require a reprogramming by 
Congress?
    Ms. Duke. That would require--to buy for every airport 
would require much more than a reprogramming.
    Chairman McCaul. OK. I would like to follow up with you at 
a later date on that. Thank you so much.
    Ms. Duke. OK.
    Chairman McCaul. The Chair recognizes the gentleman from 
Pennsylvania, Mr. Perry.
    Mr. Perry. Thanks, Mr. Chairman. Thanks, ladies and 
gentlemen, for your attendance and your service.
    Secretary Duke, you talked a little bit about the vetting 
process and the extreme vetting process a little bit. I would 
just like to drill down on that a little bit and ask you: Is 
there a system to investigate or at least query in a minimal 
sense, at least, the intending entrance for an ideological 
affinity to some other alien or hostile legal system opposed to 
the U.S. Constitution, similar to what was done by the United 
States during the Cold War with some of our adversaries whose 
potential entrants wanted to come into our country?
    Ms. Duke. Yes. An affiliation with an ideology or a country 
that is known for ideologies that are contrary to the United 
States is something we look at in terms of the extreme vetting.
    Mr. Perry. So there is literally a question-and-answer 
portion to that? Or when you say you look at it, what does that 
mean in practical terms?
    Ms. Duke. One of the things we look at is where a person 
has traveled to, and if they show a travel pattern in countries 
that have a high degree of terrorism, we look at that. We also 
look at social media, if appropriate, to see if there is 
anything on it that indicates they are following terrorists 
websites, those type of things, for example.
    Mr. Perry. Well, not only just terrorist websites, but 
things that are antithetical to the West and democracy and our 
Constitution is what I would be interested in as well. Not only 
just terrorism, but that. I am wondering, do you literally 
question them? As opposed to just looking at their travel and 
maybe social postings, do you ask them: Do you agree with the 
United States Constitution? Would you uphold and defend the 
United States Constitution? Do you believe that sharia law 
should supersede, for instance, the Constitution?
    Ms. Duke. I do not know the specific questions of the 
interview, but I can get back to you. I do know they adapt 
based on the person's scenario.
    Mr. Perry. Absolutely. I appreciate it, and I will look 
forward to a continuing conversation on that.
    Director Wray, thanks for your service. Good luck to you. 
Just curious if you can tell me if the FBI has taken any steps 
to reverse the previous administration's purge of training 
courses and information about Islamism, jihad, sharia, and the 
Muslim Brotherhood?
    Mr. Wray. Congressman, I am not aware of any on-going 
efforts to purge training material.
    Mr. Perry. They were purged in the last administration. So 
my question is: Have you taken any steps or has the FBI, as you 
know it, taken any steps to reverse that purge or include some 
of those things that allow us to see in totality the threat 
that faces America?
    Mr. Wray. I have not studied what has been done in the 
training, but I appreciate your bringing that issue to my 
attention and I am happy to take a hard look at it.
    Mr. Perry. OK. If we could have a continuing conversation 
on that as well, I would appreciate it.
    Director, antifa operates across the United States in ways 
that involve, at least potentially, criminal inter-State 
activities, such as inciting riot and conspiracy to incite 
riotous behavior. I am wondering if the FBI is doing anything 
to counter antifa in that regard, including and investigating 
their funding sources?
    Mr. Wray. As I mentioned to Ranking Member Thompson, we do 
have a very active domestic terrorism program. While we are not 
investigating antifa as antifa, that is an ideology and we 
don't investigate ideologies, we are investigating a number of 
what we would call anarchist extremists investigations, where 
we have properly predicated subjects of people who are 
motivated to commit violent criminal activity on kind-of an 
antifa ideology. So we have a number of active investigations 
in that space all around the country.
    Mr. Perry. So that space would include individuals, but if 
a group itself, even though, like you said, it is an ideology, 
but if the group is receiving funding to promote that ideology, 
which is not congruent with the law, is that something that you 
delve into, especially when it crosses State lines?
    Mr. Wray. Well, certainly, any time we are doing a domestic 
terrorism investigation, whether it is just into an individual 
or to, let's say, a collection of individuals, we do enterprise 
investigations when there are multiple individuals working 
together. The funding that supports violent criminal activity 
is absolutely something we are keenly interested in.
    Mr. Perry. OK, I appreciate it.
    Finally, Director Rasmussen, regarding antifa and their 
international networks, can you describe how the NCTC acts to 
counter them, if you do?
    Mr. Rasmussen. Thank you for the question, but we actually 
don't. With respect to domestic terrorism issues here in the 
United States, my agency's mandate and authorities are limited 
to matters of international terrorism, and that was in the 
founding legislation that created NCTC. So we defer to FBI in 
this role.
    Mr. Perry. So if there are international connections to 
these groups that are operating domestically, you turn that 
over, you don't take any----
    Mr. Rasmussen. Well, certainly, if there was intelligence 
that tied any individual here in the United States to a foreign 
terrorist organization, that changes the nature of the problem 
and becomes very much a collaborative effort with the FBI.
    Mr. Perry. But if it is not a foreign terrorist 
organization, but foreign organizations or foreign funding, 
does that invoke your authority?
    Mr. Rasmussen. Not to my--I don't believe so, unless it 
would involve a foreign terrorist organization. But if that 
kind of intelligence were to emerge, we would certainly make 
sure our FBI colleagues were aware of it.
    Mr. Perry. Thank you, sir.
    I yield back.
    Chairman McCaul. The Chair recognizes the gentlelady from 
New York, Miss Rice.
    Miss Rice. Thank you, Mr. Chairman.
    So this question is for Director Wray. Earlier this week, 
Karim Baratov, a Canadian citizen, pled guilty to charges that 
he worked for the Russian intelligence service, FSB, as part of 
the 2013 Yahoo hack that led to the theft of 500 million Yahoo 
accounts, one of the largest cyber breaches in history. Three 
other conspirators, including two Russian FSB officers, have 
been indicted, but have evaded arrest. This case is the first 
time the United States has issued criminal charges against 
Russian officials for a cyber attack, even though Russian 
aggression has continued to rise in that area.
    We have seen large-scale cyber attacks on U.S. companies 
Equifax, Uber, Verizon. They are just some of the biggest 
breaches this year. What other cyber attacks do you suspect 
Russian involvement in?
    Mr. Wray. Well, without commenting on any specific 
investigation, I think you have put your finger on what we view 
as one of the more dangerous emerging threats, which we refer 
to as a blended threat, which is the--and it is particularly 
seen in the exact example that you mentioned, the Yahoo attack, 
where you have the blend of a nation-state actor, in that case 
the Russian intelligence service, using the assistance of 
criminal hackers, which you think of almost like mercenaries 
being used to commit cyber attacks.
    One of the reasons we thought that bringing that particular 
case was important, even though, as you say, some of the 
defendants are Russian Government officials who are safely in 
Russia, was to try to highlight to the public the importance of 
being vigilant on this threat. So we are seeing emergence of 
that kind of collaboration, which used to be two separate 
things, really, sort of nation-state actors and criminal 
hackers. Now there is this collusion, if you will, that is 
occurring on a number of instances.
    Miss Rice. What do you think Russia's motivation is for 
these attacks?
    Mr. Wray. Well, I think Russia is attempting to assert its 
place in the world and relying more creatively on a form of 
asymmetric warfare to damage and weaken this country 
economically and otherwise.
    Miss Rice. We have been focused today on terrorist threats 
at home and abroad. Should the American people consider 
Russia's repeated attempts to breach their personal data as a 
terrorist threat?
    Mr. Wray. Well, I think it is certainly a threat we should 
take seriously as a National security matter or a homeland 
security matter. I don't know that we would brand it a 
terrorist threat, but I think that, to me, is sort-of a 
labeling issue more than anything else. It certainly is a very 
serious threat that the public needs to be aware of and that we 
are all working collectively to try to do more to combat.
    Miss Rice. I guess it depends on what you feel the 
motivation is at the end of the day, what their motivation is, 
and is this just a part of getting to that ultimate goal?
    What steps are you taking to, in your department, taking to 
deter these attacks? No. 1. Do you expect any future 
indictments of Russian officials, without naming any? Last--or 
just on this part of the question, do you believe that they 
will ever be extradited and brought to the United States for 
trial?
    Mr. Wray. Well, taking you to the last part of your 
question first, we don't have an extradition relationship with 
Russia. So if they stay in Russia, I wouldn't necessarily 
expect to see them coming to the United States. On the other 
hand, if they travel, that is going to be a challenge for them, 
because they are now, at that point, fugitives wanted by the 
FBI.
    Miss Rice. Would we pursue them then?
    Mr. Wray. Absolutely.
    As far as what we are doing, we have tried to model more 
and more our cyber efforts along the sort-of more developed 
front that we have in the terrorism space. So we have--just 
like we have JTTFs in all 56 offices, we have cyber task forces 
in all 56 field offices that are multi-agency, that have 184 
different agencies participating.
    We have something called CyWatch, which is a lot like our 
National terrorism watch, where we coordinate closely with DHS 
and others. We are trying to do more private-sector outreach, 
because one of the things that is different in the cyber space 
than the terrorist, is the need to kind-of work with the 
private sector.
    Miss Rice. I am glad to hear you say that, because I think 
that is a great idea.
    Finally, Russia's interference in the 2016 election was an 
unprecedented attack on our democracy. What are you, 
specifically your agency, doing to protect our election systems 
in 2018?
    You know, the Chairman has been really, I think, bravely 
outspoken on this issue in talking about how this is not a 
political issue, it is an American issue. It is a democratic 
issue. Are you working with social media companies to prevent 
the dissemination of Russian fake news and limit the effects of 
Russian trolls?
    Mr. Wray. So first, needless to say, I take any effort to 
interfere with our election system by Russia or any other 
nation-state or any non-nation-state extremely seriously 
because it strikes right at the heart of who we are as a 
country. We have, at the FBI, we are focused very much forward-
looking on the next, you know, couple of election cycles.
    So we are doing a couple of things. We have a foreign-
influence task force that I have stood up inside the FBI that 
brings together different divisions of the FBI, because it is a 
multidisciplinary kind of problem. So it has got a 
counterintelligence dimension, a cyber dimension, a criminal 
investigation dimension. We coordinate closely with DHS, which 
has responsibility for the critical infrastructure dimension of 
our election system.
    We are coordinating with our foreign partners because, 
happily for me, we don't have elections every year in this 
country, but other countries do, and we can learn from what 
Russians and other countries are trying to do with other 
elections in terms of the tradecraft, et cetera. So we are 
trying to kind of get in front of it and figure out and be on 
the lookout for efforts to interfere going forward. So that is, 
at a high level, a summary of what we are doing.
    Miss Rice. Thank you very much. Thank you, Mr. Chairman.
    Chairman McCaul. Thank you.
    The Chair recognizes the gentleman from New York, Mr. 
Donovan.
    Mr. Donovan. Thank you, Mr. Chairman. I thank all of you 
for what you do to protect our Nation, and the sacrifices you 
and your families make for our families.
    Secretary Duke, you noted in your testimony that you are 
rethinking homeland security for a new age. In many cases, 
however, DHS is still operating on the same authority that it 
was issued 15 years ago. Our role, we have to ensure that you 
have the tools and the resources you need to address the ever-
changing threatened landscape in our Nation.
    As you know, earlier this year, this committee, under the 
leadership of Chairman McCaul, crafted, and the House of 
Representatives approved, the first-ever comprehensive DHS 
reauthorization bill. The bill authorizes vital grant programs 
for first responders. It enhances intelligence and information 
sharing, and it provides authorities for a number of DHS 
components, like ICE, CIS, and the Coast Guard.
    What effect will this reauthorization bill have on the 
Department's ability to meet its mission? How important is it 
that the Senate expeditiously acts on this piece of legislation 
for you in your efforts of the brave women and men who work for 
you?
    Ms. Duke. Thank you. We think the reauthorization bill is 
very important to DHS, and what it will do is it will help us 
partner with Congress in terms of prioritizing and making sure 
that we are focused with laser vision on the homeland security 
issues that face our country. So I think it is very important 
because this is an enduring threat, and to make sure that we 
are unified and focused would be one of the most significant 
effects.
    Mr. Donovan. How is the lack of action over in the Senate 
and the lack of the reauthorization bill that we passed 
handcuffing, curtailing your efforts in what you are trying to 
achieve for our Nation right now?
    Ms. Duke. I think with a lack of authorization, we have 
many different opinions and jurisdictions over what should be 
the priorities for our Nation. So it makes it more complicated 
to move forward crisply and clearly, especially on both the 
authorization and on the appropriations side. Where do we put 
that next dollar toward what risk in which way?
    Mr. Donovan. It sounds to me like there is a lack of 
certainty of what the future will hold for the agency unless 
Congress acts to allow you to plan and prepare for the future.
    Ms. Duke. Yes. It certainly--it does cause--it is a lack of 
clarity, definitely.
    Mr. Donovan. Thank you very much.
    Director, I welcome my fellow New Yorker.
    Ranking Member Thompson and my colleague from Pennsylvania, 
Mr. Perry, were speaking about this crossing of State lines for 
rioting and matters that you are facing now. I am always 
concerned about people using disguises and masks, like they did 
at the Berkeley riots, preventing their identity from being 
revealed to law enforcement.
    We are a legislative body that is charged with creating 
laws to help you protect our Nation. I have always asked 
witnesses at hearings, what tools do you need? What could this 
committee do? What could Congress do to aid the brave agents 
that work for you? What laws would you like to see us create 
that will help you address some of these things, like people 
crossing State lines for rioting, enhancing Federal sentencing 
for that, disguising their identities during these riots?
    I know there are some local laws. I was the prosecutor--I 
was the elected DA, one of the five DAs of New York City for 12 
years. What could we do for you to help you in the efforts to 
protect our Nation and our families?
    Mr. Wray. Needless to say, Congressman, that is a question 
I would love to answer for hours. So I appreciate the question. 
I think, looking down at the clock with the 45 seconds 
remaining, the thing I would say more than anything else, I 
would urge every Member of this committee to support 
reauthorization of section 702, and not to erode the important 
tool that we have there.
    Just to give some context, the reason why that is so 
important, the FBI's ability to query its own database, which 
is what 702 allows us to do, is picture a situation where some 
person in this country buys a huge amount of hydrogen peroxide. 
Nothing wrong with that, necessarily, but we know hydrogen 
peroxide is a precursor for terrorist attacks. It can also be 
used for other things.
    So if the merchant sends the FBI a tip that, hey, somebody 
brought an unusual amount of hydrogen peroxide, here is the 
email address for it, right now, under 702, the FBI agent doing 
a National security investigation can run that email address. 
If it turns out that that person is in contact with a known 
ISIS recruiter overseas, suddenly, that purchase becomes a lot 
more important and we can mobilize the scarce resources we have 
talked about in a way to make that a priority.
    If 702 is eroded, we lose that ability and we make people 
less safe. So there are a lot of tools I think we could add, 
but right now, I am very focused on not losing the one that we 
need and that we have already. Thank you.
    Mr. Donovan. Wonderful. Thank you again for your service. 
By the way, Bill Sweeney is a great SAC in New York. Unless you 
are going to promote him, leave him there, OK? Thank you.
    Chairman McCaul. The Chair recognizes the gentleman from 
California, Mr. Correa.
    Mr. Correa. Thank you, Mr. Chairman and Ranking Member 
Thompson, for holding this important hearing.
    One of the very important purposes of this committee is to 
assess and address all threats posed to our country. Given the 
ISIS-style attack in Charlottesville by white supremacists, I 
asked this committee to hold a hearing on white supremacists 
terrorism.
    In February 2015, the Department of Homeland Security 
issued an intelligence assessment warning that sovereign 
citizen extremist ideology would prompt violence across the 
United States. In May 2017, the Joint Intelligence Bulletin 
produced by the FBI and the Department of Homeland Security 
stated that white supremacists were responsible for 49 
homicides and 26 attacks from 2000 to 2016, more than any other 
domestic extreme movement.
    We must not take our eyes off the ball in regard to threats 
posed to our country. We were unprepared for 9/11, and there is 
no excuse if we are not prepared for another large-scale attack 
like that of Oklahoma City. With that being said, I want to 
thank the FBI and the other agencies.
    I have a New York Times article from August that says, 
``Bombing plot in Oklahoma City is stopped with the arrest, FBI 
says.'' This individual was looking to take out many, many 
people. It says here Mr. Varnell espoused an anti-Government 
ideology and had expressed an interest in carrying out an 
attack that would echo the bombing of the Federal building in 
Oklahoma City in April 1995 that killed almost 170 people.
    So thank you very much for that very good work, to you and 
the other agencies.
    Director Wray, and Acting Secretary Duke, as you know, 
Congress passed Senate Joint Resolution 49 that was signed by 
the President in September. It condemned the racist violence 
and domestic terror attacks in Charlottesville, and urged the 
President and the administration to use all available resources 
to address a growing prevalence of domestic terrorist groups.
    My questions are, are you in your organizations doing 
anything differently since this resolution was signed?
    Ms. Duke. We support the FBI strongly. I think what we have 
done recently is make sure that we are doing the training and 
the information sharing with the State and local governments. 
We believe that with both domestic terrorism and home-grown 
violent extremists, two different groups, but they are both 
decentralized, and we need the State and local governments, 
especially the local, to be one part. So we are working 
closely----
    Mr. Correa. Acting Secretary, you mentioned earlier as well 
that there was a blurring of lines between domestic and 
international activities. So following up on your coordination 
of locals, do you also--have you put that same effort, will you 
put that same effort in coordinating with our allies and our 
neighbors to the north and to the south?
    Your predecessor here, in this committee, said if those 
threats get to the border, we have essentially lost the fight. 
So, what are we doing to make sure these terrorist threats 
don't get even close to our borders?
    Ms. Duke. The most important thing is information sharing 
and partnering. We need to know about them early on before they 
board planes, before they move.
    Mr. Correa. So are you working with our allies and our 
neighbors to the north and south?
    Ms. Duke. Absolutely. North and south, and also the 
European Union and other European countries. But definitely, 
Canada, Mexico, the Northern Triangle, and South America.
    Mr. Correa. Sir.
    Mr. Wray. So on the white supremacists threat in particular 
in the wake of Charlottesville, we had a conference call with 
all of the SACs, you know, from around the country trying to 
make sure that they had learned--they could learn from the 
experience in Charlottesville, in particular, and people were 
pooling ideas and information about things they were seeing.
    We have JTTFs in every field office, and they have that as 
one of their specific areas of focus.
    Mr. Correa. So I would ask both of you, are you doing 
anything different in terms of following databases, updating 
databases, trying to track white supremacists groups in the 
United States, compared as to the efforts you would put to 
track ISIS-style terrorists that are threatening our citizens?
    I believe both of those groups pose equal threats. An 
American citizen that loses their life to a terrorist attack, 
whether it is motivated by ISIS or it is motivated by white 
supremacists, it doesn't matter, it is still a tragedy in our 
society and our country. So are you doing anything to refocus 
to make sure that these white supremacist groups are being 
followed and being monitored as you would any other group?
    Ms. Duke. One of the major things we have done very 
recently is open the Office of Terrorism Prevention 
Partnerships, which is making sure every piece of information 
we get, the State and local governments have to be at the point 
to notice and deal with any types of hate crimes in these 
groups. Training and information sharing are two of our major 
efforts.
    Mr. Wray. We have stepped up investigative interest, but we 
do not, as I think you may know, we do not, on the domestic 
terrorism front, investigate groups in the same way. In other 
words, because of the First Amendment issues and the freedom of 
expression issues and the somewhat ugly history that the FBI 
has had in the past, we have very specific rules on the 
domestic terrorism front where, in order to open an 
investigation, there has to be credible evidence of Federal 
crime, a threat of force or violence to further a political or 
social goal. If we have all of those three things, then we open 
a very aggressive investigation.
    Mr. Correa. Thank you. Mr. Chairman, I am out of time, but 
I would like to ask unanimous consent to submit this statement 
for the record. It is by Dr. Erroll Southers from University of 
Southern California. It is a statement, ``World-wide Threats 
Keeping America Secure in the New Age of Terrorism.''
    Chairman McCaul. Without objection, so ordered.
    Mr. Correa. Thank you.
    [The information follows:]
          Submitted for the Record by Honorable J. Luis Correa
   Statement of Dr. Erroll G. Southers, Professor of the Practice of 
 Governance, Director, Safe Communities Institute, Director, Homegrown 
     Violent Extremism Studies, Sol Price School of Public Policy, 
                   University of Southern California
                           September 12, 2017
    Chairman McCaul, Ranking Member Thompson, and distinguished Members 
of the committee, thank you for the opportunity to provide this 
statement. The purpose of this statement is to offer insight into the 
current landscape of domestic terrorism and offer considerations for 
facilitating positive outcomes going forward.
                              introduction
    The ``Unite the Right rally'' in Charlottesville, Virginia, on 
August 12 ended in an ISIS-style attack, which was glaring evidence 
that the American white nationalist movements have learned from foreign 
terrorist groups and eclipsed ISIS as the principal terrorist threats 
in the United States, both in social media and off-line.
    Three days before the deadly white nationalist rally, the 
Department of Homeland Security (DHS) Office of Intelligence and 
Analysis (I&A) distributed a confidential warning in coordination with 
local, State, and Federal authorities at the Virginia Fusion Center. It 
stated that an escalating series of confrontations between white 
supremacists and anarchists would likely make the event ``among the 
most violent to date.''
    I&A's warning was presciently accurate, and DHS has for years 
identified right-wing extremism as a pressing domestic terrorist 
threat. In 2009, for example, DHS I&A released ``Right-wing Extremism: 
Current Economic and Political Climate Fueling Resurgence in 
Radicalization and Recruitment,'' which outlined a growing threat from 
white supremacist and violent anti-Government groups, largely fueled by 
the election of the first African-American president, Barack Obama.
    There are many threats to the United States espousing a range of 
political ideologies and citing a list of grievances against the 
country. As the people of Charlottesville, Charleston, Portland, and 
the Maryland campus of Bowie State know all too well, the terrorist 
threat from right-wing extremists is manifest. It is essential that 
administrators and lawmakers commence counterterrorism considerations 
with the solemn acknowledgement that terrorism and violent extremism 
are an existential threat to the Nation no matter whether they are 
informed by a religious, racist, bigoted, or nationalistic ideology.
                      home-grown violent extremism
    The terrorist threat to the United States most often originates 
within the United States. Home-grown violent extremism (HVE) refers to 
violence that is committed to advance an ideology and is perpetrated in 
the country where the attacker embraced the ideology. An American who 
embraces a Muslim Identity ideology within the United States is a home-
grown violent extremist, and so too is an American who embraces an 
ideology positing racial superiority and advocating violence. As 
tragically demonstrated in a number of victimized communities, the 
greatest violent extremist threat to America is home-grown.
    The home-grown threat is not homogenous, and U.S. policies must not 
treat it as such. Policies prepositioned to focus on the ``other,'' or 
engaging in ``otherism,'' are destined to miss the mark. Too often, 
U.S. counterterrorism efforts have looked narrowly at the threat from 
extremist Muslims. While groups like al-Qaeda and ISIS do present a 
valid and immediate threat to the United States, they are not the only 
threat, nor are their beliefs the only extremist ideology that demands 
violence against the United States and its citizens.
    If we are serious about countering the growth of HVE, we need to 
legitimately focus our efforts on all forms of it. As a starting point 
for that, we need look no further than across the Atlantic to see what 
happens when programs intended to counter HVE focus on only one group 
and community.
                        the failures of prevent
    In 2003, in an effort to reduce the risk of ``al-Qaeda-inspired'' 
recruitment, radicalization, and related terrorist incidents, the 
United Kingdom launched the Preventing Violent Extremism Strategy 
(Prevent). It was considered one of the best in the world when it was 
first implemented. At its core, Prevent focused on radicalization and 
recruitment prevention (rather than simply HVE detection) and 
acknowledged the importance of enlisting the community in the fight 
against terrorism. Yet, the Prevent strategy ultimately failed in its 
initial form. It focused exclusively on Muslim communities--not unlike 
some of the counterterrorism efforts that have been more recently 
launched in the United States. Prevent also funded efforts in Muslim 
communities based on the size of the Muslim population in a given area, 
instilling the perception that the program was geared toward 
intelligence gathering in Muslim communities. As a result of poor 
design and implementation, the program engendered mistrust, frustrating 
efforts to collaborate with communities to address the risk of 
recruitment and radicalization.
    In the United States, we have headed down a similar (and ultimately 
futile) path. This is demonstrated by the fact that community-based 
organizations in several cities that were successfully awarded DHS CVE 
grant funding rejected the award after learning of the administration's 
intent to narrow future counterterrorism efforts on Muslim extremism. 
This is one of many consequences of focusing public policy and public 
ire on one group of home-grown violent extremists. And meanwhile, the 
right-wing extremist threat grows bolder, more violent, and greater in 
number.
               growing threat from right-wing extremists
    Effective homeland security and public safety policy should be 
rooted in data. Numerous studies over many years have repeatedly 
concluded that the home-grown threat to the United States exceeds that 
from foreign nations. Certainly, we must thank the heroic efforts of 
our intelligence community and armed services for so effectively 
thwarting terrorist threats from abroad. As a result, however, our 
greatest terrorist threat is home-grown. If we examine the past 2 
years, the evidence is clear.
    The ADL report, ``Murder and Extremism in the United States in 
2015,'' examined domestic terrorism and extremism in a year that 
claimed victims in Charleston, Chattanooga, Colorado Springs, and San 
Bernardino. It was the deadliest year of domestic extremist killers 
since 1995, the year another home-grown terrorist, Timothy McVeigh, 
bombed the Murrah Federal Building in Oklahoma City.
    In 2015, domestic extremists killed 52 people, more than the 
numbers killed in 2013 and 2014 combined. The report states that four 
domestic extremist groups perpetrated the 52 murders, with white 
supremacists and extremist Muslims accounting for 38 percent and 37 
percent of the fatalities, respectively.
    The ADL's 2016 report on U.S. extremism was dominated by the 
Orlando nightclub shooting, in which 49 people were murdered by a home-
grown violent extremist. Importantly, however, the data shows that in 
the same year, 20 other people had already been murdered by white 
supremacists in 11 separate incidents. The Orlando attack was horrific, 
but in terms of which home-grown violent extremist groups constitute 
the most lethal threat, the death toll from Orlando obscured the fact 
that right-wing violent extremism was a far more frequent threat to 
manifest.
    Meanwhile, law enforcement is increasingly facing attacks from 
home-grown extremists. An analysis of ``shots-fired events'' between 
law enforcement and home-grown extremists since 2009 reveals there were 
77 shots-fired incidents attributed to numerous extremist groups. With 
their number of shots-fired events, these included:
  <bullet> White supremacists (38)
  <bullet> Anti-Government extremists (25)
  <bullet> Islamic extremist (9)
  <bullet> Black nationalist (2)
  <bullet> Left-wing extremist (1)
  <bullet> Anti-abortion extremist (1)
  <bullet> Anti-Muslim extremist (1)
    Local law enforcement has the best finger on the pulse of domestic 
threats in our communities. In that regard, key findings in the ``Law 
Enforcement Assessment of the Violent Extremist Threat'' study (2015) 
of 382 law enforcement agencies in the United States ``consider anti-
Government violent extremists, not radicalized Muslims, to be the most 
severe threat of political violence they face.''
    Right-wing extremist groups are also showing an affinity for using 
social media to organize and recruit new followers. ISIS was a pioneer 
in the use of social media for extremist radicalization and 
recruitment. However, a recent study reveals that on Twitter (ISIS's 
preferred social platform), American white nationalist movements have 
seen their followers grow by more than 600 percent. Additionally, white 
nationalists and Nazis had substantially higher follower counts than 
ISIS supporters and tweeted more often. In the months leading up to 
Charlottesville, leaked chat room discussions ``reveal an intense level 
of planning and Nation-wide coordination,'' as ``Unite the Right 
demonstrations were dominated by a younger, more tech-savvy generation 
of white supremacists than in past protests.''
                       the importance of formers
    Successful forays into field research can yield extraordinary and 
important connections. The most valuable relationships in the HVE 
domain are those with individuals who have radicalized to an ideology 
and later disengaged from it. These ``formers'' are best able to answer 
questions about why and how their radicalization took place.
    Over several years, the ``formers'' I have interviewed individuals 
who formerly counted themselves among the ranks of neo-Nazis, 
mujahedeen, skinheads, Lashkar-e-Taiba and anti-Government adherents, 
to name a few. The radicalization experiences, as told by formers, are 
as dissimilar as their ideologies, but for two common features. First, 
they all connect their decisions to explore an extremist ideology to a 
``cognitive opening,'' a period in which one's beliefs are malleable 
and open to radical change.
    Second, their sense of alienation is accompanied with a sense of 
altruism and a desire and belief that the status quo can be changed. We 
are only beginning to learn the processes and openings that lead 
individuals to an extremist ideology. It is only in ``safe spaces''--
where law enforcement, researchers, health practitioners, and other 
relevant professionals can engage with ``formers''--that we will be 
able to more deeply study why and how radicalization occurs on an 
individual level and from that develop more effective techniques for 
addressing the most pressing HVE threats.
                     a whole-of-community approach
    The current CVE strategy is under fire after years of mistrust, 
based on perceptions about the program's intentions and ultimate goals. 
This should come as no surprise, as the CVE initiative in many ways 
repeated the mistakes of the UK Prevent program in its first iteration. 
Rather than continue down a fruitless path that ultimately alienates 
communities, the United States is well-served to explore other methods 
for collaborating with threatened communities. Importantly, the 
intention should be grounded in the notion that we seek to prevent 
extremist recruitment and radicalization--and not profile terrorists. A 
community-led strategy, for example, provides a way for all community 
stakeholders to identify shared concerns, build consensus and most 
importantly, develop strategies and tactics adapted for a community's 
local, specific concerns.
    Going forward, we must have counseling resources on disengagement 
and deradicalization for the diverse ideologies that threaten our 
Nation. The goal is to draw them back from the violent extremist fold, 
serving as a bridge between the family and institutions like schools, 
social services and, if applicable, prosecutors, law enforcement or 
employers. In that regard, I caution the administration to avoid the 
notion of a ``hotline'' system, and to avoid the use of that term 
altogether, should a resource system be considered. The term may be 
misinterpreted as a line for providing intelligence information, 
removing the critical element of trust, which is desperately needed.
    Appropriate policies, processes, and technologies are the 
foundations of security. Those elements are most effective when 
informed by research and empirical data. This is a complex problem, 
most often as unique as the individuals who walk the radicalization 
pathway. There is only one element we can influence in this process and 
that is the community. Violent extremists do not live in a vacuum, and 
all terrorism is local. If we are to enhance social morality, 
responsibility, and community integrity, with the intended outcome of 
facilitating community-based efforts to identify and explore solutions 
to this challenge, it begins with acknowledging and removing policies 
cultivating community animosity and stoking alienation. The time to 
change our policy toward radicalized Americans is now and that process 
begins here.

    Chairman McCaul. The Chair recognizes the gentleman from 
Louisiana, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Director Wray, thank you for your service to your country. 
I specifically thank you for bringing up the importance of 702 
as an invaluable tool for your investigative services in 
defense of our Nation. I am a strong supporter of it and shall 
be a vocal voice as the debates move forward.
    Please describe, in at least general terms, what programs 
the FBI currently implements to monitor potentially seditious 
activity inside U.S. mosques and Islamic centers known to be 
affiliated with the Muslim Brotherhood or other Islamic 
extremist organizations.
    Mr. Wray. Well, Congressman, we investigate international 
terrorism matters, global jihadi-inspired directed matters, and 
we will follow them wherever they may lead, and in some cases 
that may lead to specific individuals. If they are in a mosque 
and we are investigating them, then we would continue the 
investigation there.
    Mr. Higgins. Do you monitor the advertised appearances of 
known radical imams that speak at Islamic centers across the 
country? I ask this specifically because a known radical imam 
spoke in my district recently, and it was completely under the 
radar. No media, no law enforcement knowledge. I found out from 
my own informant that he appeared within my district and spoke.
    So I am wondering, does the FBI monitor the websites and 
social media announcements of the movements and the appearances 
of known radicalized jihadist imams?
    Mr. Wray. We certainly have a variety of social media 
exploitation efforts under way that are focused on the kind of 
problem you are describing, and we also have, in some cases, 
properly predicated investigations of specific subjects. In 
some cases, those have been even imams. There have been cases 
where we have pursued a matter that even led to, you know, 
arrest, indictment, and conviction.
    I think back to my prior time in Government in the Justice 
Department. There was the case against Abu Hamza, for example, 
who was a very active cleric in that space. So again, that is 
giving an example of the kind of thing we do.
    Mr. Higgins. Just quickly, within this non-Classified 
setting, would your investigative efforts include human assets?
    Mr. Wray. Absolutely. I appreciate you bringing that up, 
because one of the things that I think is increasingly 
important with all the kind of challenges that we have 
described, all three of us have described in the terrorism 
arena, is the ability to use human sources.
    Mr. Higgins. Yes, sir.
    Mr. Wray. We need to be able to work with the communities 
around the country to be able to get people to come forward. 
Because when you have somebody who is radicalized in a very 
short period of time in some cases, the best hope we have of 
finding out before the person commits an attack and kills 
somebody, is to have somebody speak up and talk to law 
enforcement. So it is important that we earn the confidence of 
the community in order to be able to generate human sources, 
and that is a very high priority for us.
    Mr. Higgins. Thank you sir. And 702 enhances your ability 
to use human assets. Is that correct?
    Mr. Wray. Yes.
    Mr. Higgins. Thank you, sir.
    Secretary Duke, thank you for your service to your country, 
Madam. I have one question. The U.S. electric grid is 
dangerously unsecured against the threat of electromagnetic 
pulse based on a nuclear explosion. Can you, within this 
setting, please explain what steps the Department of Homeland 
Security is taking to secure the U.S. electric grid on an 
expedited basis? Further, what can this committee and this body 
do to assist in that effort?
    Ms. Duke. Yes. This is a relatively new threat that we have 
been looking at in our critical infrastructure sector. We have 
a strategy that will be completed before the end of this 
calendar year, late in December. We will be sharing that 
strategy that will help us start to better address the EMP 
threat, along with the geomagnetic disturbance threats.
    Mr. Higgins. You have a study that will be concluded by the 
end of this year?
    Ms. Duke. Yes. The target date is December 23 currently.
    Mr. Higgins. You will share that with this committee?
    Ms. Duke. Yes.
    Mr. Higgins. Thank you. Mr. Chairman. I ask that a speech 
from the Freedom Flame Award Dinner and two articles from the 
Washington Times be included for the record, and I yield the 
balance of my time.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
           Submitted For the Record by Honorable Clay Higgins
   speech by the ambassador of the state of israel to the center for 
              security policy's freedom flame award dinner
                           december 14, 2016
    Judge Jeanine, thank you for that kind introduction. And thank you 
for your exemplary service to this country and for your friendship to 
my country.
    I want to recognize my fellow honoree Mort Klein. Thank you for 
your unshakable commitment to the Jewish future. But Mort, I think 
every once in a while, you need to take a stand and tell people what 
you really think.
    I also want to thank another steadfast friend of Israel, Frank 
Gaffney.
    Churchill once famously remarked, ``You have enemies. Good. That 
means you have stood up for something, sometime in your life.''
    Well, if you have enemies, Frank, it's because you have stood up 
for something, many times in your life.
    And that something is freedom--an unwavering commitment to 
freedom--for America, for Europe, for Israel, for everyone.
    I think I speak for the people here tonight and for many who are 
not here when I say thank you for standing up for all of us.
    I also want to thank the Center for Security Policy for giving me 
this prestigious award. I deeply appreciate it, even though I don't 
think I've earned an award won by the likes of Margaret Thatcher and 
Jean Kirkpatrick.
    The magnificent Iron Lady, who once made Britain great again, and 
the brilliant U.N. Ambassador, who understood that defeating 
totalitarianism sometimes meant working with authoritarian regimes, 
were two of the West's most powerful voices of moral clarity during the 
Cold War.
    But while I have not earned this award, the country I have the 
privilege of representing certainly has.
    Because since the day it was established, Israel has been proudly 
holding up freedom's flame in a dark and dangerous Middle East.
    During the Cold War, Israel stood faithfully by America's side in a 
fight against an evil empire. We defeated Soviet client states on the 
battlefield. We safeguarded a vital square on the global chess board.
    And we created an island of liberty in a sea of tyranny.
    No less important, for decades, Israel has manned freedom's front 
lines in the battle against a fanatic ideology that has taken over 
large swathes of the Middle East and which endangers my country, the 
region and the world.
    That ideology is called militant Islam. I use the words militant 
Islam very precisely. The enemy we face is not militancy and it's not 
Islam--it's militant Islam.
    There are many militant individuals and groups. Timothy McVeigh and 
Ted Kaczynski can be aptly described as militants. Terror groups like 
the FARC and the Tamil Tigers who are responsible for the murder of 
tens of thousands of people are militant organizations.
    But while these individuals and groups are extremely dangerous, 
they are not part of a global movement. Militant Islam is.
    The forces of militant Islam have struck in New York and Orlando, 
London and Paris, Bali and Bangkok, Sydney and Buenos Aires, and dozens 
of other places across the world.
    In the Middle East and North Africa, they have struck in every 
country between the Straights of Gibraltar and the Khyber Pass.
    To be sure, militant Islam is not monolithic. There are Sunni 
branches, such as ISIS, al-Qaeda, Boko Haram in Nigeria, al-Shabaab in 
Somalia, and Hamas in Gaza.
    There are Shia branches, such as the Ayatollah regime in Iran, the 
various Shiite militias in Iraq, the Houthis in Yemen and Hezbollah in 
Lebanon.
    These branches have different theologies.
    The militant Sunnis are fixated on the early 7th Century. The 
militant Shiites are fixated on the middle of the 10th Century. Perhaps 
one day they'll compromise and decide to take us all back to the late 
8th Century.
    And while militant Islamists always fight Christians, Jews, 
Yazidis, Kurds, and other non-Muslims, they also ferociously fight one 
another in their battle over who will be the king of the militant 
Islamic hill.
    Yet for all their differences, all the branches and sub-branches of 
militant Islam are rooted in a similar radical ideology and fired by 
the same fanaticism.
    They all seek to reverse history--and the rise of the West--and 
restore Islam to its former glory.
    For all of these groups, the answer to their problems is Islam--in 
one radical form or another.
    That is why the seemingly disparate forces of militant Islam are in 
fact part of the same global threat.
    And that is why they must be countered as part of a global 
strategy.
    But ladies and gentlemen, just as the enemy we face is not mere 
``militancy,'' the enemy we face is also not Islam.
    Islam is a faith with some 1.7 billion adherents throughout the 
world. And faiths--including the faith of Islam--are malleable things.
    I suspect there are a few people here who disagree with me about 
that. They can rightly point to many differences that set Islam apart 
from Christianity, Judaism, and other faiths. They can rightly argue 
that Islam has a unique theology, has been influenced by a unique 
culture or has been shaped by unique geopolitical forces.
    But as those skeptics point to the intricacies of theology and 
culture, I hope they also consider the historical record--not just of 
Islam but of other faiths.
    To the best of my knowledge, the New Testament was canonized in the 
fourth century.
    While the text of that book has not changed since then, the faith 
practiced by Christians certainly has.
    The Christianity that for centuries justified the slaughter of Jews 
all across Europe, and that spread anti-semitism to every corner of the 
globe, is not the same Christianity that was preached by abolitionists 
who fought slavery in the 19th Century or that is practiced by 
Evangelicals in the 21st Century.
    So too, the relatively tolerant Islam practiced in 12th Century 
Spain and practiced for some 13 centuries in Persia until 1979 is not 
the Islam of ISIS or the Islam of today's Ayatollah regime.
    Admittedly, it is troubling that to find a more tolerant 
Christianity one only need look to the present whereas to find a more 
tolerant Islam one must largely look to the past.
    But my point is that Islam, like other faiths, has evolved--and I 
see no reason why it cannot or will not evolve again.
    So do not assume that the forces ascendant in the Muslim world 
today will be the same forces ascendant in the future.
    Whether that happens or not will mostly depend on changes that will 
come from within the Muslim world. But the pace and extent of those 
changes depends partly on us as well.
    It depends on not painting all Muslims with a single brush and not 
declaring nearly one-quarter of the world's population irredeemable.
    It depends on recognizing that the greatest victims of militant 
Islam are those Muslims who do not accept its unforgiving creed.
    And it depends on helping those who seek to reform Islam from 
within.
    Let me read you the words of one of those reformers.
    ``I'm really offended when people are intimidated, terrified, and 
killed under the pretext that such practices are part and parcel of 
divine teaching ordered by God.
    I feel offended when destruction and sabotage are promoted as a 
heavenly triumph for God on earth. I swear that nothing could ever be 
built on destruction, demolition, or murder.''
    Those words were not scrawled by a dissident languishing away in 
some dungeon in the Middle East.
    Those words were spoken last week at a religious university by 
Abdel Fatah al-Sisi, the president of Egypt.
    And here is another voice from the Middle East commenting about 
terror attacks perpetrated in the name of Islam:

``Their only link to Islam is the pretexts they use to justify their 
crimes and their folly. They have strayed from the right path, and 
their fate is to dwell forever in hell . . . They think--out of 
ignorance--that they are engaging in Jihad . . . Is it conceivable that 
God . . . could order someone to blow himself up or kill innocent 
people? Islam, as a matter of fact, does not permit any kind of 
suicide--whatever the reasons or the circumstances.''

    Those words were not spoken by some apologist at a liberal think 
tank in Washington.
    They were delivered 3 months ago in Arabic in a televised speech by 
Mohammed VI, the king of Morocco.
    Ladies and gentlemen, when the president of Egypt and the king of 
Morocco say things like this, something is happening in the Middle 
East.
    It does not mean that the problem of militant Islam has suddenly 
vanished. But it does mean that there are serious partners in the 
region who are fighting militant Islam in ideological terms--partners 
who cannot be dismissed as secular heretics but who are themselves 
devout Muslims who have the credibility to challenge the Islamists' 
claims to represent Islam.
    Ladies and gentlemen, the reformers within Islam are real, and we 
should be doing everything we can to help them.
    You know what one of the best ways to help them is? To confront the 
Islamists they are fighting--and to defeat those Islamists again and 
again and again.
    You know, bin Laden said that people follow the strong horse. If 
you want proof of that concept, just consider how many Chicago Cubs 
fans have suddenly appeared out of nowhere.
    You know, until a few weeks ago, I knew a grand total of four Cubs 
fans. Now they're all over the place.
    Like winning baseball teams, winning ideologies attract more 
followers and terror groups that appear to have the wind at their backs 
gain more recruits.
    That is why the forces of militant Islam must not only be 
confronted. They must be routed and vanquished in every part of the 
world.
    In the Middle East, Israel is engaged in that battle every day 
against Iran's terror proxies Hezbollah and Hamas and against various 
other terror groups that threaten us from Syria, Sinai, and elsewhere.
    Israel will continue to do what is necessary to prevent the 
transfer of game-changing weapons to Hezbollah and to ensure that Iran 
does not open a new terror front against us in Syria.
    Israel would welcome a political settlement in Syria that would 
bring an end to the horrible carnage and suffering there.
    But Israel will oppose a settlement that cedes Syria to Iran and 
its proxies--something that will only increase the threat to us and 
others in the future.
    Israel will also do what is necessary to defend itself against 
Hamas. In Gaza, Iran is helping Hamas and Islamic Jihad develop an 
indigenous rocket manufacturing capability--making them less reliant on 
smuggling weapons.
    To paraphrase an old saying, give a terrorist a rocket and he'll 
fire for a day. Teach him how to make rockets, and he'll fire for the 
rest of his life.
    Besides Israel, there are others Arab states in the region that are 
fighting the forces of militant Islam.
    This battle against a common enemy has turned many in the Arab 
world who were once adamantly opposed to Israel into de facto allies.
    Our sincere hope is that this new alliance will enable us to build 
lasting bridges of coexistence, something Israel hopes to discuss with 
the incoming Trump administration.
    But to seize those opportunities, we must work together to confront 
the greatest danger of all--the marriage of militant Islam and nuclear 
weapons. That is the ultimate game-changer that could lead to the 
ultimate nightmare.
    To assume that a militant Islamic power would obey the rules that 
have been obeyed by all other nuclear powers is to gamble with the 
security of the world.
    Militant Islamists break the rules. They take over embassies. They 
destroy millennial-old statues. They fly into skyscrapers. They make 
the unimaginable imaginable.
    Militant Islam is capable of anything because it is fundamentally 
different. Huntington wrote of a clash of civilizations.
    The truth is that there is a competition of civilizations. The last 
three decades has witnessed the rise of Asia that has brought billions 
of people into the global economy and resulted in a natural realignment 
of power between East and West.
    But wedged between East and West is militant Islam. And this 
civilization--if you want to call it that because it's more like an 
anti-civilization--this anti-civilization is in a clash with all the 
rest.
    Militant Islam does not seek to flex its muscles within the 
international order. It seeks to up-end that order.
    Everyone who cares about peace should do everything to prevent such 
a fanaticism from ever arming itself with nuclear weapons.
    That is why Israel so strongly opposed the nuclear deal with Iran. 
Had that deal blocked Iran's path to the bomb, believe me, Israel would 
have been the first to support it.
    But this deal does not block Iran's path to the bomb. It ultimately 
paves it.
    Rather than dismantle Iran's military nuclear capability, this deal 
merely places restrictions on that capability for a limited time--
restrictions that are automatically removed even if Iran does not 
change its behavior.
    So in 10 to 15 years--actually now it's 9 to 14 years--Iran could 
remain the foremost sponsor of terror in the world and legitimately 
enrich enough uranium to place it on the cusp of having the material 
for an entire nuclear arsenal.
    In the mean time, without violating a single clause in the nuclear 
deal, Iran can conduct R&D on more and more advanced centrifuges.
    And unless it is stopped, Iran will continue to defy U.N. Security 
Council resolutions to build intercontinental ballistic missiles for 
its future nuclear arsenal.
    Here's a news flash. Iran and Israel are on the same continent. So 
those ICBMs are not for Israel. They're for you.
    As Prime Minister Netanyahu said on ``60 Minutes'' this Sunday, 
Israel looks forward to discussing with the Trump administration the 
nuclear deal with Iran as well as a dangerous Iranian regime it has 
helped strengthen. We hope to forge a common policy with the 
administration that can help advance stability and security in our 
region.
    Ladies and gentlemen, defeating militant Islam will require more 
than confronting and defeating its forces in the Middle East. It will 
also require not allowing people in our own countries to keep us from 
identifying and understanding the enemy.
    Because an enemy you refuse to name is an enemy you will never 
understand. And an enemy you do not understand is an enemy you will 
never defeat.
    I recognize that there are those who believe that by naming the 
enemy militant Islam people will mistakenly believe that the enemy is 
Islam itself rather than a virulent ideology now ascendant in the 
Muslim world.
    But those who speak euphemistically of ``militants'' or ``violent 
extremists'' should not be surprised if others reject such political 
correctness and respond by mistakenly replacing militant Islam with 
Islam itself.
    We must also reject the shameful efforts of some to prevent any 
serious discussion about the nature of the enemy we face.
    I realized the full extent of those efforts only after a 
controversy erupted over my being here tonight.
    The day you announced that I was being given this award, the 
spokesman at my Embassy received an email from the Southern Poverty Law 
Center asking me why I was accepting an award from what they called an 
anti-Muslim hate group.
    I was a bit surprised. First, because I have known Frank Gaffney 
for many years. And while I don't agree with every single thing he says 
and believes, Frank is no hater and no bigot.
    Second, because I have followed the work of the CSP for many years. 
And while I do not agree with every policy position you have taken or 
every view expressed by every member of your organization, the CSP is 
not only an unabashed defender of Israel, it is also no hate group.
    But I must admit, the fact that it was the Southern Poverty Law 
Center that was making this allegation got my attention.
    Because I always thought highly of that organization. After all, 
when I was growing up in this country, the SPLC went after the KKK. 
They used the courts to fight against the evil of racial segregation 
and systematic discrimination. In my mind, they were the ones who 
targeted the real haters of the world. So I read with great interest 
what they sent me. And when it came to their allegations against you, 
there was nothing that justified the wholesale defamation of this 
organization or its leadership.
    But then I read some more. I discovered that the SPLC had made up a 
list of those whom they label anti-Muslim extremists.
    And as I read this list, I was simply stunned.
    Daniel Pipes, one of the great scholars of the Middle East, was on 
it.
    So too was Maajid Nawaz, a former Islamist who now fights against 
Islamists.
    But the biggest shock of all came when I saw a name on that list of 
someone I regard as a hero--Ayaan Hirsi Ali.
    For those of you who do not know Ayaan, she was the Dutch 
parliamentarian who in 2004 produced a film with Theo Van Gogh called 
Submission, which focused on the oppression of women in the Muslim 
world.
    Because of that film, Van Gogh was assassinated by a fanatic Muslim 
and Ayaan was forced into hiding. She has had to live with death 
threats and under constant protection ever since.
    Yet rather than cower in anonymity, Ayaan writes books, publishes 
articles, makes speeches, and fights for her ideas--in particular the 
need for sweeping reform in the Muslim world.
    Today, Ayaan Hirsi Ali is one of the world's great champions of 
freedom, pluralism, and tolerance.
    And every self-respecting group that claims to value any of those 
things should be defending her not defaming her.
    Yet in an Orwellian inversion of reality, a woman whose life is 
threatened every day by extremist Muslims is labeled by the SPLC an 
anti-Muslim extremist.
    Have those who put Ayaan on that list no shame? Have they no 
decency?
    The SPLC and others who asked me not to come here tonight claim to 
support free and open debate. But in reality, they seem to want to 
stifle debate.
    They preach tolerance for those who look different. But they are in 
effect practicing intolerance to those who think different.
    Unfortunately, some have amended that famous Voltairian dictum to 
be ``I hate what you say and I will never defend your right to say 
it.''
    I will defame you as an extremist. I will label you a racist and a 
bigot. I will put you on the blackest of lists that should be reserved 
for Nazis, for the Klan, and for the true enemies of mankind.
    Well, ladies and gentlemen, I don't stand with the defamers and the 
blacklisters.
    I stand with Ayaan Hirsi Ali. We all should stand with Ayaan Hirsi 
Ali.
    For if we do not stand with her, then the values she champions--the 
same values we cherish--will be under threat and the dangers we face 
will only grow.
    We must not let the defamers and blacklisters succeed. We must not 
let them turn into pariahs those erudite scholars and courageous 
reformers who are trying to enlighten us about ideologies that threaten 
our way of life.
    For more than our values are at stake. Our lives are at stake. 
Because without the wisdom of those scholars, without the courage of 
those reformers, we will have a much more difficult time winning the 
fateful battle that is under way.
    That is why I am truly honored to accept this freedom flame award 
tonight.
    I accept it in the name of a country that has proudly held up a 
light of liberty and decency in a dark and cruel corner of the world.
    Israel will continue to hold that torch high, steeled by our values 
and confident in our destiny.
    But like free countries everywhere, Israel needs America to hold up 
its torch even higher.
    The battle is far from over. I am not even sure that we've reached 
the end of the beginning.
    But I am confident that with the help of organizations like this, 
with the clarity and courage of people like Ayaan Hirsi Ali, and with 
the support of millions of Americans across this great country, that 
the flame of this last best hope on earth will burn brighter than ever 
and help secure out common future.
                                 ______
                                 
       Article Submitted For the Record by Honorable Clay Higgins
   mainstream conservative groups alarmed to be found on ``hate map''
By Valerie Richardson, Washington Times, August 17, 2017.
    Brad Dacus was thousands of miles away in California last weekend 
when the Charlottesville protest erupted, so he was flabbergasted when 
CNN labeled his Pacific Justice Institute a ``hate group.''
    ``Here are all the active hate groups where you live,'' said the 
CNN wire story headline on Chicago's WGN-TV website.
    The article listed the 917 organizations on the Southern Poverty 
Law Center's much-disputed ``hate map,'' which names racist groups like 
the Aryan Nation alongside mainstream conservative organizations such 
as the Alliance Defending Freedom and the Family Research Council.
    Mr. Dacus' conservative Sacramento-based institute, which 
specializes in religious-liberty cases, was featured on the CNN list 
right below the Pacific Coast Knights of the Ku Klux Klan.
    ``Why is the Southern Poverty Law Center doing this? It's simple. 
They want to vilify and isolate anyone that doesn't agree with their 
very extremist leftist policy and ideology,'' said Mr. Dacus. ``This 
isn't about defending civil rights; this is about attacking civil 
rights.''
    Other conservative groups blasted CNN and called on the cable 
network to retract the article.
    ``I am shocked that CNN would publish such a false report on the 
heels of the Charlottesville tragedy,'' said Mat Staver, Liberty 
Counsel's founder and chairman. ``To lump peaceful Christian 
organizations, which condemn violence and racism, in with the KKK, neo-
Nazis and white supremacists is offensive. This is the epitome of fake 
news and is why people no longer trust the media.''
    Conservatives have repeatedly called out media outlets this year 
for uncritically repeating the SPLC's ``hate group'' label, calling it 
inaccurate and arguing that it has put their organizations at risk for 
violence.
    It's not hypothetical.
    In 2012, Floyd Lee Corkins shot and wounded a Family Research 
Council security guard and later told authorities that he wanted to 
kill as many employees as possible after finding the group on the 
SPLC's ``hate map.''
    Tom McClusky, former vice president of government affairs at the 
Family Research Council, took to Twitter to say, ``Thanks for the 
reminder @CNN of this inaccurate map. Last time I saw it one of my 
friends got hit with a bullet. Real responsible reporting.''
    Mr. McClusky, now executive director at March for Life Education 
and Defense Fund, noted in another tweet that ``@CNN decides to reprint 
map that guided shooter to try to kill me & my colleagues because of 
our view on marriage.''
    In June, Liberty Counsel sued the charity tracker GuideStar for 
defamation for adding the SPLC tag to its list of nonprofits. GuideStar 
later removed the labels from its listings but said the information 
would be available upon request.
    ``Using the Southern Poverty Center as a source for information 
shows that CNN is not interested in reporting news but rather creating 
scandal and security threats,'' said Mr. Staver. ``It is well known 
that the SPLC label against peaceful, nonviolent people and 
organizations has motivated some unhinged people to commit violence. 
This is no time to exploit the tragedy of Charlottesville.''
    CNN did not immediately return a request for comment Thursday but 
did add an editor's note to the story saying that the headline was 
changed to make it clear that the information came from the SPLC.
    The new headline said, ``The Southern Poverty Law Center's list of 
hate groups.'' In addition, CNN said it had replaced the list of 917 
``hate groups'' with links to the SPLC website.
    ``Some critics of the SPLC say the group's activism biases how it 
categorizes certain groups,'' said the CNN story. ``But since the FBI 
doesn't keep track of domestic hate groups, the SPLC's tally is the 
widely accepted one.''
    That ``hate group'' listing may be widely accepted on the left, but 
it's widely rejected on the right.
    Earlier this year, the Philanthropy Roundtable's Karl Zinsmeister 
called the SPLC a ``cash-collecting machine,'' pointing to its $50 
million in contributions in 2015 and $334 million in holdings. In May, 
the Federalist's Stella Morabito called it a ``big-money smear 
machine.''
    The Alabama-based center added to its coffers Wednesday with a $1 
million donation from Apple CEO Tim Cook, who also said he would match 
2-1 donations to the SPLC as well as a list of other designated groups 
until Sept. 30, citing the Charlottesville clash.
    ``Apple has been at the forefront of the fight against hate in the 
tech industry, and we are truly humbled by its support of our work,'' 
the SPLC said in a Thursday statement.
    Organizations can land on the SPLC's ``hate map'' for a variety of 
reasons not limited to racism. Categories include being ``anti-
immigrant'' or ``anti-Muslim,'' as well as being ``racist skinhead,'' 
``neo-Nazi'' or ``neo-Confederate.''
    Most of the conservative groups fall into the SPLC's ``anti-LGBT'' 
category for their opposition to, for example, same-sex marriage or 
transgender bathroom laws.
    ``Opposition to equal rights for LGBT people has been a central 
theme of Christian Right organizing and fundraising for the past three 
decades--a period that parallels the fundamentalist movement's rise to 
political power,'' the SPLC said on its website.
    The ADF this week called out Phoenix news outlets that relied on 
SPLC's ``hate map'' for post-Charlottesville stories, including a 
report on the NBC-TV affiliate 12News headlined, ``What are Arizona's 
hate groups?''
    ADF spokeswoman Kerri Kupec said most news outlets may not realize 
that the SPLC is not politically neutral but rather avowedly anti-
right.
    On its ``Hatewatch'' page, for example, the SPLC states that it 
``monitors and exposes the activities of the American radical right.''
    ``I don't think that most news organizations that SPLC states on 
its website that it only goes after groups on the right,'' said Ms. 
Kupec. ``They only target people on the right.''
    Last month, the ADF blasted ABC and NBC for using the ``hate 
group'' designation on a story about a no-press speech by Attorney 
General Jeff Sessions at an ADF conference in Dana Point, California.
       Article Submitted For the Record by Honorable Clay Higgins
 wealthy southern poverty law rakes in hollywood, silicon valley cash 
                         after charlottesville
By Valerie Richardson, Washington Times, August 23, 2017.
    The Southern Poverty Law Center has padded its already well-stocked 
coffers with at least $2.5 million in donations from celebrities and 
corporations following the white-nationalist melee in Charlottesville, 
Virginia.
    George and Amal Clooney have donated $1 million to ``combat hate 
groups,'' while Apple CEO Tim Cook announced gifts of $1 million to the 
SPLC and $1 million to the Anti-Defamation League in response to the 
deadly Aug. 12 Charlottesville clash.
    ``We are proud to support the Southern Poverty Law Center in its 
efforts to prevent violent extremism in the United States,'' said the 
Clooneys in a Monday statement. ``What happened in Charlottesville, and 
what is happening in communities across our country, demands our 
collective engagement to stand up to hate.''
    At the same time, others worry that Charlottesville has obscured 
legitimate concerns about the SPLC, which has been accused of juicing 
its fundraising by exaggerating the Ku Klux Klan threat.
    ``These celebrity donations are virtue-signaling. SPLC does not 
need the money,'' said Cornell Law School professor William Jacobson in 
an email. ``Its 2016 annual report shows over $300 million in 
endowment, with program spending (legal and educational) one-tenth that 
amount and more than covered by normal annual fundraising.''
    Indeed, the $2.5 million comes as fairly small change for the SPLC, 
which reported revenue of $54 million in 2015 and spent 22 percent of 
its budget on fundraising, versus 64 percent on programs and services, 
according to Charity Navigator.
    Top-ranked charities ideally spend at least 75 percent of their 
budgets on programs and services, as per CharityWatch, which last year 
downgraded the SPLC from a ``C+'' to an ``F'' for holding more than 
three years' available assets in reserve.
    ``Unfortunately, these virtue-signaling donations reinforce SPLC's 
bad habit of sensationalizing and politicizing `hate' to generate even 
more money for its already bloated coffers,'' said Mr. Jacobson, who 
runs the right-leaning Legal Insurrection blog.
    The criticism has also come from the left. The Nation's Alexander 
Cockburn referred in 2009 to SPLC's Morris Dees as the ``archsalesman 
of hatemongering,'' while Ken Silverstein of Harper's said in 2010 that 
the organization ``shuts down debate, stifles free speech, and most of 
all, raises a pile of money, very little of which is used on behalf of 
poor.''
    In the wake of Charlottesville, however, the SPLC and ADL, which 
has a focus on fighting anti-Semitism, have clearly become the go-to 
charities for prominent donors.
    JPMorgan Chase said in a Monday memo that it would split a $1 
million gift between the SPLC and ADL ``to further their work in 
tracking, exposing and fighting hate groups and other extremist 
organizations.''
    Apple has also launched a fundraising tool to allow donors to give 
to the SPLC through their digital iTunes accounts.
    In accepting the Clooney donation, SPLC president Richard Cohen 
warned that President Trump had reanimated the ``radical right.''
    ``Like George and Amal Clooney, we were shocked by the size, 
ugliness, and ferocity of the white supremacist gathering in 
Charlottesville,'' Mr. Cohen said in a Monday statement. ``It was a 
reflection of just how much Trump's incendiary campaign and presidency 
has energized the radical right. We are deeply grateful to the Clooney 
Foundation for standing with us at this critical moment in our 
country's fight against hate.''
    The SPLC has also faced blowback for its liberal advocacy, starting 
with its ``hate map,'' which lumps mainstream conservative 
organizations with neo-Nazis and the Ku Klux Klan.
    Both ABC and NBC repeated the ``hate group'' label in July in 
reference to the Alliance Defending Freedom, while CNN recently posted 
the SPLC ``hate map'' under the headline, ``Here are all the active 
hate groups where you live.''
    Among those on the map is the Liberty Counsel, led by Mat Staver, 
who denounced the Charlottesville white-supremacist violence and 
accused the SPLC of ``exploiting a serious situation to push a self-
centered political agenda.''
    ``This false labeling is defamatory and dangerous,'' he said in a 
Monday statement.
    Founded in 1971 to promote civil rights, the SPLC describes itself 
as the ``premier U.S. nonprofit organization monitoring the activities 
of domestic hate groups and other extremists.''
    One woman was killed and 19 injured after an alleged neo-Nazi 
sympathizer drove into a crowd in Charlottesville.

    Chairman McCaul. The gentleman yields. The Chair recognizes 
the gentlelady from New Jersey, Mrs. Watson Coleman.
    Mrs. Watson Coleman. Well, thank you, Mr. Chairman. Thank 
you to each of you for your testimony and for your service.
    One of the types of far-right extremism that is 
particularly concerning to me has to do with the anti-abortion 
movement and their willingness to engage in very dangerous 
actions to express their position.
    So with that, I would seek unanimous consent to enter a 
statement for the record from the Feminist Majority Foundation, 
``Keeping America Secure in the New Age of Terror.''
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
      Submitted For the Record by Honorable Bonnie Watson Coleman
             Statement of the Feminist Majority Foundation
                           November 30, 2017
    The Feminist Majority Foundation (FMF) is a National women's rights 
organization dedicated to the elimination of sex discrimination and the 
promotion of women's equality and empowerment in the United States and 
around the world. In 1989, FMF launched the National Clinic Access 
Project with the goal of reducing anti-abortion violence, keeping 
women's health clinics open, keeping physicians, patients, and staff 
safe, and helping to bring violent anti-abortion extremists to justice.
    Anti-abortion violence has plagued U.S. women's reproductive health 
clinics for decades. Between 1977 and 2016, there have been hundreds of 
crimes committed against reproductive health care facilities and 
abortion providers, including at least 11 murders, 26 attempted 
murders, 54 bombings, 249 arsons, 98 attempted bombings or arsons, 411 
clinic invasions, 100 butyric acid attacks, 239 incidents of assault or 
batteries, and 4 acts of kidnapping. There have also been 663 anthrax 
or bioterrorism threats, 643 bomb threats, 545 death threats or threats 
of harm, and 583 acts of stalking.\1\ These acts are perpetrated by 
extremists who use violence to intimidate doctors, patients, and staff, 
in order to promote a policy goal of ending women's access to legal 
abortion and shutting down women's health clinics.
---------------------------------------------------------------------------
    \1\ National Abortion Federation, 2016 Violence and Disruption 
Statistics, available at https://prochoice.org/education-and-advocacy/
violence/violence-statistics-and-history/.
---------------------------------------------------------------------------
    Under Federal law, domestic terrorism includes ``activities that 
involve acts dangerous to human life that are a violation of the 
criminal laws of the United States or of any State'' and ``that appear 
to be intended to intimidate or coerce a civilian population, to 
influence the policy of a government by intimidation or coercion, or to 
affect the conduct of a government by mass destruction, assassination 
or kidnapping.''\2\
---------------------------------------------------------------------------
    \2\ 18 U.S.C.  2331(5).
---------------------------------------------------------------------------
    The violent tactics used by anti-abortion extremists, by 
definition, fall under the Federal statutory definition of ``domestic 
terrorism.'' Whether working alone, or in concert with others, violent 
anti-abortion extremists have engaged in criminal activity with the 
purpose of intimidating the civilian population--primarily reproductive 
health clinic doctors, patients, and staff--in order to influence 
Government policy on abortion.
    Violent anti-abortion extremists may be using ``right to life'' 
rhetoric, but in reality, they have unleashed a Nation-wide campaign of 
terror. The Feminist Majority Foundation has periodically conducted a 
National Clinic Violence Survey since 1993 to measure anti-abortion 
violence and harassment. Our survey is one of the most comprehensive 
studies of anti-abortion violence and harassment directed at clinics, 
patients, health care workers, and volunteers in the United States and 
includes abortion providers of various organizational affiliations as 
well as independent clinics. Our most recent survey, released in 
February 2017, found that in 2016, abortion providers experienced a 
marked uptick in violence and threats.\3\ Around 34 percent of the 
clinics surveyed reported experiencing the most severe types of anti-
abortion violence and threats of violence in just the first 6 months of 
2016, up from around 20 percent in the first 6 months of 2014. Some of 
the most frequent types of violence and threats were blocking access to 
and invasions of clinics,\4\ stalking, death threats, and bombing 
threats. One clinic reported that staff and doctors are repeatedly told 
to ``watch our backs'' and ``nobody cares when a murderer gets 
killed.'' Out of the clinics reporting high levels of severe violence 
and harassment, over 17 percent experienced staff resignations as a 
result.
---------------------------------------------------------------------------
    \3\ Feminist Majority Foundation, 2016 National Clinic Violence 
Survey, available at http://feminist.org/anti-abortion-violence/images/
2016-national-clinic-violence-survey.pdf.
    \4\ Blocking access to a reproductive health care clinic, or 
conducting a clinic invasion, may violate the Freedom of Access to 
Clinic Entrances Act (FACE), 18 U.S.C.  24, which makes it a crime to 
use or attempt to use physical obstruction to intentionally injure, 
intimidate, or interfere with a person obtaining or providing 
reproductive health services.
---------------------------------------------------------------------------
    In addition to severe violence and threats of violence, over 45 
percent of clinics surveyed experienced targeted intimidation and 
threats against staff and physicians, including vandalism of home or 
personal property, harassing phone calls or emails, threats of 
intimidation of family members, including children, and distribution of 
harassing and inflammatory pamphlets--like the ``KILLERS AMONG US'' 
leaflets featuring doctors' photographs and their home addresses and 
personal information.
    These types of anti-abortion violence and intimidation must be 
given higher priority in order to bring those who commit acts of 
terrorism to justice and to prevent violence by defusing volatile 
situations, tracing the sources of funding for those who commit anti-
abortion terrorist acts, and by identifying any potential patterns in 
the activity of violent anti-abortion extremists.
    Many anti-abortion extremists, for example, have been connected 
with other extremist groups that present a threat to the U.S. 
Government or to the public at large. Scott Roeder, the convicted 
killer of Wichita, Kansas abortion provider Dr. George Tiller, was 
associated with the anti-Government Montana Freeman militia group.\5\ 
David Wayne Hull, who was convicted on several Federal charges after, 
among other things, he threatened to blow up abortion clinics, self-
identified as the Imperial Wizard of the White Knights of the Ku Klux 
Klan.\6\ Convicted sex offender and anti-abortion extremist John Burt 
was a member of the Ku Klux Klan.\7\ Burt was the reported ``spiritual 
advisor'' to Michael Griffin, the murderer of Pensacola, Florida 
abortion provider Dr. David Gunn.\8\ Eric Robert Rudolph, who was once 
affiliated with the so-called Christian Identity Movement, a white 
nationalist ideology, bombed abortion clinics in Atlanta, Georgia and 
Birmingham, Alabama as well as a lesbian nightclub after bombing 
Atlanta's Centennial Olympic Park.\9\
---------------------------------------------------------------------------
    \5\ Amanda Robb, Not A Lone Wolf, Ms. Magazine (Spring 2010), 
http://www.msmagazine.com/spring2010/lonewolf.asp.
    \6\ Southern Poverty Law Center, Terror From the Right (Nov. 1, 
2015), https://www.splcenter.org/20100126/terror-right.
    \7\ Larry Rohter, Towering over Abortion Foes Trial: His Leader, 
New York Times (Mar. 5, 1994), http://www.nytimes.com/1994/03/05/us/
towering-over-the-abortion-foe-s-trial-his-leader.html.
    \8\ Id.
    \9\ Eric Robert Rudolph: Fast Facts, CNN (Sept. 8, 2017), https://
www.cnn.com/2012/12/06/us/eric-robert-rudolph---fast-facts/index.html.
---------------------------------------------------------------------------
    The sharing of intelligence across agencies concerning all types of 
domestic terrorism, including anti-abortion terrorist activity, and the 
robust investigation of anti-abortion crimes and potential anti-
abortion criminal activity is necessary to proactively investigate the 
connections between those who commit anti-abortion crimes and white 
nationalist or other domestic terrorist groups. In addition, more 
resources are needed to train State and local law enforcement to 
improve their threat assessment investigations.
    There is no indication that anti-abortion violence and intimidation 
will go away on its own. Based on FMF monitoring of anti-abortion 
threats and violence, we expect that the higher level of severe 
violence, harassment, and intimidation of abortion providers has 
continued in 2017. Our law enforcement officials must do more, however, 
to prevent the next violent attack and end the campaign of terror being 
waged against reproductive health care providers, their patients, and 
staff.

    Mrs. Watson Coleman. Thank you very much.
    I have a series of questions, some of which I really would 
like quick, quick answers to. Thank you.
    This is for you, Secretary Duke, and for you, Director 
Wray, because both of you mentioned the importance of 
information sharing with our foreign allies. Could you just 
elaborate on why that is so significant as quickly as possible?
    Ms. Duke. Because we need to know about people and be able 
to vet them before they move toward the United States.
    Mr. Wray. I would add to that, that in many cases, people 
are either crossing borders themselves to commit attacks or 
communicating across borders, or at a minimum, facing similar 
issues in those countries and in ours so we have to compare 
notes.
    Mrs. Watson Coleman. Thank you, Director. So it is really 
important that we at least maintain this open communication 
with people that we have had relationships with that we could 
trust that would share this information.
    So having said that, do you think that the President's 
tweets regarding the British Prime Minister's help further that 
cooperation or impair that cooperation?
    Ms. Duke. I work with the Home Secretary of Great Britain 
and have a very good relationship and focus on that rather than 
speaking on tweets.
    Mrs. Watson Coleman. Well, in dealing with our allies, do 
you find that there is any concern on their part with regard to 
how quickly the President will tweet information that is not 
accurate, including the most recent ones regarding the far 
right supposedly anti-Muslim groups?
    Ms. Duke. My personal experience is that they are anxious 
to work with us for the threats that Director Wray made, and so 
just work on building those toward the mission.
    Mrs. Watson Coleman. Would you characterize those tweets 
helpful or not?
    Mr. Wray. My experience is similar to Secretary Duke's. In 
fact, I was just over in the United Kingdom less than about 10 
days ago, and met with all of my British counterparts, and I 
think the relationship was very strong and productive.
    Mrs. Watson Coleman. Well, let's hope so.
    Director Wray, you had expressed a strong desire that we 
reauthorize 702, section 702, and that it is very vital for you 
all to be able to do your job. I wanted to just say that I had 
tremendous pause when I read the report on black identity 
extremism and its threat to law enforcement. I still have very, 
very major concerns about what it communicates to law 
enforcement, what to fear, whether or not those fears have been 
developed in terms of the research and the analysis. I look 
forward to meeting with those analysts who discuss what seems 
to be a very skimpy report.
    But that kind-of gives me pause to support that kind of 
authorization to an agency that would, I think, allow this sort 
of poorly-developed report to come out and not demonstrate, in 
my opinion, only in my opinion, I guess a commensurate 
identification or expression of white identity extremism that 
presents a threat to our environment.
    Mr. Wray. I would just add, I appreciated our conversation 
yesterday.
    Mrs. Watson Coleman. I am sorry that I had to leave before 
it was completed.
    Mr. Wray. But I found it a candid and hopefully 
constructive conversation. I look forward to continuing the 
dialog on that issue.
    I would say, on the white supremacist issue, we do put out 
information to State and local law enforcement on that. In 
fact, at the IACP conference recently in Philadelphia that I 
attended and spoke at, we distributed I think something like 
15,000 copies of a video, which I would be happy to make 
available to you, about the white supremacist threat to State 
and local law enforcements to raise their awareness of that 
threat. That is an example, but it is hardly the only example.
    Mrs. Watson Coleman. I think it is really important, and I 
know it is a difficult discussion for us to have, but I need to 
agree with my colleague, Mr. Correa, that if we are really 
going to look at the dangers that are confronting our safety 
and security of our citizens here in the homeland, that we need 
to have a serious discussion of who represents that danger.
    While we talk about this on the surface and we kind of skim 
and we include it in the larger discussions on very important 
issues of homeland security, in and of itself, the threat is so 
severe that even organizations who have done research in these 
issues find that the threat to our security is greater with 
these groups than it is with these sort of foreign fighters or, 
you know, foreign-inspired individuals, and we just need to 
confront this.
    So on the record, I need to ask again that we have a 
hearing specifically addressing those issues with those members 
of the administration that weigh in, work on, and have 
consideration of these issues.
    So I thank you. I see that I have gone beyond my time. So, 
Mr. Chairman, I yield back the rest of my time.
    Chairman McCaul. The gentlelady yields.
    The Chair recognizes a former FBI agent from Pennsylvania, 
Mr. Fitzpatrick.
    Mr. Fitzpatrick. Thank you, Mr. Chairman. I thank you all 
for being here, and more importantly, thank you for what you 
do. Your work is not easy. We know that and we are here to 
support you in any way necessary.
    I can report to this committee, regarding Director Wray, 
who is leading my former organization, I have spoken and 
obviously keep in touch with many of my former colleagues from 
the ground all the way up. This is a man that they have come to 
respect tremendously. So, Mr. Wray, thank you for leading the 
organization that I love.
    I think that it warrants further discussion regarding 
section 702. Mr. Higgins brought it up briefly. I want this 
committee to be fully aware, not only of what you just said 
regarding the benefits to the Bureau and to the National 
security apparatus regarding 702, but I think what I would like 
you to address briefly, sir, is the consequences of not 
reauthorizing. What would we not be able to do any more should 
section 702 expire?
    Mr. Wray. So the real value of 702 to the FBI and to the 
protection of the American people is at the front end, at the 
very early stages when a tip comes in and we are in an 
environment right now, as you have heard from every member of 
this panel, where there is a high volume of threats and there 
are so few dots, in many cases, to connect with these smaller, 
more contained, more loosely-organized situations, so that the 
premium on getting the right dots to connect, to understand 
which threats are real, which ones are more aspirational, that 
is when the value of 702 kicks in.
    Right now, under 702, we can query information, and I want 
to be sure everybody understands this, this information that 
the FBI has already lawfully in its possession. There is no 
court that disagrees with that. Right now, they can query that 
information and know that this tip from State and local law 
enforcement or somebody in the private sector, is one that 
really matters, and allows us to mobilize resources to be sure 
that we get in front of the threat.
    If 702 is walked back, we will, in effect, be starting to 
rebuild the wall that existed before 9/11. I implore the 
committee not to go there again, because that is something that 
we learned the hard way, you know, before and after 9/11.
    Mr. Fitzpatrick. Thank you, Mr. Wray. We have a lot of 
people on this committee asking what we can do to help. This is 
exhibit A where we can help. We have to reauthorize section 
702. It is absolutely imperative.
    Secretary Duke, I had the honor of visiting Puerto Rico 
last week. As you know, this committee has oversight over FEMA. 
I describe the experience as heartbreaking and heartwarming all 
at the same time, walking through the convention center where 
some amazing work is being done, by a great team of Federal 
agencies who have challenges.
    My concern is, and if you could address this, FEMA is 
spread very thin right now. They are responding in Texas; they 
are responding in Florida; and they are also responding to what 
I believe to be the most challenging situation in Puerto Rico, 
logistically being over 1,000 miles off the coast of Florida. 
They had an antiquated infrastructure and electrical grid to 
begin with. They dealt with a Cat 5 hurricane right through the 
island, 190-mile-an-hour sustained winds for a 12-hour period 
of time. The citizens there described it to me as a 12-hour 
long tornado. It was absolutely devastating.
    What are we doing specifically for Puerto Rico, given the 
unique challenges logistically and economically that those 
people face? Because I think it is important that we constantly 
talk about and remind everybody that they are American citizens 
too.
    Ms. Duke. Right. Puerto Rico and the U.S. Virgin Islands 
definitely had some unique challenges. The main thing we are 
doing differently is--I will juxtapose it against Texas where 
Governor Abbott had a strong infrastructure in place, both 
physical infrastructure and the people, to lead the effort, and 
we augmented.
    What we have done in Puerto Rico, because of their 
financial concerns and others, Governor Rossello had a weak 
ability to execute his vision. So we have embedded FEMA people 
with the Governor and are bolstering his vision, his recovery 
efforts even more strongly.
    Additionally, we are doing response and recovery 
simultaneously. So we are continuing response. Even though it 
has tailed off, we are still delivering water, still delivering 
meals. But we are actually doing the recovery effort in terms 
of rebuilding the infrastructure, so I would say a much 
stronger role in supporting the Governor.
    Mr. Fitzpatrick. We appreciate it. Please keep the focus on 
Puerto Rico. We don't want them to be forgotten. Anything this 
committee can do to support that role, please let us know.
    Ms. Duke. Thank you.
    Mr. Fitzpatrick. I yield back, Mr. Chairman.
    Chairman McCaul. The Chair recognizes the gentleman from 
Rhode Island, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank our 
witnesses for your testimony today.
    Before I begin, Mr. Chairman, I would ask unanimous consent 
to submit a statement from the START, the National Consortium 
for the Study of Terrorism and Responses to Terrorism.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
   Statement Submitted For the Record By Honorable James R. Langevin
  Statement of The National Consortium for the Study of Terrorism and 
                         Responses to Terrorism
    International terrorism casts a long shadow, reaching the American 
consciousness from violence-torn nations such as Iraq, Syria, and 
Afghanistan, and from our collective memory of the attack of September 
11, 2001. Indeed, the 9/11 attack is the most lethal terrorist attack 
in the past half century and the world has experienced historically 
high levels of terrorist violence over the last 5 years, largely at the 
hands of Islamist extremist organizations operating in Muslim-majority 
countries.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    While the overwhelming majority of that terrorist violence has 
occurred in the context of inter- and intra-state conflicts in the 
Muslim world, these bonfires have thrown sparks that have reached 
Western nation-states in the form of both centrally-planned attacks and 
inspired plots with no material support from a foreign-designated 
terrorist organization. It is easy to understand how this aggregated 
level of global violence, selectively featured in high-definition 
terrorist propaganda and amplified on cable news, in combination with 
the anomalous lethality of 9/11, can obscure our understanding of 
terrorist violence within the United States.
    In the United States, however, the nature of terrorist violence 
differs significantly from the global picture, primarily due to its 
diversity and relative scarcity. In the following passages we draw on 
various Unclassified and objective START datasets to highlight the 
empirical nature of terrorism in the United States, in some cases 
excerpting or adapting text from START publications.\1\ *
---------------------------------------------------------------------------
    \1\ A representative sample of those publications are included as 
appendices to this statement for the record.
    * Supplemental material has been retained in committee files.
---------------------------------------------------------------------------
    These data reveal a simple truth; the perpetrators of terrorism in 
the United States adhere to a wide variety of ideologies, choose 
differing targets and victims, recruit and mobilize violence in 
differing patterns, but all pose a threat to American lives and the 
fabric of American society. The perception of the threat posed by these 
different groups and movements depends largely on ``where one sits'' in 
society, as opposed to the empirical nature of their violent attacks 
relative to one another. To suggest that there is only one salient form 
of terrorism active in the United States is empirically false and puts 
American life, liberty, and prosperity at risk.
   the extremist crime database, and differences in victimology and 
                          perceived threat\2\
---------------------------------------------------------------------------
    \2\ The ECDB is led by researchers at John Jay College of Criminal 
Justice, Michigan State University, Seattle University, and Indiana 
University-Purdue University, Indianapolis.
---------------------------------------------------------------------------
    The ECDB is a relational database that includes information on all 
publicly-known violent and financial crimes committed in the United 
States by extremists associated with violent Islamist extremists, the 
violent Far-Right (FR), and the Animal and Earth Liberation Fronts (ELF 
and ALF). The ECDB includes information on the incidents themselves, as 
well as their perpetrators, related organizations, and victims. It 
currently covers the period between 1990 and 2016.
    Drawing on ECDB data on ideologically-motivated homicides occurring 
after September 11, 2001 through the end of 2016, we find that 31 
Islamist extremist homicide events have resulted in 119 deaths, while 
89 Far-Right extremist homicide events have caused 158 deaths.\3\
---------------------------------------------------------------------------
    \3\ See Appendix for a START infographic based on ECDB homicide 
data published in February 2017 using preliminary 2016 data, which 
provides similar data as the finalized data reported in this statement. 
During the time of this study, there were no homicides conducted by the 
ALF/ELF, the other ideological group studied in the ECDB.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Over the last 25 years, when including the ideological victims of 
the 9/11 terrorist attacks and the Oklahoma City bombing, Islamist 
extremist offenders have killed nearly 7\1/2\ times more people than 
Far-Right extremists in one-fifth as many incidents. However, when 
these two outliers are removed, another story unfolds. Under these 
circumstances, there are nearly four times as many Far-Right extremist 
victims as Islamist extremist victims.
    Although both sets of victims had disproportionate numbers of 
individuals killed in the line of duty, especially when one considers 
the percentage of the general population engaged in active military or 
law enforcement service at any given point in time, Islamist extremist 
victims were more likely to be military, while Far-Right extremist 
victims were more likely to be law enforcement.
    In some ways, Islamist extremist victims have characteristics that 
are closer to that of ``typical'' homicide victims and even the general 
population. This could be a mechanism of the fact that compared to Far-
Right extremist victims, Islamist extremist victims are more likely to 
be randomly selected. If an individual is fatally victimized by an 
Islamist extremist offender depends on whether they are in the 
proverbial wrong place at the wrong time. Far-right extremist victims, 
however, are more likely to be targeted purposefully for assassination 
based on the offender's previous knowledge of the individual.
    This differential form of targeting can impact threat perception of 
the various ideological groups; in a separate project START researchers 
surveyed law enforcement professionals who indicated that their 
relative perceived threat of Islamist extremists decreased in 
comparison to the Sovereign Citizen movement following a serious of 
homicides in which police officers were killed.\4\
---------------------------------------------------------------------------
    \4\ Carter, David, and Steve Chermak, Jeremy Carter, Jack Drew. 
``Understanding Law Enforcement Intelligence Processes,'' Report to the 
Office of University Programs, Science and Technology Directorate, U.S. 
Department of Homeland Security. College Park, MD: START, 2014.

------------------------------------------------------------------------
                                     Potential Threat   Potential Threat
           Type of Group                (2013-14)          (2006-07)
------------------------------------------------------------------------
Sovereign Citizens................           3.20 (1)           2.49 (7)
Islamic Extremists/Jihadists......           2.89 (2)           3.13 (1)
Militia/Patriot...................           2.67 (3)           2.61 (6)
Racist Skinheads..................           2.58 (4)           2.82 (3)
Neo-Nazis.........................           2.56 (5)           2.94 (2)
Extreme Animal Rightists..........           2.54 (6)           2.79 (4)
Extreme Environmentalists.........           2.51 (7)           2.74 (5)
Klux Klux Klan....................           2.38 (8)           2.47 (8)
Left-Wing Revolutionaries.........           2.36 (9)          2.04 (13)
Extreme Anti-Abortion.............           2.36 (9)          2.30 (11)
Black Nationalists................          2.34 (11)          2.35 (10)
Extreme Anti-Tax..................          2.33 (12)           2.47 (8)
Extreme Anti-Immigration..........          2.33 (12)           2.41 (9)
Christian Identity................          2.19 (13)           2.59 (8)
Idiosyncratic Sectarians..........          2.19 (13)          2.13 (12)
Millennial/Doomsday Cults.........          2.17 (15)          1.93 (14)
Reconstructed Traditions..........          2.13 (16)          2.04 (13)
------------------------------------------------------------------------

    These victimization patterns over the last 25 years demonstrate 
that ideological victimization from terrorist and extremist violence 
varies across ideologies and underlines the importance of future 
research in the fields of criminology and victimology in attempting to 
understand these differences and reduce victimization risk.\5\
---------------------------------------------------------------------------
    \5\ This analysis is excerpted and adapted from, Parkin, William 
S., Steven M. Chermak, Joshua D. Freilich, and Jeff Gruenewald. 
``Twenty-Five Years of Ideological Homicide Victimization in the United 
States of America,'' Report to the Office of University Programs, 
Science and Technology Directorate, U.S. Department of Homeland 
Security. College Park, MD: START, 2016.
---------------------------------------------------------------------------
    profiles of individual radicalization in the united states, and 
                    differences in interdictions \6\
---------------------------------------------------------------------------
    \6\ The PIRUS data base is curated by researchers at START at the 
University of Maryland. The database is freely available for download 
on START's webpage or can be accessed through the project's data 
visualization tool at http://www.start.umd.edu/profiles-individual-
radicalization-united-states-pirus-keshif.
---------------------------------------------------------------------------
    Profiles of Individual Radicalization in the United States (PIRUS) 
is a database of 1,867 Islamist, Far-Left, Far-Right, and single-issue 
extremists who have radicalized to violent and non-violent extremism in 
the United States from 1948 through 2016. This analysis draws on the 
full dataset and illustrates the important differences that exist 
across ideological groups, as well as those which distinguish violent 
from non-violent extremists. The PIRUS data can be used to explore the 
radicalization trajectories of individuals from Far-Right, Far-Left, 
and Islamist ideologies.
    Individuals adhering to extreme Far-Right views make up the 
majority of the database (n=746), followed by Islamist extremists 
(n=457), and those on the extreme Far-Left (n=324). However, it is 
important to recognize that radicalization in the United States has 
generally occurred in several waves. These waves roughly correspond to 
the rise of Far-Left extremism in the late 1960's and early 1970's, 
Far-Right extremism in the 1980's and 1990's, and Islamist extremism 
after 2001.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In addition to the analyses described above, PIRUS captures data on 
the progression of the plots pursued by the individuals included in the 
dataset, providing insight into the relative success and failure of 
individuals from different ideological milieus in perpetrating 
violence. In the chart below we can see that while nearly 76 percent of 
Islamist plots were disrupted before an attack occurs, 52 percent of 
violent Far-Right and 55 percent of violent Far-Left plots, of which 
there have been greater overall numbers, were successfully executed.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    One possible explanation for this differential is that the 
professional counterterrorism community has allocated more resources to 
Islamist terrorism. However, another compelling explanation is that the 
Federal laws associated with material support for a foreign designated 
terrorist organization provides additional tools that the criminal 
justice community can use to open investigations and disrupt 
international terrorist plots at an earlier stage in the plot 
progression than are available for domestic terrorist plots.
    Due to Constitutional protections associated with freedom of speech 
and freedom of assembly, many of the same behaviors that allow for the 
arrest of an al-Qaeda supporter prior to a violent attack are not 
chargeable offenses for members of ``domestic'' terrorist groups and 
movements like the Environmental Liberation Front or the White 
Supremacist movement. The different legal standards for domestic 
terrorism and international terrorism generate different criminal 
justice outcomes, but also generate confusion about what constitutes 
terrorism versus a hate-crime and the relative threat of domestic 
terrorism versus international terrorism. Furthermore, it has 
contributed to accusations against the U.S. Government of placing an 
unwarranted focus on Islamist extremism at the expense of other 
threats.
   the american terrorism study, and differences in mobilization of 
                              violence \7\
---------------------------------------------------------------------------
    \7\ The American Terrorism Study (ATS) is led by researchers at the 
Terrorism Research Center at the University of Arkansas.
---------------------------------------------------------------------------
    The ATS is an empirical relational database consisting of data on 
Federal terrorism-related court cases, persons indicted in these court 
cases, and related officially designated terrorism incidents. Variables 
include demographic information, terrorist group designations, and 
temporal and geospatial data on incidents and antecedent activities 
leading to terrorist attacks.
    In 2016, the ATS team studied how the planning process affects 
outcomes of terrorist plots. Analysis was conducted on 504 terrorism 
plots in the United States from 1980-2015.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Data for the analysis included information from:
  <bullet> 132 Far-Right terrorism plots
  <bullet> 84 Far-Left plots
  <bullet> 75 Islamist extremist plots,
  <bullet> 126 environmental extremist plots, and
  <bullet> The remaining plots include activities by a variety of other 
        nationalist/separatist groups as well as single-issue plots.
    By studying terrorism across ideologies, as well as the nature of 
lone actors versus group-based actors, the ATS team was able to 
identify differing geographical and temporal patterns of violence 
mobilization that can inform law enforcement interdictions and 
investigations when dealing with threats emanating from different 
ideological groups active in the United States. For example, AQ-related 
and Far-Left perpetrators committed more than half (55 percent and 52 
percent, respectively) of their precursor behaviors within 30 miles of 
where they lived. In contrast, Far-Right perpetrators committed less 
than one-third (31 percent) and environmental perpetrators about one-
fourth (24 percent) of their precursor behaviors within 30 miles of 
their residences.\8\
---------------------------------------------------------------------------
    \8\ Smith, Brent L., and Paxton Roberts, Kelly Damphousse. ``Update 
on Geospatial Patterns of Antecedent Behavior Among Perpetrators in the 
American Terrorism Study (ATS),'' Report to Resilient Systems Division, 
DHS Science and Technology Directorate. College Park, MD: START, 2013.
---------------------------------------------------------------------------
the global terrorism database, and the relative scarcity and diversity 
                         of u.s. terrorism \9\
---------------------------------------------------------------------------
    \9\ This section is adapted from the START Background Briefs, 
``Overview: Terrorism in 2016,'' published in August 2017 and 
``Ideological Motivations of Terrorism in the United States, 1970-
2016,'' published in November 2017. These are included in the Appendix.
---------------------------------------------------------------------------
    According to START's Global Terrorism Data (GTD), 61 terrorist 
attacks occurred in the United States in 2016 resulting in the death of 
61 victims and 7 perpetrators. As a region, North America experienced 
the eighth-largest number of attacks out of 12 regions across the 
globe.

----------------------------------------------------------------------------------------------------------------
                                                                       Percent                          Percent
                    Region                        Total     Percent     Change     Total     Percent     Change
                                                 Attacks    of Total  from 2015    Deaths    of Total  from 2015
----------------------------------------------------------------------------------------------------------------
Middle East & North Africa....................      6,088        45%        +2%     19,121        55%        +8%
South Asia....................................      3,628        27%       -21%      7,774        22%        -6%
Sub-Saharan Africa............................      2,051        15%        +6%      6,591        19%       -37%
Southeast Asia................................      1,078         8%        +1%        635         2%        -2%
Western Europe................................        269         2%       -20%        238         1%       +39%
South America.................................        133         1%       -24%         71         0%       -44%
Eastern Europe................................        132         1%       -81%        112         0%       -86%
North America.................................         72         1%       +14%         73         0%       +38%
Central Asia..................................         16         0%       +78%         20         0%       +54%
Australasia & Oceania.........................         10         0%       -29%          0         0%      -100%
East Asia.....................................          8         0%       -71%         32         0%       -74%
Central America & Caribbean...................          3         0%      +200%          9         0%  .........
                                               -----------------------------------------------------------------
      Total...................................     13,488       100%        -9%     34,676       100%       -10%
----------------------------------------------------------------------------------------------------------------

    The majority (85 percent) of the terrorist attacks that took place 
in the United States in 2016 were non-lethal, and in three additional 
attacks, the only people killed were the assailants. A total of 61 
victims were killed in attacks that took place in Orlando (49), Dallas 
(5), Baton Rouge (3), New York City (2), Philadelphia (1), and Bristol 
(1).
    Religious figures and institutions were most frequently targeted in 
terrorist attacks in the United States in 2016. These attacks mainly 
involved churches, mosques, and synagogues, typically using incendiary 
weapons. Nine attacks targeted police in the United States in 2016, 4 
of which resulted in the deaths of 9 police officers and 1 bystander. 
The assailants in these cases were not affiliated with formal 
perpetrator organizations, but espoused racist (anti-white), anti-
police, or jihad-inspired motivations.
    In June 2016 an assailant armed with an assault rifle and a handgun 
opened fire at Pulse, a gay nightclub in Orlando, Florida. The 
assailant then held a number of people hostage inside the nightclub for 
3 hours. Forty-nine people were killed and more than 50 people were 
injured before law enforcement officers shot and killed the assailant, 
identified as Omar Mateen. During the course of the attack, Mateen 
pledged allegiance to the Islamic State of Iraq and the Levant (ISIL) 
and indicated that he carried out the attack in retaliation for U.S. 
airstrikes in Iraq and Syria.
    Between 1970 and 2016 terrorist attacks in the United States were 
motivated by a variety of ideological perspectives. The following 
charts and paragraphs present information from the GTD on terrorist 
attacks classified by ideology as part of the Terrorism and Extremist 
Violence in the United States (TEVUS) project.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In comparison to the 2000's, there was a sharp decline in the 
proportion of terrorist attacks carried out by left-wing, 
environmentalist extremists during the first 7 years of the 2010's 
(from 64 percent to 12 percent). At the same time, there was a sharp 
increase in the proportion of attacks carried out by right-wing 
extremists (from 6 percent to 35 percent) and religious extremists 
(from 9 percent to 53 percent) in the United States.
    The lethality of terrorism in the United States between 1970 and 
2016 was characterized by thousands of non-lethal attacks (91 percent) 
that were punctuated by relatively rare but deadly, or even 
exceptionally deadly, attacks. Although the lethality of attacks during 
the 2010 to 2016 time period did not nearly match that of the two prior 
decades, this basic pattern remained. For example, of the 68 people 
killed in attacks carried out by jihadi-inspired extremists during this 
period, 49 died in the Orlando, Florida attack in 2016. Fourteen others 
died in San Bernardino, California in a 2015 attack by Syed Farook and 
Tashfeen Malik. Likewise, 9 of the 18 people killed by white 
supremacists or white nationalists died as a result of Dylann Roof's 
2015 attack at Emanuel African Methodist Episcopal Church in 
Charleston, South Carolina. Six others were killed when Wade Michael 
Page attacked worshippers at a Sikh temple in Oak Creek, Wisconsin. 
This demonstrates that the overall trends in terrorism in the United 
States with respect to ideology are highly sensitive to the influence 
of individual mass-casualty attacks.
    Terrorist attacks attributed to formal organizations in the United 
States were relatively rare in the years following the September 11 
attacks. In particular, attacks that took place between 2010 and 2016 
were typically carried out by individual perpetrators who were only 
loosely linked to a specific organization or ideological movement. The 
motivations for attacks were both diverse and overlapping. In some 
cases, they were narrowly focused on issues and in other cases inspired 
by broad belief systems. They included both oppositional (anti-) and 
affirmative (pro-) views, or sometimes both.
    When focusing on formal terrorist organizations that have conducted 
attacks in the United States enumerated in the GTD, we again find a 
diversity of actors emerging each decade from 1970 through 2013.\10\
---------------------------------------------------------------------------
    \10\ This chart is based on data from a derivative dataset of the 
GTD that looks at the groups responsible for attacks in the United 
States, called the Profiles of Perpetrators of Terrorism in the United 
States (PPT-US). See Appendix for PPT-US Research Highlight.
---------------------------------------------------------------------------
    dominant ideologies of terrorist groups that emerged each decade
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                              conclusions
    Based on several different databases funded through July 1, 2017 by 
the U.S. Department of Homeland Security, the U.S. State Department and 
the National Institute of Justice, we are able to examine terrorism in 
the United States across a range of ideological types. In general, this 
analysis shows that the nature of terrorist violence in the United 
States differs significantly from the global picture, primarily due to 
its diversity and relative scarcity. In particular, the perpetrators of 
terrorism in the United States represent a wide variety of ideologies. 
Attacks in the 1970's were dominated by Far-Left groups; Far-Right 
attacks dominated the 1980's and 1990's; and Islamist groups became 
increasingly important following the 9/11 attacks. We also find 
important differences in target selection, tactics, and lethality 
across different ideological groups. These important differences by 
ideology suggest that focusing on only one form of terrorism active in 
the United States will result in less effective counterterrorism and 
increased risk for American citizens.
    Funding for most of the data reported here has now ended but START 
is actively seeking support to allow us to keep these data current and 
useful for policy makers, counterterrorism professionals, students, and 
researchers.

    Mr. Langevin. Thank you, Mr. Chairman.
    So to Director Wray and Secretary Duke, for both of you, in 
your testimony, you reference two major cybersecurity incidents 
this year, WannaCry, and NotPetya, under the National Cyber 
Incident Response Plan. When a significant cyber incident 
occurs, the Department of Justice, acting through the FBI, is 
the lead agency for threat response, and DHS is the lead agency 
for asset response.
    So can you and Director Wray describe how your two agencies 
collaborated in response to these incidents and your lessons 
learned? How do you see the cyber threat evolving? What gaps do 
you see in U.S. defenses in response to recovery efforts?
    Ms. Duke. Well, I think the main division is that DHS is 
responsible for securing the systems and remediating any 
malware. So we are more on the technical side of addressing the 
threat, such as WannaCry. We are embedded with the FBI in their 
National Cyber Joint Task Force, and then we have our own end-
take.
    I think that what we are having to do is really understand, 
as the director said earlier, the difference between state 
actors, just persons looking for maybe financial gain, and 
those hybrid actors. That has become much more difficult. I 
think just information sharing and the co-location is huge for 
us working together in the future.
    Mr. Wray. I would just add that just as the DHS has the 
lead in asset protection and asset mitigation, the FBI has the 
lead in threat response, which we understand to mean sort of 
the pursuit and the attribution and the investigation of the 
incident.
    I have been encouraged by how much progress has been made 
about the cooperation between DHS and FBI on this issue. It has 
been a challenge for everybody because it is such an evolving, 
challenging technical area. But because of the various 
interagency task forces that exist--and there are ones that are 
both at the policy coordination level that are sort-of 
standing, and then there are specific ones that get stood up in 
response to a significant cyber incident. I think the better we 
get, and we need to keep getting better, at information sharing 
and kind-of cooperation, and including involving the private 
sector wherever possible, I think that is how we are going to 
ultimately get in front of the threat.
    Mr. Langevin. Any gaps in particular?
    Ms. Duke. I think one of the biggest gaps is that the role 
that critical infrastructure plays in this issue in protecting 
our country. So as the director said, having to involve the 
private industry in key critical infrastructure sectors.
    Mr. Langevin. OK. So, Secretary Duke, while model aircraft 
have been available to the general consumer for decades, the 
injection of precision navigation and simple-to-use control 
interfaces has rapidly expanded the user base of unmanned 
aerial vehicles. Combined with the capability to carry small 
payloads, such as improvised explosives, these devices now can 
be used to commit acts of terror, sadly.
    So I have worked with my colleague, Senator Whitehouse from 
Rhode Island, to introduce legislation criminalizing the 
reckless operation of drones. But that in and of itself cannot 
stop committed violent actors. So how is DHS assessing the 
rapid increase and the quantities and capabilities of small 
UAVs and the potential to be used as an attack vector?
    In case my time doesn't run out, Director Wray, as you note 
in your testimony, integrating intelligence is the critical 
strategic pillar of the FBI strategy. I want to thank you for 
your efforts in this domain.
    In the international space, the United States provides a 
significant amount of intelligence to our foreign partners that 
enables them to better protect their own nations from attacks. 
Can you and Director Rasmussen comment on how these partners 
are reciprocating in information sharing, and what can be done 
to improve this cooperation?
    Ms. Duke. A quick answer on the unmanned aircraft systems. 
This is an area where we lack authority. If there is anything I 
would ask of the committee it would be to assist us in getting 
authority. We can't even do testing of anti-UAS systems with 
our current authorities, and we think this is a major 
increasing threat.
    Mr. Wray. On the foreign cooperation point, one of the 
things that we are doing better now that has, I think, 
significantly improved the amount of intelligence flowing back 
the other way is through our legat program. We have legats in--
80 legats serving 200 countries. That is our foreign offices of 
the FBI.
    A lot of those, I just came back from Europe, in 
particular, where we are starting to get more and more two-way 
flow of information, in particular, from the Brits, but also 
from other countries. As they learn more about what would be 
valuable, and we get more and more embedded and the level of 
trust both ways between the two countries matures, I think that 
is another place where, when I look at the kind of cooperation 
that exists now between intelligence services and the way it 
was back when I was in Government before, it is like night and 
day. Doesn't mean it can't be better, and it needs to keep 
getting better, but I really feel like we are on the right 
track there.
    Mr. Rasmussen. I would just add to that that if there was 
any modest silver lining in the difficult threat environment 
that we face driven by ISIS over the last few years, it has 
been the dramatic increase in information sharing globally that 
we have seen. Many more countries than ever before view this as 
their problem too and simply not something that they can shut 
off and ignore and say that is an American problem or that is a 
British problem.
    So the array, the number of countries that we have active 
intelligence sharing arrangements with is in the many, many 
dozen now, rather than just a handful of very close partners. 
Again, the foreign fighter phenomenon has also helped drive 
that kind of information sharing as well. So it is a modest 
silver lining, but it is something we can build on for the 
range of terrorism threats that we will face in the future.
    Mr. Langevin. I want to thank you all for your testimony, 
your insights.
    Secretary Duke, I think it is pretty outrageous that DHS 
can't even do testing on drones and their capabilities.
    Mr. Chairman, maybe that is something that we can work on 
together to help to change.
    Chairman McCaul. I have been looking at this issue for 
quite some time. We have seen drones being used in Iraq and 
Syria. We have seen drones at the White House, the Capitol. I 
do think it is time for us to consider legislation to move some 
authorities from the FAA to the Department of Homeland 
Security, and I would very much like to work with you.
    Mr. Langevin. Thank you, Mr. Chairman. I welcome the 
opportunity.
    With that, thank you to our witnesses. I will yield back.
    Chairman McCaul. The gentleman yields.
    The gentleman from Nebraska, General Bacon, is recognized 
for the first time.
    Mr. Bacon. Thank you, Mr. Chairman. It is an honor to be on 
the committee. Defending our Constitution and strengthening our 
National security are my most important priorities, and it is 
an honor to be on this committee to put some focus on that.
    Secretary Duke, I wanted to ask you about what I consider 
as one of the most important threats to our country, and that 
is the cyber penetration from Russia and China into our energy 
infrastructure, our--perhaps our financial networks. How would 
you assess the threat that Russia and China poses, say, on a 1 
to 10 scale, 10 being the worst? Because what I fear is the 
next December 7 we face will be preceded by an energy attack or 
a financial sector attack like that. Thank you.
    Ms. Duke. It is very strong. On a scale of 1 to 10, I would 
say probably a 7 or 8, because what we know is daunting and we 
don't know what we don't know. But looking at using cyber to 
attack the control systems of critical infrastructure is a 
major area of concern that we are working with the critical 
infrastructure on.
    Mr. Bacon. It seems apparent to me that they are putting a 
foundation in to have that capability, if needed. I think we 
should be concerned. Do you think we are doing enough to build 
resilience in the system or to have back-ups, or is there a lot 
more that we can do?
    Ms. Duke. I think that it is to the point where the 
critical infrastructure sector has really recognized the threat 
recently, so I think everyone has the attention. Now it is 
implementing the safeties to help try to prevent this.
    Mr. Bacon. Thank you.
    Director Wray, when I go and talk to the law enforcement in 
the Omaha area, I ask them: What is the one thing that we can 
do more to help you with, gun violence and things like that? I 
hear two things: Do more about straw man purchases. Not enough 
is being done there. Also to help off-duty law enforcement to 
be able to carry their weapons, or retired.
    Would you share those sentiments from our law enforcement 
from Omaha?
    Mr. Wray. Well, certainly on the straw purchasing side, 
when I was a line prosecutor back--as a baby prosecutor, I used 
to do a lot of straw purchaser cases. I do think that is a 
place where more aggressive enforcement of laws on the books 
would be very helpful. Most of that responsibility lies with 
ATF. But we work collaboratively with the ATF, who is a great 
partner on more organized criminal activity that involves some 
of the same kind of firearms crime that you are talking about.
    As you may know, the Attorney General is revitalizing 
Project Safe Neighborhoods that was a very effective Federal, 
State, and local program that existed in the early 2000's that 
kind of built off of Project Exile that had been in Richmond to 
really try to more strategically focus on gun violence. So I 
think that will help the folks in Omaha, among other places.
    Mr. Bacon. Thank you. I am going to be working on some 
legislation toward that end. Thank you.
    Director Rasmussen, as you know, Secretary of Defense 
Mattis has changed our strategy. When we get to an area where 
ISIS is operating, our policy previously had been to take over 
the city, but they would be able to get out, retreat, regroup 
somewhere else. Now his strategy is to kill them where they are 
at and not let them get out.
    Are you seeing effects of the strategy where we are seeing 
less of these terrorists leaving Syria, trying to come back 
this direction or going to Europe, or are you seeing a 
reduction in this terrorist flow?
    Mr. Rasmussen. Well, certainly, the territorial aspect of 
the fight that I mentioned in my prepared remarks has 
accelerated over the course of this year with the dramatic 
reduction in the amount of territory ISIS controls. One of the 
difficulties and challenges, though, has been that that 
campaign has taken a period of time to play out in a sense that 
the bad guys, in many cases, knew where we were headed next.
    They knew that the effort was focused on Mosul, the largest 
city in Iraq that was under ISIS control. They knew we were, 
over time, going to move toward Raqqa, the city in eastern 
Syria that served as the headquarters for ISIS. That, 
unfortunately, allowed many of the actors we would be most 
concerned about to bleed out over time ahead of that campaign. 
Many chose to fight, to stay and fight, and they chose to stay 
and fight and die in defense of the caliphate. But others we 
are concerned about have made their way into either the Iraqi 
countryside or are trying to find their way out of the conflict 
zone.
    So it is not necessarily a volume question as much as it is 
a quality and quantity question. If the wrong individuals get 
out, the wrong individuals who have particular capability or 
skill and experience with weapons of mass destruction, those 
are the ones we are the most concerned about.
    But, yes, I agree. We are absolutely focused on making sure 
these individuals do not escape the battlefield.
    Mr. Bacon. One last question, if I may. I think we are 
doing a lot on the kinetic side, going into the cyber mode for 
recruitment, going after the financial end of it. But I have 
yet to see how we can do better at undermining the ideology 
that recruits lone wolves to help sustain ISIS and al-Qaeda 
overseas.
    What more can we be doing to undermine the ideology that 
does this recruiting?
    Mr. Rasmussen. I think there, a soft touch and a little bit 
of subtlety is required, because I think we will be most 
effective if we are enabling and empowering credible actors who 
can speak credibly to those potentially vulnerable populations, 
rather than something coming out from the State Department or 
with the brand of the United States on it saying this is how 
you should behave, this is how you should believe. But if we 
can identify and empower and support credible voices within the 
communities where this is a problem, it is a better solution.
    Mr. Bacon. Thank you. Mr. Chairman, I yield back.
    Chairman McCaul. The gentleman yields.
    Director, I just wanted to comment, in addition to doing 
counterterrorism work as a Federal prosecutor, I was also an 
exile prosecutor. Please relay to the Attorney General my 
thanks for reviving that program. It is very good. It works. So 
thank you.
    The Chair now recognizes the gentlelady from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. I thank you. Let me start out by thanking 
each and every one of you for your service to this Nation. My 
time is short, and so I will be pointed in my questions.
    Secretary Duke, let me first of all offer my sympathy 
publicly again as I have done for the loss of life of a Border 
Patrol agent just a few weeks ago, and as well, one that is 
injured and mending. Thank you for all of the men and women 
that work in the Homeland Security Department.
    Let me focus on Hurricane Harvey, which, by connection, I 
think it impacts the Virgin Islands, and as well, Puerto Rico 
and Florida and others.
    FEMA certainly is an agency that we owe a great debt of 
gratitude to, but let me be very clear. I have been asked how 
Houston is doing, how Texas is doing. We are a strong group of 
people, but we are devastated. It is so difficult dealing with 
FEMA and the repeated denials, people who have not heard from 
FEMA. FEMA is good for the immediacy, but it is not good for 
recovery, and you are listed as a recovery agency. We need help 
down in Texas. We need more FEMA, DRCs. We need more people 
dealing with the appeal process. It is absolutely absurd.
    The second question is dealing with the appropriations. I 
would ask that you would ask the President of the United States 
to consider that $44 billion is shameful. The President came to 
Texas and said that we would provide you with everything you 
need. This is $44 billion for the U.S. Virgin Islands, Puerto 
Rico, Texas, and everyone else.
    So if you would answer that question after. Let me go to 
Director Wray. I will put the questions on the record very 
quickly.
    The questions on the record are, Director Wray, as you well 
know, there have been some anti-Muslim videos that have been 
offered by the Commander-in-Chief. My question is, as the world 
has condemned this, how difficult it makes the work of the FBI 
that deals with domestic terrorism with these kinds of videos 
being associated with the United States.
    Second, I am interested in the commitment to not do reverse 
targeting under 702. I know that it is an international issue, 
but the FBI is involved in terrorism, in the fight against 
terrorism, and may use the 702 law. I want to know your 
position on reverse targeting of a U.S. citizen.
    Finally, the black identity extremists. We have had some 
conversations on that. I believe it is crucial that there be a 
clarification so that individuals expressing themselves in the 
First Amendment understand the parameters of the FBI.
    Ms. Duke, if you would, please, Secretary Duke.
    Ms. Duke. I will check into the specific inquiries. I will 
work with Governor Abbott's office to make sure that we are 
keeping in Texas. The $44 billion is the current supplemental. 
We do expect that there will be needed additional 
supplementals. But for now, we do have adequate resources to do 
all the recovery efforts.
    Ms. Jackson Lee. I vigorously disagree with you. We do not 
have the adequate resources, and this is going to be on the 
verge of a Government shutdown if Texas and all of the other 
victims of these hurricanes do not have a compromise where we 
can work together. I would encourage you to tell the President 
that it is not enough. It simply is not.
    May I also just leave with you Ms. Temitope N. Jimoh, J-i-
m-o-h, who is a United Airlines supervisor, who has not been 
able to determine why she has been denied official background 
checks. She has filed two appeals, so I would like to speak 
with your leg affairs on that. Thank you.
    Ms. Duke. Yes.
    Ms. Jackson Lee. Director Wray, thank you.
    Mr. Wray. Thank you, Congresswoman. If I can take your 
questions in rapid-fire fashion here. The first one, I think we 
try very hard at the FBI, and will continue to try very hard, 
to earn the trust and confidence of every community we serve 
and protect, including the Muslim-American community. We are 
trying, as I mentioned in response to an earlier question, to 
encourage people to come forward as potential sources and 
witnesses, and we will continue to do that.
    On the reverse targeting point, my position is there should 
not be and we do not permit reverse targeting under section 
702.
    On the black identity extremist issue, I thought our 
conversation yesterday was candid and constructive, at least I 
hope you felt the same way. I can assure you and the rest of 
the American people that we do not investigate people for 
rhetoric, for ideology, for First Amendment expression, for 
association. What we do is when people are engaged in--when 
there is credible evidence of Federal crime involving the 
credible threat of force or violence to further a political or 
social goal, that is our focus. We have no interest 
investigating any group for expressing strong views, no matter 
who might consider them extremist, about any important social 
issue, including racial injustice.
    Ms. Jackson Lee. Did you answer that last question--I have 
got 9 seconds--about 702?
    Mr. Wray. Oh, I am sorry. On 702, I was just saying we do 
not permit reverse targeting and would not.
    Ms. Jackson Lee. Thank you so very much.
    Chairman McCaul. The Chair recognizes the gentleman from 
Florida, Mr. Rutherford.
    Mr. Rutherford. Thank you, Mr. Chairman.
    First, I want to thank the panel for your service to the 
country and particularly your service here this morning in this 
long testimony. You know, there is an old saying that everybody 
uses, ``don't beat a dead horse,'' and of course, then we turn 
right around and beat the dead horse.
    So, Secretary Duke, I too am going to ask about the OMB's 
recommendation of the $44 billion for storm recovery. Here is 
the issue in Florida. We are a very large agricultural State. 
Most people don't realize that. But we took a very hard hit, 
about $1.5 billion, and almost $700 million of that was to our 
citrus industry.
    This is why a supplemental to follow is not adequate, 
because these citrus farmers need the money now for the next 
crop coming. If they don't have that--those assets right now, 
then they are not going to be prepared for the next growing 
season. I spoke with one citrus grower who lost 36,000 trees--
36,000 trees. That is going to take some time to replace, and 
more delays is going to have a tremendous negative impact on 
our recovery in Florida.
    So I would like you to carry that back to the 
administration and the OMB, and let them know the impact that 
that is going to have on these growing seasons that don't wait 
for the next supplemental. So thank you for that.
    Now I would like to shift over to and follow up on cyber, 
as many of my colleagues have. You know, not just asset 
protection, but also the ideological fight that I think needs 
to go on within the cyber war.
    Director Wray, you mentioned the cyber squads that you have 
now in all 56 regional offices. What I would like to know is 
what are the difficulties--you know, one of the challenges, I 
think, in the world of cyber is getting that great talent and 
being able to pay for it and pull them away from, you know, 
private industry. How--is there anything that we can do to help 
you get the best of the best for your cyber war?
    Mr. Wray. Well, I was--as you started to ask the question, 
I was thinking, before you got to the talent, that was going to 
be my answer as the principal challenge. There is just not 
enough people who really have that sort of genius-level talent 
for anybody, including the private sector. Of course, we can't 
compete with the hefty paychecks that the private sector can 
offer those same people. But I do believe that people--we can 
compete with anybody on mission. I think we have found that the 
bright, young talent that we are able to attract in this base 
join us for the right reasons, which is our commitment to the 
mission.
    We clearly need more of them. We are trying to do more to 
raise the level of what I will call sort-of cyber literacy 
across our work force, because one of the things that we 
struggle with right now is that our sort-of our cyber black 
belts, if you can call them that, get diverted into having to 
help out with other kinds of criminal investigation work that 
has a cyber component. But if we could raise the basic level of 
literacy across the organization, and I assume Secretary Duke 
would say the same thing within hers, then we could really have 
the most talented people focus on the really sophisticated, 
cutting-edge stuff, and that is where I am hoping to take the 
organization.
    Mr. Rutherford. I am glad you referenced homeland security, 
because I know the Secret Service, for example, had some great 
success in going after transnational organizations with money 
laundering and those kind of things. It is important to have 
that cyber attack.
    Director Rasmussen, how about you, is there anything--you 
know, what can we do to help you all with this recruiting, 
anything?
    Mr. Rasmussen. Well, Director Wray made a very good point. 
With the mission that we have before us, whether it is 
counterterrorism we are dealing with, cyber crime, or cyber 
threats to the United States, motivating young people to want 
to do this for a living is not a challenge. When we put out 
announcements for job openings, we get hundreds and hundreds of 
very high-quality applicants from all over the country.
    One of the challenges we are facing in the intelligence 
community is getting them through the security clearance 
process quickly enough so we don't make someone wait 18 months 
to start embarking on their Federal career, and that is 
something we are working on internally. But I would tell you, 
the biggest thing that you could give us as all Federal 
agencies is a predictable funding environment so that we didn't 
have to wonder year-to-year, will I be able next year to have 
an entry-level cadre of young people coming in or am I stuck 
with this year's class and I have to hold onto them that much 
longer? So year-to-year predictability is very, very important.
    Mr. Rutherford. Yes. Let me ask one other thing in the 
little bit of time I have left. The National Cyber Incident 
Response Plan. As was mentioned earlier, DHS is responsible for 
the asset response, but FBI and DOJ are responsible for the 
threat response. What is the involvement of private industry in 
that partnership in response? Do we need some further 
clarification and definition of roles in the cyber war?
    Mr. Wray. I would say that while there was a time when the 
definition was murkier and there was more confusion about the 
lanes in the road, that after PPD-41, the lanes in the road, I 
think, are much more clearly defined. So I haven't seen as much 
of that as an issue.
    I think the private-sector engagement piece is something 
that we in DHS work on together a lot more and more. We are 
always trying to figure out ways to balance the desire to get 
with the private sector faster, but at the same time, to make 
sure we are both providing accurate information and that we are 
not compromising an existing investigation. In many cases, the 
information that we are getting, at least on the FBI side, is 
either Classified or involves coordination with our foreign 
partners, as I said earlier, and there may be restrictions on 
our ability to share it.
    So we are all learning collectively, the interagency 
community and the private sector, about how to kind-of adapt to 
this comparatively new threat still.
    Mr. Rutherford. OK. Well, again, I thank all of you for 
your time.
    Mr. Chairman, I yield back.
    Chairman McCaul. The gentleman yields.
    The gentleman from Louisiana, Mr. Richmond, is recognized.
    Mr. Richmond. Thank you, Mr. Chairman. Thank you, Ranking 
Member, for having this meeting. Thank you, Director Wray, for 
the meeting yesterday which was very thorough, and I hope we 
continue to follow up.
    Let me just ask you all, and maybe Director Rasmussen or 
Director Wray would have more insight. I am concerned about the 
new and reemerging slave trade in Libya, and the question is: 
Have you all--do you all have any intelligence on it? Do you 
have any reason to believe that it is not, in fact, happening?
    Mr. Rasmussen. Obviously, the fact that there is as much 
political chaos and a vacuum of authority in Libya opens the 
door to all kinds of criminal and other illicit activity. Human 
trafficking is obviously a component of that, as groups try to 
move individuals up through Libya and potentially into Europe 
and contribute to the migrant problem--migrant challenge in 
Europe. We follow that pretty closely from a terrorism 
perspective because those same networks can be used to move 
extremists who want to do us harm or do harm to our allies and 
friends also.
    So we could arrange to share some more Classified 
information with you or your staff in terms of what we know 
about those challenges. Unfortunately, what we know and what we 
can do about it are two separate things. We don't have a lot of 
capability on the ground.
    Mr. Richmond. I agree. But almost like in a medical 
situation, you first have to diagnose that there is a problem 
and acknowledge there is a problem. I think that there is more 
that Congress can do. I just wanted to know from experts 
whether it is something you all would say is fact, that it is 
happening.
    Mr. Rasmussen. It is certainly true.
    Mr. Richmond. OK. Thank you for that.
    Director Wray, and actually all of you all have employees 
that have to fill out the SF-86 form. You talked about the 
process of 18 months to actually get through the process. But 
my question is, at what point--and maybe, Director Wray, as a 
former agent, you can comment on this--at what point do 
omissions become willful and deliberate omissions that rise to 
violating, I think it is title 18, section 1001, which is 
penalties for inaccurate or false statements on the security 
clearance form?
    Mr. Wray. Well, first, while I would love to claim to 
having been a former agent, I can claim to be a former 
prosecutor. So I wouldn't want any of my--many of the many 
agents who work for me to view me as a poseur.
    Mr. Richmond. Got it.
    Mr. Wray. But I am very proud of my credentials now, 
however.
    Second, on the SF-86 point, you know, really it is going 
depend on all the facts and circumstances of the particular 
case. You know, willfulness requires a level of conscious 
knowledge and intent, a knowing falsehood and a recognition 
that the person is making a material omission or false 
statement and recognizing that that is what they are doing when 
they do it, I guess is the way I think of it. That is layman's 
speak, and you as a former defense lawyer can appreciate some 
of the nuances there.
    Mr. Richmond. I guess, if we look at the administration and 
take the most obvious example, which is Kushner's form that has 
been amended, you know, over 100 times, and usually after it 
comes to light that it was inaccurate, the question becomes 
people who apply to your agencies who may leave off, you know, 
high school eviction, you know, college eviction from an 
apartment or something like that, who may get prosecuted for 
it, at what point do we start to get to selective prosecution 
if we don't set the example at the top level with willful 
omissions that don't get corrected until after they are brought 
to the public?
    Mr. Wray. Well, certainly, I think it is important to 
respond truthfully and completely on an SF-86, and I would 
expect all my folks to do that. It is a bear of a form to fill 
out, if you have ever seen one. The older you are and the more 
time periods you have got to cover, it is a challenge. I am not 
aware of a whole lot of prosecutions that have occurred of 
people for their SF-86 responses, but certainly, I do think it 
is important for everybody at any level to try to be as 
truthful and complete and accurate as possible in filling out 
the SF-86.
    Mr. Richmond. With my last 15 seconds, let me just thank 
you all for the job you do. We know how complicated it is from 
how do we secure drones or unmanned aircraft now. Mr. Higgins 
would relate, in my district, I probably have the largest 
petrochemical footprint in the country. That is a concern of 
how we protect it from flying objects that can be directed. So 
no one professes that what you do is easy, but we thank you for 
your service, because the safety of the homeland depends on it. 
For those people who work for you all, please let them know 
that this Congress--and I think I can speak for everybody--
surely appreciates their service and sacrifice for the country,
    With that, Mr. Chairman, I yield back.
    Chairman McCaul. The gentleman yields.
    The gentleman from Texas, Mr. Ratcliffe, is recognized.
    Mr. Ratcliffe. Thank you, Mr. Chairman.
    Let me start off where my friend and colleague from 
Louisiana left off, and that is thanking our entire panel 
today.
    Director Rasmussen, let me just tell you that I believe 
that our Nation is safer and better because of your service, 
and I will just tell you that you will be missed.
    Secretary Duke, as the Chairman of the Cybersecurity and 
Infrastructure Protection Subcommittee here, I have enjoyed 
working with you, and I have appreciated your leadership on 
what I believe is our greatest National security threat in the 
long term: Cybersecurity. Having said that, while I look 
forward to working with you, I have a limited time today. While 
I believe that cybersecurity is our greatest National security 
threat, I believe that our most urgent National security threat 
right now relates to section 702 that has been mentioned a 
number of times.
    So let me turn to you, Director Wray. The reason I call 702 
the most urgent National security matter is I think it has been 
mentioned that it is about to expire. We have 9 legislative 
days left here in this Congress before the section 702 of FISA 
expires at the end of the year. Now, it has been mentioned that 
702, broadly speaking, targets foreign intelligence from non-
U.S. persons reasonably believed to be outside of the United 
States.
    But quantifying exactly how important 702, I think, has 
been left out of some of the discussion, I want to give you the 
opportunity to expound on that or maybe refute it. Our 
intelligence agencies estimate that 25 percent of our 
actionable foreign intelligence comes directly from 702. Do you 
believe that to be accurate?
    Mr. Wray. I am not sure that I know what the percentage is, 
but that doesn't surprise me, that estimate. I would have no 
reason to question it. I will tell you that every person I talk 
to who has actually seen the operation of section 702 
internally, up close--and I have sat with agents at the 
terminal watching how they use it so that I could be sure that 
I was really understanding it--every single one of them is just 
horrified at the thought that we would lose that valuable tool.
    Mr. Ratcliffe. Well, let's assume our intelligence agencies 
are correct and 25 percent is an accurate number, are you aware 
of any legal authority that would provide us a greater 
percentage of actionable foreign intelligence than section 702?
    Mr. Wray. No.
    Mr. Ratcliffe. OK. So we established that it is very, very 
important to our National security. Now let's talk about how 
effective 702 really is. I participated last week in a debate 
at the Judiciary Committee as Congress moved forward and the 
Judiciary Committee moved forward something called the USA 
Liberty Act, which seeks to reauthorize but significantly 
modify 702.
    In the course of that discussion, I found some of the well-
intentioned criticism to be misguided and unfair, because some 
folks are conflating section 215 in telephony metadata with 
section 702. Would you agree with me that those comparisons are 
misguided and unfair?
    Mr. Wray. Yes, I would.
    Mr. Ratcliffe. All right. So one of the, I think, 
legitimate concerns and questions that has been raised about 
section 702 relates to the issue of incidental collection of 
information on Americans and even non-U.S. persons who are in 
the United States. We know that that happens. But again, I 
think what has been left out of much of the public debate, and 
I want to give you the opportunity to weigh in and clarify, as 
we Members of Congress and the public watches this debate move 
forward, there is oversight of this incidental collection that 
takes place. It takes place through an oversight board, a 
nonpartisan board called the Privacy and Civil Liberties 
Oversight Board, or PCLOB, correct?
    Mr. Wray. Correct.
    Mr. Ratcliffe. PCLOB has actually issued a very specific 
report reviewing section 702 and the incidental collection that 
has taken place, correct?
    Mr. Wray. Correct.
    Mr. Ratcliffe. All right. To your knowledge, does that 
report from an independent oversight board, has it found--in 
the 7 years that 702 has been in place, has it found any 
intentional abuse of section 702?
    Mr. Wray. Not to my knowledge, no.
    Mr. Ratcliffe. Over 7 years, no intentional abuses of 
section 702. I would think that that is essentially a record of 
success for a Government authority that is unrivaled, certainly 
in my experience. So I guess you agree with me that 702 is our 
most important law enforcement and counterintelligence tool 
with respect to foreign intelligence?
    Mr. Wray. Yes.
    Mr. Ratcliffe. It is our most effective?
    Mr. Wray. Yes.
    Mr. Ratcliffe. It is our least abused?
    Mr. Wray. Yes.
    Mr. Ratcliffe. Given that, if we not only failed to 
reauthorize, but failed to reauthorize section 702 in as close 
to its form as it possibly is right now, would we as Members of 
Congress be jeopardizing National security for all 320 million 
Americans, in your opinion, as America's top law enforcement 
official?
    Mr. Wray. That is definitely my view. I appreciate the 
question, because I think, when I talk about the importance of 
reauthorizing section 702, it is exactly as you say. It is the 
importance of reauthorizing it in as close to the current form 
as possible.
    Mr. Ratcliffe. My time has expired. I thank you all.
    Chairman McCaul. The gentleman yields.
    Let me echo those sentiments. I believe reauthorization of 
702 as close as possible to current law is vitally important to 
the security of the United States.
    With that, the Chair now recognizes Ms. Barragan.
    Ms. Barragan. Thank you, Mr. Chairman.
    Secretary Duke, thank you for being here today. I just was, 
last week, visiting our troops overseas for Thanksgiving. I was 
in Afghanistan. I am just amazed at how these young men and 
women are on the front lines fighting terrorism, doing so with 
the mission of protecting our homeland.
    Earlier this year, I was disturbed to learn that if you are 
not a citizen in this country and you pick up a weapon and you 
go fight overseas and you die there, we will make you an 
automatic citizen. But if you survive and you come back to this 
country, you can still be deported. When I was out there, I was 
talking to a few of our soldiers who were telling me about some 
of their concerns and their problems with family members who 
are going through proceedings.
    Can you tell me if any veterans are being deported right 
now under your watch?
    Ms. Duke. I would have to get back for the record. I do 
know that DOD, Department of Defense, is looking at 
reinstituting the program of paths for citizenships for 
soldiers. But in terms of recently returning veterans, I would 
have to get back. They are not a priority, for sure.
    Ms. Barragan. OK. Great. If you could do so in writing, I 
would appreciate that.
    You know, I have introduced a bill to address this so that 
we can just make sure we are protecting those who are on the 
front lines and are serving.
    I wanted to ask you a little bit about Hurricane Harvey in 
Texas. My understanding from reports that I had read is that 
there was some confusion about in directives on whether 
immigration checkpoints were going to remain or not. So I 
wanted to ask if you were aware of the confusion that was 
created from the directives?
    Ms. Duke. We early on issued that there would be no active 
immigration control, that other than criminal acts that needed 
to be addressed, that we would not do proactive immigration 
enforcement.
    Ms. Barragan. OK. I am going to go ahead and enter into the 
record an article covered by NPR and some other organizations 
that kind-of highlighted the confusion that caused even the 
Mayor, I think, of Houston to have to come out to go on record 
to make a statement about this. I am hoping that this will be 
something that won't become an issue as another, you know, 
emergency disaster happens. Because we want to certainly make 
sure that people feel safe and secure in following authorities 
when they are being asked to leave. In that regard, I have 
introduced a bill on that. Hopefully, my colleagues will take a 
look at that.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
  Article Submitted For the Record by Honorable Nanette Diaz Barragan
 Border Patrol Says Texas Checkpoints To Remain Open During Hurricane 
                                 Harvey
By Julian Aguilar, Texas Tribune, August 25, 2017.
https://www.texastribune.org/2017/08/24/border-patrol-texas-
checkpoints-remain-open-hurricane-harvey/
Customs and Border Patrol agents constantly patrol wide gravel roads 
along the border fence. The traffic--which has increased as border 
enforcement budgets have soared--is another threat to border wildlife, 
according to scientists and conservationists.--Callie Richmond for The 
Texas Tribune
    The devastation was swift, and the recovery is far from over.
    Editor's note.--This story has been updated with statements from 
the U.S. Border Patrol, Immigration and Customs Enforcement and U.S. 
Customs and Border Protection on Friday, Aug. 25.
    As thousands of Texans prepare to evacuate their cities due to 
Hurricane Harvey, the United States Border Patrol said it is not 
planning to close its roadside immigration checkpoints north of the Rio 
Grande Valley unless there is a danger to travelers or its agents.
    ``Border Patrol checkpoints will not be closed unless there is a 
danger to the safety of the traveling public and our agents. Border 
Patrol resources, including personnel and transportation, will be 
deployed on an as-needed basis to augment the efforts and capabilities 
of local-response authorities,'' the agency said in a statement.
    ``The Border Patrol is a law enforcement agency and we will not 
abandon our law enforcement duties.''
    When asked to elaborate on the statement, CBP public affairs 
officer Roberto Rodriguez said officers would prioritize public safety 
but keep intact the goals of the agency's mission.
    ``We're not going to impede anybody getting out of here, but at the 
same time we're a law enforcement agency, so we still have to conduct 
our duties,'' he said.
    On Friday, the agency offered a little more insight into when 
checkpoint closures could be expected.
    ``U.S. Border Patrol checkpoints in the path of Hurricane Harvey in 
Texas will close as state highways close. These closures will occur in 
a manner that ensures the safety of the traveling public and our 
agents,'' the statement reads. But the agency also made clear that 
checkpoints outside of Hurricane Harvey's path would remain open.
    The American Civil Liberties Union of Texas quickly admonished the 
agency for putting policy ahead of safety.
    ``Safety should be a priority regardless of immigration status,'' 
said ACLU policy strategist Astrid Dominguez. ``This is very concerning 
for the community. It sends a wrong message.''
    Also on Friday, Immigration and Customs Enforcement and Customs and 
Border Protection said in a joint statement that ``non-criminal'' 
enforcement activities will not occur at assistance shelters or 
evacuation sites. But they would remain vigilant ``against any effort 
by criminals to exploit disruptions caused by the storm.''
    On Thursday, Southeast Texas and the state's coastal bend regions 
were expected to be the hardest hit by Hurricane Harvey. But the Rio 
Grande Valley and its surrounding areas are also bracing for possible 
severe flooding or worse if the path of the storm shifts.
    As of Thursday afternoon, the National Weather Service said the 
threat to life and property for Brownsville and the surrounding areas 
was high and that ``Emergency plans should include a reasonable threat 
for hurricane force wind of 74 to 110 mph of equivalent Category 1 to 2 
intensity.'' But in an updated advisory on Friday, the weather service 
downgraded that threat to moderate after winds began to recede in the 
area.
    The Border Patrol's statement on Thursday came the same day 
Brownsville Mayor Tony Martinez issued a disaster declaration for the 
city and activated its emergency operations center.
    Dominguez said she was still hopeful that if the hurricane 
intensified and a mass evacuation was ordered, the federal government 
would ease up on enforcement.
    That happened as recently as 2016, when ICE and U.S. Customs and 
Border Protection temporarily suspended enforcement measures during 
evacuations prompted by Hurricane Matthew.
    ``There will be no immigration enforcement initiatives associated 
with evacuations or sheltering related to Matthew, including the use of 
checkpoints for immigration enforcement purposes in impacted areas 
during an evacuation,'' a 2016 statement read. ICE put out a similar 
message ahead of Hurricane Isaac in 2012.
    In its news release Thursday, the Border Patrol said it would work 
to evacuate residents if called upon to do so.
    ``If there is a time when we have to unite with our emergency 
preparedness partners to evacuate community members, we assure you that 
we will act quickly ensuring that the safety of those requiring 
evacuation remains paramount,'' the release states.

    Ms. Barragan. Thank you.
    I wanted to follow up on some of the questions about gun 
violence and really their connection to terrorism. I think I 
remember hearing former Homeland Security Secretary Jeh Johnson 
once made a comment--and I am going to quote him--it said: 
``meaningful, responsible gun control is now part and parcel of 
homeland security, especially given the prospect of home-grown, 
home-born violent extremism in this country.''
    Do you agree with that assessment?
    Ms. Duke. What we are seeing now is really an agnostic look 
at tools. Guns are not necessarily the primary vehicle by which 
terrorism is occurring.
    Ms. Barragan. Well, would you say that the guns are part of 
what terrorists are using, and that it certainly could be 
perceived as access to guns could be part of the issue?
    Ms. Duke. Guns, knives, vehicles are among the top, yes.
    Ms. Barragan. Great. Thank you.
    Director Wray, I wanted to ask you--you know, I have to 
first agree with some of my colleagues who echoed, you know, 
having more hearings on the threats presented by domestic 
terrorism and home-grown terror. I also wrote a letter to the 
Chairman asking that we do a hearing just on that. Instead, it 
is harder to get to all these issues with the short amount of 
time. But, Director Wray, terrorists are getting their hands on 
and using high-assault weapons. It is a repeated occurrence, 
costing American lives. We have seen it happen in San 
Bernardino and Orlando at the Pulse nightclub. In particular, 
there was an alarming statistic I saw that GAO reported that, 
between February 2004 and December 2015, known or suspected 
terrorists initiated background checks to purchase a weapon, I 
think it was about 2,500 times. Ninety-one percent of the 
transactions were allowed to proceed. Does this concern you?
    Mr. Wray. Well, I am not familiar with the specific report 
that you mention. I will say that, much as Secretary Duke has 
said, we are really focused on the terrorists themselves, 
whether they be domestic or international. They seem in many 
ways hell-bent on committing attacks that kill as many people 
as possible by whatever means they can get their hands on.
    Ms. Barragan. So without looking at the report, would it be 
concerning to you that people who are on the known or suspected 
terrorist list are purchasing guns, and 91 percent of those 
people are allowed to purchase guns? Is that concerning at all 
to you?
    Mr. Wray. Certainly. The way you describe it is very 
concerning to me, yes.
    Ms. Barragan. Thank you. I yield back.
    Chairman McCaul. The gentlelady yields.
    Mr. Garrett from Virginia is recognized.
    Mr. Garrett. Thank you, Mr. Chairman.
    I would commend the gentlelady on pointing out these 
deported veterans issues. I was reading about that, and I saw 
that one was deported after he was convicted of shooting into 
an occupied vehicle in 2010. I am not sure who the President 
was then, but it is nice to see the attention getting brought 
on this subject matter now. So I would commend her for pointing 
that out, and cite a Los Angeles Times story that points out 
that each of the individuals in question deported between 2008 
and 2016 had committed a crime, and there might be up to 350 
such individuals.
    But back to the testimony at hand, I am curious, I saw in 
Ms. Duke's testimony that the Federal agencies had coordinated 
prior to the events in Charlottesville. I think that is a good 
thing, certainly more is needed. But when you have large 
gatherings of people, say, for example, Saturday at 2 p.m. at 
my high school, which is in Congressman Brat's district and not 
my own, a State semi-championship football game will be held, 
probably about 8,000 people will be in attendance. Is there any 
Federal coordination for security for that sort of event?
    Ms. Duke. Unless it is a declared a National security 
event, our coordinations with the responsible local officials, 
we call that a soft target, and we do quite a bit of training, 
coordination, and assistance in advance to help them secure.
    Mr. Garrett. Right. I apologize for the way this is going 
because it is not intended to be a gotcha, and I am going that 
way almost reflexively. Too much time as a courtroom lawyer. 
But obviously, an event like that presents a soft target, as 
you indicated, and a collaboration--or a gathering of people in 
close proximity to one another. Yet technology recently has 
demonstrated, via numerous videos on the internet, of the 
ability to use drones as weapons, et cetera. There are numerous 
Unclassified videos in sites ranging from The New York Times to 
the Washington Post of 40-millimeter hand grenades being 
dropped through the cupolas of M1 tanks, et cetera. We have all 
seen them. Yet the anti-drone gun technology that currently 
exists is limited in its capacity to be sold specifically and 
exclusively to Federal law enforcement entities.
    I would submit for any of you to comment on that the first 
line of defense at that football game on Saturday will be local 
law enforcement, with probably some augmentation by State law 
enforcement, but that we do a historically wonderful job of 
preparing for the last conflict to the last attack, and we 
generally do a relatively poor job, which has been brought to 
the forefront, post-9/11, of contemplating what that next 
attack might be. For example, the weaponization of vehicles 
that members of the panel have made reference to that we have 
now seen all too many times, not only in Europe, but most 
recently in the United States.
    Can somebody tell me why the Virginia State Police or the 
Henrico County Police department or the Albemarle County Police 
Department can't purchase anti-drone technology when things 
like UVA football games or the NASCAR race at Richmond motor 
speedway occur under the protection of these entities? Can 
somebody give me a good reason why local and State law 
enforcement can't avail themselves of anti-drone technology? I 
want you to say no, but if there is a good reason, I want to 
hear it too.
    Ms. Duke. No, there is no good reason. I think it goes, as 
the Chairman said, to legacy of authorities and not having the 
authorities because of the--it is conflated with the signal 
waves of cellphones and how they are tracked. So it needs to be 
addressed.
    Mr. Garrett. Thank you very much. Again, I am on the same 
team as all of you guys here, and I apologize again for my 
tone. I am going to try to snap out of it.
    Would it, in your estimation, be a good policy area to 
consider to power down the ability to purchase anti-drone 
technology to State and local authorities, given that they are 
the first line of defense on so many soft-target events that 
occur every single day in this country? Not to the civilian on 
the street perhaps, but to law enforcement entities at the 
State and local level.
    Ms. Duke. I think also their ability to use them in 
antiterrorism use, and the Federal Government as well. We are 
limited just as State and local governments are.
    Mr. Garrett. Absolutely. So what you are suggesting then is 
that we should review en masse the employment doctrine as it 
relates to these particular technological advances?
    Ms. Duke. Yes.
    Mr. Garrett. I would yield back early, Mr. Chairman, just 
because I want to set a precedent today.
    Chairman McCaul. Well, we certainly appreciate that, as do 
the witnesses.
    The Chair recognizes Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    First, I would ask unanimous consent to submit a statement 
from the Anti-Defamation League.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
  Statement Submitted For the Record by Honorable Donald M. Payne, Jr.
                Statement of the Anti-Defamation League
                                 November 30, 2017.
The Honorable Michael McCaul,
Chair, House Committee on Homeland Security, Washington, DC 20515.
The Honorable Bennie Thompson,
Ranking Member, House Committee on Homeland Security, Washington, DC 
        20515.
    Dear Chairman McCaul and Ranking Member Thompson: As the House 
Committee on Homeland Security holds hearings on ``World-Wide Threats: 
Keeping America Secure in the New Age of Terror,'' we write to provide 
the views of the Anti-Defamation League (ADL) and ask that this 
statement be included as part of the official hearings record.
                       the anti-defamation league
    Since 1913, the mission of the Anti-Defamation League has been to 
``stop the defamation of the Jewish people and to secure justice and 
fair treatment for all.'' For decades, the League has fought against 
bigotry and anti-Semitism by exposing extremist groups who spread hate 
and incite violence. The League is now the foremost non-governmental 
authority on domestic terrorism, extremism, organized hate groups, and 
hate crimes. Through our Center on Extremism, whose experts monitor a 
variety of extremist and terrorist movements, ADL plays a leading role 
in exposing extremist movements and activities, while helping 
communities and Government agencies alike in combatting them. ADL's 
team of experts--analysts, investigators, researchers, and linguists--
use cutting-edge technology to track and disrupt extremists and 
terrorists world-wide. The League provides law enforcement officials 
and the public with extensive resources, such as its analytic reports 
on extremist trends and its Hate Symbols \1\ and Terror Symbols 
databases.
---------------------------------------------------------------------------
    \1\ https://www.adl.org/education/references/hate-symbols.
---------------------------------------------------------------------------
                       assisting law enforcement
    ADL is the largest non-governmental provider in the United States 
of training for law enforcement on hate crimes, extremism, and 
terrorism, as well as on building trust between police and the people 
and communities they serve. Each year, ADL experts deliver customized, 
in-depth training on these subjects to more than 15,000 Federal, State, 
and local law enforcement personnel at hundreds of agencies. ADL's dual 
role as a preeminent civil rights organization, and as a strong and 
trusted partner of law enforcement, gives us the credibility to offer a 
continuum of service that influences the way law enforcement fights 
hate and interacts with the communities they serve. ADL provides law 
enforcement with information, expertise, and actionable intelligence to 
prevent, disrupt, and respond to those extremists who cross the line 
from espousing hateful ideologies to committing violent, criminal acts, 
thus protecting the Jewish community and all Americans. ADL's Advanced 
Training School, a highly acclaimed and sought after 3-day program on 
domestic and international terror threats, has trained more than 1,100 
senior law enforcement executives since it was launched in 2003.
                         identifying the threat
    In the United States, adherents of a variety of extremist 
movements--from white supremacists to black nationalists to Islamist 
extremists--perceive Jews as their enemy and target the Jewish 
community with propaganda, violence, or both. Extremists also target 
other communities of minorities, as well as the democratic foundations 
of Government that protect everybody's rights. Understanding the 
diverse list of perpetrators that threaten the Jewish and other 
minority communities is the first step to protecting them from violent 
extremism.
the impact and disturbing prevalence of anti-semitism and hate violence
    All Americans have a stake in effective response to violent 
bigotry. These crimes demand priority attention because of their 
special impact. Bias crimes are intended to intimidate the victim and 
members of the victim's community, leaving them feeling fearful, 
isolated, and vulnerable. Failure to address this unique type of crime 
often causes an isolated incident to explode into wide-spread community 
tension. The damage done by hate crimes, therefore, cannot be measured 
solely in terms of physical injury or dollars and cents. By making 
members of targeted communities fearful, angry, and suspicious of other 
groups--and of the power structure that is supposed to protect them--
these incidents can damage the fabric of our society and fragment 
communities.
    Data must drive policy. The first step in addressing the problem of 
anti-Semitism and hate violence is to know its nature and magnitude.
                  adl audit of anti-semitic incidents
    Since 1979, the Anti-Defamation League has been compiling an annual 
Audit of Anti-Semitic Incidents (``the Audit''). We track anti-Semitic 
incidents not only because we are a Jewish community civil rights 
organization, but because anti-Semitism, the longest and most 
persistent form of prejudice, threatens security and democracy and is 
an indicator of the health of a society as a whole.
    The Audit includes both criminal and non-criminal acts of 
harassment and intimidation, including distribution of hate propaganda, 
threats, and slurs. Compiled using information provided by victims, law 
enforcement, and community leaders, each recorded incident specifically 
was evaluated by a member of ADL's professional staff who personally 
verified the information. In short, our Audit provides an annual 
snapshot of one specific aspect of the Nation-wide bias crime problem 
and sheds light on broader trends. The Audit assists ADL in developing 
and enhancing our education, training, and outreach programs to counter 
and prevent the spread of anti-Semitism and other forms of hate and 
bigotry.\2\
---------------------------------------------------------------------------
    \2\ For example, after 3 years of tracking significant data 
increases, ADL drafted the first model State hate crime penalty-
enhancement law and promoted its enactment across the country. Today, 
the Federal Government and 45 States and the District of Columbia have 
enacted hate crime laws, modeled on, or similar to, our original draft. 
https://www.adl.org/sites/default/files/documents/assets/pdf/combating-
hate/ADL-updated-2016-Excel-State-Hate-Crime-Statutes.pdf.
---------------------------------------------------------------------------
    Through the Audit, ADL has modeled the role that communities can 
take in elevating the need for monitoring and reporting hate crime. We 
strongly have promoted the notion that if the Jewish community wants 
law enforcement officials to take anti-Semitic acts seriously, we must 
do so--and report them to the police.
    New Audit data released earlier this month shows that the number of 
anti-Semitic incidents remains significantly higher in 2017 compared to 
2016, with an increase of 67 percent over the first three quarters of 
the year. In addition to the significant bump in the first quarter of 
this year, we also saw a distinct increase after the ``Unite the 
Right'' rally in Charlottesville, Virginia in August.
    Specifically, our report \3\ documented that from January 1 to 
September 30 there were 1,299 anti-Semitic incidents across the United 
States, including physical assaults, vandalism, and attacks on Jewish 
institutions. And the total already exceeds the 1,266 incidents 
reported in all of last year.
---------------------------------------------------------------------------
    \3\ https://www.adl.org/news/press-releases/adl-data-shows-anti-
semitic-incidents-continue-surge-in-2017-compared-to-2016.
---------------------------------------------------------------------------
    Compared to 2016, each of the first three quarters of 2017 had a 
higher number of incidents. These incidents peaked during the first 
quarter of 2017, and the pace slowed somewhat in the second and third 
quarters. Of all 1,299 anti-Semitic incidents so far in 2017, a 
majority (667) occurred in the first quarter of the year. An additional 
632 anti-Semitic incidents were reported in the second and third 
quarters of the year, surpassing the 488 incidents reported during the 
same period in 2016.
    From January through September 30, there were:
  <bullet> 703 incidents of harassment, including 162 bomb threats 
        against Jewish institutions in three dozen States;
  <bullet> 584 incidents of vandalism, including 52 against Jewish 
        institutions; and
  <bullet> 12 physical assaults.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    These incidents \4\ took place across the country, but consistent 
with prior reports, the States with the highest number of incidents 
tend to be those with the largest Jewish populations. These include New 
York State (267 incidents); California (197); Massachusetts (117); 
Florida (69); and Pennsylvania (58).\5\
---------------------------------------------------------------------------
    \4\ https://www.adl.org/news/domestic-anti-semitism-selected-
incidents-across-the-country-in-2017.
    \5\ A State-by-State breakdown of the incidents in the Audit is 
here: https://www.adl.org/news/adl-2017-audit-of-anti-semitic-
incidents-a-breakdown-of-the-numbers-state-by-state.
---------------------------------------------------------------------------
      tracking and responding to hate crimes in the united states
    The FBI has been tracking and documenting hate crimes reported from 
Federal, State, and local law enforcement officials since 1991 under 
the Hate Crime Statistics Act of 1990 (HCSA).\6\ Though clearly 
incomplete (as discussed below), the Bureau's annual HCSA reports 
provide the best single National snapshot of bias-motivated criminal 
activity in the United States.\7\
---------------------------------------------------------------------------
    \6\ 28 U.S.C. 534 (1990).
    \7\ The Act has also proven to be a powerful mechanism to confront 
violent bigotry, increasing public awareness of the problem and 
sparking improvements in the local response of the criminal justice 
system to hate violence--since in order to effectively report hate 
crimes, police officials must be trained to identify and respond to 
them.
---------------------------------------------------------------------------
    In 2016, the most recent report available, the FBI documented 6,121 
hate crimes reported by 15,254 law enforcement agencies across the 
country--a 5 percent increase over 2015 figures (5,850), with nearly 
one hate crime committed every 90 minutes of every day.\8\ Of the 6,121 
total incidents, 2,922 were motivated by racial bias (47.7 percent), 
1,076 by sexual orientation bias (17.6 percent), and 1,273 by religious 
bias (20.8 percent).
---------------------------------------------------------------------------
    \8\ http://ucr.fbi.gov/hate-crime/2016. The FBI's HCSA training 
manual is now the single most important, most inclusive hate crime 
training resource available for law enforcement officials. https://
ucr.fbi.gov/hate-crime-data-collection-guidelines-and-training-
manual.pdf.
---------------------------------------------------------------------------
    Crimes directed against Jews increased 3 percent,\9\ and reported 
crimes against Muslims increased 16.3 percent, from 257 in 2015 to 307 
in 2016. The number of reported anti-Muslim hate crimes in 2016 was, in 
fact, the second-most ever--second only to the series of backlash 
crimes in 2001 after the 9/11 terrorist attacks.\10\
---------------------------------------------------------------------------
    \9\ As has happened every year since 1990, a disturbingly high and 
disproportionate percentage of the total number of reported religion-
based crimes (54 percent) were directed against Jews and Jewish 
institutions. In fact, since 1990, anti-Jewish hate crimes have been 
between 50 and 85 percent of the religious-based hate crimes--an 
especially disturbing fact when you consider that Jews are less than 3 
percent of Americans.
    \10\ Primarily because of mistrust of police, crimes against Muslim 
Americans are underreported. Muslim Advocates has earned a reputation 
as an essential complement to FBI numbers, the most important non-
governmental source of information on anti-Muslim hate crimes and 
vandalism directed against Mosques. The organization maps anti-Muslim 
hate crimes and maintains a portal for individuals to report incidents 
on-line. https://www.muslimadvocates.org/map-anti-muslim-hate-crimes.
---------------------------------------------------------------------------
    In 2016, 15,254 law enforcement agencies participated in the HCSA 
data collection effort--more than ever before. However, the FBI report 
documented 92 cities over 100,000 in population that either 
affirmatively reported zero (0) hate crimes--or did not participate in 
the program at all.\11\ Accurate, reliable data is essential to build 
community trust and shape law enforcement tactics and deterrent 
policies.
---------------------------------------------------------------------------
    \11\ https://www.adl.org/sites/default/files/documents/
FBI%20HCSA%202015%20Cities%20- 
that%20DNR%20or%20Reported%20Zero%20ML.pdf.
---------------------------------------------------------------------------
                 extremists and hate groups emboldened
    It is important to understand that the vast majority of anti-
Semitic incidents and other hate crimes are not carried out by 
extremists or organized hate groups. But the extraordinarily polarizing 
and divisive election campaign--which featured harshly anti-Muslim and 
anti-immigrant rhetoric, as well as anti-Semitic dog whistles--
coarsened the public discourse and fostered an atmosphere in which 
white supremacists and other anti-Semites and bigots felt emboldened 
and believed that their views were becoming more broadly acceptable. 
This trend has continued with the Trump administration's repeated 
flirtation with these elements--retweeting their content and quoting 
their heroes. And the President's repeated reluctance to address 
extremism, hate, and anti-Semitism--or implied approval of the same--
has helped to mainstream these toxic ideas.
                          right-wing extremism
    Over the past 10 years (2007-2016), domestic extremists of all 
kinds have killed at least 372 people in the United States. Of those 
deaths, approximately 74 percent were at the hands of right-wing 
extremists such as white supremacists, sovereign citizens, and militia 
adherents.\12\ Right-wing extremists have been responsible for plotting 
at least 150 acts of terror in the United States over the past 25 
years.\13\
---------------------------------------------------------------------------
    \12\ https://www.adl.org/education/resources/reports/murder-and-
extremism-in-the-united-states-in-2016.
    \13\ https://www.adl.org/news/press-releases/adl-report-exposes-
right-wing-terrorism-threat-in-the-us.
---------------------------------------------------------------------------
    Right-wing extremists choose many targets for their anger, most 
frequently Government, law enforcement, and racial and religious 
targets. The most common religious targets are Jews and Muslims, while 
the most common racial targets were African Americans, including multi-
racial targets.
    The white supremacists who target minority communities for acts of 
terror and violence include adherents of every major segment of their 
movement, including neo-Nazis, racist skinheads, the religious sect 
Christian Identity, and the Alt-Right. The militia movement has 
especially embraced a particular type of bigotry: Anti-Muslim hatred. 
This Islamophobia has taken numerous forms, from armed protests in 
front of mosques to a major terrorist plot in October 2016 in Garden 
City, Kansas, where three militia members were arrested in connection 
with an alleged plot to blow up an apartment complex that primarily 
housed Muslim Somali-American residents. We should be concerned that 
the militia movement could produce similar terror attempts aimed at 
Muslims in the future.\14\
---------------------------------------------------------------------------
    \14\ https://www.adl.org/education/resources/reports/dark-constant-
rage-25-years-of-right-wing-terrorism-in-united-states.
---------------------------------------------------------------------------
    The social networking revolution from 2006-2009 made it easier for 
extremist ideas and tactics to spread very far, very quickly. This 
facilitated the emergence of new extremist movements, such as the white 
supremacist alt-right, to quickly gain followers, and helped 
established movements, such as the sovereign citizen movement, to 
rapidly resurge. Social networking has also provided opportunities for 
extremists to meet each other and even to plot on-line. The October 
2008 school attack plot in Tennessee and the Georgia militia plot of 
February 2014 are two examples where extremists who connected on-line 
later met in person to plot terrorist acts.\15\
---------------------------------------------------------------------------
    \15\ https://www.adl.org/education/resources/reports/dark-constant-
rage-25-years-of-right-wing-terrorism-in-united-states.
---------------------------------------------------------------------------
 white supremacists on campus: unprecedented recruitment efforts under 
                                  way
    ADL has documented that white supremacists are engaged in 
unprecedented outreach efforts on American college campuses--another 
sign that these hate groups feel emboldened by the current political 
climate.\16\ ADL's Center on Extremism has documented 309 incidents of 
white supremacist flyers, posters, stickers, or banners on 201 
different college campuses in 42 States since September 1, 2016. Of 
those 309 incidents, 127 have occurred since the beginning of the fall 
semester this year (September 1, 2017). This is a significant increase 
compared to the same period in 2016 (from September 1, 2016, to 
November 27, 2016, we counted 30 incidents). Furthermore, Richard 
Spencer continues to make efforts to speak at public universities 
around the country in an attempt to promote white nationalism to young 
audiences.
---------------------------------------------------------------------------
    \16\ https://www.adl.org/blog/white-supremacists-on-campus-
unprecedented-recruitment-efforts-underway.
---------------------------------------------------------------------------
    White supremacists are mobilizing in hopes of translating their on-
line activism to ``real world'' action, and campuses--and young 
people--are prime targets, in part because they are still figuring out 
who they are, and what they believe. Extremists also undoubtedly see 
value in recruiting a new generation that can carry the movement for 
years to come.
    Longtime white supremacist Jared Taylor recently wrote on his 
website, American Renaissance, that colleges are of special interest 
``because they are bastions of anti-white propaganda.'' Before he 
imploded publicly in February, Islamophobic and misogynist gadfly Milo 
Yiannopoulos told CNN, ``I am speaking on college campuses because 
education . . . is really what matters. It's a crucible where these bad 
ideas are formed. Bad ideas like . . . progressive social justice, 
feminists, Black Lives Matter . . . ''.\17\
---------------------------------------------------------------------------
    \17\ http://www.cnn.com/2017/02/02/us/milo-yiannopoulos-ivory-
tower/index.html.
---------------------------------------------------------------------------
    Yiannopoulos' appearances (some of which were canceled) seem to 
have had an energizing impact on other racists. Nathan Damigo, founder 
of the white supremacist group Identity Evropa, has called Yiannopoulos 
``an inspiration,'' and showed up at the (ultimately canceled) 
Yiannopoulos speech at UC Davis, hoping to poach a few fans for his own 
cause, which he outlined in a tweet: ``We will not rest until Alt-Right 
ideas are represented on campuses nationwide.''
    While the vast majority of white supremacist campus actions involve 
hateful fliers (e.g., ``Imagine a Muslim-Free America,'') and stickers 
(e.g., ``Make America White Again''), white supremacists have also sent 
anti-Semitic faxes and, in the case of white supremacist Richard 
Spencer, delivered speeches on campus. Many of these incidents are 
linked to larger coordinated promotional efforts by white supremacist 
groups, like Identity Evropa's ``Project Siege,'' which includes actual 
campus recruitment visits, and American Vanguard's ``Northern 
Propaganda Campaign.'' Not coincidentally, these two groups are 
responsible for the majority of the white supremacist fliers and events 
tracked over the last several months.
    In January, American Renaissance launched a hate-filled campus 
campaign, which for now seems to be limited to hanging ``pro-white'' 
propaganda posters. ``Racial activists,'' Jared Taylor wrote on the 
American Renaissance website, should place the ``attractive posters'' 
in ``high-traffic areas'' around campus. Racist fliers and posters have 
adorned parking garages, street signs, billboards, utility poles, and 
corridors.
    Andrew Auernheimer, a white supremacist hacker known as ``Weev,'' 
took targeting to the next technological level when he sent out anti-
Semitic and racist fliers via many thousands of campus printers across 
the country. One flier, decorated with swastikas, read in part, ``I 
unequivocally support the killing of children. I believe that our 
enemies need such a level of atrocity inflicted upon them . . . So the 
hordes of our enemies from the blacks to the Jews to the Federal agents 
are deserving of fates of violence so extreme that there is no limit to 
the acts by which can be done upon them in defense of the white race.'' 
The fliers referenced The Daily Stormer, Andrew Anglin's notoriously 
hateful neo-Nazi website.
    These days, white supremacists are taking more forceful steps to 
establish a physical presence on campus. Identity Evropa was clear in 
its goals--and used fittingly ``academic'' language--when describing 
its ``Project Siege'' plans for the 2016-17 school year of talking to 
actual students: ``Project Siege is the beginning of a long-term 
cultural war of attrition against the academia's cultural Marxist 
narrative that is maintained and propagated into society though the 
indoctrination of the future managerial class. If we are to be 
successful in combating the current paradigm,'' the on-line message 
read. ``It is imperative that we create space for our ideas at 
universities across the country. Speaking with students and helping 
them unpack some of their assumptions while gaining name recognition 
for our organizations are the ways in which we will create the 
foundation for that space.''
    White supremacist events on campus face particular scrutiny and, in 
some cases, speakers are able to circumvent the school altogether, 
avoiding heated debates over free speech rights. In December, when 
Richard Spencer spoke on the Texas A&M campus, he wasn't there as a 
guest of the University. Instead, he spoke to supporters and on-lookers 
in a room rented for the occasion by local neo-Nazi Preston Wiginton.
                             the alt-right
    The alt-right is the newest segment of the white supremacist 
movement, a movement that already encompasses neo-Nazis, racist 
skinheads, ``traditional'' white supremacists such as Ku Klux Klan 
groups, Christian Identity adherents, and white supremacist prison 
gangs. The alt-right emerged in the late 2000's from a variety of 
sources, including the on-line subculture of message boards and image 
boards like 4chan, 8chan, and Reddit, the on-line gaming subculture, 
the so-called men's rights movement, and others. Richard Spencer 
emerged as its most well-known American spokesperson.
    The ideology of the alt-right, such as it is, is based on standard 
white supremacist beliefs about the need to protect the white race from 
a ``rising tide of color,'' combined with anti-Semitism, Islamophobia, 
xenophobia, nationalism, misogyny, and anti-LGBTQ beliefs. 
Demographically, the alt-right is quite young and largely male; 
significantly, most adherents of the alt-right are new to white 
supremacy and have not previously been part of other segments of the 
movement.
    For most of its brief history, the alt-right has largely existed 
on-line, with few entities that could be considered alt-right 
``groups,'' and few events related to the alt-right taking place in the 
physical world. The 2016 Presidential election campaign, however, 
changed the trajectory of the alt-right, luring it more into the real 
world. Generally speaking, the alt-right strongly supported Donald 
Trump's candidacy and became active in supporting Trump and attacking 
his foes. After his victory, the alt-right--mistakenly thinking it had 
played a significant role in Trump's election, but correctly realizing 
it had grown considerably in 2016 thanks in large part to all the media 
attention it garnered--became emboldened, with many alt-right activists 
more eager to organize or attend events in the real world.
    As the alt-right became more and more identified as part of the 
white supremacist movement, those adherents who shared most or all of 
its convictions--except overt white supremacy--sought to distance 
themselves from the white supremacists. Some of them began to refer to 
themselves as the ``New Right,'' but alt-right white supremacists 
derisively referred to them as the ``alt-lite.'' A public feud 
developed between the two factions in 2017.
    One thing the factions could still agree on was hatred of the left. 
Left and progressive groups and movements in the United States reacted 
negatively to the election of Donald Trump, holding large protests 
after the election, at the inauguration, and afterwards. In particular, 
the antifa (short for anti-fascist), a collection of anarchist and far 
left groups, networks and individuals, became active protesting at some 
events involving hateful speakers such as Milo Yiannopoulos and Ann 
Coulter.
    As antifa targeted what they perceived as bigotry and hate speech, 
the alt-right and alt-lite began showing up in public to confront them. 
So too did another segment of the far right, the militia movement. Part 
of the anti-Government extremist sphere of the American far right 
rather than the white supremacist sphere, the militia movement has 
historically concentrated its anger on the Federal Government, which it 
views through a hostile, suspicious, and highly conspiratorial lens. 
However, the election of Trump, a candidate supported by the militia 
movement, caused the movement to look for new enemies other than the 
Federal Government and it quickly found them in the antifa, whom they 
described as ``domestic terrorists,'' and claimed were being trained in 
Syrian terrorist training camps, and who were covertly led and funded 
by liberal, Jewish philanthropist George Soros in an attempt to 
undermine and overthrow the Trump administration.
    Throughout 2017, then, adherents from these various far right 
movements showed up at events, or arranged their own events, designed 
to clash with protesters from the left, especially antifa. From Boston 
to Berkeley, Portland to Houston, these confrontations took place, some 
of them violent. Often the only meaningful result from these events was 
to leave people wanting even more confrontation.
    It is against this backdrop that the events at Charlottesville 
played themselves out.
          spotlight on charlottesville: what happened and why
    In the broadest sense, what took place in Charlottesville was due 
primarily to two factors: (1) The growth of the alt-right and its 
transition from being largely an on-line phenomenon into one also 
active in ``real world'' events and activities, and (2) the effects the 
2016 Presidential election results have had on a number of ideological 
movements in the United States.
    On August 11-12, 2017, a large white supremacist event dubbed 
``Unite the Right'' occurred in Charlottesville, Virginia, ostensibly 
to protest the removal of a statue of Robert E. Lee in a local park. A 
torch-lit parade the first evening of the event became violent, with 
clashes between white supremacists/neo-Nazis and counter-protesters; 
the violence continued and increased the next day, with the white 
supremacists responsible for the bulk of it. The worst example of such 
violence occurred when a white nationalist from Ohio drove his car into 
a crowd of protesters, killing one woman and injuring many more.
    The Unite the Right rally was actually the third white supremacist 
event Charlottesville residents had had to endure this year. The first 
event occurred on May 13, when around 100 white supremacists gathered 
to protest the city council's decision to remove Confederate monuments 
from local parks. In the afternoon, they arranged a ``flash mob'' march 
to the Robert E. Lee monument, where speakers such as Richard Spencer 
and Nathan Oamigo addressed the crowd of white supremacists. The crowd, 
in turn, chanted slogans such as ``they will not replace us'' and 
``Russia is our friend.'' That evening, the white supremacists returned 
to the park, with Tiki torches, to hold a torchlight parade.
    That torchlight parade got considerable attention from both 
traditional and social media, causing organizers of the event to 
consider it a major success and to seek more of the same.
    On July 8, the Loyal White Knights of the Ku Klux Klan staged their 
own rally in Charlottesville, with around 50 Klan members and 
supporters attending. They were opposed by more than a thousand 
counter-protesters, but law enforcement used physical barriers to 
separate the sides and escorted the white supremacists in and out of 
the park where they rallied. Several counter-protesters were arrested 
prior to the event for trying to block entrance to the park, while more 
were arrested after the event. Eventually police fired several tear gas 
canisters into the crowd to force its dispersal. Overall, 22 people 
were arrested at the event. Authorities were criticized after the event 
by counter-protesters for what they termed an overreaction. These two 
circumstances--counter-protesters trying to get at the Klan members and 
criticism of the police response--may have had an effect on efforts to 
control the Unite the Right rally the following month.
    Indeed, well before the Klan event took place, organizers of the 
May Charlottesville event and others had already begun to plan and 
organize the United the Right rally, which they viewed as a larger and 
grander sequel to their May event. They began their preparations months 
in advance, reaching out for speakers, publicizing the event on social 
media, and getting groups and individuals alike interested in 
attending.
The Violence
    Historically, white supremacists are often on the defense in 
clashes at events involving white supremacists and counter-protesters, 
in part because they are typically heavily outnumbered and in part 
because antifa are often determined to physically confront the white 
supremacists.
    Unite the Right was different, however. In part, this was because 
there were more than 10 times as many white supremacists at the event 
than at a typical public white supremacist event, giving them numbers 
they do not usually have. Indeed, ADL identified white supremacists 
from at least 35 States at the Unite the Right rally. Another factor 
was that throughout the spring and summer, far right groups at such 
events had increasingly been adopting ``street fighting `` stances, 
including manufacturing or purchasing a wide variety of offensive and 
defensive gear to employ during street confrontations. In fact, a 
significant number of white supremacists and supporters came to the 
Unite the Right rally openly carrying firearms. The right-wing 
extremists had been unusually aggressive at a number of events in 2017, 
compared to past years.
    The white supremacists were outnumbered by counter-protesters, but 
the great bulk of the people opposing the white supremacists were 
peaceful protesters, many from local church or community groups. There 
were some antifa, as well as representatives of other confrontational 
left-wing groups such as Redneck Revolt, but the ratio of forces was 
quite different than at other events, including the previous Klan event 
in Charlottesville.
    The violence started on the evening of August 11, when the torch-
carrying marchers arrived at the University of Virginia's Rotunda 
building, where they encountered and overpowered a small group of 
counter-protesters at the Jefferson monument, some using their torches 
as bats. The marchers dispersed after law enforcement finally stepped 
in, and there are reports, particularly from leaders in the faith 
community, of counterprotestors providing protection from white 
supremacist violence when law enforcement was unavailable.
    The next morning, Unite the Right rally goers began to show up at 
Emancipation Park, in groups small and large, from a variety of 
locations and staging areas (rather than, as at the previous event, 
arriving at one staging area and being brought to the event area by law 
enforcement). As counter-protesters were doing the same, numerous 
encounters occurred between the white supremacists and counter-
protesters, some of which turned violent. Most of the violence seemed 
to have been started by the white supremacists.
    The most notorious occurred when James Alex Fields, Jr., of Maumee, 
Ohio, allegedly drove his vehicle into a crowd of counter-protesters, 
injuring large numbers of them and killing Heather Heyer. In another 
incident captured on video, several white supremacists and hate group 
members severely beat a Black counter-protestor, DeAndre Harris, in a 
parking garage. Harris was later arrested based only on the word of one 
of his assaulters, a hate group leader, that Harris actually attacked 
him.
The Significance of Charlottesville
    First and foremost, Charlottesville was a tragedy, involving an 
assault on a community, the attempted intimidation of marginalized 
people across the country, and the murder of Heather Heyer. Adding to 
that is the tragic loss of Lieutenant H. Jay Cullen and Trooper-Pilot 
Berke M.M. Bates, two Virginia State troopers who died in a helicopter 
crash while on their way to monitor the event.
    But the event also served--and needs still to serve--as an 
important wake-up call, alerting people to the problems that radical 
right-wing movements legitimately pose in the United States. The year 
2017 is not yet over, but the country has already seen a variety of 
murders, shootings, hate crimes, and violent plots and acts by white 
supremacists, anti-Government extremists, and other right-wing 
extremists.
    The events in Charlottesville that weekend captured the attention 
of and shocked most Americans, many of whom had no idea that right-wing 
extremists had become so numerous or so bold. One of the most enduring 
moments related to Charlottesville was President Trump's statement that 
there were ``very fine people on both sides'' of the Unite the Right 
rally, a statement that further emboldened the extremists and added 
injury to those already under assault. Though violence stemming from 
right-wing extremism actually occurs frequently in the United States, 
such incidents are not always well-reported by the National media, and 
people often have little understanding of its scope. Thus, 
Charlottesville, and the concerning response to it from the White 
House, came as a wake-up call for many.
    The events in Charlottesville also had an outsize impact on the 
Jewish community. For many younger Jews, hearing white supremacists 
chanting ``Jews will not replace us'' may have been their first 
encounter with public anti-Semitism.\18\ For Jewish adults and seniors, 
watching Nazi salutes and hearing chants of ``sieg heil and ``blood and 
soil'' (the latter is a translation of the Nazi slogan ``Blut und 
Boden'') evoked memories or family recollections of the most 
overwhelming trauma in modern Jewish history. The white supremacist 
groups that participated in the Charlottesville rally have a well-
established record of anti-Semitism, and individual leaders of the 
movements present at the rally, including former Klansman David Duke, 
are prolific promoters of anti-Semitism in the United States.
---------------------------------------------------------------------------
    \18\ https://www.adl.org/blog/anti-semitism-on-full-display-in-
charlottesville.
---------------------------------------------------------------------------
    Anti-Semitic incidents spiked on the days of the Charlottesville 
march and rally and immediately following. Of the 306 incidents 
documented in our Audit that were reported in the third quarter, 221 
took place on or after the August 11 rally.
    While not ignoring other types of extremist threats to the peace 
and tranquility of the United States, Charlottesville requires us to 
ask what the country can do to better combat the threat of right-wing 
extremist violence, as well as how to demonstrate conclusively that 
such violence goes against what the American experiment stands for.\19\
---------------------------------------------------------------------------
    \19\ The fact that Congress enacted a joint resolution addressing 
the violence, with specific policy recommendations and objectives, also 
distinguishes the impact of the violence in Charlottesville. https://
www.congress.gov/115/plaws/publ58/PLAW-115publ58.pdf.
---------------------------------------------------------------------------
                left-wing and black nationalist violence
    While in no way comparable to the nature and magnitude of the 
threat posed by right-wing and white supremacist groups, we have taken 
note of several recent incidents of violent activity by left-wing 
groups and individuals with black nationalist beliefs.
    On Wednesday, June 14, a Congressional baseball team in the midst 
of a morning practice in Alexandria was attacked by a lone gunman. The 
U.S. House Majority Whip, Rep. Steve Scalise (R-LA), was seriously 
injured, and several others were also shot. In recent months, the ADL 
has been warning law enforcement personnel about the possibility of an 
increase in left-wing violence as a result of the growing anger 
directed at President Trump, his administration, and political allies. 
The shootings in Alexandria appear to be an example of this.\20\
---------------------------------------------------------------------------
    \20\ https://news.vice.com/story/extremism-experts-are-starting-to-
worry-about-the-left.
---------------------------------------------------------------------------
    Over the course of the past year, at least 2 individuals with Black 
Nationalist beliefs have violence has taken a deadly toll, responsible 
for the deaths of 8 police officers in Dallas and Baton Rouge in 
2016.\21\ In July 2016, Micah Xavier Johnson, who had ties to black 
nationalist groups such as the New Black Panther Party, killed 5 police 
officers (and injured 9 others) in Dallas, Texas, in an ambush attack 
aimed at police who were maintaining public order at a Black Lives 
Matter protest. That same month, Gavin Eugene Long ambushed and shot 6 
police officers, 3 of them fatally, in Baton Rouge. Long, like Johnson, 
was an adherent of Black Nationalism and a military veteran, as well as 
a member of the anti-Government sovereign citizen movement. Both 
incidents appear to have been motivated by anger in response to police 
shootings of African American men.\22\
---------------------------------------------------------------------------
    \21\ https://www.adl.org/educational/resources/reports/murder-and-
extremism-in-the-united-states-in-2016.
    \22\ https://www.adl.org/blog/fresno-shootings-latest-incident-in-
rise-of-black-nationalist-violence.
---------------------------------------------------------------------------
    As described above, law enforcement officers across the United 
States have recently faced the challenge of keeping the peace at a 
number of far-right rallies and demonstrations. Their task, to secure 
both safety and First Amendment rights, has been made more difficult 
not only by the white supremacists and other bigots who have shown up 
in Charlottesville,\23\ Berkeley, and Boston, but also by a relatively 
small number of counter-protesters who engage in confrontational 
tactics, including violence, in their opposition to the right-wing 
extremists. For example, the August 27 anti-racist march in Berkeley, 
attended by thousands of peaceful counter-protesters, turned chaotic 
when a number of anarchists appeared and allegedly attacked several 
right-wing or pro-Trump attendees.
---------------------------------------------------------------------------
    \23\ https://www.adl.org/blog/violence-and-hate-unite-the-right.
---------------------------------------------------------------------------
         extremism sparked by radical interpretations of islam
    One of the most striking elements of today's domestic threat 
picture is the role that a growing number of American citizens and 
residents motivated by radical interpretations of Islam have played in 
criminal plots to attack Americans in the United States and abroad. 
Over the past 10 years, about 24 percent of victims killed by domestic 
terrorists were at the hands of domestic Islamic extremists. Just last 
month, 8 people were killed and almost a dozen others injured when a 
29-year-old Sayfullo Habibullaevic Saipov ran people over with a truck 
on a busy bicycle path near the World Trade Center in Manhattan. 
Authorities found a note near the truck claiming the attack was made in 
the name of the Islamic State (ISIS). ADL's report earlier this year, 
titled ``A Changing Landscape of Threats,'' outlined changing tactics 
of such extremists, including how more extremists are using non-
traditional weapons (knives, cars) in their attacks and how plots are 
increasingly focused on public spaces rather than symbolic targets.\24\
---------------------------------------------------------------------------
    \24\ https://www.adl.org/sites/default/files/documents/
CR_5062_Domestic%20Islamic- %20Extremism%20Report_vF1.pdf.
---------------------------------------------------------------------------
    Indeed, four of the five deadliest ideologically-motivated attacks 
in the United States have been inspired by Islamic extremist ideology, 
including attacks in Fort Hood, TX, San Bernardino, CA, and Orlando, 
FL, the worst mass shooting in American history, in which Omar Mateen 
opened fire inside Pulse, a gay nightclub in Orlando, killing 49 
people. During the shooting, Mateen, an American citizen born in New 
York, declared his allegiance to ISIS. As demonstrated by this horrific 
shooting, it is clear that there are deliberate attempts by 
international terrorist groups that justify and sanction violence to 
appeal to and engage sympathizers in the United States.
    A disturbing number of cases also demonstrate the degree to which 
hatred of Jews and Israel play a part in the radicalization process of 
home-grown extremists. However, efforts to explore these legitimate 
security concerns should not be overwhelmed by the kind of unfair 
stereotyping and prejudice that has too-frequently accompanied recent 
public debates.
                 terrorist exploitation of social media
    As internet proficiency and the use of social media grow ever-more 
universal, so too do the efforts of terrorist groups to exploit new 
technology in order to make materials that justify and sanction 
violence more accessible and impactful. Terrorist groups are not only 
using various on-line and mobile platforms to spread their messages, 
but also to actively recruit adherents who live in the communities they 
seek to target.
    While the fundamental ideological content of terrorist propaganda 
has remained consistent for two decades--replete with militant 
condemnations of perceived transgressions against Muslims world-wide, 
and appeals for violence and anti-Semitism--terrorist groups are now 
able to reach, recruit, and motivate extremists more quickly and 
effectively than ever before by adapting their messages to new 
technology.
    In the past, plots were directed by foreign terrorist organizations 
or their affiliates, and recruitment and planning generally required 
some direct, face-to-face interaction with terrorist operatives. 
Indoctrination came directly from extremist peers, teachers, or 
clerics. Individuals would then advance through the radicalization 
process through constant interaction with like-minded sympathizers or, 
as the 2007 New York Police Department report on radicalization 
described, with a ``spiritual sanctioner'' who gave credence to those 
beliefs. Today, individuals can find analogous social networks, 
inspiration, and encouragement on-line, often packaged neatly together 
with bomb-making instructions. This enables adherents to self-
radicalize without face-to-face contact with an established terrorist 
group or cell.
    Individual extremists, or lone wolves, are also increasingly self-
radicalizing on-line with no physical interactions with established 
terrorist groups or cells--a development that can make it more 
difficult for law enforcement to detect plots in their earliest stages. 
Terror groups are taking full advantage of this virtual audience, and 
regularly publish detailed instructions for lone-wolf terror attacks 
\25\ using knives, as well as cars, trains,\26\ and other modes of 
transportation.
---------------------------------------------------------------------------
    \25\ https://www.adl.org/blog/isis-supporters-distributes-series-
of-articles-encouraging-lone-wolf-attacks.
    \26\ https://www.adl.org/blog/al-qaedas-latest-inspire-magazine-
details-train-derail/operations.
---------------------------------------------------------------------------
    Approximately half of the 150 terrorist incidents described in a 
2017 ADL report on 25 years of right-wing terrorism were perpetrated by 
lone-wolf offenders.\27\ Today, thanks to the internet, it is easier 
than ever for someone to become steeped in extremist ideologies, even 
to the point of being willing to commit acts of great violence, without 
ever being involved in an organized extremist group. The overwhelming 
majority of American citizens and residents linked to terrorist 
activity motivated by Islamic extremism in the past several years--
including at least 63 U.S. residents in 2015--actively used the 
internet to access propaganda or otherwise facilitate their extremist 
activity.
---------------------------------------------------------------------------
    \27\ https://www.adl.org/education/resources/reports/dark-constant-
rage-25-years-of-right-wing-terrorism-in-united-states.
---------------------------------------------------------------------------
           funding cve--and the need for a holistic approach
    Because modern technology has provided new fuel for extremists, 
including using ``cyberhate'' to attack marginalized groups on social 
media and coordinate terror attacks more easily, ADL supports properly 
crafted Countering Violent Extremism (``CVE'') programs. We believe an 
``all hands on deck'' holistic approach is required to confront the 
sophisticated recruitment efforts employed by domestic extremist groups 
and by ISIS and other terror groups. Through the CVE program launched 
under President Obama, the Department of Homeland Security had 
administered Federal grants to nongovernmental organizations and 
higher-education institutions to carry out programs that counter the 
potential for violence from domestic terrorists and home-grown violent 
extremists.
    In May, the League expressed concerns about press reports that the 
administration was proposing to cut funding for its CVE programs 
entirely.\28\ And in June, ADL expressed concerns as DHS announced 
their 2017 2-year CVE funding grantees.\29\ Funding for Life After 
Hate, a successful and in-demand program to de-radicalize neo-Nazis, 
white supremacists, and others, was not renewed. Politico reported 
that, since Election Day, Life After Hate has seen a twenty-fold 
increase in requests for help ``from people looking to disengage or 
bystanders/family members looking for help from someone they 
know.''\30\ At a time when right-wing extremist groups are experiencing 
rising membership and expanding influence, we believe DHS must invest 
in community-based organizations that work to counter these groups.
---------------------------------------------------------------------------
    \28\ https://www.adl.org/news/press-releases/adl-concerned-over-
reports-of-trump-administration-proposing-to-cut-entire.
    \29\ https://www.adl.org/news/press-releases/adl-welcomes-homeland-
security-grants-to-counter-terrorist-recruitment-and.
    \30\ http://www.politico.com/tipsheets/playbook/2017/06/23/what-
mcconnell-is-thinking-winners-losers-in-gop-health-care-bill-obama-
speaks-dawsey-download-wapo-trump-talks-russia-every-morning-pelosis-
future-220996.
---------------------------------------------------------------------------
    In addition, the 2017 list of CVE grantees \31\ indicates a shift 
in funding focus away from community-based civil society organizations 
and toward law enforcement agencies. Police play a critical role, but 
we cannot enforce our way out of this problem. Community-based 
organizations must help lead this work. These groups are much more 
likely to have credibility and trust needed to reach the targets of 
extremists, which include many disaffected or vulnerable youth. The 
League called on DHS to clarify its funding criteria and demonstrate 
that it is committed to funding the full range of programs--domestic 
and international--designed to counter all forms of violent 
extremism.\32\
---------------------------------------------------------------------------
    \31\ https://www.dhs.gov/cvegrants.
    \32\ https://www.adl.org/news/press-releases/adl-welcomes-homeland-
security-grants-to-counter-terrorist-recruitment-and.
---------------------------------------------------------------------------
    Importantly, ADL has also strongly advised the administration 
against focusing its CVE program solely on extremism motivated by 
radical interpretation of Islam. We responded to press reports \33\ 
that the administration wanted to change the name of the Government 
initiative from ``Countering Violent Extremism'' to ``Countering 
Islamic Extremism'' or ``Countering Radical Islamic Extremism'' by 
stating that such a change would be damaging to the American Muslim 
community and dangerously narrow.\34\ Singling out Muslims and the 
American Muslim community for special scrutiny or suspicion is 
discriminatory, offensive, ineffective, and counterproductive. In fact, 
one essential focus of our Nation's CVE programs should be to build 
trust within Muslim communities to reduce radicalism, not to further 
foster mistrust.
---------------------------------------------------------------------------
    \33\ http://www.reuters.com/article/us-usa-trump-extremists-
program-exclusiv-idUSKBN15- G5VO.
    \34\ https://www.adl.org/news/press-releases/adl-limiting-scope-of-
countering-violent-extremism-programs-places-nation-at.
---------------------------------------------------------------------------
    This is especially true now, because over the past few months, ADL 
and others have documented an objectionable, intensified level of anti-
Muslim bigotry in a variety of public forums. For example, according to 
a recent Pew Research Center publication on Muslim Americans' place in 
society,\35\ nearly half of Muslims (48 percent) say they have 
experienced at least one form of discrimination over the past year. Of 
those whose appearance is identifiably Muslim, nearly two-thirds (64 
percent) say they have experienced at least one of the specific types 
of discrimination asked about in the survey. Three-quarters (75 
percent) of Muslim respondents say there is ``a lot'' of discrimination 
against Muslims in the United States, with Muslim women more likely 
than Muslim men to hold this view (83 percent versus 68 percent). These 
findings reinforce an ADL survey on anti-Semitism and anti-Muslim 
discrimination published this past year.\36\ Our survey revealed that 
89 percent of Muslim Americans are concerned about violence directed at 
them and Islamic institutions in the United States, and 64 percent said 
that they do not believe the Government is doing enough to ensure their 
safety. While most Muslims don't feel the need to hide their faith, 66 
percent said they feel less safe in America since President Trump was 
elected.
---------------------------------------------------------------------------
    \35\ http://www.pewforum.org/2017/07/26/findings-from-pew-research-
centers-2017-survey-of-us-muslims/.
    \36\ https://www.adl.org/news/press-releases/in-first-new-adl-poll-
finds-majority-of-americans-concerned-about-violence.
---------------------------------------------------------------------------
    Limiting CVE programs to only focus on Islamic extremism would not 
only isolate the Muslim American community, but would also exacerbate 
the problem of how little prevention-based programming right-wing 
extremists are receiving.\37\ At a time when our research indicates 
that right-wing extremists are more visible and emboldened,\38\ the 
Government should focus on all types of extremism, whether it comes 
from terrorists motivated by extreme interpretations of Islam or white 
supremacists.
---------------------------------------------------------------------------
    \37\ http://time.com/4671901/donald-trump-extremism-terrorism-
muslims/.
    \38\ https://www.adl.org/news/press-releases/adl-report-exposes-
right-wing-terrorism-threat-in-the-us.
---------------------------------------------------------------------------
                  relationship with the tech industry
    Over the past decade, the League has worked closely with the 
internet industry and they have been very responsive to information 
regarding terrorist and extremist exploitation of their platforms. Our 
relationship has led to increased successes in mitigating the 
exploitation of platforms by groups such as ISIS. In addition, working 
with industry officials, the League developed the ADL Cyber-Safety 
Action Guide,\39\ a user-friendly on-line platform where consumers can 
learn how and where to report bigoted, bullying, or hateful speech to 
the major internet providers and social media platforms.
---------------------------------------------------------------------------
    \39\ http://www.adl.org/press-center/press-releases/discrimination-
racism-bigotry/new-adl-platform-helps-consumers-take-action-against-
internet-hate-speech.html#.Vi58MX6rTct.
---------------------------------------------------------------------------
    The League has also convened a Working Group on Cyberhate to 
develop recommendations for the most effective responses to 
manifestations of hate and bigotry on-line.\40\ The Working Group 
includes representatives of the internet industry, civil society, the 
legal community, and academia. The Working Group input and guidance has 
been invaluable and is reflected in a set of Best Practices \41\ that 
provides useful and important guideposts for all those willing to join 
in the effort to address the challenge of cyber hate.
---------------------------------------------------------------------------
    \40\ For a comprehensive review of the League's work addressing the 
scourge of on-line anti-Semitism since pre-internet days--when dial-up 
bulletin boards were a prominent communications tool--see Report of the 
Anti-Defamation League on Confronting Cyberhate to the 5th Global Forum 
for Combating Anti-Semitism, May, 2015, http://www.adl.org/assets/pdf/
combating-hate/ICCA-report-2015-With-hyperlinks-May-8-2015_final.pdf.
    \41\ http://www.adl.org/combatinq-hate/cyber-safety/best-practices/
#.Vi58F36rTcs.
---------------------------------------------------------------------------
         legislative and administrative policy recommendations
Bully Pulpit
  <bullet> The President, cabinet officials, and Members of Congress 
        must call out bigotry at every opportunity, especially when it 
        comes from our public officials. The right to free speech is a 
        core value, but the promotion of hate should be vehemently 
        rejected. Simply put, you cannot say it enough: America is no 
        place for hate.
  <bullet> The administration must send loud, clear, and consistent 
        messages that violent bigotry is unacceptable--and ensure that 
        the FBI and the Civil Rights Division will enforce relevant 
        Federal laws and vigorously investigate and prosecute hate 
        crimes.
Improved Coordination
  <bullet> The Department of Justice should host periodic interagency 
        meetings to promote cross-agency collaboration and to address 
        prevention of and response to extremism and hate violence. This 
        initiative should involve both lead enforcement agencies and 
        agencies working to expand anti-bias and hate crime prevention 
        training and outreach--including Department of Education, 
        Department of Homeland Security, the Federal Bureau of 
        Investigation (FBI), and the Department of Health and Human 
        Services (HHS).
Countering Violent Extremism
  <bullet> The administration and Congress should do all in their power 
        to promote trust and encourage stronger relationships to 
        counter attempts by both international terrorist organizations 
        and domestic hate groups to recruit disaffected or alienated 
        Americans. The administration should fully resource and staff 
        efforts at both security and non-security Executive branch 
        agencies to implement programs aimed at preventing and 
        intervening in the process of radicalization to violence. DHS 
        should clarify its funding criteria and demonstrate that it is 
        committed to funding the full range of programs--domestic and 
        international--designed to counter all forms of violent 
        extremism.\42\
---------------------------------------------------------------------------
    \42\ https://www.adl.org/news/press-releases/adl-welcomes-homeland-
security-grants-to-counter-terrorist-recruitment-and.
---------------------------------------------------------------------------
Improved Federal Hate Crime Data Collection
  <bullet> DoJ should incentivize and encourage State and local law 
        enforcement agencies to more comprehensively collect and report 
        hate crimes data to the FBI, with special attention devoted to 
        large underreporting law enforcement agencies that either have 
        not participated in the FBI Hate Crime Statistics Act program 
        at all or have incorrectly reported zero hate crimes.
  <bullet> To create incentives for participation in the FBI's HCSA 
        program, certain Department of Justice funds should only be 
        made available to agencies that are demonstrating credible 
        participation in the HCSA program. Whether a specific State or 
        local law enforcement agency is participating in the HCSA 
        program should be included in the rating and scoring criteria 
        as applications for Justice Department funding are considered.
  <bullet> The administration, DHS, and DoJ should take steps to ensure 
        that it is efficient and safe for all crime victims to contact 
        the police. If marginalized or targeted community members--
        including immigrants, people with disabilities, LGBT community 
        members, Muslims, Arabs, Middle Easterners, South Asians, and 
        people with limited language proficiency--cannot report, or do 
        not feel safe reporting crimes, law enforcement cannot 
        effectively address these crimes, thereby jeopardizing the 
        safety of all.
  <bullet> Congress should support Congressional legislation to improve 
        hate crime data collection and reporting, such as the NO HATE 
        ACT.\43\
---------------------------------------------------------------------------
    \43\ H.R. 1566/S. 662 https://www.Congress.gov/115/bills/hr1566/
BILLS-115hr1566ih.pdf.
---------------------------------------------------------------------------
  <bullet> In conjunction with the Department of Homeland Security, the 
        Justice Department should comprehensively implement the 
        implicit bias training initiative announced in June for all 
        Federal law enforcement officials and Federal prosecutors.\44\ 
        The training should include how to recognize, investigate, and 
        respond to hate crimes.
---------------------------------------------------------------------------
    \44\ https://www.justice.gov/opa/pr/department-justice-announces-
new-department-wide-implicit-bias-training-personnel.
---------------------------------------------------------------------------
Improved Training on Campus
  <bullet> In recent months, ADL Regional Directors and our Campus and 
        Center on Extremism professionals have met with university 
        administrators to tailor best practices for addressing white 
        supremacist and other extremist rallies and outreach on campus. 
        Our outreach is intended to ensure that administrators, 
        faculty, staff, and students all understand that they have a 
        direct responsibility to respond to hate speech and extremism--
        and that they have the resources, tools, and intervention 
        strategies to do so most effectively.
                               conclusion
    Sixteen years after the September 11 terrorist attacks, we very 
much hope that these hearings--and any that come after them--will 
acknowledge and highlight the extraordinary, successful efforts of 
Federal, State, and local law enforcement officials to prevent and 
deter terrorism on our shores. But police and counterterrorism 
officials do not work in a vacuum; they cannot do their job without 
community relationships, cooperation, trust, and a shared sense of 
responsibility for public safety. ADL will continue to advocate--in 
Congress and in the courts--for law enforcement officials to have 
investigative tools sufficient to deter and prevent terrorism, while 
appropriately balancing National security and individual rights.
    As the committee and Congress continue to examine the nature of the 
current threat to our Nation, the Anti-Defamation League hopes to play 
an on-going, helpful, and constructive role by offering its expertise 
in documenting the domestic and international terror threats from 
across the ideological spectrum, while urging Members of Congress and 
other public officials to make every effort to explore this serious 
issue without creating an atmosphere of blame and suspicion.
            Sincerely,
                                    Jonathan A. Greenblatt,
                                                               CEO.
   Attachment.--Selected ADL Resources on Hate Groups, Terrorism and 
                              Extremism *
---------------------------------------------------------------------------
    * The attached documents have been retained in committee files.

    Mr. Payne. Thank you, sir.
    I would just like to thank all the witnesses for their 
service to this Nation to this point. I am going to be very 
brief, because in the interest of time, I know we have another 
panel. But I just--and excuse me if this has already been 
answered, but I came in late. This, what is it, the black--what 
is this new term, black extremist radical--what is it?
    Mr. Wray. I believe the term you are reaching for there is 
there is a term, ``black identity extremists,'' which is an 
intelligence product that was--that I spent, you know, about 2 
hours, I guess, discussing yesterday with some of your 
colleagues.
    Mr. Payne. Right. Sorry I missed that. Could you give me a 
brief definition or an example of who would fall in that 
category?
    Mr. Wray. So the intelligence product in question refers to 
individuals who are committing violent criminal acts where the 
motivation is retaliation or retribution for injustices 
committed by law enforcement. So the focus is on law 
enforcement as victims in those situations.
    Mr. Payne. OK. And you see growing incidents in this 
situation?
    Mr. Wray. The piece in question, which was issued right 
before I joined the FBI, was based on a snapshot in time over 
the course primarily of 2016, and that was what the FBI was 
seeing during that period.
    Mr. Payne. OK. Thank you for that.
    I would just like to ask the three, I am the Ranking Member 
on Emergency Preparedness, Response, and Communications, and I 
would like to just ask--I have done a lot of work around 
interoperability, and I know you are each a different entity. 
But how well--and your communication is probably pretty good on 
your level, but through your different departments, how is the 
communication between your different agencies?
    Ms. Duke. I think our communication is much better than it 
was when I was here before, and I think that is a lot to the 
centers of bringing these centers together where people are co-
located. So it is not just the integration of systems. I think 
in the public sector, the FirstNet public safety network is 
going to be huge going forward. I do think we are working at 
DHS more on declassifying products earlier, so through our 
fusion centers and other tools, we can have better 
collaboration between Federal and State and local law 
enforcement. That is a major focus for us.
    Mr. Wray. I would agree that the technological part of the 
interoperability has improved significantly, although it can 
always get better. For us, and particularly on the FBI side, 
the Classified nature of so much of what we do does complicate 
our ability to communicate, less so with either of the folks 
here on the panel, but as Elaine says, with the State and local 
law enforcement it can get complicated. Certainly with the 
private sector, which as we discussed on the cyber side, that 
presents some significant challenges.
    Mr. Payne. OK. Yes, sir. Sir?
    Mr. Rasmussen. The only thing I would add is that level of 
integration that probably wasn't there among the Federal 
agencies 10 or 12 or 15 years ago has in some ways been 
addressed, because at this point, so many of our senior leaders 
have served in each other's organizations over the last dozen 
years. Several of my senior leaders are veterans of the 
Department of Homeland Security. I have senior FBI personnel 
inside my organization and have--my personnel have served 
inside their organizations. That counts for a lot because it 
makes that integration much easier.
    Mr. Payne. OK. Thank you.
    Mr. Chairman, I am going to yield back real quick.
    Chairman McCaul. The gentleman yields.
    The gentlelady from Arizona, Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman. I thank you all for 
your patience.
    Director Rasmussen, thanks for your service. I too agree 
that our country is safer because of your service.
    Many vulnerabilities have been talked about today that 
radical Islamists, terrorists, can use and have used in order 
to hurt America, attack us and our citizens and our way of 
life. You and all the people on your teams are out there every 
single day on the front lines keeping us safe.
    One of those vulnerabilities was just used 30 days ago, 
when Sayfullo Saipov killed 8 people and injured dozens in New 
York City on a bike path. He came from Uzbekistan and came 
through the visa lottery program. For those who are not 
familiar, this was created in 1995, specifically to help Irish 
immigrants. Since 2007, it is estimated 29,000 people from 
countries that sponsor terrorism--Syria, Sudan, Iran--have 
actually used this program to come to America. No other country 
that admits immigrants like we do--1 million a year, we are an 
immigrant-friendly country--has their visas handed out by 
chance. Not no other, but many others, like Canada, Australia, 
Austria, the United Kingdom, they don't have program like this. 
By chance and lottery, people can gain access to come into our 
country.
    So my question, Director Duke--sorry, Acting Secretary 
Duke, is if he had come to the United States today, versus 10 
years ago, what checks would he have encountered or how would 
it be different from the process he went through 10 years ago? 
Would the fact that he came from a country that has a history 
of terrorism impacted that?
    Ms. Duke. Yes, it would have. We also see that the 
diversity program is ripe for fraud. Today, it would be better, 
but we still agree with your sentiments on it isn't the best 
use of our immigration system.
    What would be different is we have biographics, we have the 
ability to search social media, those type of things. But it is 
still one that would introduce risk.
    Ms. McSally. So I recently introduced legislation to 
eliminate the lottery, convert a portion of them to merit-
based, which I believe is the right thing to do. President 
Trump has called for the elimination of this program. Acting 
Secretory Duke, do you agree with the elimination of this 
program?
    Ms. Duke. Yes, I support that.
    Ms. McSally. Great. Thank you.
    I do want to change gears on another topic that is deeply 
troubling to me. I know we are in an Unclassified setting, but 
this is the MAVNI program. This is a program where non-green 
card holders, which traditionally we allow green card holders 
to serve in the military, but non-green card holders, starting 
in 2008, were allowed to start serving. It was supposed to be 
in specific critical career fields, like language and other 
things, to boost our National security. Unfortunately--I am on 
the Armed Services Committee, and so we have gotten multiple 
Classified briefings on this, and I know we can't speak in 
great detail in this setting. But unfortunately, it looks like 
the Army basically used this to meet its recruiting goals well 
beyond the intent. Many of these individuals were not vetted 
properly and many come from countries that are our adversaries 
with very sophisticated foreign intelligence operations, 
getting a fast track to citizenship in basic training before 
any vetting went on. I am deeply concerned about the impacts.
    Now, I am sure there are many good people that served our 
country through this program, but the potential and the 
vulnerabilities have caused the DOD to halt this program. I am 
just--I am so concerned about the implications of those who 
were already in it and the fact that they were not vetted, and 
now they are U.S. citizens, so they clearly have Constitutional 
rights. So I just would like to hear all of your thoughts on 
were you aware of this program? What are we doing now to 
mitigate any of these vulnerabilities and these threats for 
those that have already been through it because of the 
buffoonery of what happened that is potentially impacting our 
National security?
    Ms. Duke. I am aware of the program and that it is 
suspended. DHS and I believe we have to vet every individual. 
We believe in a legal immigration system, but have to balance 
security and make sure we vet all persons coming into the 
United States, permanently or temporarily.
    Ms. McSally. Director Wray, in counterintelligence roles, 
is there any part that you are playing right now even to try 
and mitigate and address these potential threats?
    Mr. Wray. Well, we try to investigate wherever we can. We 
get intelligence about people of the sort you are describing 
and trying to pursue those and share that information working 
with our fellow colleagues in the interagency.
    Ms. McSally. So I would like to maybe follow up in a 
Classified setting with you as to whether there is any open 
investigation specifically related to this issue.
    I do want to ask, Mr. Chairman, to insert into the record, 
we did write a letter together to USCIS and we have got the 
response here. I would like to put that in the record.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
      Letter Submitted For the Record by Honorable Martha McSally
                                 September 5, 2017.
Mr. James McCament,
Acting Director, U.S. Citizenship and Immigration Services, Department 
        of Homeland Security, Washington, DC 20008.
    Dear Mr. McCament: We have concerns regarding the Military 
Accessions Vital to National Interest (MAVNI) program, which began as a 
Department of Defense (DOD) pilot program in 2009 to assist the U.S. 
military in filling certain specialized job categories determined to be 
vital to the national interest.\1\
---------------------------------------------------------------------------
    \1\ U.S. Citizenship and Immigration Services. Policy Alert: 
Department of Defense Military Accessions Vital to National Interest 
Program. Found at https://www.uscis.gov/policymanual/Updates/20160803-
MAVNI.pdf. Last accessed on August 2, 2016.
---------------------------------------------------------------------------
    The United States has a proud history of honoring foreign-born 
individuals who serve in the military with expedited citizenship 
benefits. According to the United States Citizenship and Immigration 
Services (USCIS), between October 2001 and September 2015, the U.S. has 
naturalized 109,321 members of the military.\2\ As you know, robust 
vetting is essential for all immigration programs, especially those 
involving the U.S. military where individuals may have access to 
specialized training and classified information.
---------------------------------------------------------------------------
    \2\ U.S. Citizenship and Immigration Services. Naturalization 
Through Military Service: Fact Sheet. Found at https://www.uscis.gov/
news/fact-sheets/naturalization-through-military-service-fact-sheet. 
Last accessed on August 3, 2017.
---------------------------------------------------------------------------
    According to media reports, the Department of Defense has enlisted 
over 10,000 non-U.S. citizens into the military since the MAVNI pilot 
started,\3\ the vast majority in the U.S. Army. Several recent media 
reports have raised concerns about security vetting for individuals in 
this program. It is our understanding that DOD suspended the program in 
September 2016 due to these security concerns.\4\ An excerpt from a 
memo reported to be from DOD states, ``The previous execution of the 
MAVNI Pilot Program presents a significantly elevated risk to the 
Department from a CI/S and insider threat perspective, to include a 
considerable burden on limited intelligence assets.''\5\ The memo 
further states that DOD is in the process of developing a replacement 
program.\6\
---------------------------------------------------------------------------
    \3\ James Rosen, ``Pentagon investigators find `security risks' in 
government's immigrant recruitment program, `infiltration' feared,'' 
Fox News, August 1, 2017, Found at http://www.foxnews.com/politics/
2017/08/01/pentagon-investigators-find-security-risks-in-governments-
immigrant-recruitment-program-infiltration-feared.html. Last accessed 
on August 3, 2017.
    \4\ Alex Horton, ``Foreign-born recruits, promised citizenship by 
the Pentagon, flee the country to avoid deportation,'' The Washington 
Post, July 17, 2017, Found at https://www.washingtonpost.com/news/
checkpoint/wp/2017/07/17/foreign-born-recruits-promised-citizenship-by-
the-pentagon-flee-the-country-to-avoid-deportation/
?tid=hybrid_collaborative_2_- na&utm_term=.34d67cd4cb4a. Last accessed 
on August 2, 2017.
    \5\ Agnes Constante, ``Immigrant Military Recruits Wait in Limbo As 
Defense Program's Future Unclear,'' NBC News, July 31, 2017, Found at 
http://www.nbcnews.com/news/asian-america/immigrant-military-recruits-
wait-limbo-defense-program-s-future-unclear-n787121?cid=sm_npd- 
_nn_tw_ma. Last accessed on August 2, 2017.
    \6\ Constante, supra note 5.
---------------------------------------------------------------------------
    As the Government agency responsible for overseeing lawful 
immigration to the United States, USCIS played a vital role in ensuring 
that applicants in the MAVNI program were properly vetted prior to 
receiving naturalization benefits. Please respond to the following 
questions no later than October 5, 2017 (provide a classified annex if 
required to fully answer):
    1. How many applications has USCIS received under the MAVNI 
        program? Please provide a breakdown by country, year, and 
        military service.
    2. How many individuals became U.S. citizens through the MAVNI 
        program? Please provide a breakdown by country, year, and 
        military service.
    3. How many MAVNI applicants are currently in deferred military 
        entry status? Please provide a breakdown by country and 
        military service. What is the immigration status of these 
        individuals?
    4. What is the average timeline from when a MAVNI applicant begins 
        basic training to becoming a U.S. citizen?
    5. How many MAVNI applications are pending?
    6. How many MAVNI applicants were denied citizenship and what were 
        the reasons for such denials?
    7. What screening and vetting procedures does USCIS apply to MAVNI 
        applicants?
    8. Please provide detailed information on the scope of the 
        screening USCIS conducted under this program, including whether 
        the screening is limited to the background of the applicant 
        since arriving in the U.S. or if it includes thorough review of 
        the applicant's background, affiliations, contacts, and 
        activities prior to arrival in the U.S.?
    9. Are foreign contacts of MAVNI applicants self-reported only or 
        corroborated with other U.S. Government agency information?
    10. Does USCIS conduct enhanced screening of MAVNI applicants from 
        countries known to be hostile to the U.S. or known to conduct 
        intelligence gathering activities on the U.S.? If yes, please 
        provide details.
    11. Did USCIS conduct in-person interviews with MAVNI applicants?
    12. Did USCIS utilize any deception detection technology as part of 
        the screening and vetting procedures?
    13. The MAVNI program was intended to be limited to ``certain 
        health care professionals and foreign nationals fluent in 
        certain foreign languages.''\7\ However, it appears the Army 
        specifically may have used MAVNI in a much broader way to meet 
        recruiting goals in a wide array of careers. Does USCIS vetting 
        include a review of the specialized skill the applicant is 
        filling to ensure it is within the limits of the program?
---------------------------------------------------------------------------
    \7\ U.S. Citizenship and Immigration Services. USCIS Policy Manual, 
Volume 12--Citizenship & Naturalization, Part I--Military Members and 
their Families. Found at https://www.uscis.gov/policymanual/Print/
PolicyManual-Volume12-PartI-Chapter3.html. Last accessed on August 3, 
2017.
---------------------------------------------------------------------------
    14. To what extent has USCIS reviewed the immigration benefits 
        awarded through the MAVNI program to determine if any 
        derogatory information, including false statements or national 
        security concerns, existed at the time of application and/or 
        award that would be grounds for denying naturalization 
        benefits? Have any benefits been revoked?
    15. Is USCIS working with the DoD and other agencies to review 
        previous MAVNI applicants who are now U.S. citizens to ensure 
        that foreign intelligence agencies did not use MAVNI infiltrate 
        the U.S. military ranks as a way to access sensitive and 
        classified information? What are the legal considerations of 
        such a review due to constitutional rights of these now U.S. 
        citizens?
    16. Were any MAVNI applications referred to the USCIS Fraud 
        Detection and National Security Directorate? If so, how many? 
        Please provide a breakdown by country, year, and military 
        service.
    17. Please provide a copy of any agreements, communications, 
        letters, or memorandum of understanding between USCIS, or 
        another DHS entity, and DOD regarding the MAVNI program.
    18. Are there other initiatives where other agencies or departments 
        are able to offer expedited immigration benefits? If so, please 
        list them and the corresponding statutory authority.
    19. Is USCIS or another DHS element involved in DOD's development 
        of a replacement to the MAVNI pilot? If yes, what is the status 
        of these efforts?
    20. Does the Department of Homeland Security employ any individuals 
        naturalized through the MAVNI program?
    Thank you in advance for your cooperation.
            Sincerely,
                                         Michael T. McCaul,
                             Chair, Committee on Homeland Security.
                                            Martha McSally,
            Chairman, Subcommittee on Border and Maritime Security.

    Ms. McSally. Director Rasmussen, any comments?
    Mr. Rasmussen. The only thing I would add is I was not 
aware of particular vulnerability. One thing that I think might 
contribute to identifying potential sources of concern in this 
population is, depending on their status, some individuals now 
are subject to recurrent vetting, vetting that goes on long 
after they have been through the initial admission process. 
That changes, obviously, when they gain status as a citizen for 
the reasons you suggest. But it could mean that some members of 
this population are still subject to some vetting process.
    Ms. McSally. Thanks. I am over my time, but I would like to 
follow up in a Classified setting with all of you. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCaul. Let me just say I echo the gentlelady from 
Arizona's concerns. I am glad to hear this program is 
suspended. I met with the director of USCIS yesterday and 
encouraged him to get the Classified briefing on this program.
    With that, the Chair recognizes the gentleman from 
Wisconsin, Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman. I thank all of you 
for being here.
    So we talked a lot about sort-of the evolving terrorist 
threat abroad. It does seem that ISIS is steadily losing 
territory in western Iraq and eastern Syria, which opens up an 
opportunity for us to exploit a lot of valuable intelligence on 
the battlefield in the form of biometrics, fingerprints, 
documents, media devices. This is vital that we collect it and 
then find a way to get that information to those outposts that 
are vetting people who want to come into this country: Visa 
applicants, refugees, asylees. Because in the past, we have had 
examples where people have come into the country who are tied 
to terrorist groups.
    To what extent--I guess I would direct this to Acting 
Secretary Duke--to what extent do you think this battlefield 
information that is being captured by our military operators 
and other intel folks in the field being incorporated into your 
respective agency's operations and investigations?
    Ms. Duke. I think this is one of the areas that has 
improved most, to be honest with you. DHS is now an active 
member of the National Security Council, as is Director 
Rasmussen, and we get the same intelligence both before and 
after an incident. I think that counterterrorism efforts 
overseas lead by the Department of Defense are probably the 
area I have seen the most progress in.
    Mr. Rasmussen. What I would add to that is that the 
battlefield intelligence of the sort that you are describing, 
Mr. Gallagher, is most useful to us when it contains specific 
identity intelligence, when we can learn names, dates of birth, 
passport numbers, identity documented information, and so that 
that can be used to feed our database of known and suspected 
terrorists. That is the intelligence database that all of 
Acting Secretary Duke's immigration programs is bouncing off of 
as they are making decisions and vetting potential admissions 
to the country. So the better, the richer, the deeper that 
database, the more likely it is we are going to have the 
information that will identify a potential bad actor.
    It still is imperfect in that you can never have the 
totality of the information that you would want, but there is 
no question that what has happened in Iraq over the last 
several months has given us a wealth of new information that is 
helpful in this regard.
    Mr. Wray. I would just add that--and I agree with the 
sentiments that both of my co-panelists have expressed, but I 
would also add that the FBI has people forward-deployed with 
the military so that we are trying to collect biometric 
information wherever we can, and that has turned out to be very 
useful in some cases to identify people who are then returning 
or going elsewhere who weren't on people's lists, whether in 
the United States or in our foreign partners as well. I think 
going forward that is going to be another place where we can be 
more effective.
    Mr. Rasmussen. Let me jump in on one other issue that has 
come up quite a bit in the hearing today. Much of what we have 
learned about terrorists potential use of UAVs or UAS devices 
as an aviation threat has been learned from what we have seen 
on the battlefield in Iraq. Rapid exploitation of that 
material, rapid sharing here in the homeland so that local law 
enforcement does know that there is a threat to a high school 
football game of the sort that we were talking about, a lot of 
that is derived directly from battlefield intelligence.
    Mr. Gallagher. Well, it is heartening to hear that you all 
three seem to think it is headed in the right direction, though 
there is room for improvement. As a veteran of the NCTC ops 
center, and many a nights have we spent from 5 p.m. to 5 a.m. 
poring over those databases, so I am glad to hear your 
sentiments on that.
    Acting Secretary Duke, I thank you for highlighting in your 
testimony the important work of the committee's Task Force on 
Denying Terrorists Entry Into the United States. As Chairman of 
that task force, I would also like to thank the Department for 
your cooperation while we have been conducting the review. We 
are looking forward to releasing the task force's final report 
in the near future. I look forward to working with all of you 
to implement its recommendations or shore up any areas that you 
don't think we paid enough focus to.
    Earlier, you discussed how some of our foreign partners 
lacked the necessary capabilities to close gaps in their 
security and stop terrorist travel. This actually matches one 
of the key findings in our task force report, and some of the 
recommendations will focus on DHS's cooperation with our 
foreign partners.
    Can you briefly describe some of the work DHS is currently 
doing with our foreign partners to address any overseas 
vulnerabilities that pose a threat to our homeland?
    Ms. Duke. Well, one of main areas is using systems that 
either we have and offered them to use that track people, that 
track known terrorists. What Director Rasmussen talked about, 
we have international partners feeding into that same known 
terrorist database. We think that that info sharing is No. 1. 
Additional documentation, having the right documentation with 
the biometrics. Actually, the other part is not only inputting, 
but using the databases to make their own determinations with 
the borders so open, especially in Europe. Those are a few of 
the areas.
    Mr. Gallagher. I thank you.
    I yield the balance of my time.
    Chairman McCaul. The gentleman yields.
    Before I close, I want to also share the concern, Secretary 
Duke, that you raised in your prepared testimony about the 
relationship potentially between transnational criminal 
organization and potential terrorists that could bring 
terrorists into the United States, but also weapons of mass 
destruction that we saw highlighted in Dabiq magazine, where 
they talk about the ease with which that could be accomplished. 
I think that that certainly raises a warning sign and I think 
demonstrates a need to get the borders secured.
    I also want to thank Director Wray. I also share your 
concern about 702. As for me, this Member, this Chairman, I 
will be working closely with other like-minded Members to make 
sure that happens.
    Director Rasmussen, this will be your last testimony before 
this committee. I just want to commend you on----
    Mr. Rasmussen. This or any committee.
    Chairman McCaul. Or any committee, hopefully. I just want 
to thank you for your service. You will be missed, but I know 
you will be close by.
    I want to thank all three of you for your service and, most 
importantly, the men and women who serve in your organizations.
    With that, this--we are going to take a brief break and 
then begin with our second panel.
    [Recess.]
    Chairman McCaul. The committee will come to order.
    We have votes scheduled probably in about 5 to 10 minutes, 
so I am going to try to get through this as quickly as I can, 
and then we will come back after votes and start with our Q-
and-A series.
    I am pleased to welcome our second panel of witnesses on 
domestic terrorism. Our second panel includes Mr. David Rausch, 
the chief of police for the city of Knoxville, Tennessee; Rabbi 
Abraham Cooper, associate dean and director of the Global 
Social Action Agenda at the Simon Wiesenthal Center; and Mr. 
Richard Cohen, president of the Southern Poverty Law Center.
    I want to thank all of you for being here today.
    The Chair now recognizes Police Chief Rausch for his 
testimony.

    STATEMENT OF DAVID B. RAUSCH, CHIEF OF POLICE, CITY OF 
                      KNOXVILLE, TENNESSEE

    Chief Rausch. Good afternoon, Chairman McCaul. Thank you, 
Ranking Member Thompson, and Members of the committee. Thank 
you for the opportunity to speak with you today about world-
wide threats, specifically, domestic terrorism and the threat 
posed by extremist groups.
    My name is Chief David Rausch. I am currently the chief of 
police in Knoxville, Tennessee. I am also a member of the 
executive board of directors for the International Association 
of Chiefs of Police, and currently the general chair for the 
IACP Midsize Agencies Division, which represents agencies with 
50 to 999 sworn officers.
    The IACP is the world's largest association of law 
enforcement leaders with more than 30,000 members in 150 
different countries. I have been fortunate to have been trained 
by the FBI in domestic and international terrorism, as well as 
participated in training at the U.S. Army War College, in 
addition to my over 28 years of experience in law enforcement.
    Today's law enforcement officers face an incredible set of 
challenges. One of the many myriad of challenges we confront is 
how to best respond to planned rallies, spontaneous crowds, and 
civil disturbances by extremist groups, while balancing First 
Amendment rights. All too often, what may have been started as 
a peaceful demonstration can spawn protests and counter-
protests that can lead to civil disorder.
    Groups with varying social and political agendas that wish 
to express their concerns over war, abortion, environmental 
issues, policy decisions, and numerous other issues can and 
have sparked violent and even deadly actions and reactions. 
Most recently, we witnessed that in Charlottesville, Virginia.
    A few short weeks after that incident, on August 26, we had 
a protest over a monument in Knoxville, and we used what we 
learned from Charlottesville, from Boston, and from Durham, 
North Carolina, to ensure a safe, peaceful gathering. Each of 
these cities were faced with the realities addressing Civil War 
statutes or monuments and free speech by groups known for hate.
    I will share what we learned from those events, and I will 
discuss some of the challenges law enforcement faces when it 
comes to policing extremist groups and where we could benefit 
from assistance from the Federal Government.
    Civil disturbances and demonstrations have changed over the 
years, as have the tactics and techniques of extremist groups 
that organize these protests and gatherings. Demonstrations in 
public protest have taken on a more systemic organized nature 
and have invoked tools that were not available in past decades. 
Social media is now commonly used to rapidly mobilize and 
manage participants prior to enduring demonstrations and civil 
disturbances. Communities--while some of the issues there, of 
course, are with the social media allowing the expression of 
hate in forms that we have noticed recently.
    Law enforcement needs the assistance and cooperation of 
those who manage the social media mediums to monitor their 
sites and not allow them to be used for this purpose. The 
companies need protection from frivolous lawsuits that prevent 
them from taking needed action to do this. We need the ability 
to have those who are pushing a violent hate agenda to be held 
accountable for violence that results from their efforts.
    Additionally, continued resources through the Department of 
Homeland Security and the Department of Justice in the form of 
community policing grants, safe streets funding, and other 
resources are vital for the continuation of being able to 
address these efforts to prevent and intervene violent 
extremists. It is vital that all levels of government and the 
private sector work together to identify and address 
individuals and organizations that are involved in violence and 
hate. This information needs to be provided immediately in real 
time to all who may be impacted, especially those who are 
responsible for the safety of our communities.
    There should be no barriers to the sharing of information. 
Fusion centers have been effective at providing this 
information, but they are only as good as the information that 
they are provided or they learn through their efforts. The 
ability to gather intelligence information must not be 
hindered. We certainly understand the concerns of too much 
Government intrusion, but we can't allow this distrust of 
Government to allow those who seek to harm us to thrive. There 
can be appropriate intelligence gathering that is properly 
monitored to protect us all. We must ensure that we are 
watching and not allow those tools that law enforcement use to 
get taken away.
    The ability of a local community to control events in their 
jurisdiction is vital. The power to require notice of an event 
to assess the level of concern for our communities is 
paramount. Permitting is a process that allows this to be done 
effectively. The process gives local government the opportunity 
to appropriately protect all who wish to participate, or to 
make a decision to decline a permit based on factual concerns 
for the overall safety of a community.
    A failure to obtain a permit should be reason to declare a 
gathering illegal. Permitting allows for clearer communication 
between the jurisdiction and the event organizers. Contact with 
leaders of a demonstration is important to gather information 
and establish ground rules for the event, in particular, 
nonnegotiable matters, with the intention that a common 
understanding be reached by both parties on the ground rules.
    In our protest in Knoxville, it was advertised on social 
media. A local white supremacist group announced that they 
would be holding a support-the-monument rally at a Civil War 
monument that had been vandalized after Charlottesville. We 
were familiar with the group planning this, and they had 
gatherings previously. Then three other groups began organizing 
counter-protests against the white supremacist hate group. We 
were familiar with some of these groups. The support for the 
counter-protesters were substantially larger than the white 
supremacist hate groups.
    Our intelligence unit began monitoring all the known 
problem groups in our area, and they were inciting each other 
by posing as members of the opposite group and making 
statements about the need for violence.
    One of the counter-protest groups contacted us to request 
approval to conduct a march, and that was denied because of the 
recent events that we had seen in other locations. The support-
the-monument group never sought a permit. They advised they 
were just going to meet at the monument, and then we decided to 
take control of that.
    To me, these groups who gather to spew hate and violence 
now hide under the cloak of the First Amendment. We need to be 
able to delineate between exercising freedom of speech and 
violent behavior. Having the ability to put reasonable rules in 
place and control these gatherings is important.
    I know I have gone over my time there, Mr. Chair. I will 
just tie it up just saying that we believe that there are a lot 
of tools that could be made available to us. As, you know, I am 
sure there will be some questions, I can get further into that.
    [The prepared statement of Chief Rausch follows:]
                 Prepared Statement of David B. Rausch
                           November 30, 2017
    Good afternoon Chairman McCaul, Ranking Member Thompson, and 
Members of the committee.
    Thank you for the opportunity to speak with you today about world-
wide threats--specifically domestic terrorism and the threat posed by 
extremist groups.
    My name is Chief David Rausch am currently the chief of police of 
the Knoxville, Tennessee Police Department. I am also a member of the 
executive board of directors for the International Association of 
Chiefs of Police (IACP) and currently the general chair of the IACP 
Midsize Agencies Division, which represents agencies with 50 to 999 
sworn officers. The IACP is the world's largest association of law 
enforcement leaders, with more than 30,000 members in 150 different 
countries.
    I have been fortunate to have been trained by the FBI in Domestic 
and International Terrorism, as well as participate in training at the 
U.S. Army War College in addition to my over 28 years of experience in 
law enforcement.
    Today's law enforcement officers face an incredible set of 
challenges. One of the many myriad of challenges we confront is how to 
best respond to planned rallies, spontaneous crowds, and civil 
disturbances by extremist groups while balancing First Amendment 
rights.
    All too often, what may have been started as a peaceful 
demonstration can spawn protests and counter protests that can lead to 
civil disorder. Groups with varying social or political agendas that 
wish to express their concerns over war, abortion, environmental 
issues, policy decisions, and numerous other issues can and have 
sparked violent--even deadly--actions and reactions. Most recently, we 
witnessed this occur in Charlottesville, Virginia.
    A few short weeks after that incident, on August 26 we had a 
protest over a monument in Knoxville and we used what we learned from 
Charlottesville, Boston, Durham, North Carolina to assure a safe 
peaceful gathering. Each of these cities were faced with rallies 
addressing civil war statues or monuments and ``free speech'' by groups 
known for hate. I will share what we learned from those events and I 
will discuss some of the challenges law enforcement faces when it comes 
to policing extremist groups, and where we could benefit from 
assistance from the Federal Government.
                      recruitment and organization
    Civil disturbances and demonstrations have changed over the years, 
as have the tactics and techniques of the extremist groups that 
organize these protests and gatherings. Demonstrations and public 
protests have taken on a more systemic, organized nature and have 
invoked tools that were not available in past decades. Social media is 
now commonly used to rapidly mobilize and manage participants prior to 
and during demonstrations and civil disturbances.
    Social media and the internet provide extremists with an 
unprecedented ability to spread hate and recruit followers, similar to 
what we have witnessed with terrorist organizations. Individual racists 
and organized hate groups now have the power to reach a global audience 
of millions and to communicate among like-minded individuals easily, 
inexpensively, and anonymously. Equally troubling, internet users, 
particularly young people, have never been more exposed and vulnerable 
to the efforts of these extremists to influence, recruit, and 
intimidate. Moreover, there is significant evidence that the internet 
is playing an increasing role in facilitating self-radicalization.
    Combating Violent Extremism is an effort led by the CVE Task Force 
which is made up of the Department of Homeland Security in 
collaboration with the Department of Justice, the Department of State, 
Department of Defense, Department of Education, Department of Health 
and Human Services, Department of Labor, as well as the Federal Bureau 
of Investigation, U.S. Agency for International Development, and the 
National Counterterrorism Center. Model efforts for how to engage 
communities to prevent radicalization and recruitment are collected and 
shared by this group. Partnering with State and local law enforcement 
is a key to the effort, specifically those utilizing community policing 
strategies. Successful prevention efforts have included a mix of 
positive community engagement and early identification of potential 
recruiters and recruits.
    Communities rely on education through classrooms, faith 
organizations, and the media. Educating parents and youth on the 
efforts and dangers of these hate organizations and ideologies is a 
core prevention effort. Expressing the dangers of these groups and 
their bullying behaviors is key. There needs to be an understanding 
that radicalization is not just about religion, it's about beliefs. 
Relationships between the community and law enforcement must continue 
to be built and managed. Currently, hate has the stage. It is getting 
all the attention. It has a megaphone and is being allowed to spew in 
many forms taking advantage of divisions that have been created. This 
does not have to be the case. The vast majority of Americans believe 
and know that we are all more alike than we are different and that we 
accomplish things in this country working together.
    Law enforcement needs the assistance and cooperation of those who 
manage the social media mediums to monitor their sites and not allow 
them to be used for this purpose. These companies need protection from 
frivolous lawsuits that prevent them from taking needed action to do 
this. We need the ability to have those who are pushing a violent hate 
agenda to be held accountable for violence that results from their 
efforts. Law enforcement also needs the assistance of those in our 
community who learn of or know individuals who are engaged in these 
violent hate agendas to report them to us, so that we can do our jobs 
to protect our neighbors.
    Additionally, continued resources through the Department of 
Homeland Security and the Department of Justice in the form of 
Community Policing Grants, Safe Streets funding, and other resources 
are vital for the continuation of being able to address these efforts 
to prevent and intervene violent extremists.
            pre-event intelligence gathering and management
    It is vital that all levels of Government and the private sector 
work together to identify and address individuals and organizations 
that are involved in violence and hate. This information needs to be 
provided immediately in real time to all who may be impacted, 
especially those who are responsible for the safety of our communities. 
There should be no barriers to the sharing of this information. Fusion 
Centers have been effective at providing this information, but they are 
only as good as the information that they are provided or they learn 
through their efforts.
    The ability to gather intelligence information must not be 
hindered. We certainly understand the concerns of too much Government 
intrusion, but we can't allow this distrust of Government to allow 
those who seek to harm us to thrive. There can be appropriate 
intelligence gathering that is properly monitored to protect all of us. 
We must assure that we are watching and not allow the tools that law 
enforcement uses to be taken away.
    The ability of a local community to control events in their 
jurisdiction is vital. The power to require notice of an event to 
assess the level of concern for a community is paramount. Permitting is 
a process that allows this to be done effectively. The process gives 
the local government that opportunity to appropriately protect all who 
wish to participate or to make a decision to decline a permit based on 
factual concerns for the overall safety of a community. A failure to 
obtain a permit should be reason to declare a gathering illegal and 
assure that everyone is made aware and given an opportunity to disperse 
before any other course of action. Permitting allows for clear 
communication between the jurisdiction and the event organizers. 
Contact with leaders of a demonstration is important to gather 
information and establish ground rules for the event. In particular, 
non-negotiable matters, with the intention that a common understanding 
be reached by both parties on the ground rules.
    A new challenge to this process is that groups are organizing on 
social media sites and have no real leaders and are just gathering to 
express their concerns. Many having the same ideology of hate. These 
should be addressed as an illegal gathering.
    In our protest in Knoxville, it was advertised on social media. A 
local white supremacists group announced that they would be holding a 
``support the monument'' rally at a Civil War Memorial Monument that 
was placed to remember 813 Confederate soldiers who were killed in the 
Battle of Fort Sanders that has been vandalized after the 
Charlottesville protest. We were familiar with the group planning this, 
as they had conducted gatherings in the past. Then three groups began 
organizing a counter protest against the white supremacist hate group. 
We were familiar with some of these groups. The support for the counter 
protestors was substantially larger than the white supremacist hate 
group. We monitored the on-line activities of these groups, as well as 
hate groups on both sides that were planning to attend. Our 
Intelligence Unit began monitoring all of the known problem groups in 
our area as well. They were inciting each other by posing as members of 
the opposite group and making statements about the need for violence.
    One of the counter protest groups contacted us to request approval 
to conduct a march to the site on a State Route that is a main route 
through the University of Tennessee. They advised that they would have 
2,000 participants. Because of the concerns of what we had seen from 
recent events in other jurisdictions and the fact that this is a major 
route in our city, we denied the request and advised the organizer that 
if they marched that they would have to do so on the sidewalks and 
follow all laws. The ``support the monument'' group never sought a 
permit. They advised that they were just going to gather around the 
monument on the sidewalk. We decided that we would take control of the 
area and set the rules to avoid any possible violence.
             balancing freedom of speech with public safety
    All persons in the United States have the right to march, 
demonstrate, protest, or undertake similar activities protected under 
the First Amendment to the United States Constitution. Freedom of 
speech, association, assembly, and the right to petition the Government 
are subject only to reasonable restrictions on the time, place, and 
manner of their expression. The content of the speech or message does 
not provide the basis for imposing limitations on these rights. Law 
enforcement has the difficult task of maintaining the peace during 
incidents, while also protecting the rights of assembly and free speech 
guaranteed by the U.S. Constitution.
    The challenging part for law enforcement is we must protect groups 
that we may not agree with. We must protect groups that oppose us and 
have ideas that are counter to ours. But, our oath requires us to 
protect the rights of everyone.
    Too many of these groups who gather to spew hate and violence now 
hide under the cloak of the First Amendment. We need to be able to 
delineate between exercising freedom of speech and violent behavior. 
Having the ability to put reasonable rules in place to control these 
gatherings is important. Not allowing individuals to bring items that 
can be used as weapons, including sticks, bats, bottles of urine, 
frozen water bottles, bricks, rocks, helmets, shields, face coverings 
and masks, provides the ability to prevent violence from happening. 
These are all tools of intimidation and attack. Protests are 
emotionally charged events with people who are passionate about their 
cause. They are events that extremists take advantage of to push their 
violent agendas. Jurisdictions need the ability to control these events 
and set reasonable rules to avoid dangerous conditions. Even in the 
jurisdictions where firearms are allowed to be carried openly or with a 
permit, the ability to ban them at these events is necessary. Again, 
the emotional aspect of these gatherings calls for the ability to 
regulate them to assure the safety of all involved, including law 
enforcement.
    After watching video from the protests in Charlottesville, Boston, 
and Durham we decided that we would put reasonable rules in place for 
the area of the protest. These included prohibiting all items that 
could be used as weapons, no face coverings, and no masks. Because we 
decided to control the area we were also able to prohibit firearms, 
even by those who had carry permits, as a new State law set the rules 
for this and we set up the area to meet the requirements. This set the 
stage to prevent potentially violent situations from happening. We also 
communicated this information in advance of the event to assure that 
those who would gather knew the rules as well as those in the community 
who lived and worked in the area knew what steps were being taken to 
keep the area safe.
                    tools and procedures for success
    Some of the key elements that proved successful for our event was 
to take control of the area early to prevent either side from taking 
control of the area before law enforcement. Because of the new threat 
of vehicle-borne attacks we utilized heavy equipment trucks from our 
Public Service Department to cut access to the area from all streets. 
We set up physical barriers, ``cattle racks'', to separate the areas 
where the two sides would be allowed and the center of the street to be 
controlled by law enforcement. We set up the entrances on each side of 
the area for a search of all who entered. We had law enforcement on the 
outside of the controlled area watching over both sides as well as law 
enforcement inside both areas. Riot Control teams in full gear were on 
the inside between the two sides.
    The planning and preparation consisted of utilizing all available 
resources on the local, State, and Federal levels. Additional resources 
were necessary and were obtained from several agencies including other 
local and State law enforcement and emergency services. In our event we 
utilized the city law department, communications department, service 
department, fire department, emergency management, sheriff's office, a 
nearby local police department, Tennessee Highway Patrol, Tennessee 
Emergency Management Agency, Tennessee Bureau of Investigation, and 
worked with the Federal Bureau of Investigation on intelligence 
gathering.
    Current laws mostly provide what is needed to conduct these events 
and hold persons accountable. Laws addressing domestic terrorism and 
hate crimes exist. Some thought should be put into making hate crimes 
as an enhancement to the original crimes as there are challenges with 
proving hate in some situations as the primary offense. Most 
prosecutors will tell you that they will charge the primary crime of 
assault, vandalism, etc. as they find it difficult to prove the 
motivation for the crime at times. If they could get the verdict for 
the crime and then use the motivation of hate to enhance the punishment 
it may be more effective. Consideration should be made for passing laws 
regulating protests and the costs associated with them. These events 
are very expensive to communities. I realize that there are challenges 
with determining who pays when most of these events are not organized 
by a specific group or person. California recently passed a State law 
to limit what can be carried during a protest and should be considered 
as an example of what other States may want to accomplish.
            legislative, policy, and action recommendations
Provide Federal Program and Funding Assistance
  <bullet> Training.--Law enforcement officers need training to 
        mitigate and to de-escalate these events.
  <bullet> Equipment.--Law enforcement needs funding for equipment to 
        help respond and manage these events. Equipment such as 
        protective gear, cameras, and radios not only help to keep 
        officers safe but also allow them the ability to keep the 
        public safe.
  <bullet> Specialized Units and Task Forces.--Funding to create 
        specialized units or to help agencies team up to develop multi-
        agency task forces.
  <bullet> Fusion Centers and Information Sharing.--Fusion centers play 
        a unique role in protecting their communities, informing 
        decision making, and enhancing information-sharing activities 
        among law enforcement and homeland security partners. Federal 
        support is needed to fund these fusion centers.
  <bullet> Intelligence Gathering.--Those of us who are charged with 
        protecting the public aren't always able to access the evidence 
        needed to prosecute crimes and prevent acts of terror. Social 
        media is a particularly difficult challenge for law 
        enforcement. Law enforcement needs, wherever possible, 
        assistance from Congress in ensuring that social media 
        providers are both willing and able to share necessary 
        information that would help protect our communities and 
        citizens. Law enforcement simply needs to be able to lawfully 
        access information that has been duly authorized by a court in 
        the limited circumstances prescribed in specific court orders.
Speak Out Against Hate
    The President, Members of Congress, State and local elected 
officials all need to condemn acts of bigotry every chance they can. As 
elected officials, you hold important roles, and the Nation and your 
communities want to hear from you. Use your role to speak out against 
the hateful incidents that are plaguing our communities and send a 
message that these acts will not be tolerated. All of us, law 
enforcement included, must work together to put an end to hate and 
tensions are brewing.
                               conclusion
    On behalf of the IACP, I conclude by thanking you again for the 
opportunity to appear before you today. I would be happy to answer any 
questions you may have.

    Chairman McCaul. I appreciate it, Chief Rausch. Your full 
statement will be included in the record.
    The Chair now recognizes Rabbi Cooper.

 STATEMENT OF RABBI ABRAHAM COOPER, ASSOCIATE DEAN, DIRECTOR, 
      GLOBAL SOCIAL ACTION AGENDA, SIMON WIESENTHAL CENTER

    Rabbi Cooper. Thank you, Chairman. Thank you, Ranking 
Member Thompson and the rest of the distinguished Members of 
Congress.
    I want to thank you for allowing us to be here on behalf of 
our 400,000 constituents of the Simon Wiesenthal Center. We are 
named first in honor and now in memory of Simon Wiesenthal, the 
great Nazi hunter who lost 89 members of his family during 
World War II. When he was liberated by U.S. troops at 
Mauthausen, he was too weak to stand and embrace his 
liberators. He dedicated the rest of his life seeking justice 
and not vengeance. Brought 1,100 of the perpetrators before the 
bar of justice and changed the way civilization looked at the 
responsibilities of dealing with the crimes of genocide. He 
warned, ``I know that the hate did not die with Hitler in the 
Berlin bunker.'' Tragically, how right he proved to be.
    Before I go on, I just think this is also an appropriate 
moment to thank your father, Mr. Chairman, who I learned from 
you flew 32 missions over Europe, participated in D-Day, 
representing the greatest generation. It might be a little bit 
late, but it is the appropriate time to say thank you.
    The threats of extreme anti-Semitism in the United States 
in our time trace back to the 1980's. The small but extremely 
violent order assassinated Denver talk show host, Alan Berg, in 
1984, and planned to foment a race war in our country. Neo-
Nazi, skinhead, and militia movements in the late 1980's and 
1990's often combined white separatist doctrine with anti-
Jewish theory and practice.
    It has already been 30 years, but anti-Jewish hate crimes 
forced many Jewish institutions across our country to undertake 
costly security measures to protect people at prayer and kids 
at school. For a generation, Jews attending synagogue services 
or dropping their children off at a school have accepted the 
necessity of having guards, often armed, security cameras, and 
other paraphernalia. Annual FBI stats prove that it is not 
paranoia. Jews, unfortunately, every year are the No. 1 target 
of religion-based hate crimes. I would add that African 
Americans, unfortunately, every year are the No. 1 continuing 
target of race-based hate crimes.
    In 1999, Buford Furrow, trained in William Pierce and Tom 
Metzger's doctrine of leaderless resistance, came down to Los 
Angeles with the plan to attack our Museum of Tolerance. He 
landed up using a softer target, which was a Jewish summer day 
camp. Children as young as 6 years old were shot before he 
murdered a Filipino-American U.S. Postal Service employee. Two 
years later, 
9/11 changed our world forever. It is one of the reasons we are 
here today.
    Against this backdrop, earlier this year, there were over 
120 bomb threats made to--against Jewish community centers 
across our country. These threats evoke painful memories of 
earlier deadly attacks at JCCs, including Granada Hills, 
California; Seattle, Washington; and Overland, Kansas. 
Thousands of young families, including a young colleague of 
mine at the Wiesenthal Center, were deeply traumatized as their 
4- and 5-year-olds were suddenly and hurriedly evacuated from 
their classrooms.
    Despite strenuous efforts in Federal and local law 
enforcement, for which we are incredibly grateful, it took 
months to identify the main culprit of these threats of 
domestic terrorism. The majority of those threats emanated not 
from here, but from overseas, and traced back to one young 
suspect in Israel.
    But 2017 has witnessed more than bomb threats. It was a 
year where the oldest hate manifested on too many of our 
Nation's campuses, were delivered to our personal emails, and 
spouted from pulpits of religious leaders.
    The sources? Extremist elements of the new alt-right, self-
proclaimed white nationalists and outright Nazis, theologically 
fueled and validated Islamist hate rhetoric, extreme anti-
Israel campaigns on campus that demonize the Jewish State and 
her Zionist supporters.
    What has changed? Well, we heard a phenomenal panel before 
detail in--great professionals--the internet. The internet is 
used to incubate and validate hate, to inspire and empower, and 
even train lone-wolf attackers. It has created new global 
relationships among extremists unimaginable 20 years ago. It 
offers anonymity.
    We saw that the new generation of young Nazis were able to 
utilize Charlottesville in a way to capture National and global 
attention by staging Nazi-like torch light parades and 
uploading video in real-time via social media with little or no 
consequences to the perpetrators.
    I want to go directly to the fact that, a few weeks ago, we 
participated in hearings at the House Judiciary Committee, 
which was considering undertaking some steps to help Jewish 
kids endangered on campus. Unfortunately, to this point, a bill 
which passed 100 to nothing in the Senate, is still being held 
up by Chairman Goodlatte. As a result, the U.S. Department of 
Education has not adjudicated a single case involving anti-
Semitism in the United States against students on campus.
    Then the Islamist rhetoric attacks, such as the one in 
Davis, California, in which people have used religious pulpits 
in order to call for genocide against the Jewish community. I 
am a Rabbi, so I am very sensitive to the fact that we don't 
want to curtail either the First Amendment or tell religious 
leaders what they should do. But I am also a sports fan and I 
believe in a level playing field.
    The kind of rhetoric that has been used to attack our 
community and Christians by certain Islamist personalities, 
imams in our country, has simply not elicited the kind of 
response that the Muslim leadership in this country should 
show, especially since the American Muslims themselves have 
suffered a spike in hate crimes targeting them in the last 
year.
    Finally, is there a role for DHS? I am aware that DHS's 
role in combating domestic terrorism and anti-Semitism is 
secondary to that of the DOJ and FBI. I am also aware that 
DHS's role is not to dictate policies that would hold 
extremists accountable for their acts.
    Nonetheless, DHS was born in wake of the brutal lessons 
wrought from the ashes and agony of 9/11. We learned as a 
Nation that America had to move to correct serious flaws in our 
fundamental approach to securing our Nation from ever-morphing 
multiple threats. It is our view that local hate crime units, 
State homeland security, and relevant Federal agencies must be 
able to quickly update and expand their understandings of 
extremist ideologies from the far right to the extreme left. 
That would actually help them better understand the raw 
intelligence that comes their way.
    The Simon Wiesenthal Center is urging the committee, and 
through you, Mr. Chairman and the Ranking Member, to consider 
ways to enable the homeland security operation to be able to 
intake from NGO's, human rights advocates, and other community-
based groups throughout the United States with the kind of 
information which I think would better help the brilliant and 
committed people we have heard who deal with materials we will 
never see. But by virtue of the fact that the Wiesenthal Center 
looks only at open-source material, sometimes we can provide a 
little bit of perspective, since we are not doing industrial 
phishing. We actually do it the old-fashioned way.
    So it is our hope that together with all of the other 
organizations and those who were not able to attend here today, 
would be given an opportunity to have a platform where the 
agencies that we heard from earlier today and the other 
relevant groups, probably through fusion centers, would be able 
to have access to the kinds of perspective information that we 
would like to share with them. Thank you.
    [The prepared statement of Rabbi Cooper follows:]
               Prepared Statement of Rabbi Abraham Cooper
                           November 30, 2017
    Thank you for the opportunity to represent the 400,000 constituent 
families of the Simon Wiesenthal Center at today's House Homeland 
Security Committee hearings. Now in our 40th year, our Center is named 
in honor of and inspired by the legacy of Simon Wiesenthal, the late 
Nazi hunter. He lost 89 members of his family during the Nazi 
Holocaust. When U.S. forces entered Mauthausen Concentration Camp, 
Simon weighed under 90 pounds and was too weak to even stand to embrace 
the liberating American GIs.
    He dedicated the rest of his life seeking justice, not vengeance 
and succeeded in bringing Nazi War Criminals before the bar of justice, 
helping to bring 1,100 to trial and ensuring a largely uncaring world 
would not be allowed to forget the victims or the perpetrators of the 
Nazi Genocide. And when he bestowed his good name on our institution he 
warned, ``I know that hate did not die with Hitler in the Berlin 
Bunker.''
    How right he proved to be. The threats of extreme anti-Semitism in 
the United States in our time trace back to the 1980's. The small but 
extremely violent order assassinated Denver talk show host Allen Berg 
in 1984, and planned to foment a race war in America. Assorted Neo-
Nazi, skinhead, and Militia movements of the late 1980's and 1990's 
often combined white separatist doctrine with anti-Jewish theory and 
practice.
    Decades ago, anti-Jewish hate crimes forced many Jewish 
institutions across the Nation to undertake costly security measures to 
protect people at prayer and kids in school. For a generation, Jews 
attending synagogue services or dropping their children off at a Jewish 
School, have accepted the necessity of having guards--often armed--
security cameras and other paraphernalia. Annual FBI stats prove that 
it's not paranoia--Jews every year are the No. 1 target of religion-
based hate crimes.
    Indeed, in 1999, Buford O. Furrow, trained in William L. Pierce's 
and Tom Metzger's doctrine of ``leaderless resistance'' to the ZOG or 
so-called ``Zionist Organized Government, journeyed from the white 
separatist Aryan Nations Compound in Idaho to Los Angeles. There, he 
intended to assault the Simon Wiesenthal Center Museum of Tolerance, to 
``send a message to the Jews,'' but settled for a softer target at a 
Jewish Community Center day camp where he shot children as young as 6 
before murdering a Filipino-American U.S. postal Service employee.
    Two years later, 9/11 changed our world forever.
    Against this background, earlier this year there were over 100 bomb 
threats made against Jewish Community Centers, home to many pre-schools 
and kindergartens. These threats evoked painful memories of earlier 
deadly attacks at JCC's, including in Granada Hills, California (1999) 
Seattle, Washington (2006), and Overland, Kansas (2014). Thousands of 
families--including a young colleague of mine at the Simon Wiesenthal 
Center were deeply traumatized as their 5-year-olds were suddenly and 
hurriedly evacuated from their classrooms. Despite strenuous efforts of 
Federal and local law enforcement--for which we are incredibly 
grateful--it took months to identify the main culprit of these 
``threats of domestic terrorism.'' The majority of the threats emanated 
from overseas, eventually traced to one young suspect in Israel.
    Coupled with attacks against Jewish cemeteries in Missouri, 
Pennsylvania, and elsewhere, many of our communities further expanded 
their security measures.
    But 2017 witnessed more than bomb threats. It was a year where 
history's oldest hate manifested on our too many of our Nation's 
campuses, were delivered to our personal emails, and spouted from 
pulpits of religious leaders.
    The sources? Extremist elements of the new alt-right, self-
proclaimed white nationalists and outright Nazis; theologically-fueled 
and validated Islamist hate rhetoric; extreme anti-Israel campaigns on 
campuses that demonize the Jewish State and her Zionist supporters.
                       what has changed in 2017?
    The internet--it's used to incubate and validate hate; to inspire, 
empower, and even train lone-wolf attackers; it creates new global 
relationships among extremists unimaginable 20 years ago. It offers 
anonymity and encryption for evil-doers and largely renders the targets 
of hate virtually helpless from a tsunami of personalized screeds and 
threats.
    Gone are the days when neo-Nazis were relegated to leafleting car 
windshields. No need to hide mailing of hate propaganda in non-descript 
brown paper. The new generation of extreme far-right racists are tech-
savvy. Perhaps inspired by the success of European xenophobes and 
bigots, they have succeeded in penetrating the mainstream of culture, 
adopting new vocabularies, and project a sleek and sophisticated on-
line presence. They market everything from T-shirts to hate music to 
impressionable young people.
    Recently they have dropped the still-taboo swastika for sunwheel or 
runes--symbols deployed by racists across Europe. Other times their 
sophisticated on-line skills are on horrific display when Jewish 
reporters are pummeled with hundreds of personalized anti-Semitic 
attacks delivered to the victim via email or Twitter for the ``crime'' 
of reporting the news or writing op-eds.
    The new generation of Nazis also showed in Charlottesville that 
they can capture National and global attention by staging Nazi-like 
torchlight parades--and uploading video in real time, via social media, 
with little or no consequence to the perpetrators.
                         *campuses have changed
    In the past several years, Jewish students on a large number of 
college campuses have been subjected to unprecedented levels of anti-
Jewish sentiment, leading many to feel uncomfortable participating in 
Jewish campus life or other campus activities whose participants are 
especially hostile to Jewish students.
    Jewish students can't table for their organizations at student 
events fairs without being physically surrounded and shouted down by 
extremist anti-Semitic campus organizations.
    They can't bring speakers to school like every other students group 
and gender, racial, and ethnic group can, because the speakers will be 
heckled into silence.
    They're often reluctant to run for student government at some 
schools because they've seen the numerous times in just the past few 
years that Jewish students have been called out because they are Jews 
and often excluded from student government expressly due to their 
involvement in Jewish life on campus.
    These incidents of hate and intimation are wide-spread and impact 
on campuses with large and small Jewish constituencies. They impact on 
Jewish support groups like Hillel and Jewish fraternity members of 
AEPi.
    These problems are too often compounded by University 
administrators who have been tolerating a level of harassment and 
intimidation of Jewish students that they would never dream of allowing 
against other demographic groups, because they know there are no 
consequences.
    The failure of schools and the Federal Government to protect Jewish 
students on campus from harassment has become a long-standing scandal 
and one of the most pressing issues in the American Jewish community.
    That is why the Simon Wiesenthal Center and every mainstream, 
credible Jewish organization in the Nation came together last year to 
demand equal protection under the law for Jewish students. And that is 
why the U.S. Senate passed our bill unanimously, but unfortunately your 
distinguished colleague, Congressman Goodlatte, Chair of the House 
Judiciary Committee, has refused to allow the bill to be voted on.
    In my home State of California: A rock hurled at a student wearing 
a T-shirt saying ``Everybody loves a Jewish boy'' as he passed by an 
anti-Israel display; a female Jewish student stalked by anti-Israel 
activists and taunted with the words ``slut'' and ``whore,'' and other 
Jewish students called ``dirty Jew,'' ``f***ing Jew'' and told to ``go 
back to Russia'' and ``burn in Hell''; three Jewish female students 
assaulted and injured when a mob of anti-Israel activists stormed 
through a pro-Israel event.
    These are just a few of the anti-Semitic incidents reported at the 
University of California, but they are not unique to that school. 
Jewish students on many campuses from coast to coast report severe, 
persistent, and pervasive harms at the hands of anti-Israel activists. 
The harassment includes physical and verbal assaults, destruction of 
property, bullying and intimidation, denigration, discrimination, and 
suppression of speech and often takes place regardless of the victim's 
personal feelings on Israel. Jewish students report fearing displaying 
their Jewish star necklaces, wearing their Jewish sorority or 
fraternity letters and walking to Hillel for Sabbath dinner.
    The problem had become so severe that at the University of 
California, for example, in 2011, then President Mark Yudof, 
commissioned a fact-finding team to interview Jewish students on seven 
UC campuses in order to objectively assess the campus climate for them. 
According to the team's report, Jewish students were indeed 
``confronting significant and difficult climate issues as a result of 
activities on campus which focused on Israel, its right to exist and 
its treatment of Palestinians.'' The team found that on every UC campus 
they visited Jewish students ``described an environment in which they 
feel isolated and many times harassed and intimidated by students, 
faculty, and outsiders.''
    As the University of California Board of Regents explained in its 
landmark Statement of Principles Against Intolerance, historic 
manifestations of anti-Semitism have changed over time and ``expression 
of anti-Semitism are more coded and difficult to identify. In 
particular, opposition to Zionism often is expressed in ways that are 
not simply statements of disagreement over politics and policy, but 
also assertions of prejudice and intolerance toward Jewish people and 
culture.''
    Despite the undeniably hostile environment that many Jewish 
students were experiencing at the University of California, complaints 
filed under Title VI of the 1964 Civil Rights Act on behalf of Jewish 
students on three UC campuses--Irvine, Santa Cruz, and Berkeley--were 
unceremoniously dismissed on the same day in August 2013.
    And UC's Jewish students are not alone. In the dozen years since 
the Department of Education's Office for Civil Rights (OCR) committed 
to investigating anti-Semitism under Title VI, OCR has not found a 
single civil rights violation in any claim filed on behalf of Jewish 
students on college or university campuses.
    Bottom line--again, little or no consequences for anti-Semitism on 
campus.
                            islamist attacks
    Tragically, some of the most vile and threatening anti-Jewish 
rhetoric in 2017 has been delivered from within the American Muslim 
community, that itself has suffered an increase in hate crimes in 2016. 
From campuses in Tennessee to pulpits in our Nation's most populist 
State, California. Such ``sermons'' failed to elicit much protest from 
within the Muslim community, nor to the best of our knowledge, have 
generated any serious action by authorities--local, State, or Federal--
despite the explicit calls for violence and worse, made against Jews by 
such individuals.
                        is there a role for dhs?
    Mr. Chairman, I am aware that the DHS's role in combating domestic 
terrorism and anti-Semitism is secondary to that of the DOJ and FBI.
    I am also aware that DHS is not in a position to dictate policies 
that would hold extremists accountable for their anti-Semitic acts.
    Nonetheless, the DHS was born in wake of the brutal lessons wrought 
from ashes and agony of 9/11. We learned as a Nation that America had 
to move to correct serious flaws in our fundamental approach to 
securing our Nation from ever-morphing, multiple threats.
    The Simon Wiesenthal Center, through its Digital Terrorism and Hate 
Project and Tools for Tolerance law enforcement training is keenly 
aware of the continuing important contributions that fusion centers are 
playing in ensuring that relevant intelligence and other information, 
reaches in a timely fashion, the appropriate agency or agencies 
dedicated to keeping the homeland and our citizens safe.
    As we look at the growing threats from extremists across the full 
spectrum of our society, it is clear that in a world increasingly 
dominated by the internet and especially social media, National borders 
mean less and less in the transmission of the viruses of hate and 
terrorism.
    It is our view that local hate crimes units, State homeland 
security and relevant Federal agencies must be able to quickly update 
expand their understanding of extremist ideologies--from the far right 
to the extreme left. This includes identifying the new generation of 
extremist leaders overseas and the increasing interaction between U.S.-
based extremists and like-minded individuals and groups beyond our 
shores. Looking for who or what motivates or ``trains'' a U.S.-based 
``lone wolf'' seeking to target fellow Americans, could often lead to 
individuals or groups beyond our borders.
    The DHS, through the already-established fusion centers could 
provide effective platforms to educate all relevant agencies on the 
changing nature of, and threats, from extremist groups.
    Mr. Chairman we still await the appointment of a new State 
Department Special Envoy on anti-Semitism. Assuming that U.S. Secretary 
of State Tillerson finally appoints someone for that task and fully 
funds that office, the State Department could produce valuable real-
time updates as well overviews of anti-Semitic activities around the 
world that often inspire anti-Semitic activity in the United States.
    The Simon Wiesenthal Center and other Jewish NGO's are willing and 
able to offer real-time information and perspective, but we need a 
serious address. It is our hope that this committee under your guidance 
Mr. Chairman, could provide the leadership to make it happen.
   additional selected articles on recent anti-semitic incidents on 
                          major u.s. campuses
    1. Rutgers (http://www.mycentraljersey.com/story/news/local/2017/
        10/26/rutgers-michael-chikindas-anti-semitic/801989001/)
    2. Cornell (http://cornellsun.com/2017/10/23/anti-semitic-posters-
        appear-on-campus-advertising-apparently-fake-hate-group/)
    3. Colorado State (https://collegian.com/2017/10/csu-jewish-
        community-marches-against-anti-semitism-incidents-on-campus/)
    4. UC Berkeley (http://www.dailycal.org/2017/10/25/editors-note-
        regarding-editorial-cartoon-depicting-alan-dershowitz/)
    5. University of Houston (https://www.algemeiner.com/2017/09/17/
        antisemitic-fliers-found-at-university-of-houston-as-neo-nazis-
        continue-college-recruitment-efforts/)
    6. Others (http://www.thejewishstar.com/stories/fresh-wave-of-anti-
        semitism-hits-campuses,14506)
    7 https://www.washingtonpost.com/news/acts-of-faith/wp/2017/04/24/
        the-hotbed-of-anti-semitism-isnt-a-foreign-country-but-u-s-
        college-campuses-report-says/?utm_term=.68c222c7d8dc

    Chairman McCaul. Thank you, Rabbi.
    We have about 2 minutes on the clock to vote. So what I 
would like to do is go vote. That is why I think the Ranking 
Member and I are the only two left here. So we are going to go 
vote. There are four votes.
    We will come back and then we will hear from Mr. Cohen.
    We will stand in recess.
    [Recess.]
    Chairman McCaul. The committee will come to order.
    The Chair now recognizes Mr. Cohen for his testimony.

STATEMENT OF J. RICHARD COHEN, PRESIDENT, SOUTHERN POVERTY LAW 
                             CENTER

    Mr. Cohen. Thank you, Chairman McCaul. Thank you, Ranking 
Member Thompson and Members of the committee. It is an honor to 
be here today.
    Charlottesville truly was a wake-up call for our country. 
It was a reminder that the oldest form of terrorism our country 
has ever known is still with us. It was proof that the white 
supremacist movement has been energized by Mr. Trump's 
campaign, proof that Mr. Trump's campaign has, ``unearthed some 
demons,'' to use Congressman Sanford's words. The marchers' 
chant in Charlottesville, ``You will not replace us,'' was an 
expression of paranoia over cultural displacement. It reminds 
us of what Dylann Roof said when he murdered 9 people in a 
Charleston church: ``You are taking over our country.'' The 
marchers' chant ``blood and soil.'' Their anti-Semitism reminds 
us of one of the darkest chapters in modern history.
    In my written testimony, I called the threat associated 
with groups like ISIS the most acute ones we face. So I 
certainly don't take issue with Director Wray calling it our 
main terrorism threat. But I worry that calling the threat from 
domestic extremist groups, like those in Charlottesville, 
merely a steady one, as Director Wray has called it, may lead 
us to underestimate the danger that the current white 
supremacist movement poses, not just to our physical safety, 
but to the very soul of our Nation. I worry that calling the 
domestic extremist threat merely a steady one may lead us, once 
again, not to give it the attention it deserves.
    That is why I think the joint resolution that this Congress 
passed unanimously in September and that the President signed 
is so important. The resolution recognizes the growing threat 
from racist anti-Semitic and xenophobic hate groups in our 
country. It urges the President and his administration to use 
all available resources to address that threat, and it calls on 
the Attorney General to vigorously prosecute criminal acts from 
the radical right and to improve the reporting of hate crimes.
    That reporting, I would note, is woefully inadequate. The 
FBI's recent report counted approximately 6,000 hate crimes in 
2016. Yet the Bureau of Justice Statistics estimates that as 
many as a quarter-million hate crimes may be occurring 
annually. So clearly, we have a disconnect here.
    As you know, the Charlottesville resolution urges various 
things, but has no enforceable provisions. That is why it is so 
critical that this committee hold oversight hearings in the 
very near future to ensure that the President is living up to 
the commitments he made when he signed the resolution. I would 
also ask this committee to recommend legislation, similar to 
that which Senator Durbin has proposed, that would 
institutionalize the focus on terrorism from the radical right 
within our Federal law enforcement agencies. That threat is the 
oldest our country faces.
    Charlottesville demonstrates that it is lethal, and it is 
likely to be with us long after we hopefully have addressed the 
threat of terror from groups like ISIS. It deserves the full 
measure of our attention.
    Senator Durbin's bill would do many other things, including 
preserving funding for the State and Local Anti-Terrorism 
program, SLATT, for short, a critical program that has been on 
this chopping block.
    As I mentioned in my written testimony, my colleagues and I 
at the Southern Poverty Law Center are representing Susan Bro, 
the mother of Heather Heyer, the young woman who was killed 
when a white supremacist drove his car into a crowd of 
protesters in Charlottesville. At the funeral of her daughter, 
Susan said, ``They tried to kill my child to shut her up. But 
guess what, you just magnified her. I would rather have my 
child,'' she said, ``but by golly, if I have to give her up, we 
are going to make it count.''
    I will see Susan next week in Charlottesville, and I look 
forward to telling her that this committee is committed to 
doing everything in its power to curb the threat of radical 
right terrorism in our country and to make Heather's death 
count.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Cohen follows:]
                 Prepared Statement of J. Richard Cohen
                           November 30, 2017
    My name is Richard Cohen. I am an attorney and the president of the 
Southern Poverty Law Center (SPLC), a civil rights organization founded 
in 1971. For more than three decades, my colleagues and I have been 
monitoring, issuing reports about, and training law enforcement 
officials on far-right extremist activity in the United States. I have 
litigated numerous cases against hate groups and their leaders and am 
currently representing the mother of Heather Heyer, the young woman who 
was killed in Charlottesville, Virginia, on August 12, 2017. I have 
served on the Department of Homeland Security's Countering Violent 
Extremism Working Group, am a past recipient of the FBI Director's 
Community Leadership Award, and have testified before many 
Congressional committees, including this one on July 15, 2015, on 
issues relating to domestic terrorism. I am honored to appear before 
you today.
    My testimony will focus on the threat of domestic terrorism--more 
specifically, the threat of terrorism from white supremacist groups and 
their adherents. In doing so, I do not mean to minimize other threats 
our country faces, including those associated with extremist forms of 
Islam or those directed at law enforcement officers.
 congress has recently recognized the growing white supremacist threat 
                 and has called on the president to act
    When I testified before this committee at its hearing on ``The Rise 
of Radicalization: Is the Government Failing to Counter International 
and Domestic Terrorism'' in July 2015, I emphasized two points: First, 
that the threat of radical-right terrorism in our country is a serious 
one; and second, that there had been a bipartisan failure to devote 
sufficient resources to address that threat in the aftermath of the 
tragic events of September 11, 2001. In the joint resolution passed 
unanimously in September after the unprecedented events in 
Charlottesville, Congress
  <bullet> acknowledged the ``growing prevalence'' of ``hate groups 
        that espouse racism, extremism, xenophobia, anti-Semitism, and 
        white supremacy'';
  <bullet> urged the President and his administration to ``use all 
        available resources'' to address the threats from such groups; 
        and
  <bullet> called on the attorney general and other Federal agencies to 
        vigorously prosecute criminal acts by white supremacists and to 
        improve the collection and reporting of hate crimes.\1\
---------------------------------------------------------------------------
    \1\ S.J. Res 49, 115th Cong. (2017) (enacted).
---------------------------------------------------------------------------
    On September 14, the President signed the joint resolution. Now, 
the questions are what will the President and his administration do to 
fulfill the commitments the President made by signing the resolution 
and, just as importantly, what will Congress do to ensure that the 
President and his administration live up to those commitments and have 
the necessary resources to do so? Before turning to these questions, 
however, it will be useful to describe the nature of the threat of 
white supremacist violence that the country is facing and the 
bipartisan failure in recent years to devote more attention to it.
    the white supremacist movement, a domestic terror threat since 
   reconstruction, has been energized by president trump's campaign 
                                rhetoric
    Although the threat of terrorism from extremist forms of Islam may 
be the most acute one the country currently faces, the threat from 
white supremacists is undoubtedly the most persistent one in our 
country's history. Indeed, since the founding of the Ku Klux Klan in 
the immediate aftermath of the Civil War, our country has faced 
terrorism--including thousands of lynchings--from those determined to 
preserve white hegemony. Those who marched in Charlottesville this 
summer chanting ``You will not replace us'' and ``Jews will not replace 
us'' were motivated by the same goal. Even if some of the new energy in 
the white supremacist movement were to dissipate in a few years, the 
threat of white supremacist violence is likely to be with us for many 
years to come.
    Since the start of 2001, the death toll in our country from 
terrorism associated with extremist forms of Islam has been far higher 
than that from far-right extremism; however, the number of homicidal 
incidents actually has been greater from the latter source. In a 2016 
study, the National Consortium for the Study of Terrorism and Responses 
to Terrorism (START) found that between 1990 and 2014, far-right 
domestic extremists were responsible for four times as many 
ideologically-based homicidal incidents as extremists associated with 
al-Qaeda and related movements.\2\ During the 2005-2014 period, the 
ratio was 3-to-1.
---------------------------------------------------------------------------
    \2\ Twenty-Five Years of Ideological Homicide Victimization in the 
United States of America, Report to the Office of University Programs, 
Science and Technology Directorate, U.S. Department of Homeland 
Security, March 2016, at http://www.start.umd.edu/pubs/
START_CSTAB_ECDB_25YearsofIdeologicalHomicideVictimizationUS_March2016.p
df.
---------------------------------------------------------------------------
    This past February, START reported that, from 1990 to 2016, if the 
two deadliest terrorist incidents--the Oklahoma City bombing and the 9/
11 attacks--are removed from the count, far-right extremists have 
killed more than twice as many people in the United States as have 
Islamist extremists (272 versus 130). Using the same criteria, START 
found that far-right extremists killed 57 law enforcement officers 
during the same approximate period, compared to 7 killed by Islamist 
extremists.\3\ A General Accountability Office study released in April 
reached similar conclusions.\4\
---------------------------------------------------------------------------
    \3\ Parkin, William S., and Jeff Gruenewald, Brent Klein, Joshua D. 
Freilich, Steven Chermak. 2017. ``Islamist and Far-Right Homicides: 
Infographic,'' National Consortium for the Study of Terrorism and 
Responses to Terrorism, at http://www.start.umd.edu/pubs/
START_ECDB_IslamistFarRightHomicidesUS_Infographic_Feb2017.pdf.
    \4\ Countering Violent Extremism: Actions Needed to Define Strategy 
and Assess Progress of Federal Efforts, Government Accountability 
Office, April 2017, at http://www.gao.gov/assets/690/683984.pdf.
---------------------------------------------------------------------------
    Since the turn of the century, we have documented an increase in 
the number of hate groups--the majority of which have white supremacist 
beliefs or leanings.\5\ In our view, the most important factor driving 
the increase has been a backlash to our country's changing 
demographics. For many on the radical right, President Obama--our 
Nation's first president of color--represented the kind of ``change'' 
they feared.\6\ The day after President Obama was first elected, for 
example, Stormfront--a popular neo-Nazi web forum whose members have 
been responsible for many deadly attacks \7\--reported that it was 
getting six times its normal traffic. ``There are a lot of angry white 
people out there looking for answers,'' added the Stormfront publisher, 
a former Klansman.\8\
---------------------------------------------------------------------------
    \5\ The SPLC identified 917 hate groups in 2016, up from the 457 
groups documented in 1999. Out of those in 2016, 471 groups subscribed 
to white supremacist ideologies. Mark Potok, ``The Year in Hate and 
Extremism,'' Intelligence Report, Spring 2017, at splcenter.org/
fighting-hate/intelligence-report/2017/year-hate-and-extremism; 
``Active Hate Groups,'' Intelligence Report, Spring 2017, at 
splcenter.org/fighting-hate/intelligence-report/2017/active-hate-
groups-2016.
    \6\ In addition to the growth in hate groups, President Obama's 
election coincided with the resurgence of a far-right anti-Government 
movement that produced numerous acts and plots of domestic terrorism 
targeting Federal officials and facilities in the 1990's. In 1996, we 
counted 858 conspiracy-minded anti-Government groups; in 2008, 149. But 
by 2012, we counted 1,360 such groups, an increase of more than 800 
percent.
    \7\ Heidi Beirich, White Homicide Worldwide, Southern Poverty Law 
Center, March 2014, at https://www.splcenter.org/20140401/white-
homicide-worldwide.
    \8\ Stormfront website, at https://www.stormfront.org/forum/
t521647/.
---------------------------------------------------------------------------
    During the last 2 years--a period that coincided with the 
Presidential campaign--we documented a surge in the number of hate 
groups.\9\ The growth in the number of hardline anti-Muslim groups last 
year was particularly dramatic, a near-tripling.\10\ At the same time, 
hate crimes targeting Muslims have doubled over the last 2 years, 
according to the FBI.\11\ As former President George W. Bush noted 
during a speech last month, ``bigotry seems emboldened.''\12\
---------------------------------------------------------------------------
    \9\ ``Hate Groups Increase for Second Consecutive Year as Trump 
Electrifies Radical Right,'' Southern Poverty Law Center, Feb. 15, 
2017, https://www.splcenter.org/news/2017/02/15/hate-groups-increase-
second-consecutive-year-trump-electrifies-radical-right.
    \10\ Mark Potok, ``The Year in Hate and Extremism,'' Intelligence 
Report, Southern Poverty Law Center, Feb. 15, 2017, at https://
www.splcenter.org/fighting-hate/intelligence-report/2017/year-hate-and-
extremism.
    \11\ ``2015 Hate Crime Statistics,'' FBI, at https://ucr.fbi.gov/
hate-crime/2015/topic-pages/incidentsandoffenses_final.pdf; ``2016 Hate 
Crime Statistics,'' FBI, at https://ucr.fbi.gov/hate-crime/2016/topic-
pages/incidentsandoffenses.
    \12\ Rebecca Savransky, ``George W. Bush: `Bigotry seems emboldened 
in U.S.','' The Hill, Oct. 19, 2017, at http://thehill.com/homenews/
news/356212-george-w-bush-bigotry-seems-emboldened-in-us.
---------------------------------------------------------------------------
    Although the growth in hate groups began before President Obama 
took office, his election did coincide with another phenomenon: The 
dramatic resurgence of a far-right, anti-Government movement that has 
been responsible for numerous terrorist attacks and plots. Many of the 
beliefs prevalent in this movement are rooted in the racist, anti-
Semitic ideology that animated the Posse Comitatus (Latin for ``power 
of the county'') in the 1970's. Oklahoma City bomber Timothy McVeigh, 
for example, held both white supremacist and radical, anti-Government 
beliefs. For a number of reasons, including law enforcement crackdowns, 
the movement declined significantly after the 1995 Oklahoma City 
bombing, only to re-emerge during the Obama administration. Although 
the number of groups has once again fallen, the movement remains a 
threat. On the same day that Heather Heyer was killed in 
Charlottesville, the FBI arrested a man in Oklahoma City who was 
attempting to detonate what he believed to be a 1,000-pound truck bomb 
outside a bank building.\13\ The suspect reportedly was attempting to 
replicate McVeigh's bombing of the Alfred P. Murrah Federal 
Building.\14\
---------------------------------------------------------------------------
    \13\ ``Man Arrested for Trying to Detonate What He Thought was a 
Vehicle Bomb at Downtown Oklahoma City Bank,'' Department of Justice 
press release, Aug. 14, 2017, at https://www.justice.gov/usao-wdok/pr/
man-arrested-trying-detonate-what-he-thought-was-vehicle-bomb-downtown-
oklahoma-city.
    \14\ Manny Fernandez, ``Bombing Plot in Oklahoma City is Thwarted 
with Arrest, F.B.I. Says,'' The New York Times, Aug. 14, 2017, at 
https://www.nytimes.com/2017/08/14/us/oklahoma-van-bomb-domestic-
terrorism.html?_r=0.
---------------------------------------------------------------------------
    President Trump's campaign energized the white supremacist 
movement--``unearthed some demons,'' to borrow Representative Mark 
Sanford's words.\15\ Although white supremacists typically eschew the 
political process, seeing both parties as irredeemably corrupt, they 
took the unusual step of rallying around Mr. Trump's candidacy and 
celebrating his victory. On his radio show in February 2016, for 
example, former Klan chief David Duke told his listeners that ``voting 
against Donald Trump . . . is really treason to your heritage.''\16\ On 
election night, he tweeted that ``our people played a HUGE role in 
electing Trump!''\17\ During a gathering of white nationalists just 
blocks from the White House shortly after the election, white 
nationalist leader Richard Spencer--who later played a prominent role 
in the Charlottesville demonstrations--prompted sieg heils from 
audience members after quoting Nazi propaganda in German. He responded 
by shouting, ``Hail Trump! Hail our people! Hail victory!''\18\
---------------------------------------------------------------------------
    \15\ Karen Tumulty and Robert Costa, ``The GOP Inherits What Trump 
has Wrought'', The Washington Post, May 26, 2017, https://
www.washingtonpost.com/politics/the-gop-inherits-what-trump-has-
wrought/2017/05/26/4e1943ea-4177-11e7-adba-394ee67a7582_story.- 
html?utm_term=.bc5a926d86fa.
    \16\ ``David Duke Says a Vote against Trump is Treason to White 
Heritage,'' Hatewatch, Feb. 26, 2016, https://www.splcenter.org/
hatewatch/2016/02/26/david-duke-says-vote-against-trump-treason-white-
heritage.
    \17\ David Duke (@DrDavidDuke), Twitter (Nov. 9, 2016, 2:14 AM), 
https://twitter.com/drdavidduke/status/796249464826687488?lang=en.
    \18\ Joseph Goldstein, ``Alt-Right Gathering Exults in Trump 
Election with Nazi-Era Salute,'' The New York Times, Nov. 20, 2016, 
https://www.nytimes.com/2016/11/21/us/alt-right-salutes-donald-
trump.html?_r=0.
---------------------------------------------------------------------------
    In the 10 days following the election, we documented nearly 900 
bias-related acts of harassment, intimidation, and violence.\19\ Many 
of the perpetrators invoked the President-elect's name or his slogans. 
Cf. supra note 15 (quoting Rep. Sanford) (``I've talked to a number of 
people about it back home. They say, `Well, look, if the President can 
say whatever, why can't I say whatever?' He's given them license.''). 
During the Charlottesville demonstrations, David Duke stated, ``We are 
determined to take our country back. We are going to fulfill the 
promises of Donald Trump.''\20\
---------------------------------------------------------------------------
    \19\ Ten Days After: Harassment and Intimidation in the Aftermath 
of the Election, Southern Poverty Law Center, Nov. 29, 2016, https://
www.splcenter.org/20161129/ten-days-after-harassment-and-intimidation-
aftermath-election.
    \20\ Libby Nelson, `` `Why we voted for Donald Trump': David Duke 
explains the white supremacist Charlottesville protests,'' Vox, Aug. 
12, 2017, https://www.vox.com/2017/8/12/16138358/charlottesville-
protests-david-duke-kkk.
---------------------------------------------------------------------------
    The violence in Charlottesville was not, by any means, the only 
example of deadly white supremacist violence this year.\21\ Over the 
Memorial Day weekend, for example, a white supremacist stabbed two men 
to death on a Portland, Oregon, train after the men attempted to help 
two women who were the targets of the perpetrator's anti-Muslim 
slurs.\22\ The previous weekend, a white University of Maryland 
student--a member of a racist Facebook group called Alt-Reich Nation--
was arrested for stabbing to death a black ROTC student attending Bowie 
State University.\23\ In March, a white man from Baltimore fatally 
stabbed a black man with a sword in New York City after traveling there 
specifically with the intention of killing a black man.\24\ In 
February, a white man in Kansas went to a bar and shot two men from 
India, one fatally, after reportedly telling them to ``get out of my 
country.''\25\
---------------------------------------------------------------------------
    \21\ For a synopsis of radical-right terrorist plots, conspiracies, 
and racist rampages, see Terror from the Right, Southern Poverty Law 
Center, at https://www.splcenter.org/20100126/terror-right.
    \22\ Jim Ryan, ``2 killed in stabbing on MAX train in Northeast 
Portland as man directs slurs at Muslim women, police say,'' The 
Oregonian, May 27, 2017, at http://www.oregonlive.com/portland/
index.ssf/2017/05/police_responding_to_ne_portla.html.
    \23\ Colin Campbell and Tim Prudente, ``Suspect in University of 
Maryland fatal stabbing held without bail, students say school must 
address racial tensions,'' The Baltimore Sun, May 22, 2017, at http://
www.baltimoresun.com/news/maryland/crime/bs-md-college-park-monday-
20170522-story.html.
    \24\ Ashley Southall, ``Suspect in Manhattan Killing Hated Black 
Men,'' The New York Times, March 22, 2017, at https://www.nytimes.com/
2017/03/22/nyregion/manhattan-nyc-james-harris-jackson-hate-crime.html.
    \25\ Tony Rizzo, Toriana Porter, Laura Bauer, Matt Campbell, Ian 
Cummings, and Judy L. Thomas, ``First-degree murder charge filed in 
possible hate crime shooting at Olathe's Austins bar,'' The Kansas City 
Star, Feb. 23, 2017, at http://www.kansascity.com/news/local/crime/
article134459444.html.
---------------------------------------------------------------------------
    Looking ahead, we agree with the recent DHS/FBI assessment that the 
country will continue to see lethal attacks from white 
supremacists.\26\ Indeed, we think it's likely that the level of 
violence may increase in the near term. There is currently an 
extraordinarily high level of energy in the white supremacist movement. 
If the political process does not yield the results that those in the 
movement expect--and we fervently hope that it does not--some may leave 
the movement. But others may resort to extra-legal means to pursue 
their objectives or to vent their frustrations.
---------------------------------------------------------------------------
    \26\ Joint Intelligence Bulletin: White Supremacist Extremism Poses 
Persistent Threat of Lethal Violence, Federal Bureau of Investigation 
and Department of Homeland Security, May 2017, at https://
www.documentcloud.org/documents/3924852-White-Supremacist-Extremism-
JIB.html.
---------------------------------------------------------------------------
    In the long run, the underlying dynamics that have led to the 
current state of the white supremacist movement are not likely to 
change. As our country continues to grow more racially and ethnically 
diverse, we are likely to see a backlash from those who wish to 
preserve white hegemony. And, although we commonly refer to the white 
supremacist movement as a domestic one, it is not confined to the 
United States. The reality today is that the white supremacist movement 
is roiling democracies across the Western world.\27\
---------------------------------------------------------------------------
    \27\ Morris Dees and J. Richard Cohen, ``White Supremacists Without 
Borders,'' The New York Times, June 22, 2015, at https://
www.nytimes.com/2015/06/22/opinion/white-supremacists-without-
borders.html.
---------------------------------------------------------------------------
 there has been a bipartisan failure to devote sufficient resources to 
                    the threat of domestic terrorism
    After the deadly Oklahoma City bombing on April 19, 1995, then-
Attorney General Reno formed a special task force, the Domestic 
Terrorism Executive Committee, to coordinate the country's response to 
the threat of domestic terrorism. The task force was scheduled to hold 
one of its monthly meetings on September 11, 2001, but did not do so 
for obvious reasons. But the task force did not miss just one meeting. 
As the country's focus shifted to the new threat, the task force did 
not meet again for 13 years. Only after a white supremacist killed 
three people in Overland Park, Kansas, in 2014 did the attorney general 
reconvene it.
    Like the Justice Department, DHS cut resources devoted to 
countering the threat of domestic terrorism after 9/11. In April 2009, 
the DHS released an Unclassified intelligence assessment to law 
enforcement officials entitled Right-wing Extremism: Current Economic 
and Political Climate Fueling Resurgence in Radicalization and 
Recruitment.\28\ Yet, despite the report's accuracy, then-DHS Secretary 
Janet Napolitano withdrew it following an outcry by those who claimed, 
falsely, that the report tarred conservatives as potential domestic 
terrorists. More significantly, the DHS unit responsible for the report 
was allowed to wither. In the wake of the controversy over the report, 
The Washington Post reported that DHS ``cut the number of personnel 
studying domestic terrorism unrelated to Islam, canceled numerous State 
and local law enforcement briefings, and held up dissemination of 
nearly a dozen reports on extremist groups.''\29\
---------------------------------------------------------------------------
    \28\ PDF on Southern Poverty Law Center website, at http://
www.splcenter.org/sites/default/files/downloads/resource/
DOJ_rwextremism2009.pdf.
    \29\ ``Homeland Security Department Curtails Home-Grown Terror 
Analysis,'' The Washington Post, June 7, 2011, at http://
www.washingtonpost.com/politics/homeland-security-department-curtails-
home-grown-terror-analysis/2011/06/02/AGQEaDLH_story.html.
---------------------------------------------------------------------------
    In 2010, the year after the DHS Right-wing Extremism report was 
withdrawn, I was asked to serve on Secretary Napolitano's Countering 
Violent Extremism Working Group.\30\ At my request, one of my 
colleagues, a Federally-certified law enforcement trainer, was invited 
to serve as a subject-matter expert for the Advisory Council. Neither 
of us had success in getting the group to focus on the threat of 
terrorism from the radical right.
---------------------------------------------------------------------------
    \30\ Countering Violent Extremism Working Group, Homeland Security 
Advisory Committee, Spring 2010, at https://www.dhs.gov/xlibrary/
assets/hsac_cve_working_group_recommen- dations.pdf.
---------------------------------------------------------------------------
    In February 2015, when President Obama addressed the White House 
Summit on Countering Violent Extremism, the first terrorist incident he 
mentioned was the Oklahoma City bombing. But the discussion at the 
summit itself focused almost exclusively on the threat associated with 
extremist forms of Islam. Similarly--just 2 weeks after the 2015 
Charleston massacre--this committee released a Terror Threat Snapshot 
that contained no mention of Charleston or the threat of terror from 
the radical right.\31\
---------------------------------------------------------------------------
    \31\ http://homeland.house.gov/sites/homeland.house.gov/files/
documents/July%20Terror%20- Threat%20Snapshot%20_0.pdf.
---------------------------------------------------------------------------
    The Trump administration also appears to have minimized the threat 
from the radical right at various times. A few days before the events 
in Charlottesville in August, for example, Sebastian Gorka, then a top 
terrorism adviser to President Trump, ridiculed the notion of lone-wolf 
terrorists and suggested that white supremacists are not ``the 
problem.''\32\ A month before Charlottesville, DHS canceled a number of 
grants, including one to an organization called Life After Hate, whose 
mission is to rehabilitate former neo-Nazis and other domestic 
extremists.\33\
---------------------------------------------------------------------------
    \32\ Judd Legum, ``White House adviser says people should stop 
criticizing white supremacists so much,'' ThinkProgress, Aug. 10, 2017, 
at https://thinkprogress.org/white-house-adviser-says-people-should-
stop-criticizing-white-supremacists-so-much-ddd587767d60/.
    \33\ Jennifer Hansler, ``DHS shifts focus of funding to counter 
violent extremism,'' CNN, July 4, 2017, at http://www.cnn.com/2017/07/
01/politics/cve-funding-changes/index.html; Jessica Schulberg, 
``Controversial Trump Aide Katharine Gorka Helped End Funding for Group 
That Fights White Supremacy,'' HuffPost, Aug. 15, 2017, at https://
www.huffingtonpost.com/entry/katharine-gorka-life-after-hate-us-
59921356e4b09096429943b6.
---------------------------------------------------------------------------
    Another program being slashed--even as the FBI and DHS are warning 
about further white supremacists violence--is the State and Local Anti-
Terrorism Training program. Bob Paudert, a former police chief in West 
Memphis, Arkansas, whose son and another officer were killed by far-
right extremists during a routine traffic stop in 2010, called it ``one 
of the best training programs in the country.''\34\
---------------------------------------------------------------------------
    \34\ Judy L. Thomas, ``As domestic terrorism like Charlottesville 
rises, Federal program to fight it shuts down,'' The Kansas City Star, 
Aug. 20, 2017, at http://www.kansascity.com/news/politics-government/
article168110172.html.
---------------------------------------------------------------------------
    We applaud Attorney General Sessions for speaking out forcefully 
and promising vigorous prosecutions after Charlottesville. Well before 
the passage of the post-Charlottesville joint resolution, he had formed 
a task force to examine ways to improve hate crime reporting.\35\ (The 
Bureau of Justice Statistics estimates that there are as many as 
250,000 hate crimes in our country each year.\36\ Yet, in its 2016 
report, the FBI counted just 6,121 hate crimes.\37\) We also appreciate 
Kirstjen Nielsen's unequivocal condemnation of white supremacy, anti-
Semitism, and Islamophobia at the recent hearing on her nomination to 
serve as the next DHS Secretary.
---------------------------------------------------------------------------
    \35\ U.S. Department of Justice announcement, at https://
www.justice.gov/crt/hate-crimes-subcommittee.
    \36\ Lynn Langton, ``Hate Crime Victimization, 2004-2015,'' Bureau 
of Justice Statistics, Office of Justice Programs, U.S. Department of 
Justice, June 29, 2017, at https://www.bjs.gov/
index.cfm?ty=pbdetail&iid=5967.
    \37\ ``2016 Hate Crime Statistics,'' FBI, at https://ucr.fbi.gov/
hate-crime/2016/topic-pages/incidentsandoffenses.
---------------------------------------------------------------------------
  the president and his administration must fulfill their commitments 
       under the charlottesville joint resolution; congress has 
                        responsibilities as well
    The Charlottesville joint resolution is important because it 
recognizes that the threat of white supremacist terrorism is grave and 
calls on the President to address it. Although the resolution was 
passed unanimously and signed by the President, it is nevertheless a 
``soft'' law, because it has no enforceable provisions. Thus, it is 
incumbent on Congress to ensure that the President and his 
administration live up to their commitments.
    In March 2018--6 months after passage of the Charlottesville 
resolution--this committee should exercise its oversight responsibility 
by holding a hearing to ensure that the President and administration 
are following through on their various commitments under the 
resolution. We would urge particular attention to their commitment to 
``use all resources available . . . to address the growing prevalence 
of . . . hate groups in the United States.''\38\ One aspect of the 
resolution, a directive to improve the collection and reporting of hate 
crime data, could be the subject of an earlier hearing, given that Mr. 
Sessions' hate crimes task force report is expected in January.\39\
---------------------------------------------------------------------------
    \38\ See supra note 1.
    \39\ ``Attorney General Jeff Sessions' Statement on the FBI's 2016 
Hate Crimes Statistics,'' Department of Justice press release, Nov. 13, 
2017, at https://www.justice.gov/opa/pr/attorney-general-jeff-sessions-
statement-fbis-2016-hate-crimes-statistics.
---------------------------------------------------------------------------
    In addition to exercising its oversight responsibility, there are 
many other ways in which Congress can and should address the threat of 
domestic terrorism from the radical right. Given that the white 
supremacist movement has represented a deadly threat for more than 150 
years and the likelihood that it will continue to do so into the 
foreseeable future, Congress should institutionalize the focus on the 
threat of this form of terrorism within Federal law enforcement 
agencies so it will always be given the attention it deserves. The 
Domestic Terrorism Prevention Act, which has been introduced by Senator 
Durbin, would provide a mechanism for accomplishing this by requiring 
DHS, the Justice Department, and the FBI to establish offices to 
analyze and monitor domestic extremist threats.
    Among the Act's provisions is a requirement that the Justice 
Department, the DHS and the FBI jointly provide an annual assessment of 
the threat so that Congress can provide the oversight needed. The Act 
also ensures the continued operation of the State and Local Anti-
Terrorism Training program, which provides critical training and 
resources to assist local, State, and Tribal law enforcement agencies 
in detecting and investigating domestic terrorism. These resources also 
help law enforcement identify, investigate, and respond to hate crimes. 
Mike Sena, president of the National Fusion Center Association, has 
called the Trump administration's elimination of this program ``an 
egregious error.''\40\
---------------------------------------------------------------------------
    \40\ Judy L. Thomas, ``As domestic terrorism like Charlottesville 
rises, Federal program to fight it shuts down,'' The Kansas City Star, 
Aug. 20, 2017, at http://www.kansascity.com/news/politics-government/
article168110172.html.
---------------------------------------------------------------------------
    In its Charlottesville joint resolution, Congress spoke out clearly 
and unequivocally in condemning ``white nationalism, white supremacy, 
and neo-Nazism as hateful expressions of intolerance that are 
contradictory to the values that define the people of the United 
States'' and called on the President to do so as well.\41\ It is 
vitally important that Members of Congress and other political leaders 
continue to speak out against racism and other forms of extremism that 
lead to terrorism and hate crimes. The President, in particular, must 
forcefully reject the white supremacist movement, as is his obligation 
under the joint resolution. There is no room for confusion or 
equivocation.
---------------------------------------------------------------------------
    \41\ See supra note 1.
---------------------------------------------------------------------------
    It is also critically important that our commitment to and 
enforcement of our Nation's civil rights laws mirror our commitment to 
fighting domestic terrorism. While we appreciate Mr. Sessions' focus on 
hate crimes, we would note the anomalies evident in the 
administration's actions. The administration commits to vigorous hate 
crime enforcement, even as it cuts funding for civil rights 
enforcement.\42\ Mr. Sessions promises a focus on hate crimes against 
the transgender community, even as the Justice Department withdraws 
protections for transgender children in public schools.\43\ Mr. 
Sessions emphasizes the prosecution of those who burn mosques,\44\ yet 
the administration vilifies Muslims through its attempts to bar them 
from entering the country.
---------------------------------------------------------------------------
    \42\ Juliet Eilperin, Emma Brown, and Darryl Fears, ``Trump 
administration plans to minimize civil rights efforts in agencies,'' 
The Washington Post, May 29, 2017, at https://www.washingtonpost.com/
politics/trump-administration-plans-to-minimize-civil-rights-efforts-
in-agencies/2017/05/29/922fc1b2-39a7-11e7-a058-
ddbb23c75d82_story.html?utm_term=.5bad- 24f61736.
    \43\ Ariane de Vogue, Mary Kay Mallonee, and Emanuella Grinberg, 
``Trump administration withdraws Federal protections for transgender 
students,'' CNN, Feb. 23, 2017, at http://www.cnn.com/2017/02/22/
politics/doj-withdraws-Federal-protections-on-transgender-bathrooms-in-
schools/index.html.
    \44\ Beth Reinhard, ``Jeff Sessions Pledges Support for Hate-Crime 
Laws,'' The Wall Street Journal, June 29, 2017, at https://www.wsj.com/
articles/jeff-sessions-pledges-support-of-hate-crime-laws-1498773053.
---------------------------------------------------------------------------
    On April 23, 1990, when President George H.W. Bush signed the 
Federal Hate Crimes Statistics Act, he linked the elimination of hate 
crimes to the ``guarantee of civil rights for all Americans,'' saying 
that the latter was ``one of the greatest obligations'' of his 
administration and the Justice Department. Combating domestic terrorism 
based on hate is just as important to the goal of protecting the civil 
rights of all Americans. Violence perpetrated against vulnerable 
populations based on factors such as race, ethnicity, religion, or 
sexual orientation rips apart the very fabric of our country, dividing 
us along our most fragile lines. As President Bush said that day, 
``hate breeds violence, threatening the security of our entire 
society.''
    Today, the white supremacist movement is as energized and 
emboldened as it has been in decades--and we are seeing increased 
violence against vulnerable populations as a result. We must speak out 
strongly, and we must act decisively.
    There should be no question about where any of our elected leaders 
stand.
    Thank you.

    Chairman McCaul. Thank you, Mr. Cohen. I think this is a 
very important hearing. I think we have seen it before with Tim 
McVeigh.
    Rabbi, thank you for pointing out my father's sort-of, as I 
view, his legacy of 32 bombing missions over the Nazis. For the 
life of me, I don't understand this mindset of hatred and 
revival of the Nazi spirit that I thought we crushed in World 
War II.
    I was recently in Auschwitz, 6 months ago, to see the pure 
evil that was perpetrated by the Nazis that my father and his 
generation fought to defeat. So when I see skinheads and neo-
Nazis and white supremacists assemble, not only am I sort of 
just confounded as to how this could happen, but I just find it 
completely immoral and unacceptable for this Nation.
    My grandfather was also persecuted by the Klan because he 
was Catholic. So hatred in all forms, whether it be radical 
Islamist ideology or this type of hatred, cannot stand in this 
country. We need to unite, I think, as a Nation. So I want to 
thank all three of you for your testimony.
    First, I want to ask Chief Rausch. I mean, you had what 
could have been a similar Charlottesville on your hands. You 
had 3,000 people show up to protest a Confederate monument in 
Fort Sanders, Tennessee. Clearly, it is foreseeable that both 
of these factions are going to come together. You are going to 
have a lot of heat and emotion and the potential for great 
violence. Yet over a period of a 2\1/2\-hour rally, we saw no 
violence.
    I think what you did is a model of leadership for how law 
enforcement, perhaps working with State law enforcement, can 
successfully prevent this kind of violence in the future. I 
just wanted you to comment on what you did that may have been 
different from Charlottesville that maybe law enforcement 
officers across the country can learn when this situation 
enters into their hometowns.
    Chief Rausch. Thank you, Mr. Chairman. First and foremost, 
I think we learned from watching what happened in other 
locations, and so we literally took the game tape from 
Charlottesville, from Boston, and from Durham, North Carolina, 
and sat down and went through it and talked about those things 
that were right and the things that were wrong. We then 
strategized on how we address that with what we had coming at 
us.
    So some of the things we saw that were right: Boston, their 
mayor and their chief did a great job of getting out in front 
and putting out the rules of what they would allow. They made a 
press release on Thursday before the Saturday rally and said 
these are the things that will be allowed at this rally.
    Now, in our assessment, they didn't go far enough. They had 
some violence still at that--not as much, but they had some 
violence at that rally. So we looked at all of that to 
determine how we would do ours.
    So first and foremost was getting the information out 
through the media, to the public, and to these groups that were 
converging of what would be allowed.
    Second was taking complete control of the area that they 
were going to be in. We took control of that early on. So one 
of the things that we had heard from Charlottesville was, you 
know, they had some challenge with the areas they were showing 
up, that they didn't have control of. So we went in and took 
complete control and we cordoned off the area. You know, the 
vehicle threat was real, and so we took care of that by 
utilizing our public service, putting dump trucks at every 
vehicle access point to keep those types of vehicle-borne 
attacks from being able to take place.
    A lot of coordination and control. The coordination with 
our State partners, with our local and Federal partners as 
well, on looking at intelligence information of these groups, 
what they were planning, what they were saying to each other 
early on was important.
    Some of the other things was putting the rules in place. 
You know, we said there would be--you know, none of the things 
that we saw that caused the problems. So no sticks, no rocks, 
no bricks, no bottles, no firearms. All of that--no masks, 
nothing to cover yourself to keep yourself, your identity from 
being known. All of that was important that we put that in 
place immediately so that people knew these are the rules.
    We learned that a lot of the supremacists, the white 
supremacists didn't show up because of the rules. They didn't 
want to follow those rules so they didn't come, which was OK 
for our community. So I think the success was a result of that, 
and then a well-executed plan by our team. They did a great job 
of making sure that we had everyone safe, and we kept control 
of the area. It was just a well-executed plan.
    Chairman McCaul. Well, let me commend you for that. I think 
it is a textbook model of how to do it right. I hope other 
police departments will learn from the good things that you 
did. I mean, I think it is a great model.
    Rabbi, I am a student of counterterrorism. I was a 
counterterrorism Federal prosecutor. I remember Ramzi Yousef. 
His first target was not the World Trade Center. It was 12 
Jewish synagogues symbolizing the 12 tribes of Israel. Pretty 
chilling. He did not--he decided to change that plan and go 
after the greatest symbol of financial might in New York, and 
that is the World Trade Center. When he almost successfully 
brought the Twin Towers down, of course, he came--his uncle 
Khalid Sheikh Mohammed came back and finished it.
    Rabbi Cooper. Finished the job.
    Chairman McCaul. Sadly. I know your community suffered 
greatly, and this whole country did, and that is why this 
committee was formed in the first place.
    But the Jewish community centers have been under threats 
constantly. I am proud to say that this committee, working with 
the Ranking Member, doubled the authorization amount from 
fiscal year 2017 for $50 million; a 100 percent increase over 
the fiscal year 2017, also to what are called non-UASI 
jurisdiction. So I hope that is a step in the right direction 
for you. We, I think, made great progress on that.
    But I would like for you to describe the threats that you 
are seeing currently to the centers and synagogues in this 
country right now.
    Rabbi Cooper. Well, first of all, I think this is an 
appropriate time for the community to say thank you. Obviously, 
it is passed by law. There are appropriations. There are 
hearings. But I think for the Jewish community, especially for 
younger families who never experienced it before, it is 
traumatic, it is long-lasting, like any hate crime. It has both 
the personal and the communal impact. It may be difficult for 
our non-Jewish neighbors to understand.
    As I mentioned in my testimony, that it has been three 
decades since Jewish kids would be dropped off at a school 
where there wasn't an armed guard. On a regular Saturday 
morning--I pray in a relatively modest-size synagogue on Pico 
Boulevard in Los Angeles. We were actually targeted by a 
radicalized Islamist terrorist from California prisons for an 
attack that, thank God, was interdicted before it took place.
    So, you know, the mindset for Jewish community leaders, 
JCCs, schools, temples, and synagogues is to do your best with 
perimeter defense and to always have in mind--I was listening 
carefully about, you know, the Friday night football game, and 
especially if it is going to be a playoff, and there is this 
tremendous energy. Our security has to be in place 52 weeks a 
year. That, in a society--here we are in the Capital of our 
Nation that is based--one of our basic freedoms is freedom of 
religion.
    As I mentioned in my testimony, this is not paranoia. It is 
just reality. I know there is a lot of give-and-take, important 
discussions here about what is a greater threat, from ISIS or 
is it from the Nazi-like types. Unfortunately, we have to 
grapple with both of them. We rely very heavily on local law 
enforcement, the anti-crime, the anti-hate, and terrorist 
units.
    I think maybe the most important point I would like to 
sort-of bring back to the one committee that actually still has 
it, we really need bipartisanship moving forward if we are 
fighting hate in America to have some sort of, you know, what 
is a greater threat and to whom? I think we need to quantify 
what the threats are, but we have to move forward together as 
Americans to confront the bigots, the racists, or the 
terrorists. Otherwise, they win and we lose.
    If you look at Charlottesville, the Nazis came that night 
or whatever--you know, the groups came. They had a game plan. 
They weren't worried about the law. They knew what they were 
going to do on the internet. They even had a way to place 
themselves, in their own minds, as victims that night. Did you 
know that they complained that they were actually pushed by law 
enforcement into the antifa and that is how the whole violence 
began?
    So when I look at that horrific piece of theater that was 
so incredibly effective for them, that was the group that did 
their own planning. They understand the rules of the game. They 
knew what they wanted to violate. We live in a day in which, 
because of the internet, everything local is global and 
everything global is local.
    As a result, whether it is something in the Middle East or 
the horrific events that took place on the bicycle path in New 
York, when those things take place, every single security 
officer of every Jewish institution across the United States 
has an immediate conversation with the Rabbi, with the 
executive director. These are concerns that are not far removed 
from us on a daily basis.
    Chairman McCaul. Thank you, Rabbi.
    The Chair recognizes the Ranking Member.
    Mr. Thompson. Thank you very much, Mr. Chairman. Welcome to 
our panel of witnesses for this hearing.
    Mr. Cohen, can you give the Southern Poverty Law Center's 
experience with domestic terrorist organizations here in the 
United States, whether you see a proliferation of that ideology 
or organization, and to what extent, what region of the country 
is it peculiar to, if so?
    Mr. Cohen. Thank you for the question. To answer the last 
part first, there is no region of our country that is not 
affected by hate groups. None. That is quite unfortunate. Over 
the last 15, 20 years, we have seen an increase in the number 
of hate groups driven, we think, primarily by the country's 
changing demographics. There is a backlash to it. You saw it 
during President Obama's administration where he represented 
the kind of change that some people were scared of. It preceded 
him, but was intensified during his period of time.
    After 9/11, unfortunately, I think we saw in the country a 
retreat from a focus on the threat of traditional forms of 
domestic terrorism, partly for an understandable reason: The 
horror and carnage of 9/11. But I think the pendulum had swung 
too far. You know, hopefully, after Charlottesville, which I 
think is a wake-up call, you know, the pendulum will begin to 
swing back where we can take that form of threat more 
seriously.
    Mr. Thompson. Thank you very much.
    The other two witnesses talked a little bit about social 
media and how that has become the weapon of choice, if you 
please, for a lot of these hate groups. Chief, can you give us 
your experience about this or your organizational experience?
    Chief Rausch. Absolutely. Social media has become the 
platform. It has intensified the voice of hate. It has become 
the location that has basically made hate a megaphone to the 
rest of the world. It is a place where, as the earlier panel 
had mentioned, it is where people are being radicalized. As the 
video that you showed earlier shows, that is the type of 
information that is being shared widely with individuals 
throughout the country.
    Before, you would have to be, as you mentioned, in an area 
that may have a large group of these types of individuals. Now, 
it is wide open. Our experience is that they are constantly 
bombarding individuals with those types of videos and trying to 
normalize that mindset and that behavior.
    Mr. Thompson. Rabbi, what has been your experience?
    Rabbi Cooper. Thank you, Congressman. I am here with my 
colleague, Rick Eaton, who I consider one of the world's great 
experts on this issue. We put on an annual report that gives a 
snapshot. It is called Digital Terrorism and Hate. That is the 
project. Included over the last few years have been report 
cards, so we named names. For a number of years, Twitter would 
get an across-the-board F for doing nothing. Facebook has 
generally done a lot more than others, but they are grappling 
with 1.5 billion separate pages.
    We have always felt, and continue to be convinced, that an 
important component of fighting this virus has to be Silicon 
Valley, the individual companies. They cannot and should not 
hide behind the First Amendment. They are in business. They are 
doing very nicely, thank you. I think increasingly, they 
recognize or have recognized some of their responsibilities, 
but they can do, in their way, a whole lot more than the 
combined membership of the U.S. House, Senate, and the 
Executive branch. They are very powerful. They have 
collectively created the most powerful marketing tool ever.
    While after 9/11 we were extremely worried that our far 
right here would be mimicking the Islamists, well, it turns out 
that al-Qaeda and ISIS actually landed up mimicking our 
extremists when it came to the lone wolf. That was a U.S. idea, 
then was brought over to Yemen, and we know the results. But 
the internet empowers and validates the individuals, the 
conspiracies, et cetera.
    It is not so much at this point passing new laws. We have 
to really insist that our partners here, the collective genius 
that is giving us all these bells and whistles and social media 
and beyond, they have to be directly involved in degrading the 
marketing capabilities of the bigots, both local, National, and 
globally.
    Mr. Thompson. Thank you.
    Mr. Cohen, what has been your experience with those 
individuals and organizations and their use of social media?
    Mr. Cohen. Well, not surprisingly, you know, the hate 
exists now on the net. In 2008, when President Obama was 
elected, there were about 140,000 registered users on 
Stormfront, one of the oldest neo-Nazi websites. Today, there 
are over 330,000 registered users. It gives you some sense of 
kind-of the growth of it.
    I would echo what Rabbi Cooper said about kind-of the 
digital platforms in the Silicon Valley. They are private 
businesses. They can do what they want. But all of them say in 
their terms of service that they are not going to allow hate. 
Sometimes they say that as merely a public relations ploy? 
Right. So we try to get them to live up to their terms of 
service, sometimes by embarrassing them publicly. PayPal, for 
example, was very slow to live up to its terms of service, but 
after Charlottesville, when they got some bad press, they did.
    So, you know, we think it is important to recognize that 
hate is growing on the net. The anonymity, the ease of finding 
hate on the net fuels it, the echo chamber, as Rabbi Cooper 
said. I think it is critically important for groups like us, 
not so much the Government, but groups like us, to hold those 
companies to their terms of service.
    Mr. Thompson. Thank you. I yield back.
    Chairman McCaul. The Chair recognizes Mr. Perry.
    Mr. Perry. Thanks, Mr. Chairman. Thanks, gentlemen, for 
your attendance.
    Mr. Cohen, I was looking at your organization's mission 
statement. It says the SPLC is dedicated to fighting hate and 
bigotry, among other things. I would say that probably every 
Member of this body agrees with you on those principles.
    Where we seem to disagree is that, I think for most of us, 
certainly for myself, I don't quantify or qualify like some 
hate and bigotry is OK if it is this organization, but it is 
not OK if it is that organization. But it seems to me, in 
looking at your information----
    Let me ask you this: Why does it seem there are no left-
wing hate groups on your list? For example, on campus groups 
like Students for Justice in Palestine that have advocated for 
violence against Jews, why aren't they on your list?
    Mr. Cohen. Well, I don't know about that particular group. 
I couldn't answer that question. There are left-wing groups on 
our list.
    Mr. Perry. Who are they?
    Mr. Cohen. Well, first, it depends, of course, on what you 
mean by left-wing. But, you know, for example, the Nation of 
Islam, the New Black Panther Party are on our list. We also 
have certain anti-Semitic groups that identify with groups like 
ISIS.
    So I think that it is not the case that our group doesn't 
include--our listing doesn't include any left-wing groups. We 
try to call hate as we see it. We limit our list, not by left 
versus right, but by groups that vilify others for issues or 
for factors such as race, ethnicity, sexual orientation, 
religion, or the like.
    Mr. Perry. So your group--your list also includes as hate 
groups mainstream, nonviolent public policy groups like the 
Family Research Council, and the public interest law firms like 
Alliance Defending Freedom, but it doesn't list antifa or other 
anarchist groups that actually call for--literally call for 
violence against individuals. Does that seem to comport?
    To me, that reduces your credibility. Does it not to you?
    Mr. Cohen. No. Let me speak to both of those issues, if I 
could, sir. You know, we list the Family Research Council, not 
because it opposes gay marriage, but because it relentlessly 
vilifies the LGBT community and demonizes them with known lies 
and propaganda. That is why we list them.
    Mr. Perry. But you don't list antifa.
    Mr. Cohen. I was going to finish.
    Mr. Perry. OK.
    Mr. Cohen. That is OK. Our listing of hate groups doesn't 
necessarily mean that they engage in violence, although we 
think that the anti-LGBT propaganda is one of the factors that 
makes the LGBT community in our country the most likely to be 
victimized by hate crimes.
    If you are familiar with our work, we write about antifa 
often. We condemn their tactics. I have said so publicly, and 
we do so always. But antifa is not a group that vilifies people 
on the basis of race, ethnicity, religion, or the like.
    Mr. Perry. So you are OK with antifa, as long as they don't 
say things that you don't agree with, but it is OK if they hit 
people on the head with a bike lock or set things on fire or 
riot and flout the law by wearing face masks, and incite 
riotous--you are OK with that?
    Mr. Cohen. Of course not. I said we condemn groups like 
antifa. We write about them often.
    Mr. Perry. But you don't list them.
    Mr. Cohen. Could I finish?
    Mr. Perry. Yes, sir.
    Mr. Cohen. We don't list them as hate groups.
    Mr. Perry. Are they on the hate map?
    Mr. Cohen. No.
    Mr. Perry. OK.
    Mr. Cohen. Because they are not----
    Mr. Perry. Let's move on here. Let's move on here.
    Mr. Cohen. OK.
    Mr. Perry. Google revealed in a blog post that it is using 
machine language or learning regarding hate groups and events 
and is partnering with the SPLC and others in that regard. How 
does the SPLC work with Google or its subsidiaries to modify 
search results of SPLC-designated people or groups?
    Mr. Cohen. What we try to get Google to do is not 
prioritize hate groups. I will give you an example. A few years 
back, Google's algorithm was manipulated to have to rename the 
White House with a racist name. It used to be the case that 
when you would search for Holocaust or Jews, you would get a 
rash of information of anti-Semitic information. We try to 
bring these kinds of issues to their attention.
    When Dylann Roof, for example, googled black-on-white 
crime, he didn't get FBI statistics telling him the truth of 
the matter. Instead, he got hate websites, such as that of the 
Council of Conservative Citizens. So we are trying to say to 
Google, your algorithm is flawed or easily manipulated to give 
people incorrect----
    Mr. Perry. But isn't that based on your opinion, sir?
    Mr. Cohen. Well, I don't think there is any question but 
what Mr. Roof ran across when he googled black-on-white crime.
    Mr. Perry. What about when Mr. Corkins googled your website 
and then went and shot up the Family Research Council, 
including shooting an individual there, and then said that he 
was inspired by your website?
    Mr. Cohen. Look, we are no more responsible for what Mr. 
Corkins did based on reading our website than Martin Scorsese 
is for what John Hinckley did.
    Mr. Perry. You are no more responsible, but yet Dylann Roof 
read whatever he read, and that is held as responsible for what 
he did.
    I am not saying any of them are correct, but it seems like 
a breathtaking double standard of which you are used as a 
credible source for law enforcement and you are testifying in 
front of Congress, when it appears, obviously, that it is only 
your opinion that you base your hate groups and citations on.
    Mr. Cohen. Well, it is our opinion. It is an opinion that I 
think has a tremendous amount of credibility.
    Mr. Perry. But no empirical evidence for data to back it 
up.
    Mr. Cohen. I think that is incorrect. I think if you look 
at our hate group listing and look at the people who we list as 
hatemongers, that you would agree with 99 percent of them.
    Mr. Perry. Sir, my time has expired. I yield.
    Chairman McCaul. The gentleman yields back.
    Mr. Correa from California.
    Mr. Correa. Thank you, Mr. Chairman and Ranking Member. I 
want to thank the gentlemen for being here today on this 
important issue of addressing terrorism, domestic terrorism, 
white supremacist terrorism.
    Earlier, the earlier panel spoke and made some points about 
preparedness, what they were doing, what they were not doing. I 
would like to ask you essentially the same kind of questions, 
which is, from your perspective, is there something that the 
Federal Government, the FBI, that Homeland Security can be 
doing that we are not doing to address the issue of following 
these hate groups and making sure that they are not successful 
like they were in Oklahoma City?
    Yes, I open it up for quick answers to that question from 
the three of you.
    Mr. Cohen. I think there are a number of things that the 
Federal Government can and should do. One, I think 
institutionalizing a focus on the oldest form of terrorism that 
our country has seen. We don't want it to fall off, you know, 
the radar of the Federal agencies.
    Mr. Correa. Do you see it falling off the radar now?
    Mr. Cohen. Well, I don't think there is any question but 
that it has, after 9/11, to one degree or another under both 
administrations. I think there has been a bipartisan failure to 
devote the attention that it deserves.
    You know, I mentioned Senator Durbin's bill. There are 
other vehicles that could do that. One of the good features 
about Senator Durbin's bill is not only that it was required 
institutionalizing the focus on it, it also requires annual 
reports on the threat of white supremacist violence.
    I know Mr. Rogers, who is not here today, there was a bill 
that went through this committee and was passed in the House 
talking about having annual reports on hate, on issues of 
terrorism. It should include a focus on domestic terrorism as 
well.
    Mr. Correa. I am glad to hear you say that, because Acting 
Secretary Duke just mentioned the blurring of that line. I 
think it is absolutely correct. You can't focus on one versus 
the other. You know, every American life is sacred. Like all 
life, we have got to make sure we go after every threat that 
there is to our citizenry.
    Rabbi.
    Rabbi Cooper. Congressman, I would like to come back to a 
point. I don't know about anyone else. I was very humbled and 
impressed by the first panel and how they have stepped up, over 
the course of the last 15 years, at a whole different level to 
protect our citizens.
    But they were very careful to emphasize, at every 
opportunity, that they are not in the, ``ideology business.'' 
When you start getting that level where you have that kind of 
power to find out what citizens are doing, it is a good idea to 
have that kind of red line and firewall between that kind of 
activity.
    I think what this committee could look at, and certainly 
the Wiesenthal Center, and I am sure everyone here, NAACP, all 
of the NGO's, everyone involved with civil society, we stand 
ready to try to fill in some of that on a volunteer basis if 
there would be an appropriate, whether it is through the fusion 
centers, the appropriate platform to actually inform the 
various Federal, State, and local agencies about who is who in 
hate. Who are the players overseas who are impacting on 
individuals here, then go about threatening people in the local 
community? There is a lot of information that is available----
    Mr. Correa. See, that is a very interesting concept, 
because that is essentially what we need to do with the 
Googles, the Facebooks of the world, which is on a volunteer 
basis. We can't legislate to keep up with technology, but if we 
can figure out how to get these folks to step up and volunteer 
and say, this does not smell correctly, something is afoot 
here, maybe you can take part of that responsibility as well 
and help us help the Federal Government keep our citizens safe.
    Rabbi Cooper. Well, I can already report to you that some 
of the most powerful companies in the Silicon Valley are always 
happy to see me leaving their offices. So we are there. I do 
think that there is an important role, a bridge role for this 
committee to help, you know, create the appropriate input 
platform and, you know, probably through the fusion center 
concept, to make sure that if we actually come up with 
important ideas, or if the NAACP has statistics that are not 
necessarily available to a local anti-hate crimes agency, I 
think it would help, you know, lift the efforts, make them more 
focused, and hopefully help protect Americans from the hate 
that we are now dealing with.
    Mr. Correa. Mr. Rausch.
    Chief Rausch. I would just add in terms of the cooperation 
between the Federal, local, and State agencies, the JTTFs are 
vital. They are working together to address those things that 
you have concerns with. They are looking at the domestic 
terrorist.
    My office, I have two officers assigned to the JTTF that 
specifically, that is what they do, is they look at our 
domestic terrorists working with our Federal partners. So they 
work very closely with them.
    I also serve on the IACP's task force that is looking at 
enhancing law enforcement's response to hate crimes. One of the 
things that I suggested there is we look at tools that we need. 
I have talked with several prosecutors and asked them about 
what tools they could use to better our opportunity to go after 
these who are committing these hate crimes. What they said was 
they have a hard time proving ideology. Right? What is in the 
mind. Hard time proving that part of the statute. So they will 
charge them with the crime that they have committed, right, 
which would be maybe an assault or a vandalism or something of 
that nature. Then, you know, they said that they are easier 
able to get that conviction.
    So the hate part is a little challenging. So what I have 
suggested is for your body to look at, similar to what we do 
with gangs, and that is make it an enhancement. Right? We 
charge the crime, but make hate an enhancing crime. So after 
you have charged them with the A crime, then you come back and, 
after you get that conviction, you come back and you enhance it 
with the hate crime. I think that would be much more effective, 
and you would see an increase in holding people accountable for 
their ideologies.
    Mr. Correa. Mr. Chair, I yield.
    Chairman McCaul. The Chair recognizes Mr. Donovan.
    Mr. Donovan. Thank you, Mr. Chairman.
    Chief, I was the elected district attorney of Staten Island 
and indicted the very first hate crime on Staten Island in its 
history, and it resulted in my first death threat as well. So 
that was my reward for it. But I am still here, so----
    Chief, as you heard, I was asking the FBI director about 
the whole idea of people disguising themselves with masks and 
crossing State lines to cause mayhem, whatever, in places, and 
how would codifying some of those prohibitions be helpful.
    You were very successful, Chief, in the experience that you 
just described to us in your opening remarks. Is there a 
Federal codification of some of these things that you think--I 
think the Chairman asked, Chief, could other law enforcement 
agencies learn from your good experience. Do you think there 
are codifications that may be helpful to you and others who are 
trying to protect our Nation?
    Chief Rausch. Yes, absolutely. I think looking at a couple 
of areas, and I know they are controversial, but I think it is 
important when you talk about these protests and where they 
have gotten today. You know, obviously, we shouldn't restrict a 
person's ability to express their opinion. I think, you know, 
we have got to be careful with that fine line as we talk about 
what is--what we do to limit a person's ability to express 
themselves.
    But I think we also have to look out for the greater good 
and the safety of our communities. Covering your face for these 
events, clearly, as we have seen, is for one purpose and one 
purpose only, and that is to remain anonymous and have the 
ability to do whatever you want to do and to try to get away 
with it.
    I was having a conversation as you all were on your voting, 
and that is, you know, if you think about it back to when you 
were a child and Halloween, masking up makes you anonymous. 
That is why children don't worry about throwing eggs at the 
neighbor's house or throwing toilet paper in the neighbor's 
tree, is because they are anonymous. So masking up clearly 
causes problems. I think, obviously, if there is something 
codification-wise that the Congress could do, I think that 
would be great.
    The other area would be--I know this is controversial, and 
I will say it--but it is firearms. I think during these 
protests, the open carry of firearms, all it is, is adding 
gasoline to the fire. You are talking about emotional 
situations. People are emotional about their thoughts, and you 
are going to add in a firearm into that emotional powder keg.
    So I think as you talk about how we regulate and how we 
ensure people have their First Amendment right to express 
themselves, we need to look about how we can do that where they 
can do it safely with proper regulation.
    Mr. Cohen. Mr. Donovan, if I could.
    Mr. Donovan. Yes, certainly, please, sir.
    Mr. Cohen. You know, there were--we put out a video after 
Charlottesville and made it available to police officers, we 
will send out 50,000 free copies in January of it, about 
mistakes that were made in Charlottesville. I think there were 
mistakes that were made.
    But as Chief Rausch says, they had a tremendous handicap, 
and that was the Virginia open carry law that prohibited towns, 
counties, and cities from having anything that would be 
contrary to the open carry law.
    The University of Virginia could do it because it is an arm 
of the state. But the city of Charlottesville had its hands 
tied when people walked into that city with hate in their 
hearts and open guns. It is a real problem, and it is a problem 
in more than 30 States.
    I would add, not to contradict anything that the chief 
said, but the history of mask laws in our country is 
complicated. You know, there is this notion that I should 
perhaps be able to protest anonymously in order to protect 
myself from retaliation for expressing an unpopular view. I 
can't tell you I know what the state of the law is today. It 
may vary under the circumstances, but it is not an 
uncomplicated point.
    Mr. Donovan. Thank you.
    Are there any other, Rabbi, situations that were described 
earlier, the tragedies that we have experienced in our country, 
maybe the more recent ones, do you see any other things, 
mistakes that may have happened if we had something in place, 
may have prevented some of the harm that was created?
    Rabbi Cooper. I think the key, we heard from the first 
panel, is intelligence, information, and access of that 
information to the people, especially to local hate crimes 
units. They have an incredible learning curve they have to 
master as they are thrown in from other arenas in order to be 
able to deal with the hate and hate groups in their 
communities. So they could certainly use some more help, but I 
just wanted to actually say something positive, if I may.
    Mr. Donovan. Sure.
    Rabbi Cooper. That is that the concept of hate crime is 
always under assault. The concept is under assault. Saying, 
well, someone is raped; they are raped. If they break a window, 
so you pay. But I think whether you are talking to African 
Americans or Jews or other minorities, when someone in your 
community is attacked, and it may only, you know, bring about 
the breaking of a $100 window, when that takes place during a 
Friday night service or in a church or in a school, an entire 
community is impacted.
    Hate crimes has not been universally embraced as a society 
idea or as a legal concept in other democracies, and is always 
being sniped at here in the States by a variety of individuals. 
So I think keeping focus on it, keeping the level playing 
field, so whether it is from the left or the right, you have to 
make sure it is not being used, you know, to bludgeon one 
political point or another. I think it is an extremely 
important and powerful tool that gives a sense of, not so much 
redress, but when a community is hurting, they get the message 
that the rest of the community is generally with them. That is 
part of an important healing process and one of the ways of 
keeping social peace.
    Mr. Donovan. You are right about the attitude toward hate 
crimes. As I said, I was in office for 3 weeks when we 
indicted--and we indicted a Caucasian man for viciously 
assaulting another Caucasian young man who happened to be in 
the company of a black woman. Thank you.
    Mr. Perry [presiding]. The Chair thanks the gentleman from 
New York.
    The Chair recognizes the gentleman from Rhode Island, Mr. 
Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank all 
of our witnesses for being here today.
    In follow-up on the firearm discussion just a moment ago 
with respect to how weapons have complicated some of these 
situations, each of you did highlight in your testimony the 
threat of domestic extremists and terrorism. In recent domestic 
terrorist attacks, such as the incidents in Las Vegas, Orlando, 
and Sutherland Springs, firearms have been the weapon of 
choice. So what steps should Congress take to ensure that 
firearms don't end up in the hands of terrorists? Let's start 
with Mr. Cohen.
    Mr. Cohen. I would defer to the chief on this one, if I 
could.
    Chief Rausch. That is a great question. I am not sure there 
is an easy answer to that. I think that--you know, clearly, I 
think the challenge we have in background checks, as we have 
seen, the system is flawed at best. So I think that is probably 
our first step, is tightening up the background check process 
to ensure that it is what it is supposed to be. When you can 
identify somebody that is a member of an organization, if you 
can identify that, that is another part of that challenge.
    It is a difficult situation. I think we have to be careful. 
I know that, you know, there is some legislation moving now 
about reciprocity of moving guns across borders in terms of 
hand gun reciprocity, hand gun carry. That is a challenge. You 
know, not every State has the same level of restriction in 
terms of who can carry a firearm. So that is concerning to 
those of us in law enforcement.
    So I would tell you that I would--I am not the perfect 
expert on that, I don't think. I tell you, it is a challenging 
topic, and I would tell you we have got to do better than what 
we are doing now.
    Mr. Langevin. I agree with you, and you are on the front 
lines. I agree with your answers, and I appreciate your 
perspective in the job you are doing to try to keep us all 
safe.
    Let me turn to Mr. Cohen. In the recent election, Russia 
utilized social media to influence and interfere with our 
democratic process, demonstrating how a properly orchestrated 
on-line campaign can leverage a small investment into an 
outsized effect. How have we seen domestic terrorist groups 
utilize the same tools and methods to spread their message?
    Mr. Cohen. Look, all of these groups that we talk about are 
very, very active on social media because it is easy. Before 
Charlottesville, the message went out to white supremacists 
throughout the country to come and gather there. I think it was 
obvious, prior to the event, that there were going to be 
hundreds of white supremacists at that event.
    So, you know, as the Rabbi said, any--a local thing can 
quickly become National in scope or global in scope with a 
click of a button. I don't think there is any easy answer to 
deal with that.
    Mr. Langevin. Thank you.
    Rabbi Cooper. I would like to just add to that. We have 
been talking to the companies about these issues for well over 
a decade. Let's be honest, the ads, the digital ads, basically 
an ATM machine, just for money making. When we brought--the 
first case we brought to them was when a couple of ads for a 
Hezbollah-sponsored game that kids could get ahold of, I think, 
showed up on a Washington Post just as a bot. You know, just 
showed up on various locations, undertakings from a known 
terrorist group. So the particular company in mind did figure 
out a way to remove it.
    I hate to keep coming back to it, but if we are talking 
about ads and the impact of ads, the bad players are looking at 
each other out there and saying, well, look, this looks like an 
easy mark. If we invest a certain amount of money, we are going 
to be able to get our message into the mainstream directly to 
the kind of audience we are looking for. Obviously, Hezbollah 
is not a state player, and you get Russia much more 
sophisticated with its own view. I think a great deal of this 
responsibility comes right back at other companies. To a 
certain extent, it also comes right back to the consumer.
    I will just give you one other example to think about 
because these are not easy issues. One of the companies around 
a short-term project in which they sent emails to teenagers 
saying that, we have reason to believe you may be a target of 
on-line bullying. We hope if that is true, you are talking to 
an adult, your parent, whatever. But if you need help, email us 
and we will send you a list of resources that you can turn to.
    Now, at first blush, that is a great idea. But you think 
about it, you ask yourself one question, how does this company 
know that this teenager has been bullied? Sort-of like the 
unaddressed issue here is that the collect--these companies, 
not because they forced anyone, because we gave the information 
voluntarily, know a lot more about predictive behavior than 
maybe some of our own Federal agencies. They don't like to talk 
about it. It is not a Big Brother mentality, they are out to 
make money, but the potential is always there. When you have a 
bad player like Russia understanding that potential and 
manipulating it, the next time it could be another victim, it 
may be from another state player or a non-state player.
    Mr. Langevin. Great insights. I appreciate you all for 
being here today. Thank you for your testimony.
    My time has expired, so I yield back the balance of my 
time.
    Mr. Perry. The Chair thanks the gentleman, Mr. Langevin.
    The Chair now recognizes the gentleman from Louisiana, Mr. 
Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Rabbi Cooper, I am going to speak on the connection between 
domestic extremism and international terrorism, specifically 
the BDS movement, the Boycott, Divestment, and Sanction 
movements that attempt to shut down peaceful support of Israel 
are connected--my studies show are connected with international 
terrorism movements.
    What connections have you seen, sir, can you refer to 
between BDS groups and a global terrorist and anti-Israel 
movement?
    Rabbi Cooper. Well, you know, there is no question that 
since BDS movements, Boycott, Divestment--in its current form. 
Back in the late 20th Century, this kind of approach was used 
to great effect to pressure the apartheid regime in South 
Africa. I happened to be present as a delegate in 2001, just 
before 9/11, at the U.N. conference against racism where the 
mantle was transferred; not the halo, but the opposite. The new 
devil was the state of Israel. That approach of demonizing a 
democracy, our ally, has been part and parcel of antipeace 
forces of Hezbollah, of Hamas, of Iran, and others.
    Mr. Higgins. Did you see that connection between domestic 
BDS movements and international terrorism?
    Rabbi Cooper. Right. The connection may not always be 
operational, but these are not movements that came, you know, 
out of the thin air.
    I will give one other example, if I may. There is a piece 
of potential legislation before the House right now called the 
Palestinian Children's Protection Act. That basically, if it 
went into law, would say that the United States would reduce 
aid to Israel if it caused any violence to any Palestinian 
under the age of 18, even if they were involved in a terrorist 
act.
    Now, that did not come out of thin air either. There is 
now, and you might say in honor of Israel's upcoming 70th 
birthday or the 70th anniversary of Nakba, you have new themes 
that are being brought forward in the international community 
and right here in the halls of Congress. Again, they don't come 
from thin air. It is part of an overall global campaign to 
demonize the Jewish state. That is a part of the reality that 
we are struggling against. Our own State Department has 
recognized that some of these efforts do cross the line from 
legitimate criticism of a state or of a group of people into 
hate and anti-Semitism.
    Mr. Higgins. Thank you for your very thorough answer.
    In the interest of time, Mr. Cohen, I would like to--I have 
further concerns, but the constraints of time will not allow me 
to address them, so I am going to jump into money, sir.
    The Southern Poverty Law Center is--the IRS recognizes SPLC 
as a nonprofit, tax-exempt organization. Is that correct?
    Mr. Cohen. It is.
    Mr. Higgins. Since SPLC is not subject to taxation, why 
would there be a need for the SPLC to have offshore accounts 
reported up to $69 million in areas like the Cayman Islands? As 
a tax-exempt nonprofit organization, the SPLC has no need for 
lawful tax avoidance, so what would be the legitimate reason 
that the SPLC would have millions and millions of dollars 
deposited in offshore accounts?
    Mr. Cohen. I appreciate the question. I think there has 
been some confusion in the press about this. It is common for 
nonprofit organizations, including universities, big 
foundations, to have money in offshore accounts. It avoids two 
things. First, it avoids a lot of certain kinds of filings, and 
it avoids unrelated business income tax. If I could finish very 
quickly.
    Mr. Higgins. I appreciate your answer.
    Will you state before this Congressional committee 
definitively that all SPLC funds are received, held, and used 
for lawful purposes under U.S. law?
    Mr. Cohen. I will.
    Mr. Higgins. Thank you. Does the SPLC receive foreign 
money?
    Mr. Cohen. Not that I know of. We may have had some donors 
in foreign countries. I am sure we have some donors in England, 
for example, but we don't receive any money from governments, 
including the U.S. Government.
    Mr. Higgins. Final question. Has the SPLC received money 
from any individual, entity, or organization that the State 
Department or Treasury Department has identified as connected 
to organized crime or terrorism?
    Mr. Cohen. Not that I know of, of course.
    Mr. Higgins. Not that you know of. Would you be prepared to 
present a full report regarding that?
    Mr. Cohen. No. I don't think we are going to present a 
listing of all of our donors to this committee or any other.
    Mr. Higgins. I am specifically asking about donors that may 
have been identified by the U.S. Government as terrorist 
organizations or international crime----
    Mr. Cohen. I am not sure--Mr. Higgins, if you have some 
information that makes you think that, I would be happy to 
check into it.
    Mr. Higgins. That is what I am asking, sir.
    Mr. Cohen. Well, if you have some information that tells 
you that that is a possibility, I would want to look into it, 
because we would not want to do that.
    Mr. Higgins. Are you suggesting that I provide your 
organization with your data on----
    Mr. Cohen. No. No. What I was suggesting was that if you 
think that we get money from, you know, criminal sources, I 
have no knowledge of that. I would appreciate your letting me 
know who you think it is who is giving us money who we 
shouldn't.
    Mr. Higgins. Mr. Chairman, in the interest of time, I would 
like to submit in writing further questioning for the panel. I 
yield back.
    Mr. Perry. Without objection.
    The Chair thanks the gentleman from Louisiana.
    The Chair now recognizes the gentlelady from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chair.
    First, allow me to introduce into the record a letter from 
53 members of the civil rights--the civil rights community--
coalition of 53 civil rights and civil liberties groups. I ask 
unanimous consent to submit this statement in the record.
    Hello?
    OK. I need to get extra time because----
    Mr. Perry. I am sorry. Without objection.*
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    Ms. Jackson Lee. OK. So I need some extra time on that. 
Thank you so very much.
    Let me also express my disappointment that the NAACP was 
not able to testify and that their invitation was issued less 
than 24 hours prior to the hearing, and the late notice has 
kept them from participating.
    I want to acknowledge the new president of the NAACP, who 
is a stellar leader on civil rights issues, Mr. Derrick 
Johnson. His voice needs to be heard in this committee, and I 
certainly hope that we will have the opportunity to hear from 
him as soon as possible.
    Let me go quickly to our very esteemed guests. Rabbi, first 
of all, allow me to acknowledge Simon Wiesenthal and this 
center and to put on the record that he lost 89 members of his 
family. We have known of the center both in Texas but in the 
Nation. I cannot thank you for the non-violent approach that 
you have taken, and the peaceful approach you have taken but 
the firm approach that you have taken against anti-Semitism, 
which certainly is both related and it's a deafening sound in 
this Nation.
    So my question to you is, basically, in an area where I 
have worked, and that is the attack on religious institutions 
or religious-affiliated community centers. We have had 
circumstances like that in Texas. My question to you is how can 
Congress be stronger on protecting those religious affiliated 
institutions who welcome all of us? There is not one of us that 
has not been in a synagogue and have been welcomed, and I might 
say and you know, in a mosque and have been welcomed, because I 
know how your center works. How can we protect these 
facilities?
    Rabbi Cooper. You know, I think we are at an interesting 
crossroad in America, because you can also add churches.
    Ms. Jackson Lee. Absolutely. I have worked on those issues.
    Rabbi Cooper. Houses of worship are, in America, by 
definition, community centers, and that is one of the key 
points that bigots, racists, and anti-Semites, and terrorists 
understand. That makes--that automatically puts them on the 
front line.
    I have read with great sympathy the, you know, church 
leaders who are trying to decide whether or not they have to 
put perimeter security in their houses of worship. For us, it 
hasn't been an option. I would imagine that for African 
Americans, because of the reality of racist hate crimes in this 
country, it is not really an option.
    At the end of the day, as we hear it now more as ISIS is 
being defeated on the battlefield, that the ultimate victory 
will only be when we defeat the ideas that fuel and feed the 
terrorists. The truth is that it is not so much on Congress, it 
is on Americans to try to come together and figure out ways how 
to drain the swamp of hatred, how to learn, you know, to act 
together in concert, even though we may have different ways of 
praying or different political views.
    Ms. Jackson Lee. Thank you.
    Rabbi Cooper. That is not something you can legislate; that 
is on us.
    Ms. Jackson Lee. I take you up on that. That is certainly 
the reflection of the greatness of the center.
    Let me pose my two questions. I ask the Chairman to indulge 
me for the time that I might have lost. So I will pose the two 
questions, first to the chief. Thank you so very much.
    Chief, you may have known that we were in Judiciary with a 
reciprocal concealed weapons bill. Thank you to the Major 
Chiefs for their letter.
    So I think the way I will pose the question on the issue of 
guns is that the proliferation of such guns do make it a little 
more dangerous. I take, for example, the individual that 
attacked the church in Charleston, South Carolina. That is the 
question I am going to ask you. I also made mention in 
Judiciary of my concern for law enforcement officers.
    The question I have for--Mr. Cohen, first of all, thank you 
for your work. You were trying to explain that antifa, in your 
view, does not spew anti-anybody. They come dressed as they do, 
but they are dealing with the justice issues and trying to 
protect. So my question to you is, what tone is set when the 
leader of the free world offers or spews out words such as son 
of a Bs or uses a video of alt-right and neo-Nazi so much that 
the world condemns that utilization? What tone is set? How do 
we thwart that as people, because I believe America is a great 
Nation?
    Chief, would you comment on the question I asked you? Then 
if I could allow Mr. Cohen to answer his question.
    Thank you so very much.
    Chief Rausch. Yes, ma'am. Thank you. So in terms of guns, I 
think, first and foremost, all law enforcement will tell you 
responsible gun ownership is what we expect.
    Ms. Jackson Lee. Absolutely.
    Chief Rausch. Unfortunately, what we have seen in many 
communities throughout the country, and we have seen it in our 
State, and that is the relaxation of gun laws and allowing guns 
everywhere at any time. You know, the Heller decision by the 
Supreme Court said that there can be reasonable regulation.
    Ms. Jackson Lee. Yes.
    Chief Rausch. That is what we should have. We have seen an 
increase, since the Castle doctrine was moved from the home to 
the car in Tennessee, we have seen an increase in gun violence. 
We have seen more guns stolen out of vehicles. Because, again, 
responsible gun ownership also means keeping it safe from other 
people. So we have seen an increase in guns being stolen. We 
have seen an increase in shootings in our community ever since 
that law was changed.
    So I think we have got to be--we have got to be more 
methodical in how we regulate our firearms, and that is a 
challenge that I would put before you and Congress. I thank 
you.
    Ms. Jackson Lee. Thank you, Chief.
    Mr. Cohen.
    Mr. Cohen. Briefly, I would agree with Rabbi Cooper that it 
is the responsibility of each and every person in our country 
to drain the swamp of hate. But I would add that it would help 
a lot if the person who has the biggest bully pulpit in our 
country were to take the lead in consistently condemning hate 
rather than energizing it.
    Ms. Jackson Lee. I join you in that. I would like to make a 
commitment that personally and I know many of my colleagues 
will join you in standing up against hate. We thank you for the 
testimony.
    Mr. Chairman, I thank you for yielding to me. I yield back.
    Mr. Perry. The Chair thanks the gentlelady.
    The Chair now recognizes the gentleman from Virginia, Mr. 
Garrett.
    Mr. Garrett. Thank you, Mr. Chairman.
    I want to hit on a few things, and I hate to be constrained 
so by time, but each other Member has as well. First, I would 
commend the chief on his suggestion as it relates to criminal 
enhancements for certain things. I think we have a criminal 
justice situation in this country that begs reform. We are 
happy to be moving in a bipartisan manner toward that. We don't 
necessarily need new crimes; we need to enforce the ones that 
are on the books, but an enhancement makes real sense. It is 
not giving you that burden at trial.
    Second, the masked discussions, the guns discussions, et 
cetera, I am loathed in this body to suggest a Federal 
legislative answer to what should be doctrinally and 
Federalism-wise a State-level or a local-level problem. Now, I 
am sympathetic to the arguments made by the folks on the panel 
that, indeed, localities and States should be empowered to make 
these decisions for themselves, but I would hate, and I can 
assure you I would not vote in favor of a Federal mask law. It 
is draconian in its nature and perhaps in its application and I 
don't even want to contemplate it.
    Having said that, I have no problem with the locality 
enforcing time, place, manner of restrictions on otherwise 
protected rights.
    Tertiarily, Rabbi Cooper, I would correct you in respect 
where you say Hezbollah is not a state actor, but for the IRGC 
in Iran there is no Hezbollah. Hezbollah came to be 3 years 
after the Iranian revolution, and while they are not a direct 
state actor----
    Rabbi Cooper. They are an actor of a state.
    Mr. Garrett. Yes, sir. Again, that is with all due respect 
and no disrespect intended.
    To Mr. Cohen, you gave a number of users of the website 
Stormfront, which is a Nazi affiliate, a national socialist-
affiliated website, prior to and after the Obama 
administration. Do you remember those numbers off the top of 
your head?
    Mr. Cohen. I do.
    Mr. Garrett. What were they?
    Mr. Cohen. In 2008, it was 140,000 registered users.
    Mr. Garrett. Yes, sir.
    Mr. Cohen. Today, over 330,000. That doesn't mean--there 
are many millions of visitors----
    Mr. Garrett. I have got so little time. I am not trying to 
be rude. Right, you have got million of visitors, but you have 
almost doubled your registration. We wouldn't prescribe that, 
though, that is not a result of the Obama administration?
    Mr. Cohen. Oh, no, no, no, no, no. As I said, it is the 
continuing backlash to our country's changing demographics.
    Mr. Garrett. Well, I think that is your opinion.
    Mr. Cohen. That is correct.
    Mr. Garrett. Again, with due respect. So are you familiar 
what type of organization is the most prominent and preeminent 
numerically on your hate watch list of 900 and some-odd groups?
    Mr. Cohen. I think it would probably be the Daily Storm or 
the Nation of Islam.
    Mr. Garrett. No. I mean, by number, how many----
    Mr. Cohen. That is what I was trying to answer.
    Mr. Garrett. I am sorry. Go ahead, real quick.
    Mr. Cohen. I was saying it would probably--the current 
count would probably be the Daily Storm or the Nation of Islam.
    Mr. Garrett. So by definition on your list, about 22 
percent of the entire list are Black separatist groups?
    Mr. Cohen. That is correct.
    Mr. Garrett. Again, I don't--look, hate is hate is hate is 
hate is hate.
    Mr. Cohen. I agree.
    Mr. Garrett. When we move to put in a law to make Barbara 
Johns Day a holiday in Virginia, one of my colleagues said that 
is Black history. I said, you can't have it, that is American 
history. We need to know that.
    Simon Wiesenthal, I think, was wise in his words to suggest 
that, for our benefit, we should learn from the Jewish tragedy 
because the next victims very well may not well be Jewish. So 
that is the point that I make that there was been an uptick. In 
fact, in 2000, the number of Black separatist groups was about 
\1/12\ of your list. Is that about right?
    Mr. Cohen. I don't remember the ratio.
    Mr. Garrett. Well, off your website, it would indicate that 
48 out of 610 extremist groups listed by Hate Watch in 2000 
were Black separatists, and now it is almost 200 out of about 
900.
    Mr. Cohen. Right. We report those numbers----
    Mr. Garrett. Again, this isn't President Obama's fault.
    Mr. Cohen. Well, I mean----
    Mr. Garrett. It is not, is it? I mean, I don't think it is.
    Mr. Cohen. I wasn't claiming it was his fault. I was trying 
to explain.
    Mr. Garrett. Well, I guess what I am suggesting is that 
there is no doubt, right, that there are real, live, living, 
breathing Nazis. Tragically, we saw them in my Congressional 
district. But to ascribe the presence of despicable, 
reprehensible individuals who can't grasp the basic concept of 
Dr. King's premise that we should judge individuals based on 
the content of their character, not the color of their skin, 
but to say, well, this is because of the rhetoric of one 
individual, I think, oversimplifies the problem. Correct?
    Mr. Cohen. Well, I am not sure I--I am not sure I was 
guilty of what you are suggesting.
    Mr. Garrett. I am not suggesting you were. If someone were 
to say that the prevalence of these groups is because the 
rhetoric of one individual, that would be oversimplifying the 
problem. Would it not?
    Mr. Cohen. Depending on the individual. I think----
    Mr. Garrett. So here is my concern, because what your 
organization has done and done well is attack evil in the form 
of things like the Klan. However, would you be shocked if I 
told you that from the public records, as it relates to the 
leadership of your organization, the political giving is almost 
exclusively and to the tune of almost 100 percent in one 
direction? Would that surprise you?
    Mr. Cohen. I don't think it is accurate.
    Mr. Garrett. If I were to tell you that it were, would that 
surprise you?
    Mr. Cohen. It would. We have many Republican donors of----
    Mr. Garrett. No, no, no, no, sir. I am talking about the 
gifts from the people in your organization to political causes.
    Mr. Cohen. Oh, I think that is absolutely true. I am sure 
that is right.
    Mr. Garrett. OK.
    Mr. Cohen. There are not that many people in Southern 
Poverty Law Center who make political contributions.
    Mr. Garrett. But some do.
    Mr. Cohen. Sure.
    Mr. Garrett. It wouldn't surprise you to learn that they 
were almost exclusively in one direction?
    Mr. Cohen. It would not.
    Mr. Garrett. OK. You have worked with other groups, for 
example, Media Matters, the Center for New Community, and 
ReThink Media, to come up with lists. Correct?
    Mr. Cohen. We have.
    Mr. Garrett. OK. Would it surprise you if I were to tell 
you that, based on public records, the political giving of the 
leadership of those organizations was also almost exclusively 
in one direction?
    Mr. Cohen. No, it would not.
    Mr. Garrett. OK. Would you contest the assertion, and I 
would categorize national----
    Mr. Cohen. You haven't given up your days as a trial 
lawyer, have you, Mr. Garrett? Go ahead.
    Mr. Garrett. No, sir. But again, it is an interesting 
paradigm I find myself in because I respect what you do.
    Mr. Cohen. Thank you.
    Mr. Garrett. I am concerned with how you are doing it. Here 
is where I am going with this.
    Mr. Cohen. Please.
    Mr. Garrett. I think it is a fair historical fact to say 
that the deadliest collective force in human history, probably 
just after national socialism, would be communism, which 
inarguably is a dogma of the left. I am not ascribing values to 
anyone. I am suggesting, however, that it troubles those to see 
an entity that has essentially been de facto made responsible 
for determining what is and isn't hate that skews almost 
exclusively, as do their collaborators, in a particular 
direction.
    So I guess I admonish you to listen to folks like Mr. Perry 
who says--I don't even remember the name of the organization--
are you familiar with them and become familiar with them. Now--
--
    Mr. Cohen. I am not sure who you are talking about, Mr. 
Perry. I am sorry.
    Oh, I am sorry, Congressman.
    Mr. Garrett. It is OK. So let me finish.
    Mr. Cohen. Please.
    Mr. Garrett. Because I have just kind of poked at you----
    Mr. Cohen. Just a little bit.
    Mr. Garrett [continuing]. But it is not with malice.
    You deserve credit at SPLC for being the first group to 
point out, for example, that Jason Kessler, who was the 
organizer of the Unite the Right rally, with which I would take 
exception to the name, because, again, I am an individualist in 
the Randian sense. I think the individual is the ultimate 
minority, and everyone has the right to be left alone, so long 
as they are not hurting someone else. But you were the first 
people to point out that his previous affiliations have been 
with the Occupy movement, and you deserve credit for that. 
Right? So I hope and ask that you recognize that hatred in any 
form is hatred, that violence in any form is violence, and that 
victims in any form are victims.
    Mr. Cohen. We always have.
    Mr. Garrett. I encourage you to continue to, but the 
perception by outside individuals, and I think based on life 
experience, is that if all the leadership of an organization 
skews in a particular political direction, there might be a 
bias, which then gives rise to a lack of credibility for what 
you do that should be important work. Do you understand why 
that might be a concern?
    Mr. Cohen. I understand why it is a concern to you.
    Mr. Garrett. Well, do you understand why that might be a 
concern to people?
    Mr. Cohen. Well, look, look, you know, the liberal 
tradition is an inclusive one. Hate is the opposite of that 
liberal tradition of inclusivity. So it is not surprising to me 
that people at the Southern Poverty Law Center, people at other 
inclusive organizations, tend to give money to liberal 
organizations. It seems obvious to me.
    Mr. Garrett. Well, again, we could sit and discuss the 
origins of classical liberalism versus modern liberalism all 
day long, but my life philosophy is treat everyone as you would 
want to be treated.
    Mr. Cohen. Of course.
    Mr. Garrett. And do no harm.
    Mr. Cohen. Absolutely.
    Mr. Garrett. And that the Jeffersonian concept of liberty 
should be adhered to, which is so long as you are not hurting 
someone else, who cares who you sleep with, who cares how you 
worship, et cetera, et cetera. But it strikes me, as I look at 
the groups that are chosen, Liberty Counsel, Family Research 
Council----
    Mr. Cohen. Yes, yes.
    Mr. Garrett. When Flanagan walks in with Chick-fil-a 
sandwiches to rub in the faces of his victims, that is not your 
fault?
    Mr. Cohen. That is absolutely true.
    Mr. Garrett. But I mean, you know, I would hope that the 
important work you do not be co-opted by an any ideological 
drive that causes you to miss other threats.
    Mr. Cohen. Well, I appreciate your concern about our work. 
I am sure that if you knew as much as we did about the Family 
Research Council, you too would keep them at arm's length.
    Mr. Garrett. Well, I am way over time. I would love to have 
the opportunity to sit and talk more. I thank all three of the 
panelists.
    Mr. Cohen. I look forward to seeing you in Charlottesville.
    Mr. Garrett. Yes. And invite you guys to come by the office 
any time. Give me a little bit of an advanced notice so I can 
make sure I can be there.
    But thank you, Mr. Chairman, for your indulgence.
    Mr. Perry. The Chair thanks the gentleman. I thank the 
witnesses for their testimony and the Members for their 
questions.
    The Members of the committee may have some additional 
questions for the witnesses, and we will ask you to respond to 
these or those questions in writing.
    The Chair recognizes the Ranking Member.
    Mr. Thompson. Thank you very much.
    I would like to include in the record, and ask unanimous 
consent to do so, a statement from the Council on American-
Islamic Relations.
    Mr. Perry. Without objection.
    [The information follows:]
         Statement Submitted For the Record by Ranking Member 
                           Bennie G. Thompson
     Statement of the Council on American-Islamic Relations (CAIR)
                           November 30, 2017
    Chairman McCaul and Ranking Member Thompson, thank you for the 
opportunity to submit this testimony to the record of today's hearing 
on keeping our Nation safe. While there are many substantive issues to 
discuss, we will focus this brief testimony on Countering Violent 
Extremism Programs.
    We do this in response to growing Congressional calls to expand CVE 
to include white supremacist groups. Such a move would only serve to 
legitimate a program that actively surveils, profiles, censors, and 
divides the American Muslim community.
    In September, more than a dozen national Arab, Middle Eastern, 
Muslim, and South Asian civil liberties and human rights organizations, 
and more than 20 activists, academics, and community leaders joined in 
signing a statement opposing the expansion of the Federal Government's 
Countering Violent Extremism (CVE) program.\1\ In the same period, the 
Brennan Center for Justice, along with more than 50 other human rights, 
civil liberties, and community-based organizations sent a letter urging 
leadership in the House of Representatives and the Senate to reject 
proposals to expand existing CVE programs to focus on white supremacist 
extremism.\2\
---------------------------------------------------------------------------
    \1\ Council on American-Islamic Relations. ``Groups, activists say 
expanding CVE to include white supremacists hurts Muslims, `` 9/07/
2017, available at: https://www.cair.com/press-center/press-releases/
14587-groups-activists-say-expanding-cve-to-include-white-supremacists-
hurts-muslim-communities.html.
    \2\ Ibid. Original letter available at: https://
www.brennancenter.org/analysis/citing-civil-liberties-concerns-brennan-
center-and-over-50-groups-oppose-expanding-countering.
---------------------------------------------------------------------------
    Years of research has failed to determine any set of 
characteristics that identifies pre-terrorists.--While academic 
interviews with people who have committed terrorist acts have resulted 
in a set of characteristics that describe each individual person, they 
have not produced a profile or any evidence-based set of predictive 
characteristics.\3\
---------------------------------------------------------------------------
    \3\ Additional examples: ``The profiles of individuals involved in 
ISIS-related activities in the U.S. differ widely in race, age, social 
class, education, and family background. Their motivations are equally 
diverse and defy easy analysis.'' Lorenzo Vidino and Seamus Hughes. 
ISIS in America: from retweets to Raqqa, George Washington University 
Program on Extremism, December 2015, available at https://cchs.gwu.edu/
sites/cchs.gwu.edu/files/downloads/ISIS%20in%20America%20-
%20Full%20Report.pdf. Also, ``Tools that purport to have a psychology 
evidence base are being developed and placed under statutory duty while 
their `science' has not been subjected to proper scientific scrutiny or 
public critique.'' Karen Armstrong et al. Anti-Radicalization Strategy 
Lacks Evidence Based in Science, The Guardian, September 28, 2016, 
available at: https://www.theguardian.com/politics/2016/sep/29/anti-
radicalisation-strategy-lacks-evidence-base-in-science. Also, the 
recommendation that the UK government ``End the use of empirically 
unsupported indicators of vulnerability to being drawn into 
terrorism.'' Amrit Singh. Eroding Trust: The UK's Prevent Counter-
Extremism Strategy in Health and Education, Open Society Justice 
Initiative, 2016, available at https://www.opensocietyfoundations.org/
sites/default/files/eroding-trust-20161017_0.pdf.
---------------------------------------------------------------------------
    In its 2016 Strategic Implementation Plan for Empowering Local 
Partners to Prevent Violent Extremism in the United States, the 
Department of Homeland Security conceded, ``There is no single cause of 
or pathway to violent extremism.''
    The FBI's Strategic Plan to Curb Violent Extremism, obtained via a 
Freedom of Information Act request by the Brennan Center for Justice, 
concurs: ``There is neither one path or personality type, which is 
prone to adopting extremist views of exhibiting violent tendencies, nor 
is there a singular path or personality that leaves an individual 
vulnerable to others who may seek to impress these views or tendencies 
upon them. There are no individually unique behavioral changes for 
those who mobilize to violent extremism.''
    CVE program results are ``not easy to quantify'' and ``lack 
meaningful metrics.''--A May 2014 National Counterterrorism Center 
(NCTC) document notes that the impact of CVE programs is ``not easy to 
quantify.'' After making this qualification, the document's authors 
offer a scoring system for measuring an individual's susceptibility to 
violent extremism. These include measures such as ``Parent-Child 
Bonding, Empathic Connection,'' ``Presence of Emotional or Verbal 
Conflict in Family'' and ``Talk of Harming Self or Others.'' These 
measures likely encompass most American families at some point, 
rendering them near useless for the stated goal.
    Other measures in the NCTC document, such as ``Family Involvement 
in Community Cultural and Religious Activities,'' are problematic as 
the person filling out the form may subjectively perceive mosque 
attendance itself as a risk factor.
    In 2016, the National Security Critical Issues Task Force at 
Georgetown University's Center for Security Studies concluded, ``the 
lack of meaningful metrics to evaluate CVE initiatives complicates 
evidence-based program design and funding.''\4\
---------------------------------------------------------------------------
    \4\ Challgren et al. ``Countering Violent Extremism: applying the 
public health model,'' October 2016, available at: http://
georgetownsecuritystudiesreview.org/wp-content/uploads/2016/10/NSCITF-
Report-on-Countering-Violent-Extremism.pdf.
---------------------------------------------------------------------------
    Labeling routine community programming as CVE is problematic and 
stigmatizing.--A Government program to combat terrorism disbursed 
$300,000 in CVE funds to Minnesota community groups in March 2016. The 
funded projects included ``youth sports activities,'' ``soccer and 
Somali arts classes for male students,'' and efforts to ``engage 
youth'' and ``address the stigma of mental illness.''\5\
---------------------------------------------------------------------------
    \5\ Amy Forliti. ``6 Somali organizations receive grants to combat 
terrorism,'' Associated Press, March 10, 2016, https://www.mprnews.org/
story/2016/03/10/six-somali-groups-grants-combat-terrorism.
---------------------------------------------------------------------------
    These are important, yet wholly standard community development 
programs for the empowerment of marginalized and disadvantaged people. 
Such fundamental services should not be securitized and classified as 
CVE. Doing so unfairly implies that the participants are an inherent 
threat to National security.
    Most simply stated, ``Why does `soccer and Somali arts classes for 
male students' constitute a counter-terror program, but the same thing 
for white youth is simply soccer and art classes?
    While appealing in concept, once its problematic details emerge 
community leaders frequently pull away from CVE.--In all three Obama 
administration CVE pilot cities, local community leaders who support 
efforts to secure our Nation and engaged in the U.S. attorney-led 
meetings aimed at shaping local CVE frameworks distanced themselves 
from the project as they formed a deeper understanding of its 
problematic realities.
    In Los Angeles, both the Islamic Shura Council of Southern 
California, an umbrella organization of Mosques and Muslim 
organizations serving the Muslims of Southern California, and the 
Muslim Students Association of the West Coast (MSA West), with 27 
Muslim Student Associations of West Coast universities as signatories, 
voted to oppose the narrow scope of the Federal Government's CVE 
program.
    In Minnesota, almost 50 Muslim organizations signed on to a 
statement urging law enforcement to ``consider our grave concerns about 
the Government's proposed [CVE] pilot program in Minnesota and 
discontinue this stigmatizing, divisive, and ineffective initiative.''
    A ``top leader of Boston's Muslim community'' opted against the 
local framework because it targeted only the American Muslim community 
and was ``founded on the premise that your faith determines your 
propensity toward violence.''
    The United States Council of Muslim Organizations (USCMO), a 
coalition of leading National and local Muslim organizations, gathered 
some 50 U.S. Muslim leaders at a full day forum on CVE that included 
presentations by both Government and civil liberties representatives. 
Following a discussion of the information presented, the council issued 
a statement that in part said, ``Given the low-level of confidence in 
Government-led CVE, the USCMO believes it is best to identify and 
support community-driven best practices.''
    Opposition to the U.S. Government's CVE initiative does not mean 
ignoring threats.--Opposition to violent extremism is consistent among 
American Muslim leadership. Former FBI Director Comey, former U.S. 
Attorney General Holder, former FBI director Mueller and former 
National Counterterrorism Center Director Leiter have all acknowledged 
this opposition.\6\
---------------------------------------------------------------------------
    \6\ FBI Director Comey: ``They do not want people committing 
violence, either in their community or in the name of their faith, and 
so some of our most productive relationships are with people who see 
things and tell us things who happen to be Muslim.'' Source: Huffington 
Post, 6/16/2016. Former FBI Director Mueller: ``Many of our cases are a 
result of the cooperation from the Muslim community in the United 
States.'' Source: FBI Director Robert Mueller's 2008 testimony before 
the House Judiciary Committee. Former Attorney General Holder: ``Muslim 
cooperation `has been absolutely essential in identifying, and 
preventing, terrorist threats.' '' Source: Attorney General Eric 
Holder's December 10, 2010, speech to the Muslim Advocates' Annual 
Dinner. Former National Counterterrorism Center Director Leiter: ``Many 
of our tips to uncover active terrorist plots in the United States have 
come from the Muslim community.'' Source: February 9, 2011 hearing 
before the House Homeland Security Committee.
---------------------------------------------------------------------------
    CAIR specifically is a natural enemy of violent extremists. Our 
record of success discredits violent extremist arguments that 
minorities cannot receive fair treatment in our Nation. Our statements 
and actions opposing those groups and individuals who claim Islam 
sanctions terrorism contributed to ISIS including CAIR's National 
Executive Director among a short-list of Western Muslim leaders it 
wants assassinated.
                     considerations for legislators
    Follow investigative leads, do not police ideology.--Government and 
other programs to counter violent extremism which incorporate steps for 
``intervention'' can too easily slip into policing ideology. The 
Establishment Clause prohibits any Governmental vilification or 
endorsement of a particular religious ideology. The Government should 
avoid involvement in questions as to which religious ideologies are 
acceptable as this defies the First Amendment.
    Empower law enforcement to investigate cases where there is 
evidence of criminal wrongdoing.--Rather than sifting through an entire 
minority population looking for pre-terrorists, law enforcement should 
focus on investigating cases where there is evidence of wrongdoing. 
Checklists of risk factors have no foundation in scientific research. 
Expecting teachers, mental health professional and other social service 
providers in identifying pre-terrorists is problematic. Trained FBI 
agents missed the Boston Marathon bombers and the Orlando Pulse 
shooter, even though they had investigated both. All this overbroad 
action will do is produce a mass of false positives. Additionally, 
placing social service provider into positions of being de facto law 
enforcement undermines the common trust put in those positions.
    Preserve free speech.--Free Speech, even when despicable, should be 
permitted. In the absence of an implied or inferred threat, speech in 
and of itself should not trigger a report to law enforcement. Community 
leaders should prepare for difficult conversations in advance. 
Isolating an at-risk individual, for instance by banning him or her 
from a facility without any attempt at engaging him or her, may simply 
drive the individual underground. Subjecting an individual's views to 
debate can help them to become aware of alternative viewpoints, facts 
that conflict with their ideas, or simply help avoid a situation where 
going on the internet to share their views with like-minded individuals 
is the only option. In certain communities fear of surveillance has 
caused leaders to ban problematic individuals or topics rather than 
engage them.
    Expand government services, but delink this expansion from law 
enforcement.--Governments at all levels can and should expand outreach 
to all communities, but particularly those who are needy or 
marginalized, and to provide a host of services include mental health 
treatment, job training and placement, youth sports leagues and other. 
However, this should be routine programming and not classified as 
somehow a National security program. For additional safeguards, law 
enforcement should not be part of these services. Law enforcement 
efforts to partner with community groups are too often accompanied by 
parallel intelligence collection or agent provocateur actions. As CVE 
expert Humera Khan wrote in Foreign Affairs in February 2015, ``Many 
police departments consider community policing as an avenue for finding 
informants to help detect rather than prevent criminal activity.'' 
Revelations show that a Minnesota police department applied to the 
Department of Justice for a grant to fund outreach programs that would 
have an intelligence-gathering \7\ component. The police chief in 
Montgomery County, Maryland is reported to view a controversial CVE 
program in that locality as a ``conduit of information.''\8\
---------------------------------------------------------------------------
    \7\ Cora Currier. ``Spies Among Us,'' The Intercept, 1/21/2015, 
Available at: https://theintercept.com/2015/01/21/spies-among-us-
community-outreach-programs-muslims-blur-lines-outreach-intelligence/.
    \8\ Hena Zuberi. ``Area Masajid Unknowingly Expose Youth to Federal 
Intelligence Gathering Program,'' The Muslim Link, 8/25/2017, Available 
at: http://www.muslimlinkpaper.com/community-news/4371-muslim-link-
exclusive-area-masajid-unknowingly-expose-youth-to-Federal-
intelligence-gathering-program.
---------------------------------------------------------------------------
    Protect Good Samaritans.--The U.S. Congress should pass laws, or 
the Department of Justice (DOJ) should issue guidelines, similar to 
Good Samaritan laws to protect those who act in good faith to prevent 
violent extremism by engaging with those considering it in order to 
dissuade them. DOJ policies should make clear that those who intervene 
to help others should not suffer for it by being subjected to 
prosecution, watch-listing, or surveillance because of their 
association with a potential violent extremist.
    Ensure clear safeguards and protections to prevent abuse.--
Programming helping self-identified extremists, such as that which 
helps white supremacists exist the movement may be helpful. Certainly, 
in the next few years a number of convicted terrorists will be leaving 
the prison system and may need counseling. In any CVE program, there 
must be clear standards and safeguards to prevent abuses. These 
standards should be reviewed by attorneys with expertise in privacy and 
civil rights and made available to the public for review.

    Mr. Perry. Pursuant to committee rule VII(D), the hearing 
record will be held open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 3:40 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

      Questions From Chairman Michael T. McCaul for Elaine C. Duke
    Question 1a. The Halloween attack in New York City was perpetrated 
by Sayfullo Saipov, an Uzbek national who came to the United States 
through the diversity lottery. As of the day of the attack, Saipov had 
lived in the United States for 10 years as a legal permanent resident.
    If Saipov had come to the United States today, what checks would he 
have encountered and how is this different from the checks he 
encountered 10 years ago?
    Question 1b. Would the fact that he came from a country with a 
history of terrorism have played a role?
    Question 1c. How does DHS review legal permanent residents to 
ensure that they do not become radicalized or determine whether they 
have?
    Answer. A decade ago, background checks often consisted of 
adjudicating officers performing manual checks of databases using 
primarily the applicant's full name. Other identifying information such 
as date of birth, country of birth, and alien number (A number) were 
used to link the applicant to the information found in particular 
databases. While adjudicating officers checked databases containing law 
enforcement information and databases containing intelligence community 
(IC) information, coordination with law enforcement agents or members 
of the IC only occurred when a concern was identified.
    Today, checks are highly coordinated with the IC and law 
enforcement agencies (LEAs). Improvements in Federal screening and 
vetting protocols over the last decade have been implemented largely as 
a result of advances in screening technologies and increased 
interagency cooperation. The U.S. Government has the ability to use 
multiple data points to perform recurrent vetting of immigration, IC, 
and LEA databases rather than performing manual name checks at a single 
point in time. At the same time, inspecting and adjudicating officers 
use their expertise to review individual cases and identify concerns. 
When a concern is identified at any step in the process, agencies 
across the government, including immigration, IC and law enforcement 
agencies, coordinate for the appropriate action including denial of 
benefit or entry, prosecution, and/or deportation.
    All applicants for diversity immigrant visas are subject to 
recurrent vetting (i.e., daily, automated comparison of visa data 
against updated IC, LEA, and immigration data) rather than checks 
performed at a single moment in time. This recurrent vetting involves a 
sophisticated comparison of multiple data identifiers drawn from the 
visa application against IC and LEA databases in order to identify 
terrorism concerns. If a concern is identified through this screening, 
the adjudication of the diversity immigrant visa is stopped and the 
case is submitted for an interagency review by the Department of State, 
the Department of Homeland Security, the IC, and LEAs.
    In addition to this recurrent vetting, the adjudicating officer 
performs manual checks of the applicant's immigration and travel 
history, including past visa applications. Adjudicating officers 
receive significant training in country conditions, including knowledge 
of historic, internal conflicts, and any identified concerns relating 
to both terrorism and trans-national organized crime. Any identified 
concern automatically stops the adjudication and issuance of the 
benefit. The case is then sent to the interagency for review and 
adjudication.
    Coordination of biometric comparisons has also significantly 
increased over the last decade. Applicants for diversity immigrant 
visas between the ages of 14 and 79 must submit fingerprints and these 
prints are compared against immigration, Department of Defense, law 
enforcement, and IC databases.
    Applicants from high-risk countries also receive more in-depth 
vetting. Since 
9/11, the U.S. Government has conducted additional specialized 
screening of foreign nationals from countries determined to be high-
risk, including those that have been determined to be terrorist safe 
havens. This allows DHS and interagency partners to focus resources 
where they are needed most and to better detect individuals that may 
pose a threat to public safety and National security.
    DHS works with law enforcement and immigration agencies in its 
effort to combat radicalization to violence of U.S. citizens, U.S. 
Lawful Permanent Residents, and other non-citizens. This includes the 
sharing of information relating to individuals who seek to radicalize 
others, and criminal or terrorist activities undertaken or attempted as 
a result of, or in furtherance of, radicalization to violence. 
Moreover, DHS is enhancing its terrorism prevention efforts focused on 
better countering terrorist recruitment in the United States through 
improvements to threat awareness, counter-recruitment activities, early 
warning, and intervention. If any FBI investigation involves non-
citizens, including legal permanent residents, the FBI will coordinate 
with DHS Immigration and Customs Enforcement and U.S. Citizenship and 
Immigration Services, as appropriate, especially in cases in which this 
activity involves criminal or other activities that will render the 
subject ineligible for immigration benefits and potential deportation.
    Question 2a. In Europe, we see terrorist attacks taking place at an 
alarming rate. In 2017, we have witnessed 9 vehicular attacks by ISIS.
    What are we doing to make sure radicalized Europeans do not come to 
the United States via the Visa Waiver Program?
    Answer. The Department maintains close cooperation with European 
allies to combat terrorism, including the threat posed by known and 
suspected terrorists (KST). DHS cooperates with our international 
counterparts in a range of ways to ensure Europeans radicalized to 
violence are unable to travel to the United States via the Visa Waiver 
Program (VWP).
    Most European allies--including 23 of 28 European Union (EU) member 
states and 7 non-EU countries--participate in the VWP. Since 1986, the 
VWP has evolved from a travel facilitation program into a comprehensive 
security partnership between the United States and VWP countries. 
Program countries must meet stringent security requirements to ensure 
their designation does not pose a risk to U.S. National security, law 
enforcement, or immigration enforcement interests. These requirements 
include, but are not limited to: Implementing a series of arrangements 
to share terrorism information; cooperating on criminal threats; 
improving identity management procedures; and reporting lost and stolen 
travel document information. To ensure compliance with VWP 
requirements, DHS conducts assessments of each VWP country at least 
once every 2 years--and engages in continuous monitoring between formal 
assessments--to evaluate participants' counterterrorism, law 
enforcement, immigration enforcement, border management, and identity 
document security capabilities.
    The United States and all VWP countries have committed to share 
information on KSTs through both formal bilateral arrangements (e.g., 
Homeland Security Presidential Directive-6 (HSPD-6)), though the amount 
of sharing varies per country. Additionally, sharing occurs via 
informal intelligence and law enforcement channels, as well as through 
international organizations, such as International Criminal Police 
Organization (ICPO-INTERPOL) and Europol. This sharing adds to the 
derogatory information that the United States uses to perform screening 
activities, which enables the United States to more effectively 
identify KSTs and take appropriate action to safeguard the United 
States.
    On December 15, 2017, Secretary Nielsen announced additional 
targeted enhancements that further strengthen the Program. These 
enhancements will not only raise security standards, but also further 
deepen existing security partnerships, therefore making it much 
likelier for countries to detect terrorist travel and safeguard 
themselves in the aviation security environment. These enhancements 
include:
  <bullet> Requiring VWP countries to fully implement their existing 
        information-sharing arrangements by systematically screening 
        travelers crossing their respective borders against U.S. 
        counterterrorism information.
  <bullet> Improving the assessments DHS conducts on the effectiveness 
        of VWP countries' safeguards against insider threats in the 
        aviation security environment; and,
  <bullet> Requiring VWP countries having a higher rate of visitors 
        overstaying the terms of their admission into the United States 
        to initiate a public information campaign to educate their 
        nationals on the conditions for admission into the United 
        States.
    In addition to the aforementioned new requirements, Secretary 
Nielsen called on Congress to codify existing VWP requirements to 
bolster efforts in the following areas:
  <bullet> Reporting of foreign terrorist fighters to multilateral 
        organizations, such as INTERPOL and EUROPOL;
  <bullet> Systematically collecting and analyzing passenger travel 
        data (Advance Passenger Information/Passenger Name Records); 
        and
  <bullet> Concluding arrangements to permit U.S. Federal Air Marshals 
        to operate on-board U.S. air carriers for last-point-of-
        departure flights to the United States.
    As in earlier rounds of enhancements, initial implementation will 
focus on cooperative steps to support VWP countries meeting the new 
requirements. This announcement starts an engagement process wherein 
the U.S. Government will work with each VWP country on a bilateral 
basis to inform them of the new requirements, assess their current 
levels of compliance, and develop strategies geared to implement any 
outstanding requirements. This approach has yielded substantial 
economic and security benefits for the United States and its partner 
countries.
    Further, the U.S. Government conducts extensive vetting of all in-
bound travelers. All individuals seeking legitimate air or maritime 
travel to the United States are known to the Department prior to their 
departure because of Advance Passenger Information (API) reporting 
requirements by all airlines and ships bound for the United States, and 
in the case of non-immigrants, either the submission of an Electronic 
System for Travel Authorization (ESTA) application for travel under the 
VWP or a visa application. The Department vets this data to determine 
whether the prospective traveler should receive additional screening or 
be denied boarding. In all instances, U.S. Customs and Border 
Protection (CBP) Officers retain final authority on granting admission 
to individuals arriving at U.S. ports of entry.
    In addition, individual European partner countries and the European 
Union collectively have taken significant steps to improve 
counterterrorism and border security capabilities across Europe over 
the past 2 years, to include: Creating a new European Border and Coast 
Guard Agency (effective October 2016); enhancing external border 
controls to require systematic database checks of all persons crossing 
Europe's external Schengen borders (effective April 2017); and passing 
the E.U. Passenger Name Record (PNR) Directive in April 2016 (to be 
implemented by May 2018). European partners also established the 
European Counterterrorism Centre (ECTC) at Europol in January 2016; the 
ECTC supports and facilitates E.U. member states in sharing terrorism-
related information. Additionally, the European Union is building its 
own ESTA-like pre-travel screening system, known as the European Travel 
Information and Authorization System (ETIAS), which will allow for 
greater interoperability amongst its databases, and working to 
implement an E.U.-wide biometric entry/exit system. The European Union 
expects ETIAS to be operational by 2020.
    The Department continuously looks for new ways to build on existing 
partnerships with European allies to respond to current and emerging 
threats. For example, the Department has offered its expertise and 
technical assistance to assist European partners in developing air 
passenger data collection and analysis capabilities, and has conducted 
numerous workshops for sharing best practices and collaborating on 
travel trends and passenger targeting. The Department is also working 
with a number of European partners to leverage both existing and new 
information-sharing agreements to cooperate directly on vetting 
priority travelers against our respective immigration, law enforcement, 
and National security data at a system-to-system level. In addition, 
the Department is working with 9 European countries to establish 
Preclearance facilities at last-point-of-departure airports. Countries 
participating in a Preclearance arrangement adopt a close and 
continuous partnership with the United States that allows the 
Department to leverage its full authorities and capabilities at 
overseas locations to screen travelers prior to their departure for the 
United States.
    Multilateral partnerships, such as INTERPOL and Europol, facilitate 
U.S.-European cooperation. INTERPOL provides an efficient and 
accessible way for U.S. and European partners to share information on 
lost and stolen passports and report foreign terrorist fighters and 
criminals--both requirements for participation in the VWP--thereby 
enhancing participating countries' screening capabilities. Following 
the terrorist attacks in Paris in 2015 and Brussels in 2016, DHS worked 
closely with Europol to share terrorist-related information and provide 
investigatory support. The Department has assigned officers to Europol, 
and to its ECTC, to facilitate the exchange of information with 
European counterparts and to enhance cooperation on investigations of 
terrorist and criminal networks.
    Question 2b. Are we doing enough to assist our European allies in 
their own counter-terrorism efforts?
    Answer. In coordination with the Department of State, the 
Department of Homeland Security has been working closely with European 
allies and partners to enhance their counterterrorism efforts and 
advance the Department's priorities in Europe. The Department's actions 
range from Departmental leadership engagement to operational 
collaboration with European counterparts across a wide range of 
homeland security areas. Over the past few years, DHS efforts with 
European partners have focused on enhancing border management and 
screening, increasing information sharing, identifying and disrupting 
terrorist travel, strengthening aviation security, and ensuring 
European and E.U. initiatives are compatible with DHS policies and 
programs.
    The Department's active and on-going leadership engagement, as well 
as subject-matter expert-level efforts, have helped European partners 
take significant steps in improving counterterrorism capabilities over 
the past 2 years. Significant achievements include: Enhancing border 
controls to require systematic database checks of all persons crossing 
the European Union's external Schengen borders (effective April 2017); 
passage of the E.U. Passenger Name Record (PNR) Directive in April 2016 
(to be implemented by May 2018); creating a new European Border and 
Coast Guard Agency (effective October 2016); developing an ``E.U. 
ESTA'' (the European Travel Information and Authorization System--
ETIAS, with a January 2020 implementation date); and improving the 
interoperability of European law enforcement and immigration databases. 
The European Union also established the European Counter Terrorism 
Centre (ECTC) at Europol in January 2016 to support and facilitate E.U. 
members to share terrorism-related information. DHS components work 
closely with Europol and the ECTC to share terrorist-related 
information and provide investigatory support.
    Currently, DHS has been emphasizing the importance of providing 
actionable intelligence information to front-line law enforcement and 
border officials. The Department is also emphasizing the importance of 
deploying PNR collection and analysis capabilities, as expeditiously as 
possible. DHS has years of experience collecting and analyzing Advanced 
Passenger Information (API, which is an airline manifest) and PNR (the 
airline's reservation data) data and is providing expertise, lessons 
learned, best practices, and technical assistance as European partners 
develop similar systems. Most recently, the Department has been 
prioritizing aviation security to address current and evolving threats, 
and has been working closely with European allies to strengthen 
aviation security globally. DHS has also reached agreements with 
European partners to deploy technology, such as the Secure Real-Time 
Platform (SRTP), to assist allies in conducting biometric checks on 
travelers and migrants to help them detect terrorists, criminals, and 
other nefarious actors at their borders. The United States works 
closely with partners to ensure all CT traveler security programs are 
harmonized and socialized broadly so that all available capabilities 
are leveraged in this most effective way possible.
    Much of the Department's efforts with European partners is 
facilitated by the long-standing operational relationships established 
through DHS component personnel deployed overseas in Europe. However, 
the progress achieved over the past several years, and continued 
efforts to advance DHS security and counter-terrorism priorities in 
Europe, require active and sustained engagement at the Departmental 
level to coordinate Department-wide efforts and assist European 
partners and governing institutions in a complex and challenging 
political environment. The Department's efforts must include continued 
engagement with individual European countries, the governing 
institutions of the European Union, and numerous European regional 
security organizations.
    The State Department has also supported the exchange of best 
practices on countering violent extremism (CVE) through two-way 
exchanges and the Strong Cities Network (SCN), a global network of 120 
subnational governments. Through workshops, an on-line hub, and an 
annual global meeting, SCN has built the capacity of local-level 
practitioners in communities in Europe with known cases of 
radicalization to violence in the European Union and its member states, 
non-E.U. European countries, and numerous European regional security 
organizations.
    Question 3a. DHS supports a number of grants through the Office for 
Community Partnerships to assist with Countering Violent Extremism. 
Describe what benchmarks are in place to determine the success of these 
grants?
    Answer. The CVE Grant Program (CVEGP) through the Office for 
Community Partnerships (now the Office for Terrorism Prevention 
Partnerships) funded innovative projects in five focus areas that set 
the baseline for future evaluation of terrorism prevention projects. 
Given the diversity of these projects and the organizations 
implementing them, each individual project has tailored performance 
metrics and benchmarks for success over time. Prior to receiving access 
to their project funds, each recipient was required to develop a 
Project Implementation and Evaluation Plan (PIEP), which included 
deliverable time lines, output and outcome measures, and evaluation 
methods.
    Some projects have very specific deliverables, such as training 
curricula for law enforcement or community members and models for how 
to implement terrorism prevention activities into existing public 
health infrastructure. Where applicable, DHS has sought to ensure that 
each grantee's deliverables present a unified and non-duplicative 
approach, consistent with DHS messaging and existing programs, and 
ensure that materials are cost-effectively leveraged for use by all DHS 
grantees. DHS will evaluate the quality of these products and analyze 
the successes and challenges found in piloting them and will determine 
what is needed to package the products and deliver them to similar 
communities for replication outside of the grant program.
    To date, DHS has completed the review of the proposed metrics and 
PIEPs. DHS is now mapping the performance measures from the individual 
projects to the overall goals of the CVEGP to assess the grant program 
as a whole, combine measures from similar projects, and compare the 
relative impacts of different projects.
    Question 3b. What success have you observed with these programs in 
mitigating the recruitment of individuals to Foreign Terrorist 
Organizations?
    Answer. As noted above, the period of performance for the grants 
started on August 1, 2017 and will run through at least the end of July 
2019. Grantees' first quarterly reports were due on October 30, 
covering August and September. Much of the activity in the first 2 
months of performance has been administrative startup work (including 
the drafting and submission of PIEPs), training development, content 
development, community outreach, and planning. At this time, all the 
projects appear to be on a solid footing to begin to deliver their core 
work in the next couple of quarters, and to begin reporting output and 
outcome measures in the late spring/early summer 2018.
        Questions From Honorable Scott Perry for Elaine C. Duke
    Question 1a. Please describe the Department of Homeland Security's 
current programs, if any, to educate/train its officers about the 
domestic jihad threat. Which individuals and/or groups does DHS use for 
such training?
    Question 1b. If there is no such training currently, please tell us 
when you expect to begin such training.
    Answer. DHS undertakes a very wide range of activities designed to 
increase awareness and understanding among front-line defenders--
including DHS personnel--regarding the terror threat. This includes 
frequent intelligence reporting, analysis, and trends related to global 
jihadist groups such as ISIS and al-Qaeda. Such information is 
essential to helping law enforcement and homeland security 
professionals identify suspicious activity, signs of violent 
radicalization, pre-operational terrorist planning, and more. Such 
information is also incorporated into exercises, training, and other 
activities designed to make sure we are prioritizing the highest risks 
to the homeland and are prepared to defend against emerging terrorist 
tactics. DHS also delivers a range of terrorism-prevention briefings 
Nation-wide that help increase threat awareness for those on the front 
lines protecting our communities, and these briefings highlight the 
threat from global jihadist groups, as well as other violent 
organizations seeking the threaten the American people and our 
homeland.
    Although the Federal Law Enforcement Training Centers (FLETC) does 
not provide training programs exclusively focused on terrorism 
prevention issues, FLETC delivers a broad spectrum of counterterrorism 
training that encompasses myriad topics. FLETC's terrorism curriculum 
covers areas such as terrorism prevention, the National 
counterterrorism strategy, funding and material support, internet 
exploitation, modes/methods of attack (i.e. Improvised Explosive 
Devices, Weapons of Mass Destruction), surveillance detection, 
Suspicious Activity Reports (SAR), the attack planning cycle, and 
aircraft countermeasures. This curriculum resides within FLETC's three 
primary basic programs. During fiscal year 2017, law enforcement 
personnel from the following DHS entities attended a basic training 
program at FLETC that includes curriculum in counterterrorism: Office 
of Chief Security Officer, Federal Emergency Management Agency (Office 
of Security), Federal Protective Service, Office of the Inspector 
General, U.S. Coast Guard, U.S. Customs and Border Protection, U.S. 
Secret Service, and U.S. Immigration and Customs Enforcement. This 
terrorism curriculum is also delivered via several advanced programs 
such as the Commercial Vehicle Counterterrorism Training Program, Land 
Transportation Antiterrorism Training Program, Critical Infrastructure 
Security and Resilience Training Program, Physical Security Training 
Program, and the Protective Service Operations Training Program.
    Through the Office of Civil Rights and Civil Liberties (CRCL), DHS 
has partnered with the State Department since 2011 on the City Pair 
Program, which connects U.S. cities with international counterparts 
through two-way exchanges. In the past year this program has included 
Boston, Denver, Los Angeles, Phoenix, and other U.S. cities. In 
January, the State Department organized a Strong Cities Network 
workshop in Washington that connected more than 50 leaders from Canada, 
Germany, Ireland, Italy, the United Kingdom, and the United States for 
a workshop. Such engagements have led to increased connectivity between 
local-level communities domestically and internationally.
    Question 2. What steps has DHS taken under the Trump administration 
to develop & implement a system of ``extreme vetting'' for those who 
seek entry as immigrants, non-immigrants, or refugees into the United 
States?
    Question 3. Please explain what is the DHS process for implementing 
``extreme vetting'': For example, is there a system to investigate or 
at least query intending entrants for ideological affinity to some 
other alien or hostile legal system opposed to the U.S. Constitution, 
like Islamic Law, as there was in the time of the Cold War for 
communist associations?
    Question 4. Does DHS question whether an individual holds beliefs 
that may be antithetical to the U.S. Constitutions and its ideals? What 
questions are included in the extreme vetting process?
    Question 5. If DHS does not yet have such a system, please advise 
when you will be ready to implement one.
    Answer. The administration has improved every stage of the 
screening and vetting process for U.S.-bound individuals. We have 
launched sweeping efforts to improve our ability to detect terrorists, 
criminals, and other nefarious actors trying to enter the United 
States. These enhancements span virtually every pathway an individual 
could use to travel to the United States--whether as a tourist, 
business visitor, immigrant, or refugee. Applications have become more 
rigorous. Background checks are being intensified. Travel and arrival 
screening are being tightened. In addition, all countries must now 
comply with a historic, first-ever U.S. information-sharing baseline--
or face travel restrictions and other consequences.
    The Department of Homeland Security (DHS), in coordination with its 
U.S. Government (USG) partners, seeks to identify support for terrorism 
or terrorist ideologies as part of its vetting programs. Applicants for 
immigration and travel benefits--on the written application and during 
the in-person interview process--must answer multiple questions 
relating to terrorist activity; membership in groups hostile to the 
United States; willingness to take action on behalf of the United 
States (such as military service); criminal history; and other 
questions in order to gauge potential National security and/or public 
safety threat. Adjudicating officers also query immigration, 
intelligence community (IC), and law enforcement databases that contain 
data relating to criminal and terrorist activity. Further, DHS is 
developing its capability to investigate social media postings and 
other information relating to the applicant in order to examine this 
information for evidence of a terrorism nexus. In each of these 
activities, DHS operates within the strong framework of safeguards, 
training, and policies needed to ensure respect for privacy, civil 
rights, and civil liberties.
    More broadly, DHS continues to advance its capabilities to ensure 
that all visitors, immigrants, and cargo are thoroughly vetted before 
admission to the United States or a potential benefit is granted. 
Accelerating previously planned initiatives and responding to 
directives called for by the President's Executive Order (EO) 13780, 
``Protecting the Nation from Foreign Terrorist Entry into the United 
States,'' the Department has embarked on a path that comprehensively 
addresses all aspects of the vetting continuum in close cooperation 
with partner departments and agencies.
    Executive Order 13780, Section 2 established--for the first time--
direct requirements for all countries' cooperation to support USG visa 
and immigration vetting and adjudication. Among other factors 
considered, it during the review, the USG established unprecedented 
criteria for the exchange of identity and risk information with foreign 
partners to help confirm a traveler is who they say they are and 
whether they pose a criminal or terrorist threat. DHS is working with 
interagency stakeholders and foreign partners to address information-
sharing deficiencies identified through the Section 2 review. As a 
follow-on to these activities, Presidential Proclamation 9645 calls for 
persistent monitoring of countries' compliance with the requirements.
    DHS led the development of uniform baseline standards for screening 
and vetting called for by the President in EO 13780, Section 5 through 
enhancements to processes involving applications, interviews, and 
system checks for immigration applicants. As a result, DHS is working 
to standardize, as appropriate, the information collected on 
immigration and foreign traveler forms and/or information systems.
    Under Section 6(a) of EO 13780, the USG has reviewed the U.S. 
Refugee Admissions Program (USRAP) application and adjudicative 
processes to determine what additional procedures should be used to 
ensure that individuals seeking admission as refugees do not pose a 
threat to the security and welfare of the United States. At the 
conclusion of this review, the Secretaries of State and Homeland 
Security and the Director of National Intelligence issued a Joint 
Memorandum entitled ``Resuming the United States Refugee Admissions 
Program with Enhanced Vetting Capabilities.'' The Addendum to the Joint 
Memorandum provides a summary of additional security enhancements that 
were adopted as a result of the 120-day review that are applicable to 
refugee applicants seeking resettlement in the United States.
    DHS will continue to regularly review its screening processes in 
order to improve the screening and vetting of subjects attempting to 
enter the country.
    Question 6. The U.S. electric grid is dangerously unsecured against 
the threat of a nuclear Electro-Magnetic Pulse (EMP) attack or the 
similar effects that can be generated by the sun. Please explain what 
steps you & DHS are taking to secure the U.S. electric grid on an 
expedited basis.
    Answer. DHS continues to carefully assess the risk of 
electromagnetic incidents to the homeland, including those posed by a 
potential Electromagnetic Pulse (EMP) attack or a Geomagnetic 
Disturbance (GMD). Although the intelligence community currently 
assesses the likelihood of a high-altitude EMP attack is low, the 
consequences of a successful EMP attack or a major GMD could include 
significant damage to portions of the Nation's electric grid and 
communications infrastructure. Pursuant to law, and working closely 
with our interagency partners such as the Department of Energy, DHS is 
finalizing a strategy to protect the Nation's critical infrastructure 
from EMP and GMD. The strategy will outline the Department's approach 
to improve EMP and GMD risk awareness, promote preparedness actions to 
reduce the impacts from EMP, and facilitate response and recovery 
should an incident occur. Additionally, DHS, in collaboration with 
other partners, is working to help critical infrastructure owners and 
operators manage EMP and GMD risk within existing structures for all-
hazards and all-threats risk management.
    Question 7. Understanding that there is a ``Red-Green Axis'' of 
domestic enemies that includes the Muslim Brotherhood--arguably the 
oldest and largest Sharia-supremacist organization in the world--as 
well as the Black Lives Matter movement and myriad anarchist/communist 
entities operating in a collaborative way in the United States, what 
steps has DHS taken to confront that Axis? Does DHS have an organized 
training program for its agencies & officers that familiarizes them 
with the elements, ideology & operations of the Red-Green Axis? If so, 
please describe that training program. If not, why not & when do you 
expect to have such a program in place?
    Answer. DHS prepared its officers and front-line defenders to be 
aware of--and prepared to respond to--a wide range of threats to the 
United States, including from terrorist organizations that may target 
Americans. DHS looks to the actions and intentions of a range of actors 
who pose, or may pose, a threat to the homeland, pursuant to the U.S. 
Constitution and DHS's statutory authorities, and makes judgments based 
on intelligence and law enforcement information. DHS assesses 
operational and ideological connections between a variety of threat 
actors, institutes policies, and carries out operations to address 
threats or violations of law. In doing so, DHS respects the privacy, 
civil rights, and civil liberties of all Americans. DHS terrorism 
prevention activities are broad enough to address the spectrum of 
terrorist activity in the United States, including through awareness 
trainings and other programs.
    Question 8. Please describe your understanding of Antifa, its 
component elements, ideology, international connections, tactics & the 
DHS operational plan to counter its activities & influence.
    Answer. DHS regularly reports on threats to the homeland, including 
both domestic violent extremists and terrorist groups. Specifically, on 
August 9, 2017, prior to the events in Charlottesville, Virginia, the 
DHS Office of Intelligence & Analysis disseminated to its Federal, 
State, local, Tribal, and territorial customers a product referencing 
``antifa,'' noting that: ``We assess that anarchist extremists' use of 
violence as a means to oppose racism and white supremacist extremists' 
preparations to counterattack anarchist extremists are the principal 
drivers of violence at recent white supremacist rallies. Anarchist 
extremists planned to violently oppose the rallies via social media and 
flyer campaigns after they were announced by the white supremacist 
organizers . . . We assess that a heavily promoted white supremacist 
rally planned for 12 August 2017 in Charlottesville, Virginia, could be 
among the most violent to date . . . Anarchist extremists and white 
supremacist extremists on-line are calling on supporters to be prepared 
for or to instigate violence at the 12 August rally. For instance, a 
probable white supremacist posted on-line a ` . . . call to arms . . . 
antifa must be destroyed,' according to DHS open-source reporting. We 
judge `antifa' in this context to mean probable anarchist extremists, 
who often identify as `antifa' or anti-fascists.'' The Office of 
Terrorism Prevention Partnerships (OTPP) and other DHS operational 
components will continue to work with our State and local partners to 
enhance their operational capabilities to prevent those who seek to 
radicalize or inspire violent extremism in our communities. While the 
current review of terrorism prevention policy and programs is reshaping 
the DHS operational plan, the plan will largely focus on programs that 
cover at least one of four lines of effort: (1) Prioritizing education 
and community awareness; (2) focusing on counter-recruitment; (3) 
emphasizing the importance of early warning; and (4) looking at what 
more can be done to intervene with individuals whom might commit acts 
of violence.
  Questions From Ranking Member Bennie G. Thompson for Elaine C. Duke
    Question 1. DHS has stated that we are pushing our border security 
strategies and pressing foreign partners to enhance their security. On 
November 30, 2015, the Obama administration implemented several new 
enhancements to the Visa Waiver Program that increased security and 
improved the efficiency of traveler screening under this popular 
program. On December 15, 2015, the House passed H.R. 158, the Visa 
Waiver Program Improvement and Terrorist Travel Prevention Act, which 
was signed into law on December 18, 2015. How are you building on such 
efforts to work most effectively with our European counterparts to aid 
them in identifying and disrupting future attacks?
    Answer. The Department maintains close cooperation with European 
allies to combat terrorism, including the threat posed by known and 
suspected terrorists (KST). DHS cooperates with our international 
counterparts in a range of ways to ensure Europeans radicalized to 
violence are unable to travel to the United States via the Visa Waiver 
Program (VWP).
    Most European allies--including 23 of 28 European Union (EU) member 
states and 7 non-E.U. countries--participate in the VWP. Since 1986, 
the VWP has evolved from a travel facilitation program into a 
comprehensive security partnership between the United States and VWP 
countries. Program countries must meet stringent security requirements 
to ensure their designation does not pose a risk to U.S. National 
security, law enforcement, or immigration enforcement interests. These 
requirements include, but are not limited to: Implementing a series of 
arrangements to share terrorism information; cooperating on criminal 
threats; improving identity management procedures; and reporting lost 
and stolen travel document information. To ensure compliance with VWP 
requirements, DHS conducts assessments of each VWP country at least 
once every 2 years--and engages in continuous monitoring between formal 
assessments--to evaluate participants' counterterrorism, law 
enforcement, immigration enforcement, border management, and identity 
document security capabilities.
    The United States and all VWP countries commit to share information 
on KSTs through both formal bilateral arrangements (e.g., Homeland 
Security Presidential Directive-6 (HSPD-6)), though the amount of 
sharing varies per country. Additionally, sharing occurs via informal 
intelligence and law enforcement channels, as well as through 
international organizations, such as International Criminal Police 
Organization (ICPO-INTERPOL) and Europol. This sharing enriches U.S. 
holdings, which enables the United States to more effectively identify 
KSTs and take appropriate action to safeguard the United States.
    Additionally, on December 15, 2017, Secretary Nielsen announced 
additional targeted enhancements that further strengthen the Program. 
These enhancements will not only raise security standards, but also 
further deepen existing security partnerships, therefore making it much 
likelier for countries to detect terrorist travel and safeguard 
themselves in the aviation security environment. These enhancements 
include:
  <bullet> Requiring VWP countries to fully implement their existing 
        information sharing arrangements by systematically screening 
        travelers crossing their respective borders against U.S. 
        counterterrorism information.
  <bullet> Improving the assessments DHS conducts on the effectiveness 
        of VWP countries' safeguards against insider threats in the 
        aviation security environment; and,
  <bullet> Requiring VWP countries having a higher rate of visitors 
        overstaying the terms of their admission into the United States 
        to initiate a public information campaign to educate their 
        nationals on the conditions for admission into the United 
        States.
    In addition to the aforementioned new requirements, Secretary 
Nielsen called on Congress to codify existing VWP requirements to 
bolster efforts in the following areas:
  <bullet> Reporting of foreign terrorist fighters to multilateral 
        organizations, such as INTERPOL and EUROPOL;
  <bullet> Systematically collecting and analyzing passenger travel 
        data (Advance Passenger Information/Passenger Name Records); 
        and
  <bullet> Concluding arrangements to permit U.S. Federal Air Marshals 
        to operate on-board U.S. air carriers for last-point-of-
        departure flights to the United States.
    As in earlier rounds of enhancements, initial implementation will 
focus on cooperative steps to support VWP countries meeting the new 
requirements. This announcement starts an engagement process wherein 
the U.S. Government will work with each VWP country on a bilateral 
basis to inform them of the new requirements, assess their current 
levels of compliance, and develop strategies geared to implement any 
outstanding requirements. This approach has yielded substantial 
economic and security benefits for the United States and its partner 
countries.
    Further, the U.S. Government conducts extensive vetting of all in-
bound travelers. All individuals seeking legitimate air or maritime 
travel to the United States are known to the Department prior to their 
departure because of Advance Passenger Information (API) reporting 
requirements by all airlines and ships bound for the United States, and 
in the case of non-immigrants, either the submission of an Electronic 
System for Travel Authorization (ESTA) application for travel under the 
VWP or a visa application. The Department vets this data to determine 
whether the prospective traveler should receive additional screening or 
be denied boarding. In all instances, U.S. Customs and Border 
Protection (CBP) Officers retain final authority on granting admission 
to individuals arriving at U.S. ports of entry.
    In addition, individual European partner countries and the European 
Union collectively have taken significant steps to improve 
counterterrorism and border security capabilities across Europe over 
the past 2 years, to include: Creating a new European Border and Coast 
Guard Agency (effective October 2016); enhancing border controls to 
require systematic database checks of all persons crossing Europe's 
external Schengen borders (effective April 2017); and passing the E.U. 
Passenger Name Record (PNR) Directive in April 2016 (to be implemented 
by May 2018). European partners also established the European 
Counterterrorism Centre (ECTC) at Europol in January 2016; the ECTC 
supports and facilitates E.U. member states to share terrorism-related 
information. Additionally, the European Union is building its own ESTA-
like pre-travel screening system, known as the European Travel 
Information and Authorization System (ETIAS), allowing for greater 
interoperability amongst its databases, and working to implement an 
E.U.-wide biometric entry/exit system. The European Union anticipates 
ETIAS being operational by 2020.
    The Department continuously looks for new ways to build on existing 
partnerships with European allies to respond to current and emerging 
threats. For example, the Department has offered its expertise and 
technical assistance to assist European partners in developing air 
passenger data collection and analysis capabilities, and has conducted 
numerous workshops for sharing best practices and collaborating on 
travel trends and passenger targeting. The Department is also working 
with a number of European partners to leverage both existing and new 
information-sharing agreements to cooperate directly on vetting 
priority travelers against our respective immigration, law enforcement, 
and National security data at a system-to-system level. In addition, 
the Department is working with 9 European countries to establish Pre-
clearance facilities at last-point-of-departure airports. Countries 
participating in a Pre-clearance arrangement adopt a close and 
continuous partnership with the United States that allows the 
Department to leverage its full authorities and capabilities at 
overseas locations to screen travelers prior to their departure for the 
United States.
    Multilateral partnerships, such as INTERPOL and Europol, facilitate 
U.S.-European cooperation. INTERPOL provides an efficient and 
accessible way for U.S. and European partners to share information on 
lost and stolen passports and report foreign terrorist fighters and 
criminals--both requirements for participation in the VWP--thereby 
enhancing participating countries' screening capabilities. Following 
the terrorist attacks in Paris in 2015 and Brussels in 2016, DHS worked 
closely with Europol to share terrorist-related information and provide 
investigatory support. The Department has assigned officers to Europol, 
and to its ECTC, to facilitate the exchange of information with 
European counterparts and to enhance cooperation on investigations of 
terrorist and criminal networks.
    Question 2a. In previous Congressional testimony, DHS officials 
have described a shift in DHS countering violent extremism (CVE) 
efforts, including changing the name of the Office for Community 
Partnerships (OCP) to the Office of Terrorism Prevention Partnerships 
(OTPP) and reporting to the Office of Partnership and Engagement (OPE), 
rather than the Secretary. How will this shift and reconfiguration of 
the program differ from the previous administration's CVE efforts?
    Answer. The Office of Terrorism Prevention Partnerships (OTPP), 
formerly named the Office for Community Partnerships (OCP), continues 
to facilitate and support State, local, Tribal, territorial, and non-
Governmental, community-based efforts to implement prevention programs 
within the United States that target radicalization and mobilization to 
violence for all forms of terrorism. OTPP also provides greater clarity 
about our mission of preventing terrorist recruitment and 
radicalization to violence.
    Since its establishment, and as appropriated by Congress, the 
office had been funded through the Office of Partnership and Engagement 
(OPE) for budget and administrative purposes, but previously reported 
directly to the Secretary for policy and programmatic purposes during 
its start-up phase. Now that the organization has matured, OTPP has 
become a formal component of OPE, which will increase efficiency and 
bolster resources and support for its role in the critical mission of 
terrorism prevention. When OCP was established, it temporarily reported 
to the Secretary on progress even though operational offices are not 
typically part of the Office of the Secretary. This move completes the 
expected transition, aligning with Congressional expectations.
    OTPP is working with a broad range of stakeholders to implement, 
mature, and strengthen its terrorism prevention programs and to improve 
collaboration and coordination of Department activities. With this 
institutionalized position, OTPP has greater resources and support to 
strengthen the critical mission of terrorism prevention. OTPP's 
alignment with OPE entities, including the Office of Intergovernmental 
Affairs (IGA), the Private Sector Office (PSO), and the Office of State 
and Local Law Enforcement (OSLLE), enhances engagement opportunities 
with stakeholders across the country.
    This renewed purpose emphasizes the mutual benefits of partnership 
tools and objectives to advance DHS terrorism prevention programs. This 
includes enhancing education and community awareness regarding the 
threat, providing resources to support terrorism prevention 
stakeholders where applicable, coordinating relevant DHS terrorism 
prevention activities, actively countering terrorist radicalization and 
recruitment, and promoting early warning so that our front-line 
defenders can intervene to stop attacks and help prevent individuals 
from going down the path to violence.
    Question 2b. What factors drove your reexamination of CVE?
    Answer. The persistent and evolving nature of the terror threat 
demanded that we reexamine terrorism prevention programs and assess how 
they could be strengthened. Groups like the Islamic State of Iraq and 
Syria (ISIS) and al-Qaeda and its affiliates are focused on inspiring, 
enabling, and directing attacks in our homeland, including by crowd-
sourcing attacks on social media and through the use of secure 
communications to avoid detection. They are promoting do-it-yourself 
tactics to more easily spread terror, such as the use of vehicle 
ramming, guns, knives, and other methods. DHS has made it a top 
priority to actively prevent terrorists from radicalizing and 
recruiting individuals to violence within the homeland, and the 
Department sought to ensure terrorism-prevention activities were 
keeping up with the danger.
    The following have been key principles guiding our reexamination:
  <bullet> Combating all forms of terror--in a threat- and risk-based, 
        intelligence-driven manner;
  <bullet> Prioritizing support to front-line defenders;
  <bullet> Measuring and evaluating effectiveness;
  <bullet> Complementing broader efforts to prevent other forms of 
        violence in our communities; and
  <bullet> Preserving civil rights and civil liberties.
    Question 2c. What is the plan and time line for the CVE grant 
program?
    Answer. The plan and time line for the CVE grant program remain 
unchanged. By way of review, former Secretary Kelly approved the CVEGP 
awards in June 2017, making 26 grants totaling $10 million for 2 years 
of programming to organizations that will work to improve the security 
of our communities and prevent terrorism. Performance started on August 
1, 2017 and will run through at least the end of July 2019. First 
quarterly reports were due on October 30, covering August and 
September. Much of the activity in the first 2 months of performance 
has been administrative start-up work, training development, content 
development, community outreach, and planning. At this time, all the 
projects appear to be on a solid footing to deliver their core work in 
the next few quarters, and to begin reporting output and outcome 
measures in the late spring/early summer 2018.
    Question 2d. Has DHS articulated an official strategy to replace 
the previous administration's CVE strategy?
    Question 2e. If not, does DHS intend to develop a new strategy?
    Question 2f. If so, when will this strategy be delivered and 
implemented?
    Answer. DHS is conducting an in-depth review of its OTPP-run 
terrorism prevention programs to ensure our efforts, and those of our 
Federal, State, local, territorial, and private partners, are 
integrated and coordinated to best address the threat. The resulting 
posture will outline goals, objectives, and approaches for preventing 
the radicalization and inspiration to violence from all forms of 
violent extremism. Currently, DHS anticipates four primary lines of 
effort: (1) Prioritizing threat awareness through education and 
community engagement; (2) focusing on counter-recruitment; (3) 
emphasizing the importance of early warning; and (4) focusing on 
improving intervention and countering terrorist recidivism.
    Pursuant to the most recent National Defense Authorization Act, the 
administration is required to produce a National strategy on countering 
violent extremism. DHS will participate in the development of this 
strategy and develop clear guidance on how it is implementing the 
administration's terrorism-prevention policies.
    Question 2g. How will the new Office of Terrorism Prevention 
Partnerships conduct its training for field representatives differently 
than past DHS CVE efforts?
    Answer. OTPP field representation and the development and 
deployment of community awareness trainings have not been altered at 
this time. OTPP continues to work with other DHS components and its 
interagency partners to develop, update, and deploy Community Awareness 
Briefings and other training packages when requested in the field. 
However, we are actively examining ways to help States and localities 
stand up terrorism prevention programs Nation-wide, as it is clear one 
of the primary shortfalls of CVE policy previously was that such 
efforts were too centrally managed and failed to keep pace with the 
diffuse nature of the threat.
    Question 3. In DHS testimony on November 30, 2017, we heard that 
``One of the major things we've done very recently is open the Office 
of Terrorism Prevention Partnerships, which is making sure every piece 
of information we get, the State and local governments have, to be at 
the point to notice and deal with any types of hate crimes and these 
groups. And training and information sharing--is two of our major 
efforts.'' Please explain in detail what this means and how this 
process will be carried out.
    Answer. As I noted before the committee, in addition to 
counterterrorism, the Department is re-dedicating itself to terrorism 
prevention. Americans do not want us to simply stop violent plots, they 
want us to keep them from materializing in the first place. As part of 
this effort, we have launched an end-to-end review of all DHS 
``countering violent extremism,'' or CVE, programs, projects, and 
activities. In the coming months we will work to continue to ensure our 
approach to terrorism prevention is risk-based and intelligence-driven, 
focused on effectiveness, and provides appropriate support to those on 
the front lines who we rely on to spot signs of terrorist activity.
    DHS efforts to combat terrorist recruitment and radicalization to 
violence fall into four primary lanes.
    First, we are prioritizing education and community awareness. 
Before terrorists have a chance to reach into communities and inspire 
potential recruits, we are making sure those communities are aware of 
the threat. This includes extensive outreach to States and localities, 
awareness briefings, intelligence products regarding threats and 
trends, and training for front-line defenders and civic leaders.
    Second, we are focused on counter-recruitment. We know that 
terrorists will continue to seek new followers through persuasion and 
propaganda, which is why we must support efforts to actively push back 
against such solicitations. This includes continuing to encourage non-
governmental organizations to counter-message terrorist propaganda, 
leveraging credible voices to dissuade potential recruits, working with 
social media companies and supporting their efforts to make on-line 
platforms more hostile to terrorists, and more.
    Third, we are emphasizing the importance of early warning. Even 
with strong community awareness and counter-recruitment, terrorist 
groups will succeed in reaching at least some susceptible minds. That 
is why we are working to detect individuals on the path to 
radicalization to violence earlier. This includes building trust 
between communities and law enforcement, expanding ``If You See 
Something, Say Something<SUP>TM</SUP>''-style campaigns, and ensuring 
there are appropriate and confidential means for the public to provide 
tips regarding suspicious activity.
    Finally, DHS and DOJ are looking at what more can be done to 
intervene to prevent suspects from committing acts of violence and also 
to counter terrorist recidivism. It is inevitable that some individuals 
will be recruited, radicalized, and attempt to engage in terrorist 
activity. So we want to make sure that the right stakeholders can 
intervene before they do so--and that once they are caught they do not 
return to violence. Our grant programs have focused on some of these 
intervention efforts, and DHS is also working with interagency partners 
on ways to better combat terrorist recidivism.
    This summer the Department announced the award of $10 million in 
grants to 26 organizations to advance terrorism prevention efforts. 
These grants will help inform our efforts and illuminate what works--
and what doesn't work--in combating terrorist recruitment and 
radicalization in our homeland. We look forward to sharing the results 
with Congress.
    I also want to note that although our terrorism prevention 
activities will be risk-based, they will also be flexible enough to 
address all forms of terrorism. Any ideologically-motivated violence 
which is designed to coerce people or their governments should be 
condemned, prevented, and countered. That is why our approach must be 
agile so it can help mitigate everything from the global jihadist 
threat to the scourge of violent racial supremacy. It must also engage 
and not alienate communities targeted by these violent extremists. This 
means working with people of all races, religions, and creeds as 
partners in the fight against terrorism.
    Question 4. Do you believe that HVEs present an emerging threat to 
the homeland? How can we be more effective in preventing these attacks 
and ``lone-wolf'' attacks?
    Answer. The Homegrown Violent Extremist (HVE) threat remains a 
primary focus of terrorism prevention efforts, and the work of the 
Office of Terrorism Prevention Partnerships (OTPP) focuses on improving 
efforts to bring an end to the radicalization and recruitment to 
violence by individuals in the United States. To that end, OTPP 
constantly re-assesses its programs against the latest information and 
research on these topics. For example, recent DHS Science & Technology 
Directorate-funded research has noted that law enforcement plays an 
important role in early detection and disruption of plots in the United 
States, and that early warning and awareness by friends and family is 
also important. DHS is working to support these early warning systems, 
particularly mechanisms that allow for bystanders to report early 
concerns and bolster intervention efforts, through our current research 
funding as well as through our grant programs such as the CVE grant 
program. DHS also works closely with our partners at the FBI through 
the Joint Terrorism Task Forces (JTTFs) that bring Federal, State, and 
local agencies together on one team. The JTTFs allow members to 
leverage one another's skills, authorities, and accesses to prevent and 
disrupt terrorist attacks across the country. The JTTFs also build 
relationships between the community and law enforcement on the front 
line, which is particularly important to combatting terrorism.
    Question 5a. The FBI and DHS produced an intelligence bulletin on 
May 11, 2017, that purported to warn about the ``persistent threat of 
lethal violence'' from white supremacist groups. The data reported in 
the bulletin claimed there were 49 homicides in 26 attacks from 2000 to 
2016, but these numbers are significantly lower than those reported by 
academics who study this issue.
    Please provide a full list of the 49 homicides in 26 attacks from 
2000 to 2016.
    Answer. DHS defers to the Department of Justice and the Federal 
Bureau of Investigation as this is their data.
    Question 5b. Do these discrepancies affect local law enforcement 
efforts to police such groups?
    Answer. This is a local law enforcement question. DHS defers to 
local law enforcement agencies as to how they deploy investigative and 
financial resources to combat domestic terrorism.
    Question 6a. Between 1977 and 2016, there have been hundreds of 
crimes committed against reproductive health care facilities and 
abortion providers, including at least 11 murders, 26 attempted 
murders, 42 bombings, 186 arsons, 98 attempted bombings or arsons, and 
411 clinic invasions. Please provide any data that your agency has used 
to track crimes targeting reproductive health care facilities and 
abortion providers.
    Does violence aimed at reproductive health care clinics, doctors, 
patients, and staff fall under the Federal statutory definition of 
``domestic terrorism''?
    If not, when would anti-abortion violence rise to the level of 
``domestic terrorism''?
    Answer. DHS does not track crimes related to reproductive health 
care facilities or abortion providers. The FBI is the lead agency for 
the investigation of both criminal and terrorism acts and is better 
positioned to respond to this question.
    We would defer to DOJ for this response.
    See answer above.
    Question 6b. Are the Department of Homeland Security, the FBI, and 
the National Counterterrorism Center currently committing funding and 
staff to investigate violence against reproductive health care clinics, 
doctors, patients, and staff in order to identify whether any patterns 
and practices emerge?
    If yes, please explain what level of personnel and budget is being 
provided.
    If not, why not?
    Answer. We would defer to the FBI and NCTC for further response.
    The Attorney General, generally acting through the FBI, has lead 
responsibility for criminal investigations of terrorist acts or threats 
where such acts are within the Federal criminal jurisdiction of the 
United States.
        Questions From Honorable Val Demings for Elaine C. Duke
    Question 1. Most of the administration's CVE efforts to date have 
been focused on Muslim communities. However, recent reports, arrests, 
and convictions indicate that new recruits to ISIS do not have a 
particular ethnic background and are not always familiar with Islam. 
Moreover, as we have seen in the recent tragic events in 
Charlottesville and Las Vegas, not all ``extremists'' are adherents of 
Islam. How are the CVE programs being tailored to target a wider 
audience to reach would-be perpetrators of extremist attacks?
    Answer. As underscored in my testimony, the Department's terrorism 
prevention efforts address all forms of terrorism. DHS constantly 
updates our organizational and operational response to the threat from 
radicalization and recruitment to violence in the United States, and so 
acts to ensure its terrorism prevention programs focus on the threat, 
not a particular geographic, religious, or other community.
    Question 2a. The agencies engaged in CVE programs have both law 
enforcement and intelligence-gathering responsibilities. However, the 
purpose of CVE programs is to foster substantive relationships with the 
community and to reach vulnerable populations prior to radicalization. 
Are there are other Federal agencies that are better equipped to carry 
out that mission?
    Answer. OTPP specifically does not have a law enforcement or 
intelligence gathering mission. DHS community partnership terrorism 
prevention efforts do not include gathering intelligence for the 
purpose of potential criminal prosecution. OTPP works closely with a 
number of non-security Federal agencies that may have equities and 
interest in supporting terrorism prevention efforts through the 
office's leadership of the interagency CVE Task Force. These include, 
but are not limited to, the Department of Health and Human Services, 
Department of Education, and the U.S. Digital Service. To make their 
contributions effective, OTPP believes that continued and regular 
coordination through the CVE Task Force is required to build an 
effective interagency response to the threat. However, it is also 
important to note that State and local law enforcement agencies must 
remain a part of this effort, especially given their community policing 
and engagement activities that support numerous forms of violence 
prevention without gathering intelligence for criminal justice or other 
purposes.
    Question 2b. How do you disengage your law enforcement and 
intelligence-gathering mission when participating in CVE activities?
    Answer. The DHS terrorism prevention programs that are operated by 
OTPP do not have a law enforcement or intelligence-gathering mission, 
as OTPP terrorism prevention efforts do not include gathering 
intelligence for the purpose of potential criminal prosecution.
    Question 2c. What safeguards are in place to protect the civil 
liberties of the communities that your agencies are engaging?
    Answer. OTPP works closely with our DHS Office of Civil Rights and 
Civil Liberties to ensure that we protect the civil liberties of the 
communities with whom we are engaging.
      Questions From Honorable Scott Perry for Christopher A. Wray
    Question 1a. How many supervisory agents or analysts are in the 
entire FBI?
    Question 1b. Do you think that number is adequate?
    Answer. Response was not received at the time of publication.
    Question 2a. What is the ratio of supervisory positions in the 
field versus at headquarters?
    Question 2b. Do you think that ratio is adequate?
    Answer. Response was not received at the time of publication.
    Question 3. How many levels of command are between desk analysts 
and the director, to get the director to sign off on substantial 
techniques?
    Answer. Response was not received at the time of publication.
    Question 4. How many levels of command are between the line level 
and director?
    Answer. Response was not received at the time of publication.
    Question 5a. How many assistant directors are in the FBI?
    Question 5b. How have the numbers of assistant directors grown from 
2 to 16 since about 2001?
    Question 5c. Do you believe that this growth is justified?
    Question 5d. What do you plan to do about it?
    Answer. Response was not received at the time of publication.
    Question 6a. Where did the FBI get the personnel to staff these 
assistant directorates at headquarters?
    Question 6b. Did the personnel come from supervisory agents and 
analysts in the field?
    Question 6c. Do you consider it effective to take an agent who 
worked 3-6 years on a case in the field, and remove that agent from the 
field to spend the rest of his or her career as a bureaucrat?
    Answer. Response was not received at the time of publication.
    Question 7. Why did highly-trained field agents with specific 
skills seek transfers to cities where their skills were not needed?
    Answer. Response was not received at the time of publication.
    Question 8. Why has the FBI leadership reassigned end-of-career 
bureaucrat supervisory agents, who have spent years out of the field, 
and sent them back to run field investigations?
    Answer. Response was not received at the time of publication.
    Question 9. The Secret Service has thwarted 100 percent of 
terrorist attacks and assassination attempts on those under its 
protection since 1981. How many terrorist attacks has the FBI thwarted 
since that time?
    Answer. Response was not received at the time of publication.
    Question 10a. How many ``lone wolf'' terrorists were known to the 
FBI before they murdered and maimed innocent Americans?
    Why is this number so high?
    Answer. Response was not received at the time of publication.
    Question 10b. If you have so many agents and analysts, why does the 
FBI let so many extremists remain under observation so that they are 
free to kill?
    Answer. Response was not received at the time of publication.
    Question 11. How many successful terrorist attacks did the FBI know 
about before they occurred?
    Answer. Response was not received at the time of publication.
    Question 12. If the FBI used Secret Service methods against its 
targets, would the FBI have had greater success?
    Answer. Response was not received at the time of publication.
    Question 13. It appears that the FBI, for the past decade or more, 
has taken a political or policy decision not to move against 
individuals who espouse violent jihad in this country, and has chosen 
to wait until after not-yet-violent jihadists go violent before the FBI 
takes action. Why is this so?
    Answer. Response was not received at the time of publication.
    Question 14a. Are you satisfied that FBI training is free from bias 
that would blind agents and analysts to certain ideological threats?
    Question 14b. Will you commit to a full-ranging review of FBI 
training curriculum concerning domestic terrorist threats, including 
jihadists?
    Answer. Response was not received at the time of publication.
    Question 15a. Does the FBI have a doctrine and mechanism for 
considering foreign non-governmental organizations that function like 
intelligence services, to be essentially a non-governmental foreign 
intelligence service?
    Question 15b. How can Congress help you improve these capabilities?
    Answer. Response was not received at the time of publication.
    Question 16a. How many terrorists in the United States have had 
connections with, indoctrination or training from, or other ties with 
the Muslim Brotherhood or its operatives and fronts?
    Question 16b. Do you think the Muslim Brotherhood should be 
designated as a terrorist organization? Why or why not?
    Answer. Response was not received at the time of publication.
    Question 17a. What is the formal or informal name of the FBI 
grouping that had been assigned to monitor the Muslim Brotherhood in 
the United States?
    When was that grouping created?
    Answer. Response was not received at the time of publication.
    Question 17b. How many agents and analysts were assigned to that 
grouping at its peak?
    Answer. Response was not received at the time of publication.
    Question 17c. How many agents and analysts are assigned to monitor 
the Muslim Brotherhood and its fronts and affiliates now?
    Answer. Response was not received at the time of publication.
    Question 17d. Who in the FBI made the decision to slash monitoring 
of the Muslim Brotherhood and its fronts and affiliates?
    The committee is told that Deputy Director McCabe made the 
decision. Why is he still there?
    Was the decision fact-driven or need-driven, or was it politically 
or ideologically driven?
    When was that decision made?
    Answer. Response was not received at the time of publication.
    Question 18. Does the FBI use membership in the Muslim Brotherhood 
or its fronts or controlled organizations as criteria when evaluating 
the recruitment of FBI agents, analysts, contractors, and personnel?
    Answer. Response was not received at the time of publication.
    Question 19a. When did the FBI admit known Muslim Brotherhood 
operatives and assets to train agents and analysts?
    What has been the FBI's screening procedures against Muslim 
Brotherhood operatives and assets seeking to influence the FBI through 
training and other programs?
    Answer. Response was not received at the time of publication.
    Question 19b. What are the FBI's successes over the past 10 years 
in preventing Muslim Brotherhood operatives and agents from penetrating 
the Federal Government?
    Answer. Response was not received at the time of publication.
    Question 19c. How many Muslim Brotherhood loyalists are employed as 
FBI agents, analysts, and staff?
    Answer. Response was not received at the time of publication.
    Question 20. Does the FBI consider Russia to be an ally against 
Islamic-inspired terrorism?
    How has the FBI relied on the Russian security and intelligence 
services for information on terrorists who threaten the United States?
    Answer. Response was not received at the time of publication.
    Question 21a. I think all of us want to salute the FBI for its 
brilliant Operation Ghost Stories, which tracked a Russian SVR 
``illegals'' penetration network for about a decade, ending in 2010.
    How does the FBI describe the difference between counterespionage 
and counterintelligence?
    Answer. Response was not received at the time of publication.
    Question 21b. What is the percentage of FBI resources devoted to 
counterespionage, as opposed to counterintelligence?
    Answer. Response was not received at the time of publication.
    Question 22. How many Chinese influence operations--not espionage 
operations--has the FBI uncovered or disrupted over the past 10 years?
    Answer. Response was not received at the time of publication.
    Question 23. What is the FBI's assessment of the resources that the 
Russian and Chinese intelligence services are using to conduct covert 
influence operations aimed at the American public and leadership?
    Answer. Response was not received at the time of publication.
    Question 24a. Did the FBI exhaust all reasonable means to complete 
a full damage assessment of the Robert Hanssen penetration?
    A witness has come forward to state that he attempted on multiple 
occasions to alert the Hanssen Damage Assessment Team of compromises to 
FBI methods against Chinese intelligence operations, and that the FBI 
was not interested. Would you comment?
    Answer. Response was not received at the time of publication.
    Question 24b. Witnesses say that FBI Director Mueller wanted the 
Hanssen Damage Assessment Team to wrap up quickly and shut down because 
it was uncovering so much information damaging to the FBI. Would you 
comment?
    Answer. Response was not received at the time of publication.
    Question 24c. How confident is the FBI that the Russians have made 
no further Hanssen-style penetrations of the FBI or other Federal 
agencies?
    Answer. Response was not received at the time of publication.
    Question 24d. How does the FBI arrive at such a level of 
confidence?
    Answer. Response was not received at the time of publication.
    Question 25a. Are you satisfied with the quality and thoroughness 
of background investigations for Government contractors to receive 
security clearances?
    Answer. Response was not received at the time of publication.
    Question 25b. How can these background investigations be improved?
    Answer. Response was not received at the time of publication.
    Question 26a. What criminal and National security investigations 
did the FBI conduct in to Chinese hacking of the Office of Personnel 
Management's database, that included all Classified information on 
individuals who had applied for or received clearances?
    Is/are those investigations still under way?
    Answer. Response was not received at the time of publication.
    Question 26b. Why were no criminal charges recommended for the 
Justice Department to pursue?
    Answer. Response was not received at the time of publication.
    Question 27a. How is the FBI's foreign defector program working? 
Does the FBI have sufficient human and material resources to attract 
foreign defectors, debrief them, and help them start new lives without 
threat of revenge or assassination?
    Why did the FBI not seek to induce any of the 10 SVR agents 
(illegals) arrested in 2010 under Operation Ghost Stories to defect?
    Answer. Response was not received at the time of publication.
    Question 27b. Why did the FBI go along with the near-immediate 
repatriation of the 10 SVR illegals to Russia after they were arrested, 
and not push for a better trade with Moscow, or other concessions?
    Answer. Response was not received at the time of publication.
    Question 27c. Since the United States has been squeezing members of 
Putin's inner circle, what is the FBI's strategy to induce more 
defections from the Russian services and political leadership?
    Answer. Response was not received at the time of publication.
    Question 27d. Why did Russian defector Mikhail Lesin, a longtime 
Putin insider, begin talks with the FBI to defect in about 2015?
    Answer. Response was not received at the time of publication.
    Question 27e. Was Lesin under FBI supervision in October-November 
2015?
    Answer. Response was not received at the time of publication.
    Question 27f. Lesin died a violent death at the Dupont Circle Hotel 
in November, 2015. The Russian government seemed undisturbed by the 
death and immediately dismissed Lesin's death as due to natural causes. 
A lengthy medical examination ruled in 2016 that he died of multiple 
blunt-force trauma to the head, neck, torso, and extremities. The cause 
of death was later said to have been due to natural causes.
  <bullet> How does the FBI account for this discrepancy?
  <bullet> Why did the FBI fail to protect Lesin as he negotiated his 
        defection?
  <bullet> Do you think that the Russian government may have Lesin 
        assassinated?
    Answer. Response was not received at the time of publication.
    Question 28. We understand that the upper management of the FBI, 
until your appointment as director, was the cause of unusual morale 
problems in field offices across the country. What do you intend to do 
to improve FBI morale?
    Answer. Response was not received at the time of publication.
    Question 29. From a National security perspective, do you think 
it's an urgent priority for the FBI to consolidate to a new 
headquarters?
    Answer. Response was not received at the time of publication.
    Question 30. The GSA and FBI have been working for years on the FBI 
headquarters consolidation project, and in July announced that they 
would cancel procurement due to lack of sufficient funding. Does the 
FBI have a planned viable site for the new headquarters?
    Answer. Response was not received at the time of publication.
    Question 31. How can the FBI combine headquarters consolidation 
with managerial and training reforms to improve the Bureau's 
capabilities against hostile foreign intelligence, subversion, and 
terrorism, and other threats to homeland security?
    Answer. Response was not received at the time of publication.
    Question 32. What steps has the FBI taken to reverse the Obama 
administration's purge of training courses & information about Islam, 
jihad, shariah & the Muslim Brotherhood?
    Answer. Response was not received at the time of publication.
    Question 33. What training programs has the FBI instituted on these 
topics since the beginning of the Trump administration?
    Answer. Response was not received at the time of publication.
    Question 34. Who specifically by name & affiliation are the 
contract training instructors the FBI uses to provide instruction to 
its agents about the domestic threat from the Islamic Movement?
    Answer. Response was not received at the time of publication.
    Question 35. Please describe in at least general terms what 
programs the FBI currently implements to monitor potentially seditious 
activity inside U.S. mosques & Islamic Centers known to be affiliated 
w/the Muslim Brotherhood. Does the FBI currently have a law enforcement 
objective and program to investigate material support to terrorism as 
enabled by the financial institution of zakat, which we know under 
Islamic Law to be a funding mechanism for jihad terror?
    Answer. Response was not received at the time of publication.
    Question 36. Antifa operates across the United States in ways that 
involve at least potentially criminal interstate activities, such as 
inciting a riot & conspiracy to incite a riot. What is the FBI doing to 
counter Antifa, including to investigate & shut down its funding 
sources?
    Answer. Response was not received at the time of publication.
    Question 37. Understanding that there is a ``Red-Green Axis'' of 
domestic enemies that include the Muslim Brotherhood, the Black Lives 
Matter movement & myriad anarchist/communist entities operating in a 
collaborative way in the United States, what steps has the FBI taken to 
confront that Axis?
    Answer. Response was not received at the time of publication.
    Question 38. Please describe your understanding of Antifa, its 
component elements, ideology, international connections, tactics & the 
FBI's operational plan to counter its activities & influence.
    Answer. Response was not received at the time of publication.
    Question 39. Does the FBI have an organized training program for 
its agencies & officers that familiarizes them with the elements, 
ideology & operations of the Red-Green Axis?
    Answer. Response was not received at the time of publication.
    Question 40. If so, please describe that training program. If not, 
why not & when do you expect to have such a program in place?
    Answer. Response was not received at the time of publication.
         Questions From Ranking Member Bennie G. Thompson for 
                          Christopher A. Wray
    Question 1a. The FBI has previously opened investigations into 
leaders of the Black Lives Matter Movement. Could you explain whether 
Black Lives Matter members fall under the umbrella of Black Identity 
Extremists?
    Question 1b. Does the FBI consider the Black Lives Matter movement 
a violent extremist movement?
    Answer. Response was not received at the time of publication.
    Question 2a. Is it a priority for you to ensure that intelligence 
products are free from racial, cultural, and religious biases?
    Question 2b. Will the Bureau conduct a comprehensive racial, 
cultural, and religious review of all intelligence products and 
materials within the next year?
    Answer. Response was not received at the time of publication.
    Question 3. Are far right-wing groups responsible for the most 
domestic terrorist acts and attempted domestic terrorist acts in the 
United States? Please explain.
    Answer. Response was not received at the time of publication.
    Question 4. Please provide a full breakdown of the number of open 
domestic terrorism assessments, preliminary investigations, and full 
investigations. For comparison, provide the same information for 
international terrorism assessments, preliminary investigations, and 
full investigations.
    Answer. Response was not received at the time of publication.
    Question 5a. Being that there is no criminal statute of ``domestic 
terrorism,'' how does the FBI track charges stemming from domestic 
terrorism investigations?
    Question 5b. For instance, is there data that tracks how many cases 
investigated as domestic terrorism result in murder charges, or 
racketeering charges, etc.?
    Answer. Response was not received at the time of publication.
    Question 6a. It is often said that the United States cannot rely on 
investigations and arrests to thwart terrorism in the homeland.
    What is the FBI doing to terms of CVE programing and operations?
    Question 6b. Please confirm, FBI has dismantled and ended all 
operations related to Shared Responsibility Committees program.
    Answer. Response was not received at the time of publication.
    Question 7a. In June 2014, the DOJ, under former Attorney General 
Holder, announced the reestablishment of its Domestic Terrorism 
Executive Committee, which had been defunct for several years. The 
committee includes DOJ leadership and is co-chaired by a member of the 
U.S. Attorney community, the DOJ National Security Division, and the 
FBI. It is designed to promote information sharing and collaboration in 
Federal efforts to fight domestic terrorism. Additionally, in April, 
Attorney General Sessions established a Hate Crimes Subcommittee as 
part of DOJ's Task Force on Crime Reduction and Public Safety.
    Please provide an update on the work of this group.
    Question 7b. What specifically is the FBI's role?
    Answer. Response was not received at the time of publication.
    Question 8a. Do you believe that HVEs present an emerging threat to 
the homeland?
    Question 8b. How can we be more effective in preventing these 
attacks and ``lone wolf'' attacks''?
    Answer. Response was not received at the time of publication.
    Question 9a. The FBI and DHS produced an intelligence bulletin on 
May 11, 2017, that purported to warn about the ``persistent threat of 
lethal violence'' from white supremacist groups. The data reported in 
the bulletin claimed there were 49 homicides in 26 attacks from 2000 to 
2016, but these numbers are significantly lower than those reported by 
academics who study this issue.
    Please provide a full list of the 49 homicides in 26 attacks from 
2000 to 2016.
    Question 9b. How do you account for these discrepancies?
    Question 9c. Do these discrepancies affect local law enforcement 
efforts to police such groups?
    Answer. Response was not received at the time of publication.
    Question 10a. Between 1977 and 2016, there have been hundreds of 
crimes committed against reproductive health care facilities and 
abortion providers, including at least 11 murders, 26 attempted 
murders, 42 bombings, 186 arsons, 98 attempted bombings or arsons, and 
411 clinic invasions. Please provide any data that your agency has used 
to track crimes targeting reproductive health care facilities and 
abortion providers.
    Does violence aimed at reproductive health care clinics, doctors, 
patients, and staff fall under the Federal statutory definition of 
``domestic terrorism''?
    If not, when would anti-abortion violence rise to the level of 
``domestic terrorism''?
    Question 10b. Are the Department of Homeland Security, the FBI, and 
the National Counterterrorism Center currently committing funding and 
staff to investigate violence against reproductive health care clinics, 
doctors, patients, and staff in order to identify whether any patterns 
and practices emerge?
  <bullet> If yes, please explain what level of personnel and budget is 
        being provided.
  <bullet> If not, why not?
    Answer. Response was not received at the time of publication.
  Questions From Honorable Val Butler Demings for Christopher A. Wray
    Question 1. Most of the administration's CVE efforts to date have 
been focused on Muslim communities. However, recent reports, arrests, 
and convictions indicate that new recruits to ISIS do not have a 
particular ethnic background and are not always familiar with Islam. 
Moreover, as we have seen in the recent tragic events in 
Charlottesville and Las Vegas, not all ``extremists'' are adherents of 
Islam. How are the CVE programs being tailored to target a wider 
audience to reach would-be perpetrators of extremist attacks?
    Answer. Response was not received at the time of publication.
    Question 2a. The agencies engaged in CVE programs have both law 
enforcement and intelligence-gathering responsibilities. However, the 
purpose of CVE programs is to foster substantive relationships with the 
community and to reach vulnerable populations prior to radicalization.
    Are there are other Federal agencies that are better equipped to 
carry out that mission?
    Answer. Response was not received at the time of publication.
    Question 2b. How do you disengage your law enforcement and 
intelligence-gathering mission when participating in CVE activities?
    Answer. Response was not received at the time of publication.
    Question 2c. What safeguards are in place to protect the civil 
liberties of the communities that your agencies are engaging?
    Answer. Response was not received at the time of publication.
     Questions From Honorable Scott Perry for Nicholas J. Rasmussen
    Question 1. What do you consider to be the most critical threat to 
U.S. National security today?
    Answer. Within the counterterrorism mission space, the National 
Counterterrorism Center believes that the most immediate terrorist 
threat to the homeland is the threat of violence carried out by Home-
grown Violent Extremists (HVEs)--a threat we expect will persist 
through the next year.
    Question 2. Given that terrorism is merely a tactic--and thus, we 
are not fighting terrorism--whom would you say are the most dangerous 
enemies we face today & why?
    Answer. We believe that HVEs pose the most immediate terrorism-
related threat in the homeland. The individualized nature of the 
radicalization and mobilization to violence process makes it difficult 
to identify in advance and disrupt individuals seeking to commit acts 
of terrorism. Over the next year, we expect that most HVEs will 
continue to focus on soft targets, while still considering traditional 
targets, such as military personnel, law enforcement, and other symbols 
of the U.S. Government. Additionally, networks aligned with the 
predominant global Sunni and Shia terrorist groups--ISIS, al-Qaeda, and 
Lebanese Hizballah--remain potent transnational threats to U.S. global 
interests. In particular, ISIS's intent to target aviation poses a 
continuing threat to the United States and other partners world-wide.
    Question 3a. Would you agree that the United States faces a 
domestic insurgency from the forces of Islamic jihad?
    If so, what do you think are the most urgent steps the United 
States must take to protect ourselves from that threat?
    Question 3b. If not, why not & what would you say is the most 
critical domestic security threat we face at this time?
    Answer. NCTC believes that the United States is not facing a 
domestic insurgency from Islamic terrorist elements. We believe that 
the perpetrators of acts of terrorism in the homeland, who in some 
cases have been inspired by Sunni violent extremist ideologies, have 
generally not been directed by Foreign Terrorism Organizations. HVEs in 
the United States are not typically networked and are geographically 
dispersed with no major population densities; a central command 
authority does not direct and/or coordinate operations; and as a group, 
they do not present a threat to the functioning of government, either 
State or local.
    Question 4. Islamic jihad terror spans the globe & crosses national 
borders at will, both in the movement of people & by way of the 
internet. What are the steps you believe most critical for the NCTC to 
implement in order to stay ahead of the global Islamic Movement & its 
myriad domestic U.S. operatives?
    Answer. We believe it is critical for NCTC and our Intelligence 
Community (IC) counterparts to strengthen our biometric collection, 
sharing, and screening capabilities, and to constantly look for ways to 
adapt and enhance our processes as new technologies and sources of 
information become available. In addition, as terrorists look to move 
out of conflict zones and seek refuge in other countries, we need to 
expand our information-sharing relationships with foreign partner 
intelligence, law enforcement, and border security services as they 
pertain to known or suspected terrorists, and when necessary, offer or 
provide guidance on implementing advanced screening technologies to 
ensure we are identifying these individuals well in advance of any 
attempts to travel to the homeland.
    As terrorist groups increasingly take to the internet to expand 
their global support base, it will be critical for our IC, State, 
local, and private-sector partners to take action in addressing 
terrorists' exploitation of U.S. technologies. During the past year, we 
have expanded our capacity to better understand how terrorists are 
operating on-line and continue to share those insights within the IC 
and with technology-sector companies to better inform their independent 
efforts to take action against violent extremist propaganda. We are 
also providing intelligence support to partners in the Department of 
Defense (DOD), Federal Bureau of Investigation (FBI), the Global 
Engagement Center and elsewhere who are working to apply these insights 
to support military operations, counter-messaging campaigns, and law 
enforcement disruptions.
    Question 5. Please describe your understanding of Antna's 
international networks & how NCTC acts to counter them.
    Answer. We defer to FBI and Department of Homeland Security (DHS) 
for a response to this question, as they are the primary organizations 
in the U.S. Government responsible for domestic terrorism. In general, 
NCTC ensures that agencies, as appropriate, have access to and receive 
all-source intelligence support needed to accomplish their assigned 
activities, including to execute their counterterrorism plans or 
perform independent, alternative analysis.
   Questions From Ranking Member Bennie G. Thompson for Nicholas J. 
                               Rasmussen
    Question 1a. Do you believe that HVEs present an emerging threat to 
the homeland?
    Answer. The first recognized HVE attack was conducted in July 2002, 
and since that time, there have been at least 25 more attacks. We saw 
an increase in the number of attacks with the announcement of ISIS' 
caliphate in 2014. We continue to face a persistent threat from HVEs, 
as individuals heed calls for attacks from ISIS, al-Qaeda, and these 
groups' branches and on-line supporters. NCTC believes that HVEs are 
motivated by a combination of factors, including terrorist propaganda, 
extremist ideology, grievances against the U.S. Government's actions, 
and personal factors such as unmet psychological needs that can cause 
an individual to seek such things as adventure or a sense of purpose. 
HVEs are often self-initiating, making their plotting hard to detect if 
they minimize statements of support for extremist groups and refrain 
from reaching out to like-minded individuals for support or capability 
building. HVEs most often operate alone or with one close associate or 
family member and tend to gravitate toward soft targets and simple 
tactics that do not require advanced skills or outside training.
    Question 1b. How can we be more effective in preventing these 
attacks and ``lone-wolf'' attacks?
    Answer. Developing and resourcing a spectrum of locally-tailored 
prevention and intervention programs that increase public awareness of 
terrorist recruitment, build trust between communities and law 
enforcement, and leverage a multi-disciplinary approach will be key to 
enhancing our ability to prevent lone-actor attacks. Departments and 
agencies currently lack sufficient funding to develop and sustain 
prevention programming and initiatives, which constitute about 0.01 
percent of the overall annual U.S. CT budget.
  <bullet> Prevention programs are most effective when they include and 
        support educators, mental health professionals, local 
        government officials, religious leaders, social service 
        providers, and others who are involved in public safety.
  <bullet> Prevention programs that proactively address root causes of 
        mobilization generally lead to more durable, long-term 
        solutions.
    To support appropriate agencies in fulfillment of their 
        responsibilities to disseminate terrorism information, NCTC 
        offers several programs to increase awareness of radicalization 
        and recruitment and to empower State and local partners to 
        develop locally-tailored CT programs. These specific tools 
        include the Community Awareness Brief (CAB) and the Terrorism 
        Prevention Planning Workshop. NCTC and FBI case study research 
        has found that in 75 percent of HVE cases at least one person--
        usually a peer or family member--became aware of a subject's 
        violent extremist views or activities, but more than half did 
        not report their concerns to law enforcement. Academic research 
        suggests these individuals do not report their concerns to 
        Countering Violent Extremist service providers or law 
        enforcement primarily because they do not want to get their 
        friend, family member, or themselves in trouble; however, we 
        believe opportunities exist to increase reporting by improving 
        public understanding of the factors that contribute to 
        radicalization and mobilization to violence, as well as 
        enabling multiple options to report concerning behavior.
    Question 2a. The FBI and DHS produced an intelligence bulletin on 
May 11, 2017 that purported to warn about the ``persistent threat of 
lethal violence'' from white supremacist groups. The data reported in 
the bulletin claimed that there were 49 homicides in 26 attacks from 
2000 to 2016, but these numbers are significantly lower than those 
reported by academics who study this issue.
    Please provide a full list of the 49 homicides in 26 attacks from 
2000 to 2016.
    Question 2b. How do you account for these discrepancies?
    Question 2c. Do these discrepancies affect local law enforcement 
efforts to police such groups?
    Answer. NCTC defers to FBI and DHS to address this question, as 
they are the primary organizations in the U.S. Government responsible 
for domestic terrorism.
    Question 3a. Between 1977 and 2016, there have been hundreds of 
crimes committed against reproductive health care facilities and 
abortion providers, including at least 11 murders, 26 attempted 
murders, 42 bombings, 86 arsons, 98 attempted bombings or arsons, and 
411 clinic invasions. Please provide any data that your agency has used 
to track crimes targeting reproductive health care facilities and 
abortion providers.
    Does violence aimed at reproductive health care clinics, doctors, 
patients, and staff fall under the Federal statutory definition of 
``domestic terrorism''?
    If not, when would anti-abortion violence rise to the level of 
``domestic terrorism''?
    Question 3b. Are the Department of Homeland Security, the FBI, and 
the National Counterterrorism Center currently committing funding and 
staff to investigate violence against reproductive health care clinics, 
doctors, patients, and staff in order to identify whether any patterns 
and practices emerge?
    If yes, please explain what level of personnel and budget is being 
provided.
    If not, why not?
    Answer. NCTC defers to FBI and DHS to address this question, as 
they are the primary organizations in the U.S. Government responsible 
for domestic terrorism.
 Questions From Honorable Val Butler Demings for Nicholas J. Rasmussen
    Question 1. Most of the administration's CVE efforts to date have 
been focused on Muslim communities. However, recent reports, arrests, 
and convictions indicate that new recruits to ISIS do not have a 
particular ethnic background and are not always familiar with Islam. 
Moreover, as we have seen in the recent tragic events in 
Charlottesville and Las Vegas, not all ``extremists'' are adherents of 
Islam. How are the CVE programs being tailored to target a wider 
audience to reach would-be perpetrators of extremist attacks?
    Answer. In response to growing demand from Federal, State, local, 
and community partners for tools and programs that reflect a 
comprehensive view of the domestic terrorist threat picture, NCTC and 
its other interagency partners worked with the interagency CVE Task 
Force in early 2017 to update all of our programs--including the 
Community Awareness Brief (CAB), the CAB Training Program, and 
Terrorism Prevention Planning Workshop--to ensure that they are 
responsive to the full spectrum of violent ideologies in the United 
States, from ISIS-inspired ideologies, to violent anarchist ideologies, 
to violent white supremacist ideologies. In support of DRS, Department 
of Justice (DOJ), and FBI, NCTC has integrated information on the full 
spectrum of violent extremist ideologies into our preventing terrorism 
workshops, which are presented to a wide variety of audiences and not 
just to any particular faith group.
    Question 2a. The agencies engaged in CVE programs have both law 
enforcement and intelligence-gathering responsibilities. However, the 
purpose of CVE programs is to foster substantive relationships with the 
community and to reach vulnerable populations prior to radicalization.
    Are there other Federal agencies that are better equipped to carry 
out that mission?
    Answer. In light of the dynamic threat posed by all forms of 
violent extremists targeting Americans, the whole-of-Government, not 
just security agencies, must respond with innovative approaches to 
prevent radicalization to violence in the United States. No one agency 
has all of the authorities or resources to tackle this on its own.
  <bullet> The interagency CVE Task Force was established in January 
        2016 to serve as a coordinating body to manage and synchronize 
        the integration of whole-of-Government efforts to empower local 
        partners to prevent violent extremism.
  <bullet> The CVE Task Force was established to include full-time 
        staff from NCTC, FBI, DHS, and DOI, as well as participation 
        from non-security agencies including HHS, Education, State, and 
        United States Agency for International Development (USAID.) As 
        of fiscal year 2018, the CVE Task Force continued to seek the 
        interagency staffing support and resources to execute its 
        mission. The current levels of staffing have severely inhibited 
        the Task Force's ability to operate, set policy objectives and 
        coordinate whole-of-Government CVE issues.
    NCTC has supported the interagency--including DOJ, FBI, DHS, and 
the interagency CVE Task Force--to convene and facilitate Prevention 
initiatives, training, and tools to raise awareness and counter 
terrorist recruitment efforts.
    Question 2b. How do you disengage your law enforcement and 
intelligence-gathering mission when participating in CVE activities?
    Answer. NCTC, for its part, does not have a law enforcement 
mission. Additionally, the 2016 Strategic Implementation Plan for the 
National CVE Strategy clearly outlined a separation between community 
engagement and intelligence collection.
    Question 2c. What safeguards are in place to protect the civil 
liberties of the communities that your agencies are engaging?
    Answer. NCTC has instituted multiple safeguards to protect the 
civil liberties of members of the communities we engage. First, NCTC's 
staff involved in CVE activities do not have an intelligence collection 
function, therefore none of our staff would be engaging for that 
purpose. Second, only our staff who work on policy and/or strategy, and 
not intelligence analysis, conduct terrorism prevention briefings with 
communities. Third, all of the material we present is cleared by our 
civil rights office prior to distribution. Last, all of our training 
material has been vetted by the interagency to ensure it adheres to 
interagency civil rights and civil liberties standards.
         Questions From Honorable Scott Perry for Richard Cohen
    Question 1. How does the SPLC work with a major internet search 
engine like Google to adjust its algorithms to produce search results 
that either highlight SPLC-designated hate groups, or push those 
results further down the search chain?
    Answer. Response was not received at the time of publication.
    Question 2. How does the SPLC work with Google or its subsidiaries, 
including YouTube, to modify search results of SPLC-designated people 
or groups?
    Answer. Response was not received at the time of publication.
    Question 3. How does the SPLC work with Facebook, Twitter, and 
other social media to block, suspend, or ban individuals or groups the 
SPLC designates as ``haters?''
    Answer. Response was not received at the time of publication.
    Question 4. How does the SPLC work with internet companies like 
YouTube and Facebook to single out people and groups it designates as 
undesirable, and deprive them of revenues from advertisements, 
subscriptions, or payments?
    Answer. Response was not received at the time of publication.
    Question 5. How does the SPLC work with credit card, money 
transfer, and banking services to deprive its designated 
``undesirables'' from legitimate and lawful financial transactions and 
revenue receipts?
    Answer. Response was not received at the time of publication.
    Question 6. Does the SPLC condemn attempts to pressure or persuade 
Visa, MasterCard, American Express, Discover, PayPal, Square, J.P. 
Morgan Chase, and other financial services companies to deprive 
innocent people and organizations, who are engaged in lawful activity, 
of lawful income?
    Answer. Response was not received at the time of publication.
    Question 7. Since news organizations, research groups, and until 
recently, Federal agencies have used SPLC data to determine whether an 
organization is considered a hate group or an extremist group, what are 
your scientific methodologies and criteria for designating an 
organization as a ``hate group''?
    Answer. Response was not received at the time of publication.
    Question 8. What are your scientific methodologies and criteria for 
designating an individual or organization as an ``extremist''?
    Answer. Response was not received at the time of publication.
    Question 9. Is intent to overthrow the Constitution of the United 
States a major factor in the SPLC's designation of a person or 
organization as ``extremist''?
    Answer. Response was not received at the time of publication.
    Question 10. What are the SPLC criteria for designating non-violent 
and peaceful groups like the Family Research Council as extremist, yet 
not designating violent groups like Antifa as extremist?
    Answer. Response was not received at the time of publication.
    Question 11. Below are some individuals and organizations that the 
SPLC has listed as ``extremists'' or ``hate groups'' in your Field 
Guide to Anti-Muslim Extremists. and will ask you to describe the 
methodologies the SPLC has used to make those designations:
  <bullet> Ayaan Hirsi Ali, a Somali refugee and victim of female 
        genital mutilation. Why does SPLC classify her as an extremist?
  <bullet> Steve Emerson, whom the SPLC denigrates as a ``self-
        described'' terrorism expert, when in fact he is a widely-
        regarded terrorism expert. None of the information the SPLC 
        provides in its profile shows that Emerson is either ``anti-
        Muslim'' or an ``extremist.'' What is SPLC's basis for 
        designating Emerson in those terms?
  <bullet> Robert Muise, a free-speech attorney with the non-profit 
        American Freedom Law Center. He has litigated to oppose 
        unconstitutional Sharia law in the United States, and defended 
        controversial figures on First Amendment grounds. Why does the 
        SPLC consider him an ``anti-Muslim extremist''?
  <bullet> Family Research Council, an organization dedicated to 
        protecting traditional American values. What scientific 
        methodology did the SPLC use to designate the FRC as an 
        extremist or hate group?
    Answer. Response was not received at the time of publication.
    Question 12. Why have you included in your hate groups list 
mainstream, non-violent public policy groups like the Family Research 
Council and public interest law firms like Alliance Defending Freedom, 
but not Antifa or Black Lives Matter, which actually call for violence 
against individuals?
    Answer. Response was not received at the time of publication.
    Question 13. While I think many Americans would agree that some of 
the groups on your list, like the KKK, are objectionable, would you 
agree--yes or no--that you list some groups as haters or extremists 
simply because you find objectionable the fact that they are pro-
Israel, pro-Christian, or pro-police?
    Answer. Response was not received at the time of publication.
    Question 14. Do you stand by former SPLC employee Mark Potok's 
statement that a purpose of the SPLC Hate Group list is to ``destroy'' 
the groups included on it?
    Answer. Response was not received at the time of publication.
    Question 15. I want to calibrate your methodology by asking you to 
respond ``yes'' or ``no'' on whether the SPLC considers the following 
organizations to be hate groups or extremist groups:
  <bullet> Antifa
  <bullet> Workers World Party
  <bullet> Revolutionary Communist Party
  <bullet> Muslim Brotherhood
  <bullet> ISIS/Islamic State/Daesh
  <bullet> American Family Association
  <bullet> Family Research Council
  <bullet> Federation for American Immigration Reform
  <bullet> Traditional Values Coalition
    Answer. Response was not received at the time of publication.
    Question 16. Are you aware that Floyd Lee Corkins, who was 
convicted of domestic terrorism in Federal court, used your hate map 
for his list of targets when he entered Family Research Council with 
the intention of killing as many of the people there as possible, and 
actually shot Leo Johnson, the building manager of Family Research 
Council?
    Answer. Response was not received at the time of publication.
    Question 17. In 2012, Mr. Corkins, the domestic terrorist who shot 
the building manager of the Family Research Council, and who intended 
to murder as many Family Research Council staff as he could, said that 
the SPLC website inspired him to target the organization.
  <bullet> Did the SPLC ever condemn the terrorist attack on the Family 
        Research Council?
  <bullet> Did the SPLC ever contact the Family Research Council to 
        express its concern?
  <bullet> Did the SPLC use the shooting as an opportunity to further 
        attack FRC and make them even more a target for violence?
    Answer. Response was not received at the time of publication.
    Question 18. In 2017, an armed violent extremist attempted to 
assassinate several Members of the U.S. Congress and Senate, severely 
wounding our colleague, Congressman Steve Scalise. The would-be 
assassin had ``liked'' the SPLC on social media, leading to concerns 
that the SPLC could have inspired him to try to murder Federal 
lawmakers, as the Family Research Council shooter had been inspired. 
What has SPLC done to ensure that its material does not radicalize 
people to become violent?
    Answer. Response was not received at the time of publication.
    Question 19. How many of the groups you designate as ``hate'' 
groups actually have fewer ties to domestic terrorist attacks then the 
SPLC itself?
    Answer. Response was not received at the time of publication.
    Question 20. The SPLC has done considerable reporting on the 
extremist ``Unite the Right'' rally in Charlottesville last month that 
resulted in a clash between white supremacists and Antifa, the homicide 
of a protester, and the accidental deaths of two police officers. SPLC 
has a biography of Unite the Right organizer Jason Kessler, who SPLC 
terms as ``a relative newcomer to the white nationalist scene.'' SPLC 
goes back at least 12 years in Kessler's biography and draws from 
police reports. Then it says, ``Regardless of Kessler's past politics, 
the rightward shift in his views was first put on display in November 
2016 . . . ''. That was only 10 months ago.
  <bullet> Why did the SPLC not describe Kessler's ``past politics'' 
        before November 2016?
  <bullet> Is it because Kessler had, at least to that point, been a 
        prominent leftist activist involved in ``progressive'' 
        politics, including voting for Barack Obama?
  <bullet> Doesn't this selective reporting obscure the possibility 
        that Kessler was more likely to have been a provocateur than a 
        recent convert to ``white supremacist'' views he had until 
        recently found anathema?
    Answer. Response was not received at the time of publication.
    Question 21. What is SPLC's approach to Islamist and left-wing 
extremists who pose a danger to the public and the Nation?
    Answer. Response was not received at the time of publication.
    Question 22. It is important to note for the record that the SPLC 
has identified the Nation of Islam as one of several ``incubators of 
radical fanaticism.'' Therefore, I am asking questions about the Muslim 
Brotherhood and whether it is also an incubator of radical fanaticism.
  <bullet> A search of the SPLC's website does not find the SPLC to 
        have identified the Muslim Brotherhood, or any of its fronts or 
        controlled organizations, to be extremist groups or hate 
        groups. Is this correct?
  <bullet> Given that the Muslim Brotherhood's stated objective is a 
        global caliphate, a dictatorship under the totalitarian Islamic 
        law known as Sharia. Such a dictatorship would exterminate or 
        repress all religious and political minorities, including other 
        Muslims. Why does SPLC not consider this extremist?
  <bullet> Establishment of a global caliphate requires the overthrow 
        of the Constitution of the United States. Since the Muslim 
        Brotherhood's end-state therefore requires the overthrow of the 
        Constitution of the United States, does the SPLC not consider 
        the Muslim Brotherhood to be an extremist organization that is 
        dangerous to our country?
    Answer. Response was not received at the time of publication.
    Question 23. On October 19 of this year, the Southern Poverty Law 
Center sent out a fundraising email, signed by Richard Cohen, that 
stated ``We've always believed it's important to take on groups like 
the FRC that have a foothold in the mainstream. In many ways, they're 
more dangerous to our country than hatemongers who wear robes and 
hoods.''
  <bullet> Please explain Cohen's statement that mainstream 
        conservative organizations are more dangerous than the KKK (ie, 
        ``hatemongers who wear robes and hoods''), specifically the 
        Family Research Council. Please cite the prevailing legal 
        authority the SPLC uses to define ``dangerous'' in this 
        statement.
  <bullet> Please list which organizations the SPLC includes as 
        ``groups like the FRC that have a foothold in the mainstream'' 
        and explain, for each one, why it is more dangerous than the 
        KKK (i.e., ``hatemongers who wear robes and hoods'').
    Answer. Response was not received at the time of publication.
    Question 24. The SPLC has published numerous statements claiming 
that Donald Trump's campaign and election ``energized'' and 
``coincided'' with a statistical increase in hate crimes and ``hate 
groups''. Here are two examples:
    Richard Cohen published an editorial on November 13, 2017 on the 
FBI's hate crime report, in which he stated [emphasis added]: ``The 
significant increase over the last 2 years coincides with Donald 
Trump's racist, xenophobic campaign and its immediate aftermath. We 
reported a surge in hate crimes and other bias-related incidents--many 
of them carried out in Trump's name--in the days after the election. 
The new FBI report confirms our findings, showing a 25 percent rise 
during the final 3 months of 2016.'' https://www.splcenter.org/news/
2017/11/13/hate-crimes-rise-second-straight-year-anti-muslim-violence-
soars-amid-president-trumps
    Similarly, in Richard Cohen's testimony before the committee 
November 30, 2017 he stated, ``the white supremacist movement has been 
energized by Mr. Trump's campaign, proof that Mr. Trump's campaign has 
`unearthed some demons,' to use Congressman Sanford's words.'' https://
www.splcenter.org/sites/default/files/cohen.homeland_security-final.pdf
    However, on November 27, 2017--3 days before Mr. Cohen's 
testimony--The Washington Post carried an article on statistical trends 
in reported hate crimes. The article stated:

``Those increases [i.e. increases in reported hate crimes] occurred 
alongside an increase in the number of hate groups nationally, as 
tracked by the Southern Poverty Law Center. In 2014, the SPLC tracked 
784 hate groups. In 2016, the number rose to 917, up nearly 17 percent. 
While the SPLC argues that the increase is a function of right-wing 
groups being `energized' by Donald Trump's Presidential campaign, we 
hasten to note that there is no strong correlation between the 
frequency of victimization and politics. Many States in the Northeast 
showed higher rates of hate crimes in 2016. Nor was there a pattern in 
the increase from 2014 to 2016 by State.'' https://
www.washingtonpost.com/news/politics/wp/2017/11/27/why-treating-white-
nationalists-as-normal-americans-is-unacceptable/?utm_term=.8d1af- 
4209d52.

  <bullet> Why did Richard Cohen testify that there was a correlation 
        between Donald Trump's campaign and increases in hate crimes 3 
        days after The Washington Post demonstrated that this SPLC 
        assertion is a false correlation?
  <bullet> Will SPLC publish a retraction of their earlier claims about 
        President Trump and hate crimes, including that made in the 
        November 30 testimony before this committee, given The 
        Washington Post's findings that refute the SPLC's claims?
    Answer. Response was not received at the time of publication.
    Question 25. The annual SPLC hate map identifies towns across 
America as locations ``for hate groups.'' Local law enforcement 
agencies in many towns have expended significant resources to follow up 
on SPLC accusations that a ``hate group'' is in their communities. 
According to media reports, these agencies have found no evidence or 
only sparse or discredited evidence. Local newspapers have also 
documented a history of the SPLC's refusal to respond expeditiously to 
local law enforcement requests for evidence of SPLC's claims.
    Here are examples of five American towns that have refuted the 
SPLC's claims:
  <bullet> In 2015, the Altamont, NY police, along with the FBI, the 
        New York State Police, the Albany County Sheriff's Office, and 
        the Guilderland Police Department, spent significant time 
        trying to verify the SPLC's claim that a KKK group was in 
        Altamont. They could find no evidence of the claim. According 
        to The Altamont Enterprise, the police chief ``expressed 
        frustration that he, along with members of other local law 
        enforcement agencies, had not had calls returned from the 
        Southern Poverty Law Center.'' The SPLC eventually did talk to 
        the Altamont Enterprise and claimed that the SPLC's source was 
        an anonymous ``law enforcement source,'' who, the SPLC stated, 
        refused to talk to either the newspaper or local law 
        enforcement. According to the Altamont Enterprise, all law 
        enforcement agencies that the newspaper contacted said they 
        were not the anonymous source. The mayor stated, ``The last 
        thing I want to see happen is that the village's reputation as 
        a wonderful, safe, and welcoming community is destroyed in the 
        process of seeking to assess the validity of these claims.''
  <bullet> April 2015: ``Is the KKK in Altamont?'' https://
        altamontenterprise.com/04022015/kkk-altamont
  <bullet> In August 2017, two small towns in Michigan--Trenton and 
        Wyandotte--disputed being called hate centers by the SPLC. The 
        SPLC claimed a KKK group was in Trenton, and a Neo-Nazi group 
        was in Wyandotte. In Trenton, a single individual, known to the 
        police, had twice distributed fliers. As the Trenton police 
        chief said, ``An individual in an apartment with a copy machine 
        does not accurately represent the title'' of a ``hate group,'' 
        and called the SPLC's claim irresponsible. The Wyandotte police 
        chief was puzzled why they were even on the list and was 
        unaware of any Neo-Nazi groups or incidents. Both towns are 
        still on the SPLC hate map.
  <bullet> August 18: ``Downriver police reject notion that their 
        cities have ties to hate groups'' http://www.thenewsherald.com/
        news/downriver-police-reject-notion-that-their-cities-have-
        ties-to/article_ba5c4802-5879-5a7d-aede-70e69b227bb6.- html.
  <bullet> Also in August 2017, the police chief in Gurnee, Illinois--
        which the SPLC had identified as hosting a KKK group--
        repudiated the SPLC's claim, after expending significant local 
        police resources, as well as consulting the Illinois State 
        Police State-wide Terrorism and Intelligence Center. Gurnee 
        police contacted the SPLC but didn't hear back until a week 
        later. The SPLC stated that an individual had registered at a 
        KKK site and used Gurnee as his address. Gurnee police said an 
        investigation into the name concluded there is no record of 
        anyone by that name having been a Gurnee resident. Nonetheless, 
        the SPLC refused to remove Gurnee as the site of a KKK ``hate 
        group,'' stating that they only review and revise the map once 
        a year, and that Gurnee's listing will be reviewed again in 
        January 2018. The SPLC did not return calls to The Chicago 
        Tribune reporter covering the Gurnee case. Gurnee is still on 
        the SPLC Hate Map.
  <bullet> August 31: ``Lester: Gurnee says no evidence of reported 
        Klan activity'' http://www.dailyherald.com/news/20170831/
        lester-gurnee-says-no-evidence-of-reported-klan-activity.
  <bullet> September 8: ``Maybe next year: Gurnee continues battle to 
        remove its name from hate-group map'' http://
        www.chicagotribune.com/suburbs/lake-county-news-sun/news/ct-
        lns-gurnee-hate-map-st-0909-20170908-story.html.
  <bullet> But only 1 week earlier in August 2017, for a different 
        town, the SPLC applied a completely opposite policy on 
        revisions to the Hate Map. The SPLC's assertion to the Gurnee 
        law enforcement agency--that they'd have to wait until 2018 to 
        get off the Hate Map--was 100 percent contradicted by an action 
        the SPLC had taken just 1 week before in Clear Creek, Iowa. In 
        that case, which received wide-spread publicity and public 
        pressure (unlike Gurnee and the other towns), the SPLC removed 
        Clear Creek from the Hate Map after police and elected 
        officials repudiated the SPLC's claims that Clear Creek was 
        hosting a Neo Nazi group. The SPLC's ``evidence'' was a mention 
        in an on-line forum of a meeting of a Nazi book club at the 
        Amana Colonies. Clear Creek is now removed from the SPLC Hate 
        Map.
  <bullet> August 21: ``Amana leaders seek explanation for being called 
        home of hate group'' http://www.press-citizen.com/story/news/
        local/amana-clear-creek/2017/08/21/amana-leaders-seek-
        explanation-being-called-home-hate-group/586229001/.
  <bullet> August 22: ``Group stands behind claims of Iowa neo-Nazi 
        group'' http://www.press-citizen.com/story/news/local/amana-
        clear-creek/2017/08/22/splc-stands-behind-claims-amana-neo-
        nazi-group/591491001/.
  <bullet> August 28: ``SPLC removes Amana from hate group map'' http:/
        /www.press-citizen.com/story/news/local/amana-clear-creek/2017/
        08/28/splc-removes-amana-hate-group-map/610471001/.
  <bullet> Given this documented history of discredited SPLC claims and 
        the SPLC's lack of cooperation with local law enforcement, it 
        appears that the SPLC's annual listing of ``hate groups'' 
        potentially wastes law enforcement resources and risks 
        negligently damaging the reputation and local economies of 
        American communities.
    Given these risks, will the SPLC improve its policies on the 
quality, verification, and transparency of evidence for the 2018 Hate 
Map, to prevent similar failures in the future?
    Answer. Response was not received at the time of publication.
    Question 26. Will the SPLC commit that the 2018 Hate Map will show 
the evidence for each ``hate group'' and ``hate incident'' claim, with 
on-line links or uploaded documents that are available for immediate 
public review?
    Answer. Response was not received at the time of publication.
    Question 27. Will the SPLC commit that the 2018 Hate Map will 
provide an accountable and transparent process for local media, law 
enforcement, and elected leaders to request that their towns be removed 
from the SPLC Hate Map within a week of the request--as the SPLC did 
for Clear Creek--if the SPLC's ``evidence'' is demonstrated either to 
be non-existent or misleading, or if local law enforcement repudiates 
the SPLC claim that a local group is in fact a so-called ``Hate 
Group''?
    Answer. Response was not received at the time of publication.
    Question 28. Since 2009, SPLC ``hate incident'' and ``hate group'' 
data has been incorporated in the Extremist Crime Data Base at the 
Consortium for the Study of Terrorism and Responses to Terrorism 
(START), which is primarily funded by the Department of Homeland 
Security. Between 2010 and 2017, over 35 academic papers were published 
using the Extremist Crime Data Base, for which SPLC had provided 
various types of data on ``hate incidents'' and ``hate groups.'' At 
least three of these published academic papers focused primarily on the 
SPLC ``hate group'' lists.
    In the years since SPLC provided the data now incorporated in the 
Extremist Crime Data Base, START staff presented numerous briefings on 
the Extremist Crime Data Base findings, based in part on this SPLC 
data, to the CIA, FBI, Secret Service, Transportation Safety 
Administration, the director of national intelligence, and the House 
Committee on Homeland Security. These briefings potentially affected 
policy decisions.
    However, for decades, mainstream media, academic experts, and local 
law enforcement in towns across America have raised serious questions 
about the accuracy and evidence associated with SPLC ``hate group'' and 
``hate incident'' data. To list representative examples from just 3 
months ago, the police chiefs and elected officials in Trenton, MI, 
Wyandotte, MI, Gurnee, IL, and Clear Creek, IA have all repudiated the 
SPLC's claims about ``hate incidents'' and ``hate groups'' in their 
towns.
    Therefore, the use of discredited SPLC ``hate incident'' and ``hate 
group'' data in a Government-funded intelligence resource should be of 
grave concern to policy makers. The potential discrediting of a key 
Government database by introducing inadequately validated and verified 
data imposes real risks on our ability to make accurate threat 
assessments for homeland security.
    In spite of years of concerns expressed about SPLC's data 
integrity, on September 16, 2016 Richard Cohen presented testimony 
based on the Extremist Crime Data Base to the Subcommittees on National 
Security and Government Operations, of the House Committee on Oversight 
and Government Reform. In his written testimony for the November 30, 
2017 House Homeland Security Committee, Cohen again cited studies based 
on the START Extremist Crime Data Base research. In neither of these 
testimonies did he disclose that the database has incorporated SPLC 
data, nor that the SPLC's data may have substantial errors.
    Given that local law enforcement is repudiating SPLC ``hate 
incident'' and ``hate group'' data, will SPLC notify the START 
Consortium about the risks SPLC data has introduced to the integrity of 
the Extremist Crime Data Base?
    Answer. Response was not received at the time of publication.
    Question 29. Will SPLC notify DHS and the other agencies and 
Congressional committees who were briefed, and who may have made policy 
decisions based on discredited data?
    Answer. Response was not received at the time of publication.
    Question 30. Will SPLC provide to this committee the evidence for 
every ``hate incident'' and ``hate group'' that SPLC has provided to 
the START group, for an independent risk assessment as to the integrity 
of the data that has been used since at least 2009 in intelligence 
assessments for homeland security?
    Answer. Response was not received at the time of publication.
        Questions From Honorable Clay Higgins for Richard Cohen
    Question 1a. News organizations, research groups, and law 
enforcement organizations have used Southern Poverty Law Center (SPLC) 
data to determine whether an organization is considered a hate group or 
an extremist group. I am concerned about the apparent absence of 
scientific methodologies and criteria for designating an organization 
as a hate group.
    What are your scientific methodologies and criteria for designating 
an individual or organization as an ``extremist''?
    Answer. Response was not received at the time of publication.
    Question 1b. Please explain how your methodology provided as an 
answer to question 1a was applied in your determination to classify, 
Ayaan Hirsi Ali, a Somali refugee and victim of female genital 
mutilation as an extremist.
    Answer. Response was not received at the time of publication.
    Question 2a. Please provide the committee with a cross-referenced 
accounting of your donor list with the following groups identified on 
U.S. Department of State's Foreign Terrorist Organization (FTO) 
list,\1\ for any group appearing on both your donor list and the 
official FTO listing.
---------------------------------------------------------------------------
    \1\ https://www.state.gov/j/ct/rls/other/des/123085.htm.
---------------------------------------------------------------------------
    For your convenience the FTO list is as follows: Abu Sayyaf Group 
(ASG); Aum Shinrikyo (AUM); Basque Fatherland and Liberty (ETA); Gama'a 
al-Islamiyya (Islamic Group) (IG); HAMAS; Harakat ul-Mujahidin (HUM); 
Hizballah; Kahane Chai (Kach); Kurdistan Workers Party (PKK) (Kongra-
Gel); Liberation Tigers of Tamil Eelam (LTTE); National Liberation Army 
(ELN); Palestine Liberation Front (PLF); Palestinian Islamic Jihad 
(PIJ); Popular Front for the Liberation of Palestine (PFLF); PFLP-
General Command (PFLP-GC); Revolutionary Armed Forces of Colombia 
(FARC); Revolutionary People's Liberation Party/Front (DHKP/C); Shining 
Path (SL); al-Qaeda (AQ); Islamic Movement of Uzbekistan (IMU); Real 
Irish Republican Army (RIRA); Jaish-e-Mohammed (JEM); Lashkar-e Tayyiba 
(LeT); Al-Aqsa Martyrs Brigade (AAMB); Asbat al-Ansar (AAA); al-Qaeda 
in the Islamic Maghreb (AQIM); Communist Party of the Philippines/New 
People's Army (CPP/NPA); Jemaah Islamiya (JI); Lashkar i Jhangvi (LJ); 
Ansar al-Islam (AAI); Continuity Irish Republican Army (CIRA); Islamic 
State of Iraq and the Levant (formerly al-Qaeda in Iraq); Islamic Jihad 
Union (IJU); Harakat ul-Jihad-i-Islami/Bangladesh (HUJI-B); al-Shabaab; 
Revolutionary Struggle (RS); Kata'ib Hizballah (KH); al-Qaeda in the 
Arabian Peninsula (AQAP); Harakat ul-Jihad-i-Islami (HUJI); Tehrik-e 
Taliban Pakistan (TTP); Jundallah; Army of Islam (AOI); Indian 
Mujahedeen (IM); Jemaah Anshorut Tauhid (JAT); Abdallah Azzam Brigades 
(AAB); Haqqani Network (HQN); Ansar al-Dine (AAD); Boko Haram; Ansaru; 
al-Mulathamun Battalion; Ansar al-Shari'a in Benghazi; Ansar al-Shari'a 
in Darnah; Ansar al-Shari'a in Tunisia; ISIL Sinai Province (formally 
Ansar Bayt al-Maqdis); al-Nusrah Front; Mujahidin Shura Council in the 
Environs of Jerusalem (MSC); Jaysh Rijal al-Tariq al Naqshabandi 
(JRTN); ISIL-Khorasan (ISIL-K); Islamic State of Iraq and the Levant's 
Branch in Libya (ISIL-Libya); al-Qaeda in the Indian Subcontinent; 
Hizbul Mujahideen (HM).
    Question 2b. Please also include any donations by senior members or 
people in leadership positions of groups or organizations listed in 2a.
    Answer. Response was not received at the time of publication.
    Question 3a. During the hearing, you stated that the SPLC does in 
fact utilize offshore accounts for many millions of dollars of funds 
and that your organization does this to avoid having to comply with 
``certain kinds of filings'' and ``unrelated business income tax.''
    Please provide the committee with a detailed list of the ``filing'' 
requirements SPLC is avoiding through its utilization of offshore 
accounts.
    Answer. Response was not received at the time of publication.
    Question 3b. Please provide the committee with a detailed list of 
the ``unrelated business income'' taxes that SPLC is avoiding through 
its utilization of offshore accounts.
    Answer. Response was not received at the time of publication.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
